<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 112-116]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-116
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2011

                               __________

       Printed for the use of the Committee on Veterans' Affairs


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
              committee.action?chamber=senate&committee=va


                  U.S. GOVERNMENT PRINTING OFFICE
71-959                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d2a3d220d2e383e392528213d632e222063">[email&#160;protected]</a>  


                     COMMITTEE ON VETERANS' AFFAIRS

                   Patty Murray, Washington, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Daniel K. Akaka, Hawaii              Johnny Isakson, Georgia
Bernard Sanders, (I) Vermont         Roger F. Wicker, Mississippi
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jim Webb, Virginia                   Scott P. Brown, Massachusetts
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
                       Kim Lipsky, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                              June 8, 2011

                                SENATORS

                                                                   Page
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Boozman, Hon. John, U.S. Senator from Arkansas...................     5
    Prepared statement...........................................     5
Brown, Hon. Sherrod, U.S. Senator from Ohio......................    68
Begich, Hon. Mark, U.S. Senator from Alaska......................   115

                               WITNESSES

Snowe, Hon. Olympia J., U.S. Senator from Maine..................     6
Warner, Hon. Mark R., U.S. Senator from Virginia.................     8
    Prepared statement...........................................    10
Whitehouse, Hon. Sheldon, U.S. Senator from Rhode Island.........    11
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    13
    Prepared statement...........................................    15
Cardarelli, Michael, Principal Deputy Under Secretary for 
  Benefits, Veterans Benefits Administration, U.S. Department of 
  Veterans Affairs...............................................    16
Jesse, Robert L., M.D., Ph.D., Principal Deputy Under Secretary 
  for Health, Veterans Health Administration, U.S. Department 
  Veterans Affairs; accompanied by Walter A. Hall, Assistant 
  General Counsel; and Richard J. Hipolit, Assistant General 
  Counsel........................................................    18
    Prepared statement...........................................    20
    Additional Views.............................................    36
    Response to posthearing questions submitted by:
      Hon. Patty Murray..........................................    52
      Hon. Richard Burr..........................................    56
    Response to request arising during the hearing by Hon. 
      Sherrod Brown..............................................    69
McWilliam, John, Deputy Assistant Secretary, Veterans' Employment 
  and Training Service, U.S. Department of Labor.................    60
    Prepared statement...........................................    61
Steele, Jeff, Assistant Director, National Legislative 
  Commission, The American Legion................................    73
    Prepared statement...........................................    74
Violante, Joseph A., National Legislative Director, Disabled 
  American Veterans..............................................    81
    Prepared statement...........................................    82
Kelley, Raymond C., Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    96
    Prepared statement...........................................    97
Ensminger, Jerome ``Jerry,'' MSgt. USMC (Ret.), Elizabethtown, 
  North Carolina.................................................   105
    Prepared statement...........................................   108
Cox, J. David, R.N., AFGE National Secretary-Treasurer, on behalf 
  of the American Federation of Government Employees--AFL-CIO and 
  AFGE National VA Council.......................................   109
    Prepared statement...........................................   110

                                APPENDIX

U.S. Department of Defense; prepared statement...................   119
Marquez, Mercedes, Assistant Secretary for Community Planning and 
  Development, U.S. Department of Housing and Urban Development; 
  prepared statement.............................................   122
Berry, Hon. John, Director, U.S. Office of Personnel Management; 
  prepared statement.............................................   125
Paralyzed Veterans of America; prepared statement................   129
Tarantino, Tom, Senior Legislative Associate, Iraq and 
  Afghanistan Veterans of America; prepared statement............   137


                          PENDING LEGISLATION

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:29 a.m., in 
room 418, Russell Senate Office Building, Hon. Patty Murray, 
Chairman of the Committee, presiding.
    Present: Senators Murray, Brown of Ohio, Begich, Burr, and 
Boozman.

       OPENING STATEMENT OF HON. PATTY MURRAY, CHAIRMAN, 
                  U.S. SENATOR FROM WASHINGTON

    Chairman Murray. Good morning and welcome to today's 
hearing. Today we have a very ambitious agenda that really 
reflects the hard work of the Members on both sides of the 
aisle of this Committee.
    We have numerous challenges to meet for our Nation's 
veterans, and I am pleased that this Committee has worked and 
will continue to work to develop legislation that substantially 
improves their lives and the lives of their families, 
especially during this time of war.
    There is much on the agenda that is important, but I want 
to speak briefly at the top here about one item, my Hiring 
Heroes Act of 2011. Ensuring that our veterans can find 
employment when they come home is an area where I believe we 
have to do a lot more. For too long we have been investing 
billions of dollars in training our young men and women to 
protect our Nation, only to ignore them when they come home. 
For too long we have patted them on the back and pushed them 
into the civilian-job market with no support, and that is 
simply unacceptable and does not meet the promise we made to 
our men and women in uniform.
    Our hands-off approach has left us now with an unemployment 
rate in February of over 27 percent among young veterans coming 
home from Iraq and Afghanistan. That is over 1 in 4 of our 
Nation's heroes who cannot find a job to support their family 
when they come home. Over 1 in 4 of our servicemen and -women 
lack the stability that is so critical to their transition 
home.
    So last month, I introduced the bipartisan Hiring Heroes 
Act of 2011, which now has 19 cosponsors. This legislation will 
help us rethink the way we support our servicemembers as they 
return home and search for living-wage jobs.
    I introduced this critical legislation because I have heard 
firsthand from the veterans for whom we have failed to provide 
better job support. I have had veterans tell me they no longer 
write that they are a veteran on their resume because they fear 
the stigma they believe employers attach to the invisible 
wounds of war. I have heard from medics who return home from 
treating battlefield wounds 24/7 who cannot get certifications 
to be an EMT or even drive an ambulance. These many stories are 
heart-breaking and they are frustrating. But more than 
anything, they are a reminder that we have to act now.
    The Hiring Heroes Act would allow our men and women in 
uniform to capitalize on their service while making sure the 
American people capitalize on the investment that we made in 
them. For the first time, it would require every servicemember 
transitioning from active duty to participate in the Transition 
Assistance Program. That is a program that supports our 
servicemembers by providing them with broad job skills training 
before they separate from service. It will also allow 
servicemembers to begin the Federal employment process prior to 
separation. And, it will require the Department of Labor to 
take a hard look at what military skills and training should be 
translatable to the civilian sector, which is a much needed 
step toward making it simpler for veterans to obtain licenses 
and certifications.
    Finally, my legislation would allow for innovative 
partnerships between VA, DOD, and organizations that provide 
mentorship and training programs designed to lead to job 
placements for veterans. All of these are real and substantial 
steps to put our veterans to work, and they come at a pivotal 
time during our economic recovery and for our servicemembers.
    The second bill I want to quickly mention is the Veterans 
Programs Improvement Act of 2011, which will allow the 
Department of Veterans Affairs to continue the important work 
of ending veterans' homelessness. It will improve the quality 
of the fiduciary programs that are administered by the VA and 
provide for a number of other VA enhancements.
    VA has made some great strides in the effort to eliminate 
homelessness. In a report released jointly by VA and HUD in 
January 2010, VA estimated approximately 76,000 veterans were 
homeless on any given night, down from 131,000 in the previous 
year, but clearly we are not there yet. This bill will expand 
assistance for homeless veterans by improving the Grant and Per 
Diem Program, as well as providing health care services, 
community resource centers, and case management for homeless 
veterans. It will also direct the VA to provide further details 
about its comprehensive plan to eliminate veterans' 
homelessness. Finally, the bill addresses the needs of some of 
Nation's most vulnerable veterans by improving oversight of 
fiduciaries and by eliminating procedures that have 
unnecessarily contributed to delays in claims filed on behalf 
of incompetent veterans.
    Last, all across the Nation, too many veterans and their 
families continue struggling to make ends meet. The Veterans' 
Compensation Cost-of-Living Adjustment Act of 2011, cosponsored 
by all Members of this Committee, may provide some much-needed 
relief. The bill increases the rates of compensation for 
veterans with service-connected disabilities and the rates of 
dependency and indemnity compensation for the survivors of 
certain disabled veterans.
    We know there is a lot to be done as we continue our work 
on behalf of our Nation's veterans, and I am glad to see that 
we are considering a wide array of bills to address these 
challenges. I am eager for a productive discussion about the 
items on this agenda. I look forward to hearing from all of our 
witnesses, and I want to thank Senators in particular who are 
here to talk about their legislation this morning. We will turn 
to you both in just a minute, but first I will hear from the 
Ranking Member, Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Good morning, Madam Chairman. I want to 
welcome our witnesses and our colleagues first. I also want to 
highlight one of our witnesses, Jerry Ensminger, from my 
homestate of North Carolina. Jerry, welcome. Thank you for your 
tireless advocacy for veterans and their families who lived at 
Camp Lejeune and faced a water contamination problem.
    Madam Chairman, I also want to note once again that the 
Administration failed to submit testimony on time. Although the 
VA made efforts to ensure the Committee had relevant 
information ahead of time, we did not receive the views of the 
Department of Labor until less than 24 hours ago. Madam 
Chairman, this cannot be allowed to continue. It seems like it 
occurs almost every time we have a hearing.
    Before I discuss a few bills of interest to me, I want to 
talk generally about the path forward. This legislative hearing 
is one step in figuring out whether the 35 bills on the agenda 
should be advanced by this Committee at a markup later this 
month. These bills would collectively spend billions of dollars 
to expand or modify existing veterans programs and in some 
cases create new ones. As we examine each bill, I think it is 
important to keep in mind that our Nation is faced with 
staggering deficits and debt and is on a fiscal path that is 
unsustainable.
    At the same time, the GAO has been telling us that there is 
duplication, fragmentation, and overlapping in Federal programs 
governmentwide. According to GAO, reducing or eliminating 
overlap could actually help agencies provide better services 
and save billions of dollars each and every year.
    So as we consider whether to create or expand veterans 
programs, we should start by taking a serious look at what 
programs already exist and in a novel way ask how well they 
work. We should be looking at whether reducing any duplication 
could make existing services more efficient and more effective. 
This would help us narrow in on what legislative changes are 
actually needed to improve benefits and services for veterans, 
their families, and their survivors.
    In addition, I hope it would help us avoid a situation like 
we discussed in recent Committee hearings where efforts to 
solve problems facing transitioning servicemembers seem to have 
created more bureaucracy without improving services to our 
Nation's wounded warriors.
    Finally, we need to understand the cost of any legislative 
changes and, more importantly, we must figure out how we would 
pay for them. I will not shy away from providing those who have 
served and sacrificed for our Nation with the benefits and 
services they need--more importantly, that they were promised. 
But I also want to make sure we pay for these benefits and 
services by cutting other spending so that we do not continue 
to saddle future generations of Americans with enormous 
financial burdens.
    Turning to today's agenda, I want to mention three bills I 
have introduced. The first is the Caring for Camp LeJeune 
Veterans Act of 2011. As we discussed at other hearings, the 
water at Camp Lejeune was contaminated with known or probable 
human carcinogens for decades. Unaware of danger, 
servicemembers and their families drank, bathed, and cooked in 
that water. Unfortunately, some of them have become seriously 
ill or have died from devastating conditions like rare cancers. 
Today we will hear one heart-breaking account of a child, Jerry 
Ensminger's daughter, who was born at Camp Lejeune while the 
water was contaminated and tragically died of leukemia at the 
age of 9.
    To try to provide some answers about why Jerry's daughters 
and others have become sick, studies are underway to gauge how 
much of the dangerous chemicals they were exposed to and how it 
impacted their health. But those who were put at risk should 
not have to wait for these studies before the VA provides them 
with care. We should make sure that they get the treatments 
they need now to combat any adverse effects from these toxins 
we know they were exposed to.
    To that end, this bill would allow veterans to get medical 
care from the VA if they were stationed at Camp Lejeune when 
the water was contaminated. It would also allow their families 
who lived on the base to receive care for conditions that can 
be associated with the contaminated water. After hearing 
Jerry's painful story, I hope my colleagues will agree that 
this is the right thing to do. Families like Jerry's have 
already waited too long for answers they deserve and the help 
they need.
    Another bill, S. 423, would help deal with the backlog of 
claims at the VA. If a veteran gathers up any necessary 
evidence before sending the claim to the VA, the bill would 
allow benefits to be paid for up to 1 year before that claim 
was submitted.
    Let me say that again. For veterans who send in fully 
developed claims, we would actually give them 1 year's 
additional benefits. This would ensure that veterans will not 
lose out on any benefits while putting together a fully 
developed claim and would allow the VA to provide faster 
decisions on the claims backlogs they have got today.
    Finally, S. 928 would ensure if VA realizes bid savings, 
savings that we have made on bids that are outstanding on major 
construction projects, there will be more Congressional 
oversight as to how those funds are used. With the large 
backlog of medical construction projects at the VA, it is 
important to prioritize every available construction dollar 
regardless of its source.
    I look forward to discussing these bills and other bills 
with our witnesses today. More importantly, I look forward to 
working with my colleagues, the Administration, veterans 
groups, and other stakeholders to improve the effectiveness of 
existing veterans programs, to figure out what legislative 
changes are truly needed, and to find the best ways to pay for 
these.
    Madam Chairman, I thank you for holding this legislative 
hearing. I look forward to the exchange with our witnesses.
    Chairman Murray. Thank you very much, Senator Burr. I do 
agree there are a significant number of bills on the agenda. I 
do think that reflects the tremendous needs of our servicemen 
and -women and their families when they come home. It is a 
reflection of the cost of war that we have to consider when we 
are making policy decisions here, and I think it is important 
that we do not lose sight of that in the broader conversation 
we have coming in front of us.
    I do want to say that my goal is to have either the VA or 
CBO cost estimates on the legislation that this Committee will 
present to the full Senate. And, in fact, our staff has been 
working very closely with CBO to make sure we have cost 
estimates for all these bills before we do a markup.
    Senator Boozman, do you have an opening statement?

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. I think in the interest of time, I know 
these folks are busy, so I will figure out a time to insert 
that so we can go forward.
    [The prepared statement of Senator Boozman follows:]

  Prepared Statement of Hon. John Boozman, U.S. Senator from Arkansas

    Madam Chair and Ranking Member, Thank you for arranging this 
hearing so that we can examine ways in which to improve veterans' 
benefits and evaluate ways in which we can address some of the concerns 
that have been brought before the Committee during the hearings we have 
had throughout the first half of the year.
    As you all are aware, there are many bills on the agenda today, but 
I would just like to express my support for those of which I am a 
cosponsor, S. 894 and S. 491, and say that I look forward to working 
with my colleagues who have legislation before us today to address the 
needs of our Nation's veterans and their families.
    I would especially like to thank you for providing us with the 
opportunity to review and comment on legislation I have introduced, 
S. 957, the Veterans' Traumatic Brain Injury Rehabilitative Services' 
Improvements Act of 2011. I would also like to thank Senator Begich for 
all of his hard work in helping me with this legislation as the Lead 
Co-sponsor of the Bill
    This common sense legislation seeks to ensure that our veterans who 
have sustained Traumatic Brain Injuries are guaranteed the highest 
quality of care and ensure the highest quality of life for them and 
their families--a goal that I think every American can support.
    These devastating and complex injuries are increasingly prevalent 
on today's battlefield, and each one can be different from the next and 
require unique treatment to ensure that our veterans make as full a 
recovery possible
    I am pleased about the steps that the VA and Congress has already 
taken in the past to meet the needs of our wounded warriors suffering 
from TBI, and I believe that my common sense legislation is just 
another step in the right direction.

                                PANEL 1:

    Thank you all for being here today and for everything you are doing 
to help our veterans. Dr. Jesse, I am pleased to see you here today, 
and I very much appreciate all of the hard work you have done as we 
have worked to improve veterans' health care.
    I appreciate your comments regarding the Veterans' Traumatic Brain 
Injury Rehabilitative Services' Improvements Act of 2011 and hope that 
we can work together to make this legislation serve our veterans in the 
best way possible.
    During your testimony, you mentioned concerns regarding definitions 
in Section 2 of S. 957 that you found could possibly be ``unworkable'' 
or possibly ``exceed the VA's statutory mission.''
    I would look forward to working with you and your staff in drafting 
possible improvements to the bill that can ensure that it does not 
create confusing or duplicative issues in the VA, or any other serious 
problems, but also ensure that we preserve the spirit of the 
legislation.

                                PANEL 2:

    I would just like to say thank you to all of you for being here 
today and for everything you are doing to serve our veterans and 
address the needs of them and their families.
    I would also like to thank the VFW, the DAV, and The American 
Legion for their support of my legislation, S. 957.
    I would also express my appreciation to the Wounded Warrior Project 
for their support of the Veterans' Traumatic Brain Injury 
Rehabilitative Services' Improvements Act of 2011, and for their 
continued work on this issue.

    Chairman Murray. Thank you for your consideration.
    We have four Senators with us today who are presenting 
legislation, and I appreciate the work all of you have done on 
all of this. Senator Snowe, we will start with you and your 
testimony.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you very much, Madam Chairman, Ranking 
Member Burr, and Members of this Committee for giving me the 
opportunity to testify on the legislation that I have 
introduced, the Sanctity of Eternal Rest for Veterans Act, 
otherwise known as the SERVE Act, to protect the rights of 
families to mourn the loss of a loved one at a military funeral 
with the dignity and solemnity appropriate to the occasion. 
Chair Murray, I certainly want to say at the outset 
congratulations to you for being the first woman to chair the 
Committee of Veteran's Affairs after being the first woman ever 
to serve on the Committee. I appreciate your leadership and 
that of Ranking Member Burr at a time in which we have so many 
people who have served our country, who are serving both in 
Iraq and Afghanistan and around the world.
    Chair Murray, I also have joining me today one of my 
constituents whom you met, Zach Parker, a senior at Searsport 
District High School in Maine, who truly became a catalyst for 
the introduction of this bipartisan bill. By the way, Zach is 
graduating this week, on Sunday. He is in the middle of exam 
week, so we appreciate the fact that he is spending 24 hours to 
make the trip down here to hear this testimony.
    I am pleased to report that this bill now has 25 
cosponsors, equally divided between Democrats and Republicans. 
As was reported in one Maine newspaper, Zach and his classmates 
were each assigned to research a political or social issue and 
then act upon it, and act upon it Zach did. On January 5th of 
this year, to raise awareness about the imperative of proper 
decorum and respect at military funerals--and this was when the 
Supreme Court case was pending, Snyder v. Phelps--Zach arranged 
a public seminar that drew 400 individuals on a cold Maine 
night and garnered broad attention not just in Maine but 
nationwide. So I want to personally thank you, Zach, for your 
patriotic initiative and for being with us today. Your 
inspirational love of country and vigilant advocacy for our 
bravest and finest in uniform speak well not just of you and 
your generation but the future of America.
    Zach turned his classroom project into a strong statement 
for citizen action against protests in close proximity to 
military funerals. Sadly, as all of us here have attended 
services for those who have perished in Iraq and Afghanistan. 
Without question we would all agree that those who fight and 
die serving our country in defense of our Constitution and the 
principles we cherish, heroic men and women embodying the 
noblest courage and boundless love of country, deserve our 
deference, our reverence, and eternal gratitude. And for the 
families they leave behind who are the linchpins in allowing 
our brave men and women to perform the duties they have sworn 
to our Nation, it is painful enough to lose a son or daughter 
without then having to confront detestable and distasteful 
protests that exponentially compound their agony and anguish.
    Indisputably, these families have more than earned the 
right to bury their loved ones in peace with the veneration the 
ceremony commands. So it was beyond horrific what the family of 
Lance Corporal Matthew Snyder was forced to endure in 2006 when 
they were subjected to inhumane protestations just outside the 
church where their one and only opportunity to say goodbye to 
their beloved Matthew was taking place. That family had no 
choice, no chance to fight back, no option to move to another 
location, no recourse at a moment in time they could never, 
ever recapture. But that family was determined not to let this 
injustice stand, so they sued the protesters, and eventually 
the case was heard by the Supreme Court.
    Regrettably, the Court ruled in favor of the protesters, 
citing free speech protection under the First Amendment. But 
there should be no mistake. That decision does not mean that 
preserving both freedom of speech and the sanctity of a 
military funeral are mutually exclusive. To the contrary, the 
ability to vigorously express opinions, an ideal for which our 
soldiers have fought and died through centuries, need not and 
should not come at the expense of families of those very 
soldiers. In fact, the Supreme Court only addressed the right 
to protest, leaving open the questions of where and when 
protests may take place, and providing the genesis of our 
legislation by further defining time and place where funeral 
disruptions are not allowed.
    What the SERVE Act does is to build off Federal law enacted 
in 2006 that established buffer zones of 150 feet from the 
service and 300 feet from the roads to and from a military 
funeral. However, that law only covered funerals at federally 
administered cemeteries, which had excluded the Snyder family's 
funeral. That is why we provide a uniform zone of protection 
around civilian as well as Federal locations where funerals are 
taking place.
    Specifically, based on a wide variety of statutory 
provisions that are already in law in 43 States, our bill 
increases quiet time before and after military funerals from 60 
minutes to 120 minutes, increases the buffer around a military 
funeral from 150 feet--which is approximately from here to the 
end of the building on C Street, which is virtually no buffer 
at all, so we increase it to 300 feet, and then increase from 
300 to 500 feet the buffer around access routes to a funeral 
service, which at least 20 States currently have in place. 
Moreover, for the first time, we provide for civil penalties as 
a deterrent and to allow immediate family members as well as 
the U.S. Attorney General to sue violators for monetary damages 
up to $50,000. What we do not do in our bill is dictate the 
content of any speech.
    Madam Chair, a military funeral is a one-time event for the 
survivors. There are no do-overs for something so solemn and 
heart-breaking for grieving families. That is why this bill has 
been endorsed by 35 veterans service organizations, including 
the Military Coalition, the Military Families United, who are 
here today, the VFW, The American Legion, and Gold Star Wives.
    As Zach has said, ``this is about the people who sacrificed 
their lives to serve this country. I am going to fight the 
fight and see what we can get accomplished.'' Well, Madam 
Chairman, Ranking Member Burr, and Members of this Committee, 
this is a battle that we should all feel obliged to wage, and I 
hope this Committee would view this bill favorably with your 
full support that honors America's true American heroes and 
their families to whom we owe a debt of gratitude we can never, 
ever repay but one we must never, ever forget.
    Thank you.
    Chairman Murray. Thank you, Senator Snowe.
    Zach, welcome to the Committee, and thank you for your work 
on this. It is great to have you here, and good luck on your 
graduation this week.
    Senator Warner?

               STATEMENT OF HON. MARK R. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Madam Chairman and Ranking 
Member Burr, and Members of the Committee. I appreciate the 
opportunity to testify, and I want to, though I am not on the 
Committee, lend my support to Senator Snowe and her leadership 
on this piece of legislation, and for Zach and the contribution 
he has made.
    I have a piece of legislation that I hope will be equally 
as noncontroversial. It was last June when many people first 
heard about some of the excesses and problems at Arlington 
National Cemetery. I think all of us as Americans were shocked 
to hear about some of the mismanagement and ineptitude that was 
taking place at the cemetery.
    On top of what had already been reported, earlier this year 
there were media reports that there had been a practice going 
on at Arlington Cemetery where the last two superintendents had 
been, in effect, reserving gravesites for their friends. Now, 
Army procedures since basically 1962 had been that when 
somebody had fallen, they would go through an appropriate 
burial procedure and they would, in effect, get the next slot. 
Unfortunately, what was taking place was the superintendents 
were going out and having a secret reservation list. Some 
general might come in and say, ``I want that spot underneath 
that tree over there,'' and because there were no record-
keeping techniques, that slot would be reserved. Astonishingly, 
the Army's own Inspector General came up with a report in the 
early 1990s that said this practice was ongoing, yet nothing 
was done about it.
    So in late March, I filed legislation in the Senate to once 
and for all end the improper system of reserved gravesites at 
Arlington. The legislation passed overwhelmingly in the House 3 
weeks ago. I appreciate the support of House Chairman Runyon 
and Ranking Member McNerney. Obviously, this is an issue that 
knows no party and has no cost involved.
    The legislation we are discussing will codify Army 
regulations that ban reserving gravesites and provide 
accountability and transparency to the process with a full 
audit and report back to Congress. It will also direct the Army 
to fully investigate and report back to Congress within 180 
days on the number of plots that may have been set aside in 
violation of Army policy.
    What we are simply saying is that the Arlington managers 
must follow the rules. Again, some general or somebody that is 
a friend of the superintendent should not be able to jump the 
line in front of any of our other brave servicemen and -women 
who have served. I think this past procedure has been offensive 
to not just veterans but to any American, and this small piece 
of legislation will correct it once and for all.
    I would only like to make one other comment. I know we have 
got Senator Whitehouse. But, you know, this circumstance at 
Arlington--and I know this Committee has looked at it and other 
Committees have looked at it, but it really is still an ongoing 
challenge. When we found the first reports not only of 
misplaced remains, but in effect, that the record system was 
three-by-five cards, and we were not only one fire but we were 
one spilled cup of coffee away from destroying where all of the 
records of the remains were at Arlington.
    So, the Army said that they were going to work on this. We 
took a separate approach. We actually contacted a lot of the 
tech companies in Northern Virginia. There are about 300,000 
remains. It is a challenge, but then you are thinking that it 
is only about a recordkeeping system. So we got about 20 
companies in the Northern Virginia Technical Council to come 
together on a pro bono basis, and they spent thousands of hours 
coming forward with a report to the Army on what would be a 
step-by-step audit and process of how the Army ought to move 
forward to correct this problem.
    Secretary McHugh received our report and said they would 
work with the tech community. It did not cost a dime; we did it 
all pro bono. Well, the Army got this report about 120 days 
ago, which included both short-term and long-term 
recommendations for the cemetery, such as digitizing of records 
system, improving handling procedures for the remains, work 
flow charts for improving business practices, and basic 
management techniques.
    I would love to say that the Army in that 120 days has 
implemented these actions. To our knowledge, they have made 
small incremental improvements. But this is still an area of 
concern to the Committee and all Members of Congress. This is a 
disgrace.
    Not quite the story of Zach, but let me just close on one 
note. I want to also mention and salute the work done by a 
Virginia high school student who is not graduating this year 
because he's an 11th grader. His name is Ricky Gilleland. He is 
a whiz kid computer student from Stafford County, which is due 
south, just north of Fredericksburg. Ricky has succeeded in 
doing something on his own that Arlington has not been able to 
do. So he went out and, with his own little computer, started 
to digitize where all of the remains for all the Iraq and 
Afghanistan veterans were.
    Now, the Army spent $8 million on IT contracts, and they 
have not been able to accomplish this so far. Ricky, with his 
computer and only access to public records has created the 
Preserve andhonor.com Web site, and he has gotten some national 
news that catalogues where all of these Iraq and Afghanistan 
veterans are buried. So, if Ricky can do this in 11th grade 
with his home computer, the Army ought to be able to do it with 
millions of dollars of resources and appropriate management to 
try to get this job done correctly once and for all so we never 
again have to read about these kind of stories.
    One small step we can take in that direction today is 
making sure we put to rest this practice of jumping the line 
and having the superintendent reserve a gravesite for a friend 
or some ranking official. Both of those are blots on the honor 
of Arlington.
    We in the Commonwealth of Virginia are proud that for the 
last 130 years we have been the site of what is truly hallowed 
ground for our whole Nation, and my hope is that the Committee 
will act upon this small piece of legislation.
    I thank the Committee for your attention, and I apologize 
for having to step out.
    [The prepared statement of Senator Warner follows:]

 Prepared Statement by Hon. Mark R. Warner, U.S. Senator from Virginia

    Thank you Madam Chairman and Ranking Member Burr for the 
opportunity to testify before the Committee today. I am very pleased 
the Committee is marking up a bill today to move through the Senate as 
a companion to the Senate legislation that I filed in late March. This 
legislation will end the improper and unofficial system of ``reserved'' 
gravesites for VIPs at Arlington National Cemetery.
    I know Chairman Murray and Ranking Member Burr care as deeply about 
our Veterans and their families as I do and I think this shows that 
this is an issue that crosses party lines and we are united in an 
effort to get fix this problem.
    Earlier this year, there were media reports about a practice of 
reserving gravesites for VIPs at Arlington National Cemetery. As I dug 
deeper into the issue, I found that this was not a one-time issue, but 
a practice that had continued for many years with previous 
superintendents. I was outraged that preferential treatment and setting 
aside gravesites for the friends of the superintendent was common 
practice, despite the fact that it was completely against Army 
regulations.
    Although the practice of reserving gravesites has been banned by 
Army regulations since 1962, cemetery superintendents allowed selected 
``senior officials'' to pick areas of the cemetery where they wished to 
be buried. Astonishingly, the Army's own Inspector General identified 
this practice as a serious violation of Army policy in the early 
1990's, but nothing was done to stop the practice and the process 
continued.
    The legislation we are discussing today will codify Army 
regulations that ban reserving gravesites and provide accountability 
and transparency to the process, with a full audit and a report back to 
Congress. It will also direct the Army to fully investigate and report 
back to Congress within 180 days on the number of plots that may have 
been set aside in violation of Army policy--which clearly states that 
Arlington National Cemetery plots must be provided to any qualified 
military veteran, without regard to rank or status.
    It is a disgrace that back room deals apparently were being made 
that allowed high-ranking officers and other VIPs to pre-select the 
gravesites where they wished to be buried. It is offensive that this 
improper reservation system could allow some general to trump the 
Arlington burial rights of a fallen soldier from Iraq or Afghanistan.
    What we're saying is Arlington managers must follow the rules. Some 
general should not be able to say, ``See that plot under the tree with 
the view? That's the one I want.'' I want to lend my support to Army 
Secretary John McHugh and Superintendent Condon, who are trying to 
clean up this mess after years of neglect.
    This VIP reservation system is the latest in a series of problems 
that have emerged over the previous management of Arlington. When 
details first emerged about serious problems at Arlington National 
Cemetery, I was appalled by the reports of chronic mismanagement and 
requested detailed information from Secretary McHugh on Army plans to 
correct the issues. When the Army IG briefed me, I sensed that there 
could be a creative private sector solution to help fix Arlington.
    I asked the Northern Virginia Technology Council for help, and they 
responded the next day with a group of more than 20 leading IT 
companies which perform data management, recovery, and digitization 
work every day. These 20 companies offered to produce a report for the 
Army pro bono, due to the historic and sacred nature of Arlington. 
Secretary McHugh accepted our offer, and worked with NVTC leadership to 
provide access.
    NVTC subsequently produced a report which included both short-term 
and long-term recommendations for the Cemetery. It detailed potential 
paths to digitizing records and improvements in the way the Cemetery 
handled some remains. This pro-bono assessment also included workflow 
charts for improving business practices and suggestions on basic 
management techniques.
    Superintendent Condon has said that many of the recommendations in 
the report already have been incorporated by the Army, including the 
hiring of additional staff and creation of a call center to improve 
communication with families on burial requests.
    I also want to salute work I just became aware of--a project by a 
Virginia high school student named Rickey Gilleland. Rickey is an 11th-
grade computer whiz from just down the road in Stafford County, 
Virginia, who apparently has succeeded in creating something that $8 
million in technology spending could not.

    On his own, with his new Zoom tablet computer, Rickey created his 
own digitized record of Iraq and Afghanistan veterans who have been 
laid to rest at Arlington. His Web site, preserveandhonor.com, 
catalogues the gravesites of these fallen heroes.
    Now why would it be so hard for the Army to produce the same kind 
of digital record and guide for all of the other heroes buried at 
Arlington?
    And finally, for nearly 130 years, the Commonwealth of Virginia has 
proudly provided a final resting place for our Nation's military men 
and women at Arlington National Cemetery. I look forward to continuing 
our efforts to make sure that the men and women who have bravely served 
our country are buried with honor and dignity.
    I want to repeat my earlier calls to have the Army implement the 
recommendations contained in the NVTC report. And if they need help, I 
know a certain 11th grader who might have a few ideas. Thank you, Madam 
Chairman.

    Chairman Murray. Thank you very much, Senator Warner. I am 
sure every parent here knows exactly who we should turn the 
Nation's problems over to when it comes to technology. Tell 
Ricky thank you.
    [Laughter.]
    Chairman Murray. Senator Whitehouse?

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Murray and Ranking 
Member Burr and Senator Boozman. I very much appreciate your 
service to our veterans through the work of this Committee, and 
I am very pleased to join Senator Snowe and Senator Warner, 
having heard the legislation that they have come forward to 
support today to protect the integrity and dignity of military 
funerals and the integrity and dignity of the process through 
which gravesites are allocated at Arlington. So I am honored to 
be in their company today and, again, very much appreciate your 
service.
    I am here to speak about legislation to improve protection 
for military families from losing their homes through wrongful 
foreclosure. While operations in Iraq, Afghanistan, and around 
the world have put tremendous demands on our brave men and 
women in uniform, lenders at home have repeatedly disregarded 
the laws that are designed to protect servicemembers and their 
families from losing their homes when they deploy.
    Just last month, the Department of Justice announced a $22 
million settlement with lenders who had violated the 
Servicemembers Civil Relief Act and wrongfully foreclosed on as 
many as 175 servicemembers. In addition, thousands of military 
families have been overcharged on their mortgages.
    All of us have heard horror stories from our home states 
about how badly some financial institutions have treated our 
homeowners in distress. When these abusive mortgage practices 
harm the men and women we send in harm's way to protect our 
country, it deserves our attention. Not only are these 
practices illegal and morally repugnant, they can also be a 
dangerous distraction from our military mission. Servicemembers 
overseas have enough to worry about without worrying about 
their families being mistreated on the homefront.
    Returning servicemembers have also been hit particularly 
hard by the current economic downturn. As this Committee well 
knows, in 2010 the unemployment rate for returning veterans 
averaged 11.5 percent compared to a 9.4-percent national rate. 
Furthermore, according to a recent comprehensive report on 
veteran homelessness, veterans are 50 percent more likely to 
become homeless than other Americans. These troubling 
statistics underscore the difficulty of readjustment to life at 
home. For our returning servicemembers who need time to get 
back on solid financial footing, we should do everything we can 
to accommodate their needs, especially during these difficult 
economic times.
    To better protect our men and women in uniform, I have 
introduced the Protecting Servicemembers from Mortgage Abuses 
Act, cosponsored by Senator Baucus, Senator Blumenthal, Senator 
Boxer, Senator Durbin, Senator Feinstein, Senator Hagan, 
Senator Lautenberg, Senator Leahy, Senator Merkley, Senator 
Mikulski, Senator Nelson of Florida, Senator Pryor, Senator 
Reed of Rhode Island, Senator Sanders, and Senator Tester. This 
bill would double the maximum criminal and civil penalties for 
violations of current foreclosure and eviction protections. It 
would also extend and make permanent the period of foreclosure 
protection coverage after military service has ended.
    Under current law servicemembers have 9 months of 
foreclosure protection after military service. However, this 
provision is due to expire on December 31, 2012. Then 
servicemembers will only get 90 days of foreclosure 
protections. My bill would permanently extend the period of 
foreclosure protection beyond 9 months.
    I hope Senators on both sides of the aisle will come 
together and join me in supporting this legislation, and I 
thank you again for the opportunity to speak on this important 
issue. I look forward to working with Chairman Murray, Ranking 
Member Burr, and other Members of this Committee to pass this 
legislation, which I believe will discourage loan servicers 
from further violations and help to protect the financial and 
emotional well-being of our military families.
    Chairman Murray. Thank you very much, Senator Whitehouse, 
and I would let all of you know, Senator Snowe, Senator Warner, 
and Senator Whitehouse, that all of your provisions have strong 
merit, and I hope to work with Senator Burr to include them in 
the package that we will consider for our markup on the 29th of 
this month. So thank you very much for your testimony.
    I do not have any questions. Thank you very much. We really 
appreciate it.
    We will now move to our first panel, and if you would 
please come up and sit at the witness table, I will introduce 
you as you join us.
    From the Department of Veterans Affairs, we have Michael 
Cardarelli, Principal Deputy Under Secretary for Benefits, and 
Dr. Robert Jesse, Principal Deputy Under Secretary for Health. 
They are accompanied today by Walt Hall and Richard Hipolit, 
both Assistant General Counsels.
    With us from the Department of Labor is John McWilliam, 
Deputy Assistant Secretary for the Veterans' Employment and 
Training Service, and as they are being seated, I notice that 
Senator Burr stepped out for just a minute, but I do want to 
just address the issue that he mentioned in his opening 
statement.
    Mr. Cardarelli, Dr. Jesse, Mr. McWilliam, I understand from 
my staff that your testimony was late, due in large part to a 
hold-up at OMB, I recognize that none of you are responsible 
for hold-ups at OMB. But I do want to emphasize for you and for 
everyone who comes before this Committee that we do require 
testimony to be received 48 hours before a scheduled hearing 
because our Members need time to adequately prepare for the 
hearing and make sure that the positions of your respective 
departments are properly presented for this Committee. So I 
will be following up with OMB directly to make sure that they 
understand that delays in clearing testimony before this 
Committee are simply unacceptable. So I join with my colleague, 
Senator Burr, and we will be talking to OMB.
    Before I turn to our first panel, I notice that Senator 
Blumenthal has joined us, and I want to give him an opportunity 
to give his testimony on the bill that he has presented before 
the Committee. Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very much, Senator Murray. 
Thank you very much to you and Senator Burr for having me, and 
I particularly want to thank you, Senator Murray, for your 
leadership in this area. I have introduced a bill, S. 1060, 
called the Honoring All Veterans Act, and S. 1147, the 
Chiropractic Care Available for All Veterans Act, which very 
much follows the leadership that you and other colleagues in 
the Senate have provided, leaders who have really started and 
carried forward this effort to keep faith with the men and 
women who serve and sacrifice for our freedom.
    The VA has taken some very strong steps toward the goal of 
building a 21st century support system, but gaps in the system 
remain, and they are debilitating and devastating for many of 
our veterans. We can do better, and we must do more. And the 
legislation I have introduced provides a comprehensive package 
of 16 provisions aimed at better health care jobs, educational 
opportunities, and streamlining and modernizing the VA.
    I will submit for the record my full testimony. I very much 
appreciate your giving me this opportunity to talk to the panel 
today. But I just want to say that my experience, as I know 
yours and other Members of this panel, is that we really need 
to have a comprehensive approach to deal with the signature 
wounds of the Afghanistan and Iraq conflicts, which are 
Traumatic Brain Injury and Post Traumatic Stress, as well as 
other injuries that veterans of prior conflicts have suffered. 
And that comprehensive approach has to involve both the 
Department of Defense and the Veterans Administration, for 
example, providing effective diagnosis of these wounds. Right 
now some 30 percent of them are undiagnosed and, therefore, 
untreated. We need to provide treatment, not just diagnosis. We 
need to make sure that information and medical information is 
tracked and that care is transitioned between those agencies, 
the Department of Defense to the Veterans Administration. The 
legislation I have introduced would provide veterans leaving 
the VA medical facilities to have a recovery plan for those 
kinds of injuries. It would provide for qualified 
psychiatrists, psychologists, and nursing professionals to work 
in VA medical hospitals and outpatient clinics and access 
graduates from the Uniformed Services University of the Health 
Sciences, for example, in Connecticut and other kinds of 
institutions.
    On economic opportunity, veterans, like all Americans, are 
striving to provide for their families and find jobs in a still 
faltering economy. The Honoring All Veterans Act would build on 
the work already initiated by this Committee to address the 
issues, such as the recently expanded Post-9/11 GI bill. The 
legislation would raise the statutory cap for the Vocational 
Rehabilitation and Employment and Independent Living Programs 
to welcome hundreds of additional veterans, and it would 
authorize veterans to re-use the transitional program, the DOD 
Transition Assistance Program, and meet with counselors at any 
military installation for up to a year after their separation. 
It also authorizes other measures such as a study of how best 
to ensure that civilian employers and educational institutions 
recognize veterans' military training, and it reauthorizes the 
Veterans Education Outreach Program to provide for campus-based 
outreach programs to veterans.
    We need also measures for veterans who lack a job and lack 
a home and need a roof over their heads, and those kinds of 
facilities can be supported and funded through the Honoring All 
Veterans Act and other measures that this panel is considering.
    I am realistic about the difficulty of approving and 
passing this kind of measure. I hope for bipartisan support. I 
think that keeping faith with our veterans should command 
support from both sides of the aisle, and I know that you have 
worked very hard as Chairman of this Committee to muster that 
kind of support, and I thank you for it. Thank you also for 
giving me the opportunity to sponsor legislation, the 
Chiropractic Care Available for All Veterans Act, modeled on 
legislation that you have introduced in the past. It would 
provide for the kind of musculoskeletal and connective system 
injuries that so many of the returning Iraq and Afghanistan 
veterans suffer from. They are one of the most frequent medical 
diagnoses of this set of conflicts, and every veteran in the 
Nation should have the same immediate access to chiropractic 
care that Connecticut offers through the National Director for 
the Veterans Health Administration's Chiropractic Service based 
in West Haven, and that kind of care should be available to all 
veterans. So the legislation would actually require the 
Secretary of Veterans Affairs to provide chiropractic care at a 
minimum of 75 VA medical centers by December 31, 2012, and at 
VA medical centers by December 31, 2014.
    Again, I thank you for your leadership and others on this 
panel in supporting these kinds of measures, and I look forward 
to working with you. Again, many thanks for giving me this 
opportunity to talk today.
    [The prepared statement of Senator Blumenthal follows:]

            Prepared Statement of Hon. Richard Blumenthal, 
                     U.S. Senator from Connecticut

                              INTRODUCTION

    Members of the Committee, thank you for the opportunity to testify 
before you in support of two needed pieces of legislation, namely 
S. 1060, the Honoring All Veterans Act and S. 1147, the Chiropractic 
Care Available for All Veterans Act.
    I am honored to appear before my colleagues who lead the Senate in 
making sure our Nation keeps faith with the men and women who serve and 
sacrifice for our freedom. The VA has taken strong steps toward the 
goal of building a 21st century support system, but gaps in the system 
remain and they are debilitating and devastating for many veterans. We 
can do better and we must do more. The legislation I have introduced, 
the Honoring All Veterans Act of 2011, is a comprehensive package of 16 
provisions. In my testimony, I would like to focus on two of the gaps 
the legislation closes, first with providing comprehensive mental 
health care services and second, helping veterans with the economic 
challenges of rejoining civil society.

                      MENTAL HEALTH CARE SERVICES

    I was recently privileged to join a group of veterans at the Vet 
Center in Rocky Hill, Connecticut. They gather weekly to support and 
help each other recover from Post-Traumatic Stress Disorder and 
Traumatic Brain Injury. Their conversation dramatized to me again that 
the treatment of veterans with PTSD or TBI requires a comprehensive 
approach. The Honoring All Veterans Act requires the Department of 
Defense to identify and then close the gap between screening and 
treatment. More effective diagnosis is vital, but simply diagnosing a 
warrior suffering from PTSD or TBI does not heal them. The legislation 
targets both the DOD and VA to ensure that medical information is 
tracked and care transitioned between the agencies, as a warrior 
returns to civilian life. These problems must be addressed by both 
agencies. The legislation requires veterans leaving VA medical 
facilities to have a recovery plan that specifically includes 
vocational rehabilitation and job training. It addresses the problem of 
finding qualified psychiatrists, psychologists and nursing 
professionals to work in VA medical hospitals and outpatient clinics by 
accessing graduates from the Uniformed Services University of the 
Health Sciences. The legislation also strengthens the Department of 
Labor's existing programs to assist both veterans with TBI or PTSD in 
the workplace and their employers.

                          ECONOMIC OPPORTUNITY

    Like all Americans, veterans are striving to provide for their 
families and find jobs in a still faltering economy. The Honoring All 
Veterans Act builds on the work already initiated by this Committee to 
address this issue, such as the recently expanded Post-9/11 GI Bill. 
The legislation raises the statutory cap for the Vocational 
Rehabilitation and Employment Independent Living program to welcome 
hundreds of additional veterans. It authorizes veterans to reuse the 
DOD Transition Assistance Program (TAP) and meet with counselors at any 
military installation for up to one year after separation. It 
authorizes a study of how best to ensure that civilian employers and 
educational institutions recognize veterans' military training. It also 
reauthorizes the Veterans Education Outreach Program to provide for 
campus-based outreach services to veterans.
    For those veterans who cannot find a job or a home, our Nation must 
offer immediate help and support. Any skeptic about the value of such 
programs should visit the East Hartford Veterans Homeless Shelter where 
the pride of veterans in their service is reflected in every rack and 
locker squared away to pass the toughest Gunny's inspection. The 
Honoring All Veterans Act supports veterans' shelters in each of your 
home towns, by revising the current per diem they receive to reflect 
rising costs of care and regional variations in helping homeless 
veterans.
    I'm realistic about the prospects of enacting all these provisions. 
I am committed to a sustained and consistent effort to honor all 
veterans and open to the ideas from my colleagues on how to modify 
these proposals. I am especially hopeful and determined that the effort 
be bipartisan. I look forward to working with you to see its enactment. 
Together we can resolve these challenges.

          THE CHIROPRACTIC CARE AVAILABLE FOR ALL VETERANS ACT

    I would also like to take this opportunity to commend to you 
bipartisan legislation I introduced this week along with Senators 
Moran, Whitehouse, Harkin and Grassley, and cosponsored by Senator 
Tester, to expand access to chiropractic care at VA facilities.
    As you are aware, one of the most frequent medical diagnoses 
reported among Iraq and Afghanistan veterans are musculoskeletal and 
connective system diseases. More than 197,000 Iraq and Afghanistan 
veterans seeking VA care have been diagnosed with these conditions. 
Yet, less than one-third of the VA medical centers offer chiropractic 
care and services. Every veteran in the Nation should have the same 
immediate access to chiropractic care that Connecticut offers through 
the National Director for the Veterans Health Administration's 
Chiropractic Service based at the West Haven Medical Center. They 
should have the kind of resources available at the Nation's first 
university-based college for chiropractic physicians at the University 
of Bridgeport.
    The legislation would require the Secretary of Veterans Affairs to 
provide chiropractic care at a minimum of 75 VA medical centers by 
December 31, 2012 and at all VA medical centers by December 31, 2014. 
In introducing the legislation, I am following in the esteemed 
footsteps of Chairman Murray and the Members of the Committee who have 
been tireless advocates on this issue. Veterans would not have the 
chiropractic care and support they have today without your leadership.

    Thank you for the opportunity to testify and for holding this 
hearing today.

    Chairman Murray. Thank you very much, Senator Blumenthal, 
and thank you for your comprehensive consideration of issues 
very important to our men and women who serve the country.
    Senator Blumenthal. Thank you.
    Chairman Murray. Thank you very much.
    With that, we will now move to our first panel. Thank you 
very much for joining us today, and we will begin with Michael 
Cardarelli.

    STATEMENT OF MICHAEL CARDARELLI, PRINCIPAL DEPUTY UNDER 
           SECRETARY FOR BENEFITS, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Cardarelli. Yes, ma'am. Good morning, Chairman Murray, 
Ranking Member Burr, and Members of the Committee. Thank you 
for inviting us here today to present the Administration's 
views. I apologize for the delay in delivering our testimony to 
the Committee.
    Joining me today is Richard Hipolit, Assistant General 
Counsel. While VA's full written statement with views and 
estimated costs has been submitted for the record, I would like 
to briefly discuss eight bills that affect VBA and CA. After my 
remarks, Dr. Robert Jesse, Principal Deputy Under Secretary for 
Health, will discuss the Administration's views on the VHA-
related bills on today's agenda.
    Chairman Murray, VA appreciates your efforts to improve 
employment opportunities for returning servicemembers. VA 
supports Sections 2 through 5 of your Hiring Heroes Act of 
2011. S. 951, which would provide rehabilitative services and 
assistance to certain severely disabled active-duty 
servicemembers and expand VA's authority to pay employers for 
providing on-the-job training to veterans, among other things. 
We respectfully defer to the Department of Labor's witness, 
John McWilliam, regarding Sections 8, 11, and 13 of the bill. 
Although VA does not support Section 9 of this bill, we would 
be happy to discuss our concerns with the Committee.
    Let me assure you that VA's leadership shares your concern 
about veterans' employment, and we are committed to working 
with Congress to improve employment opportunities for our 
Nation's veterans.
    S. 536 would exempt individuals eligible for VA education 
benefits under Chapter 35 from the 48-month limitation on the 
use of educational assistance under multiple veterans and 
related educational assistance programs. VA supports the intent 
of S. 536 and favors enactment of the bill subject to Congress 
finding offsetting savings.
    S. 745 would protect certain veterans who are enrolled in 
VA's Post-9/11 Veterans Educational Assistance Program as it 
existed before the enactment of Public Law 111-377 who 
otherwise would be subject to a reduction in educational 
assistance benefits. VA has concerns with the proposed 
legislation as written, including the timeline for implementing 
it and the impact on existing beneficiaries. We will continue 
working with the Committee to ensure that legislative changes 
do not negatively impact education beneficiaries.
    S. 894, the Veterans' Compensation Cost-of-Living 
Adjustment Act of 2011, would mandate a cost-of-living 
adjustment in the rates of disability compensation and 
dependency indemnity compensation payable for periods beginning 
on or after December 1, 2011. VA supports Chairman Murray's 
bill and believes that our veterans and their dependents 
deserve no less.
    S. 780, the Veterans Pensions Protection Act of 2011, would 
exclude certain payments from determinations of annual income 
for purposes of determining eligibility for improved pension. 
VA opposes excluding from countable income payments received 
for pain and suffering because such payments do not constitute 
a reimbursement for expenses related to daily living. This 
provision of the bill would be inconsistent with a needs-based 
program. VA does not oppose the remaining provisions of the 
bill.
    S. 423 would authorize a potentially retroactive award of 
disability compensation to a veteran whose compensation 
application was fully developed as of the date submitted to VA. 
VA does not support this bill because it would result in the 
inequitable treatment of veterans in litigation over whether a 
claim was fully developed when it was submitted. Although VA 
does not support S. 423, it appreciates the attempt to create 
an incentive for veterans to file fully developed claims.
    S. 815, the SERVE Act of 2011, would guarantee that 
military funerals are conducted with dignity and respect. VA 
supports its enactment because it would establish a unified 
approach to preserve the dignity of funeral services and 
reinforce the commitment to protect the privacy of attendees 
during their time of bereavement. The bill would also ensure 
the privacy and protection of grieving families during funeral, 
memorial, and ceremonial services meant to honor those fallen 
heroes who, through their service, paid the ultimate price.
    Finally, VA notes that Chairman Murray's Veterans Programs 
Improvement Act of 2011, S. 1184, carries many provisions 
proposed by the Administration in its draft Veterans Benefits 
Improvement Act of 2011. Although we have not had the 
opportunity to review the bill closely, we offer here our 
support of the general intent of the bill and VA's appreciation 
for your introducing them for consideration. We believe they 
are very worthy of the Committee's endorsement. We also look 
forward to reviewing the other titles of the bill which address 
VA's programs to combat homelessness as well as VBA's fiduciary 
program.
    Madam Chairman, this concludes my statement. Now Dr. Jesse 
will discuss the Administration's views on the health-related 
bills on today's agenda.
    Chairman Murray. Thank you very much.
    Dr. Jesse?

  STATEMENT OF ROBERT L. JESSE, M.D., PH.D., PRINCIPAL DEPUTY 
  UNDER SECRETARY FOR HEALTH, VETERANS HEALTH ADMINISTRATION, 
 U.S. DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY WALTER A. 
   HALL, ASSISTANT GENERAL COUNSEL; AND RICHARD J. HIPOLIT, 
                   ASSISTANT GENERAL COUNSEL

    Dr. Jesse. Thank you, Madam Chairman, Ranking Member Burr, 
and Members of the Committee. I too appreciate the opportunity 
to appear before you today and to provide comments on some of 
the Veterans Health Administration-related bills on today's 
agenda. I am accompanied by Mr. Walter Hall, who is the General 
Counsel, and I too apologize for the tardiness of our oral 
statements. I appreciate your indulgence.
    VA supports S. 490, which would extend the eligibility for 
health care coverage of children under the CHAMPVA program 
until the age of 26. This would bring VA's health care benefits 
program for children into line with coverage available via the 
private sector under the Affordable Care Act, which was enacted 
last year. This is an important program that would potentially 
benefit almost 60,000 children of veterans.
    We appreciate the intent of S. 666, the Veterans Traumatic 
Brain Injury Care Improvement Act of 2011, which would require 
the Secretary to submit a report on the advisability of 
establishing a broader polytrauma presence in the Northern 
Rockies or the Dakotas. We appreciate the concerns about making 
these valuable services available in this area, and I am 
pleased to report that based on the assessment we conducted 
last year, we are expanding our services by establishing an 
enhanced polytrauma support clinic team in Fort Harrison, 
Montana. We expect it will have the staff in place to begin 
providing these additional services by the end of the year.
    We support the intent of S. 769 and have already taken 
steps to address the concerns the bill would remedy. The 
Veterans Equal Treatment for Service Dogs Act of 2011 would 
prohibit the Secretary from excluding service dogs trained for 
use by veterans from any VA facilities or property or any 
facilities that receive funding from VA. In March, we published 
VHA Directive 2011-013, which directs that veterans and members 
of the public with disabilities who require the use of a 
trained guide dog or service dog be allowed to enter VA 
facilities. We will publish a regulation that will establish 
criteria for service dog access to all VA facilities and 
property that will ensure consistent standards while 
maintaining a safe environment for patients, employees, 
visitors, and service dogs.
    We also support the intent of S. 696, which would allow VA 
to provide beneficiary travel benefits to veterans using the 
Vet Centers for readjustment counseling. This is an issue that 
has had our attention for some time now, and we have begun an 
assessment to develop more insight into the possible impact of 
providing this benefit.
    The privacy issue is particularly important to us as the 
Vet Centers currently offer veterans confidential treatment, 
and veterans would have to submit a claim for beneficiary 
travel, which could diminish their faith that this treatment is 
indeed confidential. Veterans have responded very positively to 
the current Vet Center model, and any changes we make to the 
service should not reduce the appeal of readjustment counseling 
benefits to veterans. Because of this concern, we ask the 
Committee to withhold action on this bill until we can provide 
you with the results of our assessment later this year.
    S. 957, the Veterans' Traumatic Brain Injury Rehabilitative 
Services Improvements Act of 2011, seeks to improve our 
programs by requiring rehabilitative services to be an integral 
component of our health care services. We generally have no 
objections to this. Indeed, we have been developing 
individualized recovery plans for all enrolled veterans with 
severe TBI for several years. Our primary aim for veterans with 
serious or severe injuries has always been and always will be 
to maximize a veteran's independence, health, and quality of 
life. My written statement identifies two concerns with this 
bill that essentially raise a question if the bill requires VHA 
to provide benefits beyond health care.
    Regarding S. 277, VA takes the Camp Lejeune matter very 
seriously but has several significant concerns with the bill. 
VA would be required to provide treatment for any condition 
that cannot be specifically eliminated as related to the 
contaminated water at Camp Lejeune. This would be a broader 
authority for care than that conferred on Persian Gulf and 
post-Persian Gulf veterans. We have concerns about the adequacy 
of the scientific evidence available today, but ongoing 
research by the Agency for Toxic Substances and Disease 
Registry may provide a clearer view on what kinds of conditions 
are associated with this exposure. There are other concerns 
detailed in the testimony such as being able to identify those 
who may have been at Camp LeJeune for very short periods of 
time. At the same time, we are committed to continue to monitor 
the research and respond appropriately to findings.
    This concludes my prepared statement. My written statement 
provides our positions on many of the other bills on the 
docket, and we will provide views later for those that we are 
unable to discuss at this time. Madam Chairman, I would be 
pleased to respond to any questions you may have.
    [The prepared statement of Dr. Jesse follows:]

 Prepared Statement of Robert L. Jesse, M.D., Ph.D., Principal Deputy 
   Under Secretary for Health, Veterans Health Administration, U.S. 
                     Department of Veterans Affairs

    Good Morning Chairman Murray, Ranking Member Burr and Members of 
the Committee: Thank you for inviting me here today to present the 
Administration's views on several bills that would affect Department of 
Veterans Affairs (VA) benefits programs and services. Joining me today 
are Michael Cardarelli, Principal Deputy Under Secretary for Benefits, 
Richard Hipolit, Assistant General Counsel, and Walter A. Hall, 
Assistant General Counsel. We do not yet have cleared views on S. 411, 
S. 491, S. 873, S. 874, S. 914, S. 1017, S. 1060, S. 1089, S. 1104, 
S. 1123, S. 1124, and S. 1127 and the draft bill entitled ``Veterans 
Programs Improvements Act of 2011.'' Also, we do not have estimated 
costs associated with implementing S. 396, S. 666, S. 910, S. 935, and 
section 9 of S. 951. We will forward the views and estimated costs to 
you as soon as they are available.

          S. 277, CARING FOR CAMP LEJEUNE VETERANS ACT OF 2011

    S. 277 would amend title 38 to extend special eligibility for 
hospital care, medical services and nursing home care for certain 
Veterans stationed at Camp Lejeune during a period in which well water 
was contaminated notwithstanding that there is insufficient scientific 
evidence to conclude that a particular illness is attributable to such 
contamination. It would also make family members of those Veterans who 
resided at Camp Lejeune eligible for the same services, but only for 
those conditions or disabilities associated with exposure to the 
contaminants in the water at Camp Lejeune, as determined by the 
Secretary.
    VA takes the Camp Lejeune matter very seriously but has a variety 
of significant concerns with this bill. For example, although we 
believe that the intent of S. 277 is to provide these Veterans with the 
same enrollment and treatment authority as for Persian Gulf and post-
Persian Gulf Veterans, the bill does not do so because it fails to 
amend section 1710(e)(2) to address the new special eligibility 
provision. As the legislation is written, VA would be required to 
provide treatment for any condition that cannot be specifically 
eliminated as related to the contaminated water at Camp Lejeune. This 
bill would not make the special eligibility of these Veterans subject 
to the limitation that care may not be provided ``with respect to a 
disability that is found, in accordance with guidelines issued by the 
Under Secretary for Health, to have resulted from a cause other than 
the service or testing described in such subparagraph.'' As a result, 
this bill grants these Veterans a broader special eligibility than that 
conferred on Persian Gulf and post-Persian Gulf Veterans.
    The Agency for Toxic Substances and Disease Registry (ATSDR) is 
conducting ongoing research related to the potential exposures at Camp 
Lejeune. Current ATSDR research is concentrating on refining 
hydrological modeling to determine the extent of benzene contamination. 
This information will then be used along with results from ongoing 
population studies to determine if the potentially exposed population 
at Camp Lejeune has experienced an increase in adverse health effects 
such as birth defects, cancers, and mortality. VA will closely monitor 
this research and will quickly consider the findings and take 
appropriate action. In addition, VA will support these studies by 
acting on ATSDR requests to confirm specific Veteran's health issues. 
VA has a close working relationship with ATSDR which allows the 
Department to stay informed about current research.
    We are also greatly concerned that the Department of Defense (DOD), 
and consequently VA, is unable to accurately identify those that may 
have visited for short periods of time at Camp Lejeune and surrounding 
areas during the period of potential exposure. While the legislation 
provides that the Secretary in conjunction with ATSDR shall determine 
the applicable period, discussion usually centers on the period of 
1957-1987. DOD records have proven problematic in identifying all 
potential beneficiaries, especially since the legislation does not 
provide for any limitations as to how long an individual had to be on 
base at Camp Lejeune. It is possible through the Defense Manpower Data 
Center to identify Veterans assigned to Camp Lejeune. However, it is 
impossible to identify those Veterans who visited Camp Lejeune for 
temporary duty and many of the family members who resided at or visited 
the base. We note that VA treatment of family members as prescribed by 
S. 277 would be an unprecedented extension of VA's provision of care to 
non-veterans.
    Veterans who are part of this cohort may apply to enroll in VA 
health care if they are otherwise eligible, and are encouraged to 
discuss any specific concerns they have about this issue with their 
health care provider. VA environmental health clinicians can provide 
these Veterans with information regarding the potential health effects 
of exposure to volatile organic compounds and VA's War-Related Illness 
and Injury Study Centers are also available as a resource to providers. 
Veterans are also encouraged to file a claim for VA disability 
compensation for any injury or illness they believe is related to their 
military service. Currently, Camp Lejeune disability claims are handled 
on a case by case basis and significant weight is given to the opinions 
provided by qualified medical examiners who are aware of the 
contaminants and their potential long-term health effects. In an effort 
to provide fair and consistent decisions based on service at Camp 
Lejeune during the period of water contamination, VA has consolidated 
claims processing at the Louisville Regional Office.
    Because of these concerns and others about the adequacy of the 
underlying scientific evidence, VA does not support this bill.
    It is unclear exactly how many people were potentially affected by 
the water contamination at Camp Lejeune, but some estimates place the 
number at one million Veterans and family members. VA estimates that 
the costs associated with this bill are $292 million in fiscal year 
2012, $1.6 billion over five years, and $3.9 billion over ten years. In 
addition, the Department anticipates that this legislation would result 
in lost revenue associated with collections. VA estimates this loss of 
revenue to be $19.5 million in fiscal year 2012, $110 million over five 
years, and $213 million over ten years.

          S. 396, MEETING THE INPATIENT HEALTH CARE NEEDS OF 
                  FAR SOUTH TEXAS VETERANS ACT OF 2011

    S. 396 would require the Secretary of VA to ensure that the South 
Texas Veterans Affairs Health Care Center in Harlingen, Texas, includes 
a full-service VA inpatient health care facility. If necessary, the 
Secretary would be required to modify the existing facility to meet 
this requirement. A report would also be required to be submitted, 
within 180 days of enactment, outlining the specific actions the 
Secretary plans to take to satisfy the requirements of the bill, 
including a detailed cost estimate and a timeline for completion of any 
necessary modification.
    The Department has strong concerns about this bill. VA recognized 
the need for enhanced access to care in the Lower Rio Grande Valley and 
Coastal Bend areas of South Texas several years ago. In 2006 and 2007, 
VA contracted Booz-Allen-Hamilton (BAH) to study options for expanding 
access to ambulatory specialty and inpatient services in the region. VA 
implemented their recommended option by converting the clinic at 
Harlingen into a Health Care Center (HCC) to provide a broad array of 
specialty services, and to contract with local hospitals in the area to 
provide inpatient hospital and emergency care. BAH concluded that this 
option solved secondary care access gaps in the Valley in a way that 
was cost-effective and consistent with high quality patient care.
    Actuarial projections from the 2007 BAH study were a key factor in 
the Department's decision to expand the clinic at Harlingen into a 
Health Care Center, and to contract for inpatient care and emergency 
room services in the local community. In May 2010, in an effort to 
determine whether this course of action continued to be the best way to 
serve Veterans, VA reassessed the recommendations made in the BAH 
study. This reassessment included examination of the most current 
projections for inpatient utilization, as well as a review of 
enrollment and actual utilization data for inpatient contracts over the 
last 12 months. Following a comprehensive review of all available data, 
we determined the best way to serve inpatient needs for Veterans in the 
area was to continue using contract care at local hospitals. This 
course of action will provide Veterans access to a broad array of high 
quality inpatient services that would not be feasible in a smaller, VA-
run facility. In recognition of the significance of the growing Veteran 
population in this area, we will continue to closely monitor and 
compare the actual demand for inpatient and emergency room care at the 
contract hospital systems with the demand identified in the actuarial 
projections from the BAH study. Should evidence indicate a change in 
course is required, the Department will consider all viable options.
    VA is unable to estimate a cost for compliance with the 
requirements of this bill at this time but will provide that 
information in writing for the record. Expansion of the existing 
facility or construction of a new facility would be necessary for VA to 
provide inpatient care directly. If the bill is enacted, VA would 
comply with section 3(b) which requires VA to report to Congress within 
180 days on the actions the Secretary plans to take and the estimated 
cost of such actions.

S. 423, PROVIDING AUTHORITY FOR A RETROACTIVE EFFECTIVE DATE FOR AWARDS 
  OF DISABILITY COMPENSATION IN CONNECTION WITH APPLICATIONS THAT ARE 
                      FULLY-DEVELOPED AT SUBMITTAL

    S. 423 would amend 38 U.S.C. Sec. 5110(b) to authorize a 
potentially retroactive award of disability compensation to a Veteran 
whose compensation application was fully developed as of the date 
submitted to VA. The effective date of a compensation award based on 
the submittal of a fully developed application would be ``fixed in 
accordance with the facts found,'' but could not be earlier than the 
date one year before the date the application was received by VA. The 
bill would allow VA to prescribe what constitutes a fully-developed 
claim for purposes of this provision.
    VA does not support this bill because it would result in the 
inequitable treatment of Veterans who cannot submit a ``fully-
developed'' claim. Currently, section 5110 authorizes a retroactive 
compensation award in two instances, both based on the timing of the 
application. VA may award compensation retroactively if VA receives the 
application within one year from the date of a Veteran's discharge or 
release from service or, in cases of increased compensation, if VA 
receives the application within one year of the date that an increase 
in disability is ascertainable. In either case, the timing of the 
application, and hence the eligibility for a retroactive award, is 
within a Veteran's control. The retroactive award S. 423 would 
authorize, however, is based not on the timing of the application, but 
rather on the nature of the claim and the evidence needed to decide the 
claim, matters that are not within a Veteran's control. S. 423 would 
essentially penalize Veterans who cannot submit an application with the 
evidence necessary to decide the claim. The bill would result in 
retroactive compensation awards to Veterans whose claims involve simple 
factual issues or evidence within their possession or readily 
obtainable, but not to Veterans whose claims involve complex factual 
issues or evidentiary development, but are no less meritorious than the 
simple claims.
    In addition, S. 423 would likely result in litigation over whether 
a claim was fully developed when submitted because VA's decision to 
obtain or request further evidence would preclude a retroactive award.
    Although VA does not support S. 423, it appreciates the attempt to 
create an incentive for Veterans to file fully developed claims. VA 
believes a more balanced approach would create that incentive. VA has 
implemented a Fully Developed Claim (FDC) Program at all regional 
offices as a result of the Veterans' Benefits Improvement Act of 2008, 
Public Law 110-389, signed by the President on October 10, 2008. This 
law required VA to assess the feasibility and advisability of 
expeditiously adjudicating fully developed compensation or pension 
claims. Under the FDC program, a Veteran who submits a formal claim for 
benefits within one year from the date of VA's acknowledgement of 
receipt of the Veteran's informal claim may be awarded benefits 
effective from the date VA received the informal claim. Because the 
acknowledgement letter will include information about the evidence 
necessary to substantiate a claim for benefits, Veterans will be able 
to facilitate the processing of their claim by submitting evidence in 
conjunction with their formal claim. Thus, the timing of the 
application, not whether a fully developed claim is received, is 
determinative of whether retroactive benefits can be awarded. Further, 
this extra time allows any claimant the opportunity to assemble his or 
her claim package for submission, while still affording them the 
benefit of the FDC program and the potential of an earlier effective 
date.
    VA estimates that enactment would result in benefit costs of $54.9 
million for fiscal year 2012, $315.7 million over five years, and 
$761.7 million over ten years.

   S. 486, PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 2011

    S. 486 would extend the Servicemembers Civil Relief Act (SCRA) 
period of protections relating to real and personal property from 9 
months to 24 months. This bill would also change violations of SCRA 
from a misdemeanor to a felony and increase civilian penalty amounts.
    VA defers to the Departments of Defense and Justice regarding the 
merits of this bill. We are unable at this time to provide cost 
estimates associated with enactment of this bill, but will provide that 
information in writing for the record.

   S. 490, INCREASE THE MAXIMUM AGE FOR CHILDREN ELIGIBLE FOR CHAMPVA

    VA supports S. 490, which would amend 38 U.S.C. Sec. 1781(c) to 
extend eligibility for coverage of children under the Civilian Health 
and Medical Program of the Department of Veterans Affairs (CHAMPVA) 
until they reach age 26 so that eligibility for coverage of children 
under CHAMPVA will be consistent with private sector coverage under the 
Affordable Care Act . S. 490 would extend eligibility for coverage of 
children under CHAMPVA regardless of age, marital status, and school 
enrollment status up to the age of 26; and the bill would ensure that 
CHAMPVA eligibility would not be limited for individuals described in 
Sec. 101(4)(A)(ii) (individuals who, before attaining age 18, became 
permanently incapable of self-support).
    The amendments made by S. 490 would apply with respect to medical 
care provided on or after the date of enactment of the bill. The 
extension of eligibility to age 26 would not be limited to children who 
are currently enrolled in or even those who are currently eligible for 
CHAMPVA. This is because we read this bill to provide that a ``child 
who is eligible for benefits'' under Sec. 1781(a) will still be 
considered an eligible ``child'' until his or her 26th birthday, 
notwithstanding the age limits in 38 U.S.C. Sec. 101(4). We offer for 
the Committee's information that S. 490 would not extend eligibility 
for children who, before January 1, 2014, are eligible to enroll in an 
eligible employer-sponsored health plan (as defined in I.R.C. 
Sec. 5000A(f)(2)). This means that the age, school status, and marital 
status requirements in 38 U.S.C. Sec. 101(4) will, before 2014, apply 
to children who are eligible to enroll in an eligible employer-
sponsored health plan and would not extend eligibility for coverage of 
those individuals. This provision in the bill is thus in accordance 
with the discretion provided to grandfathered health plans that are 
group health plans in the private sector under the Affordable Care Act.
    VA estimates the cost of implementing S. 490 to be $64.6 million in 
fiscal year 2012, $390.5 million over five years, and $1.022 billion 
over ten years.

    S. 536, PROVIDE THAT UTILIZATION OF SURVIVORS' AND DEPENDENTS' 
 EDUCATIONAL ASSISTANCE SHALL NOT BE SUBJECT TO THE 48-MONTH LIMITATION

    S. 536 would amend section 3695(a)(4) of title 38, United States 
Code, to exempt individuals eligible for VA education benefits under 
the chapter 35 Survivors' and Dependents' Educational Assistance (DEA) 
program from the 48-month limitation on the use of educational 
assistance under multiple Veterans' and related educational assistance 
programs. This amendment would allow an individual to receive up to 45 
months of benefits under the DEA program and up to 48 months of 
benefits under other educational assistance programs administered by 
VA. The amendment would take effect on the date of enactment of S. 536. 
By its own terms, however, it would not revive any entitlement to 
educational assistance under chapter 35 or any other provision of law 
listed in section 3695(a) that terminated prior to that date.
    Under current law, section 3695(a) limits to 48 months the 
aggregate entitlement for any individual who receives educational 
assistance under two or more programs. This provision applies, in part, 
to the Montgomery GI Bill Active Duty (MGIB-AD/chapter 30), the Vietnam 
Era Assistance Program (VEAP/chapter 32), the Post-9/11 GI Bill 
(chapter 33), the Survivors' and Dependents' Educational Assistance 
program (chapter 35), the Montgomery GI Bill Selected Reserve (MGIB-SR/
chapter 1606), and the Reserve Educational Assistance Program (REAP/
chapter 1607).
    Beginning on the date of enactment of this bill, as noted above, VA 
would not consider an individual's chapter 35 entitlement when applying 
the 48-month limitation in section 3695(a). The amendment also would be 
applicable to those individuals who, as of the day before enactment, 
had not used a total of 48 months of benefits entitlement (regardless 
of whether the 48 months included receipt of chapter 35 benefits). 
Thus, those individuals with remaining entitlements under other 
educational assistance programs administered by VA on the bill's date 
of enactment would have their entitlement to such programs determined 
without consideration of the benefits they used under chapter 35.
    VA does not have the specific data necessary to cost this proposal. 
While VA can determine the number of participants who used prior VA 
training and the amount of entitlement used in previous programs, we 
cannot extract the specific Survivors' and Dependents' Educational 
Assistance program population affected by this proposal. The system 
used to process chapter 35 claims stores and retrieves information for 
beneficiaries using the Veteran's file number. Although information 
specific to the individual is stored in the record, the system uses the 
file number to search for multiple records. As a result, a query of the 
chapter 35 file numbers would provide information on Veterans rather 
than the beneficiaries of the Survivors' and Dependents Educational 
Assistance program. Further, VA has no way of determining how many 
servicemembers elected not to participate in the MGIB-AD program 
because of prior chapter 35 benefits or how many individuals 
potentially eligible for the Post-9/11 GI Bill are or were eligible for 
chapter 35 benefits.
    VA supports the intent of S. 536 and favors enactment of the bill, 
subject to Congress finding offsetting savings. While we are unable to 
extract a specific population and are unable to provide costs, we 
estimate that a student who used 45 months of benefits under the 
Survivors' and Dependents' Educational Assistance program would receive 
an additional $51,336 for a full 36 months of training under the 
Montgomery GI Bill--Active Duty program. Similarly, we estimate that a 
student in receipt of benefits at the 100 percent eligibility tier 
under the Post-9/11 GI Bill program would receive an additional $87,544 
for 36 months of benefits.

S. 572, REPEAL OF THE PROHIBITION ON COLLECTIVE BARGAINING WITH RESPECT 
  TO MATTERS AND QUESTIONS REGARDING COMPENSATION OF EMPLOYEES OF THE 
      DEPARTMENT OF VETERANS AFFAIRS OTHER THAN RATES OF BASIC PAY

    S. 572 would amend 38 U.S.C. 7422 by replacing the word 
``compensation'' in sections (b) and (d) with the words ``rates of 
basic pay.'' While we appreciate the many contributions collective 
bargaining and the labor-management partnership make to VA's mission, 
we strongly oppose S. 572.
    VA would like to stress to the Committee that we deeply value the 
contributions of our employees, and work to enjoy a collaborative, 
positive working relationship with unions across the country. We hold 
retention of employees as a critically important goal, and encourage 
the management teams of VA facilities to offer professional development 
opportunities and encourage personal growth.
    This bill would repeal the prohibition on collective bargaining 
with respect to compensation of title 38 employees. Currently, 38 
U.S.C. 7422(b) and (d) exempt ``any matter or question concerning or 
arising out of * * * the establishment, determination, and adjustment 
of [title 38] employee compensation'' from collective bargaining. This 
bill would replace the word ``compensation'' with the phrase ``rates of 
basic pay.'' This change would apparently make subject to collective 
bargaining all matters relating to the compensation of title 38 
employees (physicians, dentists, nurses, et al.) over which the 
Secretary has been granted any discretion.
    In order to provide the flexibility necessary to administer the 
title 38 system, Congress granted the Secretary significant discretion 
in determining the compensation of VA's health care professionals. When 
Congress first authorized title 38 employees to engage in collective 
bargaining with respect to conditions of employment, it expressly 
exempted bargaining over ``compensation'' in recognition of the U.S. 
Supreme Court's ruling in Ft. Stewart Schools v. FLRA, 495 U.S. 641 
(1990). In that case the Court held that the term ``conditions of 
employment,'' as used in the Federal Service Labor-Management Relations 
Statute (5 U.S.C. 7101), included salary, to the extent that the agency 
has discretion in establishing, implementing, or adjusting employee 
compensation. Id. at 646-47. Thus, Congress sought to make clear in 38 
U.S.C. 7422(b) that title 38 employees' right to bargain with respect 
to ``conditions of employment'' did not include the right to bargain 
over compensation. Over the years, Congress has authorized VA to 
exercise considerable discretion and flexibility with respect to title 
38 compensation to enable VA to recruit and retain the highest quality 
health care providers.
    The term ``rates of basic pay'' is not defined in title 38. 
However, the Department has defined ``basic pay'' as the ``rate of pay 
fixed by law or administrative action for the position held by an 
employee before any deductions and exclusive of additional pay of any 
kind.'' VA Handbook 5007, Part IX, par. 5. Such additional pay includes 
market pay, performance pay, and any other recruitment or retention 
incentives. Id. Accordingly, S. 572 would subject many discretionary 
aspects of title 38 compensation to collective bargaining. For example, 
there are two discretionary components of compensation for VA 
physicians and dentists under the title 38 pay system-market pay and 
performance pay. Market pay, when combined with basic pay, is meant to 
reflect the recruitment and retention needs for the specialty or 
assignment of the particular physician or dentist in a VA facility. 
Basic pay for physicians and dentists is set by law and would remain 
non-negotiable under this bill, but the Secretary has discretion to set 
market pay on a case-by-case basis. Market pay is determined through a 
peer-review process based on factors such as experience, 
qualifications, complexity of the position, and difficulty recruiting 
for the position. In many cases, market pay exceeds basic pay. In those 
situations, this bill would render a large portion or even the majority 
of most physicians' pay subject to collective bargaining. The Secretary 
also has discretion over the amount of performance pay, which is a 
statutorily authorized element of annual pay paid to physicians and 
dentists for meeting goals and performance objectives. Under this bill, 
performance pay would also be negotiable. Likewise, pay for nurses 
entails discretion because it is set by locality-pay surveys. Further, 
Congress has granted VA other pay flexibilities involving discretion, 
including premium pay, on-call pay, alternate work schedules, Baylor 
Plan, special salary rates, and recruitment and retention bonuses. The 
ability to exercise these pay flexibilities is a vital recruitment and 
retention tool. It is necessary to allow VA to efficiently compete on a 
cost-effective basis with the private sector and to attract and retain 
clinical staff who deliver health care to Veterans. As described below, 
this flexibility would be greatly hindered by the collective bargaining 
ramifications of S. 572.
    This bill would obligate VA to negotiate with unions over all 
discretionary matters relating to compensation, and to permit employees 
to file grievances and receive relief from arbitrators when they are 
unsatisfied with VA decisions about discretionary pay. If VA were 
obligated to negotiate over such matters, it could be barred from 
implementing decisions about discretionary pay until it either reaches 
agreements with its unions or until it receives a binding decision from 
the Federal Service Impasses Panel. Stated differently, VA could be 
prevented from hiring clinical staff and have decisions regarding 
appropriate clinical staff subject to third party delay and retroactive 
change. This could significantly hinder our ability and flexibility to 
hire clinical staff as needed to timely meet patient-care needs.
    Moreover, any time an employee was unsatisfied with VA's 
determination of his or her discretionary pay, the union could grieve 
and ultimately take the matter to binding arbitration. This would allow 
an arbitrator to substitute his or her judgment for that of VA and, 
with regard to physician market pay, to override peer review 
recommendations. This bill would allow independent third-party 
arbitrators and other non-VA, non-clinical labor third parties who lack 
clinical training and expertise to make compensation determinations. VA 
would have limited, if any, recourse to appeal such decisions.
    Importantly, S. 572 would result in unprecedented changes in how 
the Federal Government operates. It would permit unions to bargain 
over, grieve, and arbitrate a subject--employee compensation--that is 
generally exempted from collective bargaining even under title 5. 
Although Congress has built much more Agency discretion into the title 
38 compensation system both to achieve the desired flexibility and 
because the system is unique to VA, permitting title 38 employees to 
negotiate the discretionary aspects of their compensation would be at 
odds with how other Federal employees are generally treated. Further, 
collective bargaining over discretionary aspects of pay is unnecessary. 
VA's retention rates for physicians and dentists are comparable to 
private sector retention rates, while retention rates for VA registered 
nurses significantly exceed those of the private sector, strongly 
suggesting that the lack of bargaining ability over discretionary 
aspects of pay has not negatively affected VA's ability to retain title 
38 employees.
    To address some of the concerns expressed by the unions, the 
Secretary convened a group of union and management officials to 
formulate recommendations to jointly explore and clarify the 
implementation of the title 38 exclusions under section 7422.
    This workgroup was a significant cooperative effort, spanning 
multiple meetings, in person and via conference calls, from July 2009 
through May 2010. The 7422 workgroup membership included field 
clinicians, the Office of General Counsel, the Office of Labor 
Management Relations, and the five national unions (American Federation 
of Government Employees (AFGE); National Association of Government 
Employees (NAGE); Service Employees International Union (SEIU); United 
American Nurses (UAN) (now National Nurses United (NNU)); and, National 
Federation of Federal Employees (NFFE). Assistant Secretary for HR&A, 
John Sepulveda, participated in all face to face meetings of the 
workgroup.
    The final result of the workgroup was sixteen individual 
recommendations, as well as concise position papers of the parties and 
joint supporting documents. Included in the recommendations approved by 
the Secretary in December 2010 was language to address union concerns 
with the way section 7422, including the compensation exclusion is 
implemented. Also in December 2010, Memorandum of Understanding (MOU) 
with the approved recommendations was signed by the Deputy Secretary, 
W. Scott Gould; the Under Secretary for Health, Robert A. Petzel, MD; 
the Assistant Secretary for HR&A, John U. Sepulveda; and the leaders of 
four of the five national unions. The Secretary has charged an 
implementation team to work on further development of an action plan to 
implement the 7422 working group's approved recommendations. A meeting 
is scheduled for July 6-7, 2011, in Washington, DC. Additional meetings 
will be scheduled to complete the implementation process. The MOU as 
well as our actions to implement it show our commitment to collaborate 
with the unions and make the passage of S. 572 unnecessary.
    We are not able to estimate the cost of S. 572 for two reasons. 
First, if VA is required to negotiate over compensation matters, and if 
the Agency is unable to reach agreements with the unions, the final 
decisions on pay will ultimately rest with the Federal Service Impasses 
Panel. The Panel has discretion to order VA to comply with the unions' 
proposals. Second, if pay issues become grievable and arbitrable, the 
final decisions on pay will rest in the hands of arbitrators.
    On the whole, our efforts to recruit and retain health care 
professionals have been widely successful, and have not in any way been 
impaired by the exclusion of matters concerning or arising out of 
compensation from collective bargaining. We would be glad to share 
applicable data with the Committee and brief the members on our 
continuing efforts in this area.

   S. 666, ``VETERANS TRAUMATIC BRAIN INJURY CARE IMPROVEMENT ACT OF 
                                 2011''

    S. 666, the ``Veterans Traumatic Brain Injury Care Improvement Act 
of 2011,'' would require the Secretary to submit to Congress a report 
on the feasibility and advisability of establishing a Polytrauma 
Rehabilitation Center or Polytrauma Network Site for VA in the northern 
Rockies or the Dakotas.
    VA shares the concern for providing treatment facilities for 
polytrauma in this region. Consequently, in 2010, VA completed an 
assessment of need and determined that an enhanced Polytrauma Support 
Clinic Team with a strong telehealth component at the Ft. Harrison, 
Montana, VA facility would meet the needs and the workload volume of 
Veterans with mild to moderate Traumatic Brain Injury (TBI) residing in 
the catchment area of the Montana Healthcare System. It would also 
facilitate access to TBI rehabilitation care for other Veterans from 
the northern Rockies and the Dakotas through telehealth. VA has 
initiated hiring actions to fill additional positions needed to enhance 
the Polytrauma Support Clinic Team at Fort Harrison. We anticipate 
these positions will be in place by the end of 2011. However, 
establishment of a Polytrauma Rehabilitation Center or Polytrauma 
Network Site, which would focus on the treatment of moderate to severe 
TBI, is not feasible or advisable in this area based on the needs of 
the population served. Because of the action already being taken by VA, 
this bill is not necessary, and we thus cannot support it.
    The estimated cost of staffing the Polytrauma Support Clinic Team 
at Ft. Harrison would be $1.5 million in the first year, $6.2 million 
for five years, and $13.0 million over ten years. We do not have 
estimated costs for implementing the bill but will provide them when 
they are available.
    Mr. Chairman, we would be pleased to provide the Committee with 
more detailed information about our findings and decisions regarding 
the northern Rockies and the Dakotas.

  S. 696, TREATMENT OF VET CENTERS AS DEPARTMENT OF VETERANS AFFAIRS 
   FACILITIES FOR PURPOSES OF PAYMENTS OR ALLOWANCES FOR BENEFICIARY 
                    TRAVEL TO DEPARTMENT FACILITIES

    S. 696 would require VA to make beneficiary travel payments to 
persons traveling to and from Vet Centers if those persons would 
otherwise be eligible for these payments under VA's authority to pay 
beneficiary travel. VA is very interested in the possibility of 
expanding this benefit to include travel to and from Vet Centers, but 
recommends that no action be taken on this bill at this time. In an 
effort to better assess the various factors potentially affecting 
implementation of such a travel benefit, VA began a 6-month analysis on 
May 1, 2011 at three Vet Centers to identify a model process for 
administering benefits. The analysis will: assess the likely 
utilization of the benefit; identify issues associated with 
administering this benefit; determine the potential impact this benefit 
would have on the Vet Center culture and Veterans' privacy concerns; 
develop a model that can determine the upper and lower bounds for 
demand for this benefit; and create a behavioral model that can 
estimate potential changes in Veteran utilization of Vet Center 
services.
    This analysis will include focus groups of Veterans utilizing Vet 
Center services to assess various cultural variables, such as the 
effect this benefit might have on the Vet Center environment and 
services, as well as Veteran support for the implementation of this 
program. VA will also survey Veterans receiving Vet Center services to 
identify their interest, the average distance they travel to a Vet 
Center, and the number of visits they typically make each month. VA 
will also review data from the existing beneficiary travel program to 
estimate economic and behavioral impacts on utilization rates. VA 
believes this to be a prudent approach that will allow us to determine 
the likely impacts of such a change, prepare for any changes in demand 
for Vet Center services, and include a budget request sufficient to 
support these benefits or any other changes resulting from enactment. 
VA will provide an update to Congress at the end of this analysis with 
its results, conclusions and recommendations.
    Given available data, VA estimates the cost of S. 696 in fiscal 
year 2012 to be $3.7 million, $23.3 million over five years, and $63.2 
million over ten years. VA notes these estimates may change based on 
the results of the aforementioned analysis, and VA will provide an 
updated cost estimate to the Committee when we have completed this 
analysis.

S. 698, CODIFYING THE PROHIBITION AGAINST THE RESERVATION OF GRAVESITES 
                     AT ARLINGTON NATIONAL CEMETERY

    S. 698 would limit to one the number of gravesites at Arlington 
National Cemetery that may be provided to a Veteran or a Member of the 
Armed Forces who is eligible for interment at that cemetery and the 
Veteran's or Member's family members who are eligible for interment 
there. The bill would also prohibit pre-need reservations of gravesites 
at Arlington National Cemetery and would require the Secretary of the 
Army to submit to Congress a report on reservations made at Arlington 
National Cemetery.
    VA defers to DOD regarding S. 698 because the Secretary of the Army 
is responsible for the management and operation of Arlington National 
Cemetery.

 S. 745, PROTECT CERTAIN VETERANS WHO WOULD OTHERWISE BE SUBJECT TO A 
                    REDUCTION IN EDUCATION BENEFITS

    S. 745 would protect certain Veterans who were enrolled in VA's 
Post-9/11 Veterans Educational Assistance Program (generally referred 
to as the ``Post-9/11 GI Bill) as it existed before the enactment of 
Public Law 111-377, the ``Post-9/11 Veterans Educational Assistance 
Improvements Act of 2010,'' who otherwise would be subject to a 
reduction in educational assistance benefits.
    Prior to the passage of Public Law 111-377 on January 4, 2011, 
individuals using benefits under the Post-9/11 GI Bill at a private 
institution of higher learning were paid the lesser amount of the 
established charges (the actual charges for tuition and fees which 
similarly-circumstanced nonveterans enrolled in the program of 
education would be required to pay) or the established in-state maximum 
tuition-and-fee rate at a public institution within that state. With 
the enactment of Public Law 111-377, individuals pursuing a program of 
education at a private institution of higher learning for the academic 
year beginning on August 1, 2011, would be limited to the actual net 
cost for tuition and fees assessed by the institution, not to exceed 
$17,500.
    S. 745 would modify the amount of educational assistance payable to 
specific beneficiaries to make an exception for those who are enrolled 
in a private institution of higher learning in certain states. This 
exception would apply to an individual entitled to educational 
assistance under the Post-9/11 GI Bill, who, on or before January 4, 
2011, was enrolled in a private institution of higher learning in a 
state in which the maximum amount of tuition per credit hour in the 
2010-2011 academic year exceeded $700. There are seven states that meet 
this criterion: Arizona, Michigan, New Hampshire, New York, 
Pennsylvania, South Carolina, and Texas. Beginning on August 1, 2011, 
and ending on December 31, 2014, the amount payable under this proposed 
legislation would be the lesser of (1) the established charges for the 
program of education; or (2) for the academic year beginning on 
August 1, 2011, an amount equal to the established charges payable 
based on the Department of Veterans Affairs Post-9/11 GI Bill 2010-2011 
Tuition and Fee In-State Maximums published October 27, 2010; or (3) 
for the academic year beginning on August 1, 2012, and any subsequent 
academic year, an amount equal to the amount for the previous academic 
year beginning on August 1, as increased based on the average cost of 
undergraduate tuition as determined by the National Center for 
Education Statistics.
    This legislation would have significant PAYGO costs requiring 
offsets. In addition, VA has concerns with the proposed legislation as 
written, including, in particular, the timeline for implementing it, as 
described in detail below.
    VA is working aggressively on its Long-Term Solution (LTS) for 
processing Post-9/11 GI Bill claims. As of January 2011, VA and the 
Space and Naval Warfare Systems Center Atlanta (SPAWAR) have developed 
four releases for the LTS system. The enactment of Public Law 111-377, 
which modifies aspects of the Post-9/11 GI Bill, has already impacted 
VA's ability to deploy previously-planned functionality enhancing the 
capability of the LTS. VA plans to implement changes to the Post-9/11 
GI Bill mandated by Public Law 111-377 across three releases of the 
LTS. The first release was deployed on March 5, 2011; future releases 
are scheduled for deployment on June 6, 2011, and October 17, 2011. The 
enactment of S. 745 would further hamper VA's LTS deployment efforts.
    If it were enacted before completion of the aforementioned 
releases, the proposed legislation would also have a negative impact on 
service delivery for those students using benefits this fall. VA claims 
processors would have to thoroughly examine each claim manually to 
determine if it meets the new requirements of these provisions, which 
would result in labor-intensive manual processing. This would lead to a 
significant increase in the average number of days to process all 
education claims.
    VA has identified several other technical concerns with regard to 
the bill text. For example, it is unclear if an individual must be 
enrolled in the same school and program on or before January 4, 2011, 
to be covered under this legislation. It is also unclear how the 
legislation would apply to an individual who changes programs or 
schools. We would be pleased to assist the Committee in addressing 
these concerns.
    While the amendments made by this legislation would take effect on 
August 1, 2011, VA strongly recommends that language be added to allow 
VA to begin making payments in accordance with these provisions no 
later than August 1, 2012, to allow for necessary system changes and 
reduce the impact on existing beneficiaries.
    VA estimates that, if S. 745 is enacted, the cost to the 
Readjustment Benefits account would be $13.9 million in fiscal year 
2011 and a total of $57.8 million over the four years fiscal year 2011 
through fiscal year 2014.

     S. 769, VETERANS EQUAL TREATMENT FOR SERVICE DOGS ACT OF 2011

    S. 769 would prohibit the Secretary from excluding from any VA 
facilities or property or any facilities or property that receive 
funding from VA, service dogs trained for use by Veterans enrolled in 
the VA health care system who were provided service dogs for reasons of 
hearing impairment, spinal cord injury or dysfunction or other chronic 
impairment that substantially limits mobility, and mental illness 
including Post Traumatic Stress Disorder.
    VA acknowledges that trained service dogs can have a significant 
role in maintaining functionality and promoting maximum independence of 
Veterans with disabilities. VA recognizes the need for Veterans with 
disabilities to be accompanied by their trained service dog on VA 
properties consistent with the same terms and conditions, and subject 
to the same regulations as generally govern the admission of members of 
the public to the property. However, S. 769 is unnecessary. Under 
existing statutory authority in 38 U.S.C. 901, VA can implement 
national policy for all VA properties, and in fact did so for VHA 
facilities and property on March 10, 2011 (VHA Directive 2011-2013), 
directing that both Veterans and members of the public with 
disabilities who require the assistance of a trained guide dog or 
trained service dog be authorized to enter VHA facilities and property 
accompanied by their trained guide dog or trained service dog 
consistent with the same terms and conditions, and subject to the same 
regulations that govern the admission of members of the public to the 
property. We would be glad to provide a copy of the Directive for the 
record. This Directive requires each Veterans Integrated Service 
Network (VISN) Director to ensure all VHA facilities have a written 
policy on access for guide and service dogs meeting the requirements of 
the national policy by June 30, 2011. In addition, VA intends to 
initiate rulemaking that will establish criteria for service dog access 
to all VA facilities and property in a manner consistent with the same 
terms and conditions, and subject to the same regulations as generally 
govern the admission of members of the public to the property while 
maintaining a safe environment for patients, employees, visitors, and 
the service dog.
    We note that VA's new Directive is much broader in scope than 
S. 769 which would only apply to certain Veterans and not members of 
the public. In particular, it would only apply to that subset of 
Veterans who are enrolled in VA's health care system and who were 
provided service dogs for reasons of hearing impairment, spinal cord 
injury or dysfunction or other chronic impairment that substantially 
limits mobility, and mental illness including Post Traumatic Stress 
Disorder pursuant to 38 U.S.C. 1714. VA's policy allows not only all 
Veterans with a disability that requires the assistance of a trained 
guide dog or trained service dog, but also members of the public 
including Veterans' families and friends with disabilities, to be 
accompanied by their trained guide dogs or trained service dogs in VHA 
facilities or properties.
    The bill also prohibits the Secretary from excluding service dogs 
from any facility or on any property that receives funding from the 
Secretary. Such a prohibition is unnecessary because it duplicates 
other statutes discussed below.
    Any non-VA facilities and properties with which S. 769 is concerned 
that are also owned or controlled by the Federal Government must under 
current law at 40 U.S.C. Sec. 3103, admit on the same terms and 
conditions, and subject to the same regulations, as generally govern 
the admission of the public to the property, specially trained and 
educated guide dogs or other service animals accompanying individuals 
with disabilities. Other non-VA properties not otherwise owned or 
controlled by the Federal Government, including but not limited to 
professional offices of health care providers, hospitals, and other 
service establishments, will almost certainly meet the definition of a 
place of public accommodation or public entity under the Americans with 
Disabilities Act of 1990 as prescribed in regulations at 28 CFR 
Sec. Sec. 35.104 and 36.104, and therefore be required to modify their 
policies, practices, or procedures to permit the use of a service 
animal by an individual with a disability in accordance with 28 CFR 
Sec. Sec. 35.136 and 36.302. We would note that VA facilities are not 
subject to the Americans with Disabilities Act of 1990, but are subject 
to the Rehabilitation Act. The Rehabilitation Act does not specifically 
address the issue of service dogs in buildings or on property owned or 
controlled by the Federal Government, but does prohibit discrimination 
against individuals with disabilities, including those who use service 
animals, in federally-funded or -conducted programs and activities. In 
addition, as explained above, there are other existing authorities that 
address the issue of bringing guide dogs and other service animals onto 
VA property.
    VA estimates that there would be no costs associated with 
implementing this bill.

   S. 780, EXEMPTING REIMBURSEMENTS OF EXPENSES RELATED TO ACCIDENT, 
THEFT, LOSS, OR CASUALTY LOSS FROM DETERMINATIONS OF ANNUAL INCOME WITH 
RESPECT TO PENSIONS FOR VETERANS AND SURVIVING SPOUSES AND CHILDREN OF 
                                VETERANS

    S. 780, the ``Veterans Pensions Protection Act of 2011,'' would 
liberalize the existing exemption in 38 U.S.C. Sec. 1503(a)(5) by 
excluding from determinations of annual income, for purposes of 
determining eligibility for improved pension, two types of payments: 
(1) payments regarding reimbursements for expenses related to accident, 
theft, loss, or casualty loss and reimbursements for medical expenses 
resulting from such causes; and (2) payments regarding pain and 
suffering related to such causes.
    The exemption for payments received to reimburse Veterans for 
medical costs and payments regarding pain and suffering is an expansion 
of the current exclusions. VA opposes excluding from countable income 
payments received for pain and suffering because such payments do not 
constitute a reimbursement for expenses related to daily living. This 
provision of the bill would be inconsistent with a needs-based program.
    Payments for pain and suffering are properly considered as 
available income for purposes of the financial means test for 
entitlement to improved pension.
    VA does not oppose the remaining provisions of this bill, which 
would exempt payments for reimbursement for accident, theft, loss, 
casualty loss, and resulting medical expenses, subject to Congress 
identifying offsets for any additional costs. Current law exempts from 
income determinations reimbursements for any kind of ``casualty loss,'' 
which is defined in VA regulation as ``the complete or partial 
destruction of property resulting from an identifiable event of a 
sudden, unexpected or unusual nature.'' S. 780 would broaden the scope 
of this exemption by including reimbursements for expenses resulting 
from accident, theft, and ordinary loss.
    VA cannot determine the potential benefit costs related to the 
exemption for payments for pain and suffering related to accident, 
theft, loss, or casualty loss because insufficient data are available 
regarding the frequency or amounts of such payments to the population 
of pension beneficiaries.

     S. 815, SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011 OR 
                         THE SERVE ACT OF 2011

    S. 815, the ``Sanctity of Eternal Rest for Veterans Act of 2011'' 
or the ``SERVE Act of 2011,'' would amend titles 18 and 38, United 
States Code, to guarantee that military funerals are conducted with 
dignity and respect. Section 2 of the bill would state the purpose of 
the bill, to provide necessary and proper support for the recruitment 
and retention of the U.S. Armed Forces and militia employed in the 
service of the United States by protecting the dignity of their 
members' service and the privacy of persons attending their members' 
funerals. It would also state Congress' findings regarding the 
constitutional authority for the bill. Section 3 of the bill would 
amend title 18, United States Code, making it unlawful to engage in 
certain activities within a certain distance from, and during a certain 
period in relation to, any funeral of a member or former member of the 
Armed Forces not located at a cemetery under the control of the 
National Cemetery Administration (NCA) or a part of Arlington National 
Cemetery. It would provide for punishment by fine or imprisonment or 
both, give U.S. district courts jurisdiction to entertain suits for 
enjoining violations of the provision and complaints for damages 
resulting from conduct that violates the provision, authorize the 
Attorney General to institute proceedings, and authorize suits to 
recover damages. Although this section of the bill is inapplicable to 
NCA cemeteries, VA supports its enactment because it would establish a 
unified approach to preserve the dignity of funeral services and 
reinforces the commitment to protect the privacy of attendees during 
their time of bereavement.
    Section 4 of the bill would make several changes to 38 U.S.C. 
Sec. 2413 to make it align with the title 18 provisions applicable to 
non-NCA cemeteries. Section 2413 currently prohibits certain 
demonstrations: (1) on the property of an NCA-controlled national 
cemetery or of Arlington National Cemetery without official approval; 
and (2) during a period beginning one hour before and ending one hour 
after a funeral, memorial service, or ceremony is held if any part of 
the demonstration takes place within a certain distance of such a 
cemetery, disturbs the peace, or impedes access to or egress from such 
a cemetery. The effect of the amendment is to expand the time period 
during which demonstrations are prohibited to begin two hours before 
and end two hours after a funeral, and increase the distance 
restriction for demonstrations from 150 feet to 300 feet of the 
cemetery or a road, pathway, or other route of ingress or egress from 
the cemetery. It would increase protections against willful conduct 
which causes or assists in making noise or diversion that disturbs the 
funeral or memorial service, or unauthorized conduct that impedes the 
access to or egress from the cemetery by the funeral procession by 
increasing the boundary limits for engaging in such prohibited conduct 
from 300 feet to within 500 feet of the cemetery where the funeral is 
held. The bill provides for punishment by fine or imprisonment or both, 
gives U.S. district courts jurisdiction to entertain suits for 
enjoining violations of the provision and complaints for damages 
resulting from conduct that violates the provision, authorizes the 
Attorney General to institute proceedings, and authorizes suits to 
recover damages. The bill also contains a clerical amendment to revise 
the heading for section 2413.
    VA supports section 4 of this bill to ensure the privacy and 
protection of grieving families during funeral, memorial and ceremonial 
services meant to honor these fallen heroes who, through their service, 
paid the ultimate price. If enacted, S. 815 would have no monetary 
impact on NCA's current practice of coordinating with local law 
enforcement and community supporters.

  S. 894, VETERANS' COMPENSATION COST-OF-LIVING ADJUSTMENT ACT OF 2011

    S. 894, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
of 2011,'' would mandate a cost-of-living adjustment (COLA) in the 
rates of disability compensation and dependency indemnity compensation 
payable for periods beginning on or after December 1, 2011. The COLA 
would be the same as the COLA that will be provided under current law 
to Social Security benefit recipients, which is currently estimated to 
be an increase of 0.9 percent. This increase is identical to that 
proposed in the President's fiscal year 2012 budget request to protect 
the affected benefits from the eroding effects of inflation. VA 
supports the bill and believes that our Veterans and their dependents 
deserve no less. VA estimates that enactment would result in benefit 
costs of $329 million for fiscal year 2012, $2.1 billion over five 
years, and $4.6 billion over ten years. However, because COLA costs are 
assumed in the baseline for Compensation and Pensions each year, 
enactment of this bill does not result in PAYGO costs.

               S. 910, VETERANS HEALTH EQUITY ACT OF 2011

    S. 910 would amend Title 38, Part II, Chapter 17, of the United 
States Code to include new section 1706A. Section 1706A would require 
the Secretary to ensure that Veterans in each of the 48 contiguous 
States have access to at least one full-service Department medical 
center or to comparable hospital care and medical services through 
contract with other in-State health care providers. Section 1706A would 
define a full-service Department medical center as a facility that 
provides medical services including, hospital care, emergency medical 
services, and standard-level-complexity surgical care.
    Additionally, the Secretary would be required to submit a report to 
Congress within one year describing VA's compliance with these 
requirements and how the quality and standards of care provided to 
Veterans has been impacted.
    VA opposes this legislation because it is unnecessary. VA engages 
in an extensive analysis of factors in order to identify appropriate 
locations to site VA health care facilities. These factors include, but 
are not limited to, projected total Veteran population, Veteran 
enrollee population, and utilization trends. VA analyzes this demand 
projection data over a 20-year period and takes into account Veteran 
access to various types of care and services. VA also utilizes its 
access guidelines, which take into account an acceptable amount of time 
a Veteran should reasonably travel to receive care depending upon 
whether the Veteran resides in an urban, rural, or highly rural 
community.
    VA engages in population-based planning and seeks to provide 
services through a continuum of delivery venues, including outreach 
clinics, community-based outpatient clinics, and medical facilities or 
hospitals. When it is determined that a full-service hospital is not 
required, VA uses a combination of interventions to ensure the delivery 
of high quality health care such as contracting for care in the 
community, use of telehealth technologies and referral to other VA 
facilities. VA improves Veteran access to health care by providing care 
within or as close to the Veteran's community as possible, regardless 
of state boundary lines.
    To address the needs and concerns of the New Hampshire 
constituency, VA is providing expanded acute care services to New 
Hampshire Veterans through contracts with local health care providers. 
This model has been used for more than a decade to provide VA-
coordinated care in a safe and cost effective manner.
    Providing services in this manner ensures that Veterans who use the 
Manchester VAMC have available locally the same level of acute care 
services as other Veterans within the VA New England Healthcare System 
and elsewhere. Patients who require tertiary care, such as cardiac 
surgery or neurosurgery, and extended inpatient psychiatry will 
continue to be referred to appropriate VA facilities for this care. 
Current VA workload projection models reflect a 34 percent reduction in 
Inpatient Bed Services for VA New England Healthcare System by 2021.
    We are unable at this time to provide cost estimates associated 
with enactment of this bill, but will provide that information in 
writing for the record.

S. 928, LIMITING THE AUTHORITY OF THE SECRETARY OF VETERANS AFFAIRS TO 
USE BID SAVINGS ON MAJOR MEDICAL FACILITY PROJECTS OF THE DEPARTMENT OF 
   VETERANS AFFAIRS TO EXPAND OR CHANGE THE SCOPE OF A MAJOR MEDICAL 
                   FACILITY PROJECT OF THE DEPARTMENT

    S. 928 would amend title 38, Section 8104(d)(2) of the United 
States Code, to limit the authority of the Secretary of VA to use bid 
savings on major medical facility projects of the Department, to expand 
or change the scope of a major medical facility project of the 
Department, and for other purposes. The Secretary would be required to 
submit a notice to the Committees identifying the major medical 
facility project that is the source of the bid savings, the major 
medical facility project to be expanded or changed in scope, describe 
the expansion or change in scope, and identify the amounts intended to 
be obligated for the expansion or change in scope. The Secretary would 
then be required to wait until legislation is enacted before making a 
contract obligation. However, ample congressional notification 
requirements for changes or expansions in scope are already in place. 
VA thus opposes this legislation as unnecessary.

           S. 935, VETERANS OUTREACH ENHANCEMENT ACT OF 2011

    S. 935, the ``Veterans Outreach Enhancement Act of 2011,'' would 
require the Secretary to establish a 5-year program of outreach to 
increase Veterans' access, use, and awareness of, and their eligibility 
for, Federal, State, and local programs that provide compensation and 
other benefits for service in the Armed Forces. The bill would 
authorize VA to enter into agreements with Federal and State agencies 
to carry out projects under their jurisdictions and to enter into 
agreements with certain authorities, commissions, and development 
boards to provide technical assistance, award grants, enter into 
contracts, or otherwise provide funding for projects and activities 
that would: (1) increase outreach and awareness of benefit programs; 
(2) provide incentives to State and local governments and Veterans 
service organizations to increase Veterans' utilization of available 
resources; (3) educate communities and State and local governments 
about Veterans' employment rights; (4) provide technical assistance to 
Veteran-owned businesses; and (5) promote Veteran-assistance programs 
by nonprofit organizations, businesses, and institutions of higher 
learning. This bill would also require the Secretary to submit to 
Congress a comprehensive report on its outreach activities and would 
authorize appropriations for this program of $7 million for fiscal year 
2011 and $35 million for fiscal years 2012 through 2016.
    VA supports the objective of S. 935, to improve outreach 
initiatives. However, we believe VA's existing programs and authorities 
are adequate in this regard.
    VA continues to work to improve its outreach services. VA's program 
offices and administrations are currently engaged in outreach 
activities similar to those identified in S. 935. Because outreach is a 
critical component of VA's mission, and in light of its current 
efforts, VA would like to continue to build upon its current planned 
strategies and activities to increase and improve its outreach 
initiatives. VA has created a National Outreach Office (NOO), within 
the Office of Intergovernmental and Public Affairs (OPIA), to help 
standardize how outreach is being conducted throughout VA. These 
efforts have resulted in considerable progress in obtaining information 
essential to VA's analysis of its current programs and activities and 
will enable OPIA and NOO to undertake a more efficient and effective 
approach to conduct department-wide outreach in support of VA's major 
initiatives.
    Significant efforts are being made to ensure the effective 
coordination of outreach efforts to Veterans in rural areas. Section 
506 of Public Law 111-163, the Caregivers and Veterans Omnibus Health 
Services Act of 2010, requires VA to provide outreach to Veterans and 
their families about the availability of benefits and connect them with 
appropriate care and benefit programs.
    Through the efforts of OPIA, NOO, and various other VA offices and 
administrations, we believe that VA continues to expand and develop its 
outreach initiatives to reach out to all Veterans. We do not have a 
cost estimate for implementing this bill but will provide it when it is 
available.

                   S. 951, HIRING HEROES ACT OF 2011

    Chairman Murray, we are pleased to provide our views on sections 2, 
3, 4, 5, and 9 of your bill, S. 951, the ``Hiring Heroes Act of 2011,'' 
but respectfully defer to the views of DOD regarding sections 6, 7, and 
12; the Department of Labor (DOL) regarding sections 8, 11, and 13; and 
the Office of Personnel Management (OPM) regarding section 10.
    Section 2 of the bill would extend through 2014 a provision enacted 
in Title XVI of Public Law 110-181, known as the Wounded Warrior Act, 
which authorizes VA to provide rehabilitative services and assistance 
to certain severely disabled active-duty Servicemembers in the same 
manner as provided to Veterans. VA proposed a similar provision in its 
draft Veterans Benefits Improvement Act of 2011, transmitted to the 
Senate on May 19, 2011. While the provisions differ in the length of 
the extension, VA supports section 2.
    Section 3 of the bill would amend section 3116(b)(1) of title 38, 
United States Code, to expand VA's authority to pay employers for 
providing on-job training to Veterans. Under current law, VA is 
authorized to make payments to employers for providing on-job training 
to Veterans who have been rehabilitated to the point of employability 
in certain cases. By removing the requirement that Veterans be 
rehabilitated to the point of employability before VA can make payments 
to employers for providing on-job training, this section would allow VA 
to make these payments to employers for providing on-job training to 
many more Veterans. VA supports this provision. VA estimates benefit 
costs to be $792 thousand for the first year, $4.2 million for five 
years, and $9.1 million over ten years.
    Section 4 of the bill would provide for additional rehabilitation 
programs for persons who have exhausted rights to unemployment benefits 
under state law. Under section 3102 of title 38, United States Code, as 
amended by this section, a person who has completed a chapter 31 
rehabilitation program would be entitled to an additional 
rehabilitation program if the person meets the current requirements for 
entitlement to a chapter 31 rehabilitation program and has, under State 
or Federal law, exhausted all rights to regular compensation with 
respect to a benefit year, has no rights to regular compensation with 
respect to a week, and is not receiving compensation with respect to 
such week under the unemployment compensation law of Canada. In 
addition, the person must begin the additional rehabilitation program 
within 6 months of the date of such exhaustion. Under this section, a 
person would be considered to have exhausted rights to regular 
compensation under a State law when no payments of regular compensation 
can be made under such law because the person has received all regular 
compensation available based on employment or wages during a base 
period, or such person's rights to compensation have been terminated by 
reason of the expiration of the benefit year.
    Section 4 of the bill would also amend section 3105 of title 38, 
United States Code, to limit the period of an additional rehabilitation 
program to 24 months, and sections 3105 and 3695 to exempt Veterans 
pursuing an additional rehabilitation program from certain limits. 
Under current section 3105, a rehabilitation program may not be pursued 
after 12 years after a veteran's discharge or release from active 
service. Under current section 3695(b), assistance under chapter 31 in 
combination with certain other provisions of law is limited to 48 
months. Section 4 of the bill would amend sections 3105 and 3695(b) to 
make these limitations inapplicable to an additional rehabilitation 
program.
    VA supports this provision because it would help VA serve more 
Veterans in need of assistance. VA estimates benefit costs to be $51 
thousand in the first year, $294 thousand for five years, and $724 
thousand over ten years.
    Section 5 of the bill would amend section 3106 of title 38, United 
States Code, to require an assessment and follow-up on Veterans with 
service-connected disabilities who participate in VA training and 
rehabilitation. In addition, section 5 would require VA to ascertain 
the employment status of a participating Veteran and assess his or her 
rehabilitation program not later than 180 days after completion of, or 
termination of, his or her participation in that program, and at least 
once every 180 days thereafter for a period of one year. VA supports 
this provision. We believe that providing follow-up is an important 
endeavor. No benefit costs would be associated with this provision. VA 
estimates administrative costs to be $4.7 million in the first year, 
$24.2 million over five years, and $55 million over ten years. In 
addition, VA estimates that $250 thousand will be needed in FY 2012 to 
develop an IT solution to automate follow up activity.
    Finally, section 9 of the bill would require VA, DOD, and DOL to 
select a contractor to conduct a study to identify equivalencies 
between skills developed by members of the military through various 
military occupational specialties (MOS) and the qualifications required 
for private sector civilian employment positions and report on the 
results of the study. This section would also require Federal 
Government departments and agencies to cooperate with the contractor. 
VA, DOD, and DOL would be required to transmit the report with 
appropriate comments to Congress.
    Section 9 would also require DOD to use the results of the study 
and other information to ensure that each member of the military 
participating in the Transition Assistance Program (TAP) receives an 
assessment of the various private sector civilian employment positions 
for which the member may be qualified as a result the member's MOS. DOD 
would have to transmit the individualized assessment to VA and DOL to 
use in providing employment-related assistance in the transition from 
military service to civilian life and to facilitate and enhance the 
transition.
    VA does not support this provision to enter into a joint contract 
to identify civilian equivalencies of military jobs. Software 
applications that analyze military occupational data and provide 
equivalent civilian jobs currently exist. Therefore, VA believes a 
contract to conduct a study to identify this information is not 
necessary. VA is currently utilizing web software available in the 
public domain that translates military skills to equivalent civilian 
jobs. VA will continue to closely monitor the market place to identify 
software that may improve our ability to identity civilian equivalents 
of military jobs.
    We do not have a cost estimate for implementing this section but 
will provide it when it is available.

   S. 957, VETERANS' TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES 
                        IMPROVEMENTS ACT OF 2011

    In 2008, Congress established several programs targeted at the 
comprehensive rehabilitation of Veterans and members of the Armed 
Services receiving VA care and services for Traumatic Brain Injuries 
(TBI). In general, S. 957 seeks to improve those programs (established 
by 38 U.S.C. Sec. Sec. 1710C-E) by requiring rehabilitative services, 
as defined by the bill and discussed below, to be an integral component 
of those on-going programs. With two exceptions, we have no objection 
to S. 957.
    Currently, the provisions of 38 U.S.C. Sec. 1710C set forth the 
requirements for an individualized rehabilitation and reintegration 
plan that must be developed for each Veteran or member of the Armed 
Forces receiving VA inpatient or outpatient rehabilitative hospital 
care or medical services for a TBI. VA Handbook 1172.04, Physical 
Medicine and Rehabilitation Individualized Rehabilitation and Community 
Reintegration Care Plan, implements section 1710C.
    Section 2(a) of S. 957 would amend some of the mandated 
requirements in section 1710C. Specifically, it would clarify that the 
goal of each individualized plan is to maximize the individual's 
independence and quality of life. It would also require, as part of a 
plan's stated rehabilitative objectives, the sustaining of improvements 
made in the areas of physical, cognitive, and vocational functioning. 
Section 2(a) of the bill would further require that each such plan 
include rehabilitation objectives for improving and sustaining 
improvements in the individual's behavioral functioning as well as 
mental health.
    These amendments would not alter VA's policy or operations in any 
significant way, as VA's primary aim for Veterans with serious or 
severe injuries has always been, and continues to be, maximizing their 
independence, health, and quality of life. It is out of these concerns 
that VA has developed robust rehabilitation therapy programs to help 
them learn or re-learn skills and develop resources for sustaining 
gains made in their rehabilitation.
    Section 2(a) of the bill would require the individual plans to 
include access, as warranted, to all appropriate rehabilitative 
services of the TBI continuum of care. The law now requires these plans 
to provide access, as warranted, to rehabilitative components of the 
TBI continuum of care (which includes, as appropriate, access to long-
term care services).
    Current law also requires that each individualized plan include a 
description of the specific ``rehabilitation treatments and other 
services'' needed to achieve the patient's rehabilitation and 
reintegration goals. Section 2(a) of the bill would replace all 
references to ``treatments'' in the affected provision with 
``services.'' This would ostensibly broaden the scope of rehabilitative 
benefits available to these patients beyond what is deemed to be 
treatment per se.
    It would also add to each plan the specific objective of improving 
(and sustaining improvements in) the patient's behavioral functioning. 
That addition, together with the existing rehabilitation objective to 
improve a patient's cognitive functioning, would effectively encompass 
all relevant mental health issues related to TBI. For that reason, we 
believe the bill's other amendment to separately include a 
rehabilitation objective for improving ``mental health'' would create 
confusion or redundancy. We thus recommend that language be deleted.
    Most notably, section 2(a) of S. 957 would establish a new 
definition of the term ``rehabilitative services,'' for purposes of all 
of VA's specially targeted, statutory programs for TBI-patients (i.e., 
38 U.S.C. Sec. Sec. 1710C-E). Such services would include not only 
those that fall under the current statutory definition found in 38 
U.S.C. 1701 but also ``services (which may be of ongoing duration) to 
sustain, and prevent loss of, functional gains that have been 
achieved.'' Plus, they would include ``any other services or supports 
that may contribute to maximizing an individual's independence and 
quality of life.'' This last definition is overly broad and could be 
read to include services or items well beyond the field of health care. 
It is also unworkable. What maximizes an individual's ``quality of 
life'' is highly subjective, and, as such, the term defies consistent 
interpretation and application. Quite simply, we believe enactment of 
that last provision of the proposed new definition would conflict with, 
and exceed, our primary statutory mission, which is to provide medical 
and hospital care. It should therefore be deleted, leaving only the 
first two prongs of the definition.
    Next, as briefly alluded to above, the individualized 
rehabilitation and reintegration plans required by section 1710C must 
include access, where appropriate, to long-term care services. The 
eligibility and other requirements of VA's mandated comprehensive 
program of long-term care for the rehabilitation of post-acute TBI are 
found in 38 U.S.C. Sec. 1710D. Section 2(b) of S. 957 would require the 
Secretary to include rehabilitative services (as that term would be 
defined by Sec. 2(a) of the bill) in the comprehensive program. It 
would also eliminate the word ``treatment'' in the description of the 
interdisciplinary teams to be used in carrying out that program. We 
have no objection to this proposed revision.
    Last, Congress authorized VA, under specified circumstances, to 
furnish hospital care and medical services required by an 
individualized rehabilitation and reintegration plan through a 
cooperative agreement. (A cooperative agreement may be entered only 
with an appropriate public or private entity that has established long-
term neurobehavioral rehabilitation and recovery programs.) This 
authority is found at 38 U.S.C. 1710E. Section 2(c) of S. 957 would add 
``rehabilitative services'' (again as defined by Sec. 2(a) of the bill) 
to the types of services that may be provided under those agreements. 
We have no objection to this proposed revision.
    Section 2(d) of S. 957 is merely a technical amendment to correct a 
typographical error in section 1710C(c)(2)(S) of title 38, United 
States Code. We would also like to point out another technical issue. 
Current law permits inclusion of ``educational therapists'' among the 
TBI-experts responsible for conducting a comprehensive assessment of 
each patient. (It is this assessment which serves as the basis for the 
individualized plans discussed above.) This categorization of 
professionals is no longer used in the field of medical rehabilitation.
    Aside from the two (substantive) modifications discussed above 
(deleting the phrase ``any other services or supports that may 
contribute to maximizing an individual's independence and quality of 
life'' from the new definition of the term ``rehabilitative services,'' 
and deleting the bill's amendment to separately include a 
rehabilitation objective for improving ``mental health''), we have no 
objection to S. 957, and no new costs would be associated with its 
enactment.

         S. 1148, THE VETERANS PROGRAMS IMPROVEMENT ACT OF 2011

    On June 6, Chairman Murray introduced S. 1148, the Veterans 
Programs Improvement Act of 2011. We note that the bill carries many 
provisions proposed by the Administration, in its draft Veterans 
Benefits Improvement Act of 2011, transmitted to the Senate on May 19, 
2011. We have not had the opportunity to review the bill closely 
regarding its technical aspects, but we offer here our support of the 
general intent of those provisions, and VA's appreciation for your 
including them for consideration. We believe they are very worthy of 
the Committee's endorsement. We also look forward to reviewing the 
other titles of the bill which address VA's programs to combat 
homelessness as well as VBA's fiduciary program.

    This concludes my prepared statement. Madam Chairman, we would be 
pleased to respond to whatever questions you may have.
                                 ______
                                 
        Additional Views from Hon. Eric K. Shinseki, Secretary, 
                  U.S. Department of Veterans Affairs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                         The Secretary of Veterans Affairs,
                                     Washington, DC, June 28, 2011.
Hon. Patty Murray,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Madam Chairman: The agenda for the Senate Committee on 
Veterans Affairs' June 8, 2011, legislative hearing included a number 
of bills that the Department of Veterans Affairs was unable to address 
in our testimony. We are aware of the Committee's interest in receiving 
our views on those bills in advance of the June 29 mark-up. By this 
letter, we are providing our views and cost estimates on S. 411, 
S. 491, S. 914, S. 1017, sections 202 and 305 of S. 1060, S. 1104, 
S. 1127, and titles I and III of S. 1148. We will provide views on the 
remaining bills in a separate letter.
    This Office of Management and Budget advises that there is no 
objection to the submission of this letter from the standpoint of the 
Administration.
    We appreciate this opportunity to comment on this legislation and 
look forward to working with you and the other Committee Members on 
these important legislative issues.
            Sincerely,
                                           Eric K. Shinseki

  Enclosure.

                               Enclosure 
                                VA Views

          S. 411 ``HELPING OUR HOMELESS VETERANS ACT OF 2011''

    S. 411 would authorize VA to enter into agreements with certain 
entities to collaborate in the provision of case management services as 
part of the HUD-Veterans Affairs Supportive Housing (HUD-VASH) program. 
In addition, S. 411 would require the Department of Veterans Affairs 
(VA), in consultation with the Department of Housing and Urban 
Development (HUD), to ensure that the distribution of vouchers to 
Veterans under the HUD-VASH program meets the needs of Veterans in 
rural areas and underserved Veterans in metropolitan areas or on Indian 
lands. This bill would expand VA's existing authority to provide case 
management services and collaborate with other entities. VA supports 
this bill, although we do have one technical comment and a suggestion 
for improving this bill.
    S. 411 specifically authorizes VA to enter into these agreements 
with tribal organizations. However, tribal lands do not have public 
housing agencies and because public housing agencies are the sole 
mechanism for issuing section 8 Housing Choice Vouchers to Veterans, 
S. 411 would not expand the HUD-VASH program to Veterans living on 
Indian lands. We note that there are other HUD programs available to 
Veterans on Indian lands.
    In order to maximize care coordination and to implement and sustain 
a shared case management model that supports permanent housing, VA 
proposes including a provision in S. 411 to authorize VA to provide 
Technical Assistance (TA) to community partners. TA would focus on 
compliance with documentation and program evaluation standards, 
implementing best practices strategies to coordinate with VA treatment, 
and other supportive services that promote rapid access and sustainment 
of permanent supportive housing. TA would also support site visits for 
monitoring and promoting the coordination and creation of shared 
learning communities, as well as the development of webinars that teach 
shared best practices. TA would encourage a ``Housing First'' treatment 
intervention for homeless Veterans by targeting the chronic homeless 
and the most vulnerable Veterans. Money management and addressing unmet 
health care needs of homeless Veterans are other essential components 
that TA would further enhance. Through these efforts, VA will continue 
to work with local public housing agencies and support interventions 
with homeless Veterans in crisis by utilizing motivational interviewing 
to promote treatment.
    VA estimates that there would be no costs associated with 
implementing S. 411. If S. 411 is amended to include a provision 
authorizing VA to provide technical assistance, VA anticipates the cost 
associated with this bill would be $300,000 in fiscal year (FY) 2012 
and $750,000 over the next three fiscal years. VA only anticipates the 
need for additional funds for technical assistance for the first three 
fiscal years. After that, VA believes the costs could be rolled into 
the homeless program's operating budget.

     S. 491 ``HONOR AMERICA'S GUARD-RESERVE RETIREES ACT OF 2011''

    S. 491 would add to chapter 1, title 38, United States Code, a 
provision to honor as Veterans, based on retirement status, certain 
persons who performed service in reserve components of the Armed Forces 
but who do not have qualifying service for Veteran status under 38 
U.S.C. 101(2). The bill provides that such persons would be ``honored'' 
as Veterans, but would not be entitled to any benefit by reason of the 
amendment.
    Under 38 U.S.C. 101(2), Veteran status is conditioned on the 
performance of ``active military, naval, or air service.'' Under 
current law, a National Guard or Reserve member is considered to have 
had such service only if he or she served on active duty, was disabled 
or died from a disease or injury incurred or aggravated in line of duty 
during active duty for training, or was disabled or died from an injury 
incurred or aggravated in line of duty or from an acute myocardial 
infarction, a cardiac arrest, or a cerebrovascular accident during 
inactive duty training. S. 491 would eliminate these service 
requirements for National Guard or Reserve members who served in such a 
capacity for at least 20 years. Retirement status alone would make them 
eligible for Veteran status.
    VA recognizes that the National Guard and Reserves have admirably 
served this country and in recent years have played an important role 
in our Nation's overseas conflicts. Nevertheless, VA does not support 
this bill because it represents a departure from active service as the 
foundation for Veteran status. This bill would extend Veteran status to 
those who never performed active military, naval, or air service, the 
very circumstance which qualifies an individual as a Veteran. Thus, 
this bill would equate longevity of reserve service with the active 
service long ago established as the hallmark for Veteran status.
    VA estimates that there would be no additional benefit or 
administrative costs associated with this bill if enacted.

             S. 914 TO AUTHORIZE WAIVER OF COPAYMENTS FOR 
                      TELEHEALTH AND TELEMEDICINE

    S. 914 would add a new section to title 38, U.S.C., that would 
authorize VA to waive copayment requirements for Veterans' telehealth 
and telemedicine visits. VA opposes this legislation because it would 
create an inequity in billing practices for services provided to 
Veterans. We believe it would be inappropriate to waive copayments for 
Veterans who receive telehealth services at a VA facility while 
Veterans who see their VA provider in person in the same facility would 
be charged a copayment.
    Under existing authority, no Veteran is charged a copayment for 
telephone calls, since in many cases they are used simply as a means to 
check on the progress of a Veteran, not to deliver care. VA believes 
the use of video consultation into the home is analogous to that of a 
telephone call and that copayments for clinical video telehealth 
services provided directly into a patient's home should be considered 
for exclusion from copayments. VA plans under its existing authority 
(38 U.S.C. 1710(g)) to exempt copayments for video consultations when 
the Veteran is located at his or her home.
    Recent VA experience demonstrates that copayments for home-
telehealth may have resulted in a reduced use of this intervention. To 
ensure convenient and cost effective care to populations of patients 
who will otherwise delay care and incur larger costs from emergency 
room visits and hospital admissions, VA will take the appropriate 
action to exempt copayments for in-home video telehealth care for 
Veterans. Because VA already has the authority to waive or modify the 
imposition of copayments for such care, legislation is not required.
    If copayments are not collected for all telehealth or telemedicine 
services, VA estimates a revenue loss of $2.2 million in FY 2012, $18.0 
million over 5 years, and $72.9 million over 10 years.

 S. 1017 ``DISABLED VETERAN CAREGIVER HOUSING ASSISTANCE ACT OF 2011''

    S. 1017 would increase the amount of Specially Adapted Housing 
(SAH) assistance available to disabled Veterans who reside temporarily 
in housing owned by family members, and would also expand SAH 
eligibility for the visually impaired. Provided Congress identifies 
appropriate and acceptable offsetting PAYGO cost savings, VA supports 
this legislation.
    Section 2 of the bill would amend 38 U.S.C. 2102A, SAH assistance 
for disabled Veterans and Servicemembers who reside temporarily in 
housing owned by a family member. In general, subsection (a) would 
increase, from $14,000 to $28,000, the amount of assistance available 
for individuals eligible for SAH grants under section 2101(a), and 
would increase the amount from $2,000 to $5,000 for individuals 
eligible for SAH grants under section 2101(b). Subsection (b) would 
eliminate the December 31, 2011, termination date currently in effect, 
and make such assistance permanent. Subsection (c) would tie the newly 
increased amounts to the same cost-of-construction index as that 
authorized for grants made pursuant to sections 2101(a) and 2101(b), 
meaning that the grants would adjust upwards with the costs of 
inflation.
    We note that both this section and sections 303 and 304 of S. 1148 
would make similar improvements to section 2102A. The relevant sections 
of S. 1148 would extend the authority of assistance for individuals 
residing temporarily in housing owned by a family member through 2021 
and would implement a cost-of-construction index. These provisions are 
substantively the same as sections 306 and 307 of VA's draft bill, the 
``Veterans Benefits Programs Improvement Act of 2011.'' VA supports 
both of these provisions.
    Section 3 would amend 38 U.S.C. 2101(b) to expand SAH eligibility 
for the visually impaired. Under current law, an individual is not 
eligible for what is commonly called a ``2101(b) grant'' unless his or 
her visual acuity is 5/200 or less, an exceptionally stringent standard 
in comparison to other areas of law. Many grant applicants who are 
considered legally blind by other commonly-held standards are 
ineligible for 2101(b) grants because their visual impairments, though 
profound, are not severe enough to meet the standard set under current 
law. For example, under the Social Security Administration's 
eligibility standards for supplemental security income (SSI), 
individuals are considered legally blind with visual acuity of 20/200 
or less, or a peripheral field of vision of 20 degrees or less. 
Additionally, VA's Servicemembers' Group Life Insurance Traumatic 
Injury Protection Program's eligibility standard related to visual 
acuity is ``20/200 or less.'' However, since the standard for 
``blindness'' for the 2101(b) grant is ``5/200 visual acuity or less,'' 
a Veteran or Servicemember who is legally blind for purposes of SSI or 
VA life insurance would not be eligible for a 2101(b) grant.
    By establishing a qualifying degree of blindness at visual acuity 
of 20/200 best-corrected visual acuity or less, or as a field of vision 
subtending an angle of 20 degrees or less, the bill would bring the SAH 
requirements in line with more commonly recognized standards. It would 
also make the 2101(b) grant available to a wider range of Veterans and 
Servicemembers, including those who use rehabilitative low-vision 
adaptive medical devices.
    Section 4 of S. 1017 would no longer count grants authorized under 
38 U.S.C. 2102A (commonly referred to as ``TRA grants'') against the 
aggregate dollar amount of SAH assistance available to eligible 
individuals. Under current law, an eligible individual may receive up 
to three grants of SAH assistance totaling in aggregate not more than 
$63,780 for a 2101(a) grant or $12,756 in the case of a 2101(b) grant. 
If an individual receives a TRA grant, the amount is subtracted from 
the total amount of assistance available, leaving him or her with fewer 
funds for future adaptations to a permanent residence.
    If section 4 were enacted, a veteran who had previously adapted a 
family member's residence using a TRA grant would be able to adapt his 
or her own permanent residence as if the TRA grant funds had not been 
used. Although the TRA grant would still count as one of the three 
allowable uses, it would not reduce the amount of assistance available 
for a grant authorized under section 2101(a) or 2101(b).
    VA estimates benefits costs of enactment to be $3.4 million in the 
first year, $13.0 million over five years, and $20.6 million over ten 
years. VA does not identify any increase in General Operating Expense 
(GOE) cost associated with these provisions.

             S. 1060 ``HONORING ALL VETERANS ACT OF 2011''

Section 202
    Section 202 would dramatically change VA's Grant and Per Diem (GPD) 
program, which has been a key factor in reducing Veteran homelessness. 
The GPD Program is designed to support transitional housing for 
Veterans. VA generally supports the spirit of the section, but is 
apprehensive that this legislation will result in policy problems and 
lead to significantly higher costs.
    Currently, payments to eligible programs receiving grants to 
provide services to homeless Veterans are made on a per diem basis. 
Section 202(a)(2)(A) would eliminate all references to ``per diem'' in 
38 U.S.C. 2012 and change the basis of grants from the ``daily cost of 
care'' to the ``annual cost of furnishing services.'' It would also 
remove the prohibition on VA providing a rate in excess of the rate 
authorized for State domiciliaries and grant the Secretary the 
discretion to set a maximum amount payable to grant recipients.
    Section 202(a)(2)(B) would direct the Secretary to adjust the rate 
of payment to reflect anticipated changes in the cost of furnishing 
services and take into account the cost of services in different 
geographic areas. Section 202(a)(2)(C) would remove the requirement 
that the Secretary consider other available sources of funding and 
would leave it to his or her discretion. Section 202(a)(2)(E) would 
require the Secretary to make quarterly payments based on the estimated 
annual basis and would require recipients to declare the actual amount 
paid by quarter for services and repay any outstanding balances if the 
amount spent by the recipient is less than the estimated quarterly 
disbursement. Similarly, if recipients spend more than the estimated 
amount, determined on a quarterly basis, the Secretary would be 
required to make an additional payment equal to that sum. It would 
limit payment to recipients to the amount of the annual payment as 
determined by the Secretary. Section 202(a)(3) would allow grant 
recipients to use VA grants to match other payments or grants from 
other providers. Finally, section 202(a)(4) would repeal a 
``grandfather'' provision extending the time period for certain 
grantees to satisfy applicable requirements of the Life Safety Code of 
the National Fire Protection Association, as this provision expired in 
December 2006.
    Although VA is not opposed to the concept of making its per diem 
authorities more flexible to better reflect the actual cost of 
providing services, especially in different geographic regions, VA is 
currently evaluating the impact of shifting from the ``per diem'' or 
``daily cost of care'' approach to an ``annual cost of furnishing 
services'' paid and reconciled on a quarterly basis. Though this change 
may offer VA's partners needed capital and funds at the beginning of 
the fiscal year to support their work, it would require significantly 
more detailed auditing as well as increased direct oversight by VA. 
Furthermore, the requirement in section 202(a)(2)(E), to reconcile 
payments each quarter, would allow more immediate accounting of unpaid 
balances and/or over-billings; however, this approach would impose 
significant administrative burdens, requiring VA to monitor and process 
GPD provider accounts nationwide. VA would welcome the opportunity to 
discuss these issues with Congress but asks that section 202 be 
deferred until VA can fully evaluate its impact.
    VA does not oppose removing the existing rate cap pursuant to 
section 202(a)(2)(B). Currently, the statute limits VA's GPD per diem 
payments to the rate for state domiciliary care. The difference between 
what VA pays and the actual cost of expenditures is absorbed by the 
provider. Allowing the Secretary to establish the basis and the formula 
for payment based on cost and geographic location would increase the 
sustainability of community-based providers and promote increased and 
more comprehensive services for Veterans.
    Although section 202 would no longer require the Secretary to 
consider the availability of other sources of income for grant 
recipients, the Secretary would in all likelihood consider the 
availability of other funds when evaluating a grant application. GPD 
Program Office experience has shown that the availability of other 
sources of income is often an indicator of a viable GPD project.
    VA supports the authorization in section 202(a)(2)(D) for VA 
operational payments to be used in conjunction with grants from other 
federal programs. The purpose of the payment contained in 38 U.S.C. 
2012 is to pay for operational costs for a specific program operation.
    VA estimates the cost of this section to be $450.0 million in the 
first year, $2.8 billion over 5 years and $6.9 billion over 10 years.
Section 305
    Section 305 would authorize VA to disclose information about 
Veterans and their dependents to State prescription monitoring programs 
to the extent necessary to prevent misuse and diversion of prescription 
medications. VA supports section 305 of this bill. It would enhance the 
ability of VA clinicians to provide treatment to VA beneficiaries by 
improving the visibility of both VA and non-VA prescriptions for 
controlled substance medications. VA estimates the cost associated with 
implementing this section would be $361,501 in FY 2012, $1.3 million 
over 5 years, and $2.4 million over 10 years.

         S. 1104 ``VETERAN TRANSITION ASSISTANCE PROGRAM AUDIT 
                             ACT OF 2011''

    S. 1104 would require the Department of Labor to contract for 
audits of the Transition Assistance Program. We defer to the 
Departments of Labor and Defense for views on this bill.

S. 1127 CENTERS OF EXCELLENCE FOR RURAL HEALTH RESEARCH, EDUCATION, AND 
                          CLINICAL ACTIVITIES

    Section 2(a) of S. 1127 would require the Secretary to establish 
and operate at least one and not more than five centers of excellence 
for rural health research, education, and clinical activities through 
the Director of the Office of Rural Health. These centers would be 
geographically dispersed and would be established to: 1) conduct 
research on the furnishing of health services in rural areas; 2) 
develop specific models to be used by the Department in furnishing 
health services to Veterans in rural areas; 3) provide education and 
training for health care professionals of the Department on the 
furnishing of health services to Veterans in rural areas; and 4) 
develop and implement innovative clinical activities and systems of 
care for the Department for the furnishing of health services to 
Veterans in rural areas. The activities of clinical and scientific 
investigation at each center would receive priority in the award of VA 
funds for medical and prosthetics research to the extent that these 
funds are awarded to projects for research in the care of rural 
Veterans. Section 2(c) would also recognize that there are Veterans 
rural health resource centers which serve as satellite offices of the 
Office of Rural Health.
    VA supports section 2(c), but opposes section 2(a). The Office of 
Rural Health (ORH) currently supports rural program resource centers 
and implements research initiatives that are largely duplicative of the 
activities proposed for the Centers of Excellence. Specifically, ORH 
currently funds three Veterans Rural Health Resource Centers (VRHRC). 
These Centers function as field-based clinical laboratories for 
demonstration projects. A number of these projects are focused on 
developing models of care, as well as the implementation of innovative 
clinical practices and systems of care. VRHRC staff members also serve 
as rural health experts for the field. They provide training and 
education to VA and non-VA service providers caring for rural Veterans. 
ORH also supports VISN Rural Consultants (VRCs). In each VISN, there is 
a VRC who serves as the primary interface between ORH and VISN rural 
activities. The VRCs work closely with internal and external 
stakeholders to introduce, implement, and evaluate ORH-funded projects. 
The VRCs are also instrumental in conducting outreach to develop strong 
partnerships with community members, state agencies, rural health 
providers, and special interest groups. Since being established, ORH 
has funded well over 500 projects across the VA health care system. 
These projects cover a wide range of areas, including education, home 
based primary care, long-term care, mental health, case management, 
telehealth, primary care, and specialty care.
    ORH is funded by Medical Services appropriations, which cannot be 
used to conduct research. Rather ORH supports demonstration and pilot 
projects. ORH has established partnerships within VA, namely VA Health 
Services Research & Development (HSR&D), to conduct relevant rural 
health research.
    ORH has already committed considerable resources to implementing 
and evaluating models of care in rural areas, developing and providing 
education to rural providers, and developing innovative clinical 
activities and systems of care. Although ORH does not conduct research, 
collaborations with HSR&D have allowed for ORH to be involved in rural 
health research activities. Furthermore, HSR&D currently has a very 
extensive rural health portfolio including studies on access, health 
disparities, and developing new models of care appropriate for rural 
areas. The research findings are then shared with ORH and are used to 
form rural health policies and programs. Funding the proposed Centers 
of Excellence would be duplicative of activities that are already being 
addressed.
    If this bill provision is passed, it would be more cost effective 
to add this function in our existing VRHRCs rather than to establish 
three new Centers of Excellence.
    VA estimates the cost of adding a research component to each of the 
three existing VRHRCs to be $3 million dollars per year. However, VA 
estimates the cost of establishing three new independent and separate 
Centers of Excellence to be $7.5 million dollars per year.

         S. 1148 ``VETERANS PROGRAMS IMPROVEMENT ACT OF 2011''

                   TITLE I--HOMELESS VETERANS MATTERS
Section 101
    Section 101(a) would amend 38 U.S.C. 2011(a) by expanding the kinds 
of projects for which grants are available to include the new 
construction of facilities. Section 101(a)(3)(A) would also amend 
section 2011(c) to prohibit the Secretary from denying a grant 
application based only on the fact that an entity proposes to use 
funding from other private or public sources, as long as a private 
nonprofit organization will provide oversight and site control for the 
project. Section 101(a)(3)(B) would also define the term private non-
profit organization to include a for profit limited partnership or 
limited liability corporation whose managing or general partner is a 
non-profit as defined under this section.
    Section 101(b) would also require the Secretary to conduct a study 
of the method used to make per diem payments under 38 U.S.C. 2012 and 
develop an improved method for reimbursing grants under section 2011. 
The Secretary would be required to submit a report of the findings 
within a year after enactment of this bill.
    Last, section 101(c) would amend 38 U.S.C. 2013 to increase the 
amount authorized to be appropriated to $250,000,000 for FY 2012 and 
each fiscal year thereafter.
    VA does not support the provisions of section 101(a)(3)(B) and has 
concerns about section 101(c), but supports section 101(b). Section 
101(a)(3)(B) would amend the definition of private nonprofit 
organization, to include a private nonprofit organization ``that has 
received, or has temporary clearance to receive, tax-exempt status 
under * * * section 501(c) of the Internal Revenue Code of 1986 * * *'' 
as well as allow additional entities to become eligible for grants 
under the Grant and Per Diem (GPD) Program.
    VA believes that the ``temporary clearance'' proposed in this 
subsection does not adequately ensure the capability of the grant 
applicant to administer federal funds. This change would void the 
reason for the final determination by the Internal Revenue Service 
(IRS) as to organizational suitability for nonprofit status, increasing 
the risk that unsuitable grant applicants would apply for GPD projects. 
Furthermore, the ``temporary clearance'' provision is not needed 
because the IRS can expedite applications for tax-exempt status.
    Additionally, VA does not believe section 501(c)(2) entities should 
be included in the definition of a private nonprofit organization. In 
general, section 501(c)(2) provides a tax-free means of managing and 
protecting real estate and other assets. Inclusion of a section 
501(c)(2) organization in the definition of a ``nonprofit 
organization'' does not seem necessary.
    VA also finds the inclusion of sections 101(a)(3)(B)(ii) and 
101(a)(3)(B)(iii) unnecessary and potentially burdensome. Under the 
present statute, 38 U.S.C. 2011, eligible applicants include nonprofit 
organizations, state or local government agencies, or Indian tribal 
governments. Additionally, IRS rules allow under the definition of 
organization, limited liability corporations to apply for section 
501(c)(3) status. Consequently there is no need to specifically include 
limited liability companies in the statutory definition of a 
``nonprofit organization.''
    VA has no objection to the section 101(b)'s requirement to conduct 
a study and develop a payment method under 38 U.S.C. 2011 and 2012; 
however, VA proposes that Congress grant VA more than one year to 
conduct the study and provide the report to Congress. Based on past 
program office experience, it is generally not feasible to analyze 
findings, implement changes, draft findings, and report to Congress 
within one year after the date of the enactment. VA estimates the study 
proposed in section 101(b) would cost approximately $300,000.
    VA supports in principle raising the authorized appropriation 
amounts in section 101(c) but has concerns about the proposed annual 
appropriation level. VA estimates that the proposed maximum annual 
authorization level of $250 million would be inadequate for this 
important program after fiscal year 2015. We recommend that a specific 
authorization funding level be dropped from the statute.
    VA estimates that there would be no additional costs associated 
with this provision as the budget through FY 2013 includes the program.

Section 102
    Section 102 would amend 38 U.S.C. 2061 by expanding eligibility for 
the grant program to entities eligible for grants and per diem payments 
under sections 2011 and 2012 of title 38. It would also broaden the 
definition of homeless Veterans with special needs to include any 
Veteran who cares for minor dependents, not just women. Last, this 
section would allow recipients of grants under section 2061 to use 
grant amounts to provide services directly to a dependent of a homeless 
Veteran if the Veteran is receiving services from the recipient.
    In principle, VA supports section 102 and agrees that modifications 
are needed to fully realize the potential of special needs grants 
through the GPD Program. Specifically, VA has no objection to the 
inclusion of subparts (a), (b), and (c) in section 102. However, VA 
believes the modifications as written are insufficient to adequately 
meet the needs of the special needs population presently served by the 
GPD Program.
    VA respectfully suggests that the Committee consider the language 
in sections 303 to 305 of VA's draft bill, the ``Veterans Health Care 
Act of 2011,'' which was transmitted to Congress on June 7, 2011, 
relating to GPD special needs grants. These provisions would amend 38 
U.S.C. 2061 and also create a new section for establishment of per diem 
programs for homeless Veterans with special needs. VA considers the 
language in Title III, sections 303-305 of VA's draft bill an effective 
way to meet the needs of the special needs population served by GPD 
Program grants.
    We will provide costs associated with implementing this section as 
soon as they are available. If section 102 is amended to contain the 
proposed special needs amendments in sections 303 through 305 of VA's 
draft bill, the costs would be $15.2 million in FY 2012, $79.9 million 
over 5 years, and $217.7 million over 10 years.

Section 103
    Section 103 would amend 38 U.S.C. 2031(a) by authorizing VA to 
provide services listed in section 2031 to homeless Veterans, 
regardless of whether such Veterans suffer from serious mental illness 
(SMI). VA fully supports the draft bill language in section 103. In the 
drive to end homelessness among Veterans, VA recognizes the need to 
provide homeless Veterans with emergency housing, case management 
services, and outreach services. Consequently, VA fully supports 
removing the requirement in 38 U.S.C. 2031 that a Veteran must have a 
co-occurring SMI before receiving Health Care for Homeless Veterans 
(HCHV) program services.
    While co-occurring disorders such as SMI have traditionally been 
the markers of homelessness among Veterans and have been well 
documented in relevant research, conditioning the provision of services 
on the existence of SMI unnecessarily limits the scope of services to 
thoroughly address the condition of homelessness.
    HCHV program field experience has shown that there are many 
Veterans who are homeless for reasons other than mental health-related 
issues. Therefore, expanding the scope of 38 U.S.C. 2031 would allow VA 
to better reach and serve Homeless Veterans.
    VA estimates the cost of this section to be $3.5 million in the 
first year, $19.1 million over 5 years and $42.1 million over 10 years.

Section 104
    Section 104 of S. 1148 would require VA to submit to Congress a 
comprehensive plan to end homelessness among Veterans. VA does not 
support this provision because VA has already formulated and is 
presently implementing a comprehensive strategic plan to end Veteran 
homelessness. VA's Plan to End Homelessness Among Veterans Initiative 
is built upon six strategies: Outreach/Education, Treatment, 
Prevention, Housing/Supportive Services, Income/Employment/Benefits and 
Community Partnerships. These six strategies encompass a wide continuum 
of interventions and services to prevent and end homelessness among 
Veterans. Homeless Veterans will benefit from the expansion of existing 
program capacity and treatment services, as well as the implementation 
of new programs focused on homelessness prevention and increased access 
to permanent housing with supportive services. Although the provision 
of safe housing is fundamental, programming will include mental health 
stabilization, substance use disorder treatment services, enhancement 
of independent living skills; vocational and employment services, and 
assistance with permanent housing searches and placement. VA does not 
anticipate any additional costs associated with implementing section 
104.

Section 105
    VA fully supports section 105(a) that would extend authority for 
the Health Care for Homeless Veterans (HCHV) Program through 
December 31, 2014. The HCHV Program, as authorized by 38 U.S.C. 2031, 
allows VA to provision care and services to homeless Veterans suffering 
from serious mental illness (SMI). Specifically, the HCHV Program 
provides emergency housing, outreach services, and case management 
services. This authority has been extended several times since 
November 21, 1997. The most recent extension of this authority was from 
December 31, 2006 through December 31, 2011.
    As an essential component of VA's Plan to End Homelessness Among 
Veterans, VA fully supports any effort to extend this important 
authority.
    VA also supports section 105(b) that would amend 38 U.S.C. 2033 to 
extend by an additional three years until December 31, 2014, VA's 
authority to expand and improve benefits to homeless Veterans. Section 
2033 authorizes VA, subject to appropriations, to operate a program to 
expand and improve the provision of benefits and services to homeless 
Veterans. The program includes establishing sites under VA jurisdiction 
to be centers for the provision of comprehensive services to homeless 
Veterans (also known as Community Resource and Referral Centers 
(CRRCs)). This authority has been extended several times since 
November 21, 1997. The most recent extension of this authority was from 
December 31, 2006 through December 31, 2011. CRRCs are an important 
component of VA's Plan to End Homelessness Among Veterans, and VA fully 
supports any effort to extend this authority.
    VA estimates there would be no additional costs associated with 
these provisions.
    Subsection (c) of section 105 would extend through December 31, 
2014, the Secretary's authority to enter into agreements with non-
profit organizations for the purpose of selling, leasing, or donating 
homes acquired through the guaranteed loan program. VA supports this 
provision. Under current law, 38 U.S.C. 2041, this authority is set to 
expire on December 31, 2011. The proposed extension would allow VA to 
continue using homes acquired through the guaranteed loan program to 
help provide shelter to homeless Veterans.
    VA estimates that enactment of section 105(c) will result in no 
additional costs.
    Section 105(d) would amend 38 U.S.C. 2066 to extend Congressional 
authority to continue the Advisory Committee for Homeless Veterans for 
an additional two years until December 30, 2013. This Committee was 
Congressionally-mandated by Public Law 107-95. The mission of the 
Committee is to provide advice and make recommendations to the 
Secretary on issues affecting homeless Veterans and determine if VA and 
other programs and services are meeting the needs of homeless Veterans. 
VA has implemented many of the Committee's recommendations through 
policy and regulatory changes to enhance access and services for 
homeless Veterans.
    The costs associated with the Advisory Committee were $114,000 in 
FY 2010 and we estimate an increase in 3 to 5 percent in the additional 
two years of operation for hotel room, air travel, and meeting space.

Section 106
    VA supports section 106 which would re-authorize appropriations for 
the Department of Labor's (DOL) Homeless Veterans Reintegration Program 
(HVRP) for fiscal years 2012 and 2013. HVRP is a grant program intended 
to assist homeless Veterans rejoin the workforce. Grantees provide 
homeless Veterans with job training and employment placement 
assistance, as well as related supportive services such as transitional 
housing, transportation and referral to treatment services. In Fiscal 
Year 2011, DOL used HVRP funds to restart its Incarcerated Veterans 
Transition Program (IVTP), under which grantees provide HVRP services 
to Veterans reentering their communities from prison or jail. HVRP 
grantees conduct regular outreach to identify homeless Veterans, and 
often refer them to VA for health care. Veterans ineligible for 
services from the Veterans Health Administration may often be able to 
access needed services through HVRP. The HVRP program, especially the 
IVTP component, is therefore an extremely valuable, complementary 
resource for VHA Justice Program's staff. Reauthorization will 
contribute to achieving VA's Plan to End Homelessness Among Veterans.
    Reauthorization would be cost-neutral for VA. VHA Justice Programs 
staff coordinate with HVRP grantees and serve the Veterans they refer 
to VA, but these staff are funded under separate authority.

Section 107
    Section 107 would amend 38 U.S.C. 2044(e) to extend VA's authority 
to provide financial assistance to entities approved to provide and 
coordinate the provision of supportive services for very low-income 
Veteran families occupying permanent housing to fiscal year 2012. 
Section 107 would also make available $100 million from the amounts 
appropriated to the Department of Medical Services to carry out section 
2044. Last, this provision makes a technical amendment to correct a 
grammatical error in subsection 2044(e).
    Although VA fully supports the reauthorization of appropriations 
for the Supportive Services for Veteran Families (SSVF) Program under 
section 107, VA respectfully suggests that the Committee consider the 
language in section 306 of VA's draft bill, the ``Veterans Health Care 
Act of 2011,'' which was transmitted to Congress on June 7, 2011. 
Section 306 would extend Congressional authority to continue the SSVF 
Program permanently. Additionally, beginning in fiscal year 2014, VA 
would be authorized to fund the program with the amounts deemed 
necessary. This modification would give VA maximum flexibility to 
redirect resources to prevention efforts as the VA's Plan to End 
Homelessness Among Veterans reduces the overall number of homeless 
Veterans.
    The current statute authorizes funding for the SSVF Program through 
the end of fiscal year 2011. However, at the current level of funding, 
VA can only provide approximately 85 grants nationwide, leaving 
significant areas of the country, both urban and rural, without 
services.
    The SSVF Program is the only VA homeless program that is national 
in scope that can provide direct services to both Veterans and their 
family members. Recent Community Homelessness Assessment, Local 
Education and Networking Groups (CHALENG) reports indicate that 
homeless and formerly homeless Veterans consider family concerns as 
their highest unmet need. Additionally, homeless prevention is one of 
the key strategies in eliminating Veteran homelessness. Currently, 
approximately 1.3 million Veterans live in poverty. Estimates from the 
2009 Annual Homelessness Assessment Report (AHAR) indicate that ten 
percent of all Veterans in poverty will become homeless at some point 
during the year. Prevention services are critical to reducing this 
incidence of homelessness. Continued authorization of the SSVF Program 
would allow VA to serve over 20,000 Veteran families in FY 2012. As the 
SSVF Program is one of the cornerstones of VA's Plan to End 
Homelessness Among Veterans and the Federal Strategic Plan to Prevent 
and End All Homelessness, its reauthorization at levels that allow for 
national access is critical to the success of both efforts.
    The cost of the SSVF program is contained in the current VHA 
Homeless Veteran program budgets so there are no additional cost 
associated with this section.

Section 108
    Pursuant to 38 U.S.C. 2061, VA makes grants for homeless Veterans 
with special needs to VA health care facilities and GPD providers. The 
``grants'' to GPD providers are in the form of supplemental per diem 
payments for additional operating expenses not covered by per diem 
payments under the GPD program. The section 2061 grant authority 
expires on September 30, 2011.
    Section 108 which would amend 38 U.S.C. 2061 to extend by an 
additional 2 years, until December 31, 2013, VA's authority to offer 
grants to health care facilities and grant and per diem providers for 
the development of programs for homeless Veterans with special needs. 
Veterans with special needs are those who are: women, including women 
who have care of minor dependents; frail, elderly; terminally ill; or 
chronically mentally ill.
    VA supports section 108, however respectfully requests that the 
Committee consider adopting the language found in section 303 of VA's 
draft bill, the ``Veterans Health Care Act of 2011,'' which was 
transmitted to Congress on June 7, 2011, which would grant permanent 
authority to offer capital grants for homeless Veterans with special 
needs.
    VA estimates the costs associated with this section to be $5 
million for the first fiscal year and $10 million over two years.

          TITLE III--OTHER ADMINISTRATIVE AND BENEFITS MATTERS

Section 301
    Section 301 would amend 38 U.S.C. 3704(c) to allow a Veteran's 
dependent child to satisfy the occupancy requirements of VA home loans. 
Currently, only a Veteran or a Veteran's spouse may satisfy the 
requirement, which means that a single parent on active duty may be 
prevented from obtaining a VA-guaranteed loan. The proposed change 
would make it easier for those serving in the Armed Forces to use their 
VA home loan benefits.
    VA supports section 301, noting it is identical to section 3 of 
S. 874 and substantively the same as section 301 of VA's draft bill, 
the ``Veterans Benefits Programs Improvement Act of 2011,'' which was 
transmitted to Congress on May 19, 2011.
    VA estimates that enactment of this provision would result in 
additional loan subsidy costs of $370 thousand the first year, $3.9 
million over the first five years and $10.8 million over ten years.

Section 302
    Section 302 would amend 38 U.S.C. 3729(c) to allow an individual to 
receive a fee waiver if, during a pre-discharge program, he or she 
receives a disability rating for purposes of VA compensation based on 
existing medical evidence, such as service medical and treatment 
records. VA supports this provision, noting that it is substantively 
the same as section 304 of VA's draft bill, the ``Veterans Benefits 
programs Improvement Act of 2011,'' which was transmitted to Congress 
on May 19, 2011. Under current law, the loan fee may be waived if the 
Veteran receives a pre-discharge rating based on a VA examination and 
rating. This provision would extend the waiver to individuals rated 
eligible for VA compensation based on existing evidence.
    VA estimates that there would be no additional costs associated 
with implementing section 302.

Section 303
    Section 303 would amend 38 U.S.C. 2102A(e) by extending, through 
December 31, 2021, the Secretary's authority to provide Specially 
Adapted Housing assistance to eligible individuals residing temporarily 
with family members. VA supports this provision, noting that it is 
substantively the same as section 306 of VA's draft bill, the 
``Veterans Benefits Programs Improvement Act of 2011.'' Under current 
law, the authority is set to expire on December 31, 2011.
    VA estimates that there would be no additional costs associated 
with implementing section 303.

Section 304
    Section 304 would amend 38 U.S.C. 2102A(b) to provide that amounts 
of assistance payable under that section to certain individuals who 
reside temporarily in housing owed by family members be adjusted on an 
annual basis based on a cost-of-construction index already in effect 
for other Specially Adapted Housing grants authorized under chapter 21 
of title 38, United States Code. The proposal is substantively the same 
as section 307 of VA's draft bill, the ``Veterans Benefits Programs 
Improvement Act of 2011.'' VA supports this provision to ensure that 
seriously disabled Veterans temporarily living with family members may 
have continued access to residences that suit the Veterans' day to day 
needs.
    VA estimates that there would be no additional costs associated 
with implementing section 304.

Section 305
    Section 305 of S. 1148 would extend eligibility for Presidential 
memorial certificates to the survivors of any Servicemember who died in 
active military, naval or air service. An alternate version of this 
provision was introduced in S. 874, and section 305 is identical to a 
provision the Secretary proposed on May 19, 2011. VA strongly supports 
enactment of this provision.
    Under current law, eligibility for a Presidential memorial 
certificate is limited to survivors of Veterans who were discharged 
under honorable conditions. Under the statutory definition of 
``Veteran'' generally applicable to title 38, United States Code, an 
individual who died in active service, including an individual killed 
in action, technically is not a ``Veteran'' because the individual was 
not ``discharged or released'' from service. Therefore, under current 
law, the survivors of such an individual are not eligible for a 
Presidential memorial certificate to honor the memory of the 
individual. Section 305 would authorize VA to provide a Presidential 
memorial certificate to the next of kin, relatives, or friends of such 
individuals, who have made the supreme sacrifice for our country, and 
express our country's grateful recognition of the individual's service 
in the Armed Forces. We estimate that this eligibility expansion would 
result in discretionary costs of $8,924 the first year, $44,436 over 
five years, and $88,416 over ten years.

Section 306
    Section 306 would amend 38 U.S.C. 7105 to incorporate an automatic 
waiver of the right to initial consideration of certain evidence by the 
agency of original jurisdiction (AOJ). The evidence that would be 
subject to the waiver is evidence that the claimant or his or her 
representative submits to VA concurrently with or after filing the 
substantive appeal. Such evidence would be subject to initial 
consideration by the Board of Veterans' Appeals unless the appellant or 
his or her representative requests in writing that the AOJ initially 
consider the evidence. Such request would be required to be submitted 
with the evidence. The amendment made under this provision would become 
effective 180 days after enactment of this provision. Section 306 is 
very similar to section 204 of VA's draft bill, the ``Veterans Benefits 
Programs Improvement Act of 2011,'' which was transmitted to Congress 
on May 19, 2011. VA strongly supports its enactment.
    Current law precludes the Board's initial consideration of evidence 
submitted in connection with a claim, unless the claimant waives the 
right to initial consideration by the AOJ. Evidence must first be 
considered by the AOJ in order to preserve a claimant's statutory right 
under 38 U.S.C. 7104 to one review on appeal, which the Board provides 
on behalf of the Secretary. The requirement that the AOJ initially 
consider all evidence, unless the claimant waives the right, frequently 
delays the final adjudication of claims because claimants often submit 
additional evidence after perfecting their appeals to the Board by 
filing a substantive appeal. Under current procedures, each time a 
claimant, after filing a substantive appeal, submits more evidence 
without waiving the right to initial AOJ consideration, the AOJ must 
review the evidence submitted and issue a supplemental statement of the 
case that addresses it. If a claimant submits relevant evidence to the 
Board without waiving the right to initial AOJ consideration, the Board 
must remand the claim to the AOJ for initial consideration and 
preparation of a supplemental statement of the case. The effect of the 
bill would not be to deprive claimants of the right to initial 
consideration by the AOJ. It would permit claimants to obtain initial 
consideration by the AOJ by requesting such review in writing.
    The establishment of an automatic waiver would necessarily improve 
the timeliness of processing appeals as a whole. Because the Board 
bases its decisions on a de novo review of all the evidence of record, 
many more appeals could be more quickly transferred to the Board 
following the receipt of a substantive appeal. AOJs would spend less 
time responding to appellants who submit additional evidence following 
the filing of a substantive appeal, and the Board would avoid time-
consuming remands in cases when the appellant submits evidence directly 
to the Board. By presuming a waiver of AOJ review of new evidence, the 
Board would be able to adjudicate claims without the delay of a remand, 
thereby getting final decisions to Veterans more quickly and reducing 
the increased appellate workload caused by the reworking of remanded 
claims.
    We anticipate that enactment of section 306 would have no 
measurable monetary costs or savings. The potential benefits that would 
result from enactment of the proposal include expedited adjudication of 
claims on appeal and a reduction in the time spent processing appeals, 
both at AOJs and the Board, allowing more time for deciding new claims.

Section 307
    Section 307 would permit VA to continue to use income information 
from other agencies in making certain benefits determinations by 
extending the sunset provision for using income data from the Internal 
Revenue Service (IRS) and the Social Security Administration (SSA) from 
September 30, 2011, to September 30, 2016, and extending the sunset 
provision for using income data from the U.S. Department of Health and 
Human Services (HHS) from September 30, 2011, to September 30, 2021. VA 
supports this provision, noting that it is substantively the same as 
sections 502 and 503 of VA's draft bill, the ``Veterans Benefits 
Programs Improvement Act of 2011.'' VA estimates that enactment of 
section 307 would result in a net savings of $159 million over 5 years 
with respect to the IRS/SSA extension and a net savings of $13 million 
over 10 years with respect to the HHS extension.

Section 308
    Section 308 would permit the VA Regional Office in Manila, 
Philippines, to maintain its operations until December 31, 2012. 
Section 504 of VA's draft bill, the ``Veterans Benefits Programs 
Improvement Act of 2011,'' which was transmitted to Congress on May 19, 
2011, proposed extending to December 31, 2016, the authority to 
maintain a regional office in the Philippines. Although section 308 
would provide a shorter extension, VA nevertheless supports enactment. 
It is more cost effective to maintain the facility in Manila than it 
would be to transfer its functions and hire equivalent numbers of 
employees to perform those functions on the U.S. mainland. In addition, 
VA's presence in Manila significantly enhances the ability to manage 
potential fraud. For these reasons, there is no increased cost 
associated with this provision.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Patty Murray to 
                  U.S. Department of Veterans Affairs

    Question 1. S. 1148, the Veterans Programs Improvement Act of 2011, 
would automatically waive agency of original jurisdiction consideration 
of new evidence. How many remands and how many days from the average 
appeals processing period would this automatic waiver eliminate?
    Response. In fiscal year (FY) 2010, the Board of Veterans' Appeals 
remanded 2,146 cases to have the Department of Veterans Affairs (VA) 
regional office prepare a Supplemental Statement of the Case. We 
estimate that approximately 75 percent of these remands (1,610) were 
appealed claims in which the appellant submitted additional evidence to 
VA but failed to waive initial review at the VA regional office level. 
In FY 2010, a remand added an average of 493 days to an appeal. Thus, 
VA expects that S. 1148 would therefore eliminate an average of 493 
days for each case that would have otherwise been remanded to allow for 
VA regional office consideration of new evidence.

    Question 2. Convenient access to care continues to be a 
considerable challenge for many veterans throughout this country, 
particularly in rural and remote areas. While VA has taken some steps 
to address these issues, more clearly needs to be done. As you know, we 
have several bills on the agenda dealing with the placement of medical 
facilities. I believe some further background information would be 
helpful for the Committee's consideration of these bills.
    a. Please describe the process the Department uses to select sites 
for medical facilities, and what factors are considered or not 
considered in that process?
    Response. All significant VA capital investments (including the 
establishment of new and/or replacement medical facilities) must be 
reviewed, prioritized and approved through the Department's Strategic 
Capital Investment Plan (SCIP).
    The intent of the SCIP process is to provide a comprehensive and 
complete picture of VA's current inventory and outline the steps needed 
to enable VA to continually improve the delivery of benefits and 
services to Veterans, their families and their survivors.
    The SCIP plan provides a rational, data-driven strategic framework 
to ensure all capital investments are focused on the most critical 
infrastructure needs first and funded in priority order.
    VA assesses the need for projects based on space, condition, 
access, safety, and utilization/workload gaps and determines the best 
methods to resolve these gaps and identified backlogs. The first step 
in deciding which projects (including medical facilities) should be 
chosen (and the area in which they are to be located) is to establish 
the type and level of the health care services needed and their 
appropriate location(s). VA's Health Care Planning Model provides data 
on the projected Veteran population, demographics, utilization, and 
access that assist in this determination.
    In the second step, capital and non-capital solutions are developed 
to meet existing and project gaps over a ten-year period. For FY 2012, 
over 1,100 business cases were prioritized and considered for funding. 
In the third step, these capital projects are scored by the SCIP Panel, 
which is a sub-group of the SCIP Board and is comprised of 
representatives from across the Department.
    The SCIP Panel and Board work within the VA Governance process. The 
structure of governance begins with the SCIP Board, and proceeds 
through the Senior Review Group/Strategic Management Council (SRG/SMC) 
to the Veterans Affairs Executive Board (VAEB), with an increasing 
level of authority at each step. The SRG/SMC is chaired by the Deputy 
Secretary and is comprised of senior management representatives from 
across VA. The VAEB is also comprised of a cross-Departmental group of 
senior VA management officials, and is chaired by the Secretary. This 
governance process culminates with the selection of capital projects 
for inclusion in VA's annual budget request.
    The decision methodology used to score projects is the Analytic 
Hierarchy Process (AHP). The AHP provides a structure, or ``model,'' to 
determine which projects contribute the most to addressing Departmental 
priorities. The SCIP decision model is comprised of the major criteria, 
sub-criteria, and their priority weights. Each project is scored on how 
well it addresses the each of the criteria.
    SCIP Decision Criteria 2012 Capital Projects were ranked based on 
the following six criteria:

    <bullet> Improving Safety and Security;
    <bullet> Fixing What We Have (Making the Most of Current 
Infrastructure/Extending Useful Life);
    <bullet> Increasing Access;
    <bullet> Right-Sizing Inventory;
    <bullet> Ensure Value of Investment; and
    <bullet> Major Initiatives.

    More information on the 2012 decision criteria and the scoring 
process can be found in the FY 2012 Budget Submission, Construction and 
10-Year Capital Plan, Volume 4 of 4, February 2011, which can be found 
at http://www.va.gov/budget/products.asp, pages 10-3, 10-5, and 8.2-1.
    The highest priority SCIP projects are submitted in the VA budget 
submission. Major construction projects must be approved through the 
appropriation process, and medical facilities and leases must also be 
specifically authorized by law.
    Once a project is authorized and funded, a site can be selected for 
a major medical facility construction, or a major medical facility 
lease project pursuant to 38 U.S.C. Sec. Sec. 8103-8104. The site 
selection process is a joint initiative with the requirement initiated 
by the Veterans Health Administration (VHA) and executed by the Office 
of Acquisition, Logistics, and Construction (OALC).
    For authorized and funded major medical facility leases, once VHA 
has determined the need to establish a new site of care within a 
defined delineated area, OALC typically follows a standard two-step 
process for procuring a built-to-suit lease-based medical facility, in 
situations where procuring existing space may not be practical or 
feasible. Step one involves obtaining an assignable option to purchase 
a suitable site, and step two is the competitive procurement of a 
developer.
    Step one is the site selection process, which is initiated by the 
predetermined delineated area. This area is used to determine the 
location parameters within which VA will seek sites. This step has an 
estimated completion timeframe of 4 to 6 months. The preferred site is 
competitively selected within the delineated area, by a market survey 
team composed of VA employees with experience in various disciplines, 
such as real property, engineering, environmental issues, and clinical 
or program management. The market survey team utilizes a standard set 
of evaluation criteria, including expected enhancements to Veteran 
access, access to amenities, site conditions, availability of 
utilities, and other factors.
    During this stage, VA also negotiates with the landowner(s), based 
on the appraised determination of fair market value, to reach a 
proposed purchase price. Once a price is agreed upon, VA and the 
landowner(s) work to execute the necessary assignable option(s) to 
purchase the site. Also, as part of this stage, VA is required to 
conduct certain due diligence activities including those in the areas 
of real estate (title, survey, geotechnical survey and appraisal); 
environmental (compliance with the National Environmental Policy Act 
and Comprehensive Environmental Response, Compensation and Liability 
Act); and historic preservation (Section 106 of the National Historic 
Preservation Act). The option to purchase is later assigned to the 
developer selected in step two.
    When all due diligence requirements are satisfied, the assignable 
option and all due diligence documentation become part of the 
Solicitation for Offers (SFO) package in step two.
    Step two is the competitive procurement of a developer to purchase 
the land and build the facility to VA specifications. This step has an 
estimated completion timeframe of 9 to 10 months. This process is 
conducted as a best value competition in accordance with the 
Competition in Contracting Act, the General Services Administration 
Acquisition Regulation, the Federal Acquisition Regulation, and other 
applicable laws and executive orders. Every effort is made to obtain 
the greatest amount of competition during the procurement process to 
ensure reasonable rental rates. VA works with an Architectural/
Engineering firm and the local users to determine the specific 
technical requirements of the clinic. These requirements are made 
available to the offerors in the SFO. The offerors are typically 
allotted 45 days to submit their proposals to VA. Once VA receives the 
offers, VA establishes a Technical Evaluation Board (TEB), which 
evaluates each offer according to a set of pre-determined criteria. VA 
also conducts a price evaluation. Based on these evaluations, VA 
establishes a competitive range, negotiates with those offerors within 
the range, and requests Final Proposal Revisions from the developers. 
The TEB then reconvenes to review any new technical data received from 
the developers, before the Contracting Officer determines which offer 
presents the best value to the government. Once VA has selected a 
developer, VA proceeds to negotiate the lease with the developer. Once 
those negotiations are completed, the proposed final lease is then 
vetted through internal VA elements before the lease contract is 
awarded.
    b. How would the passage of these bills impact the Strategic 
Capital Investment Plan and the prioritization of projects in other 
states?
    Response. VA has an established department-wide capital investment 
process in place, the SCIP, which is utilized to make methodical 
decisions on construction priorities. A hallmark of the SCIP process is 
its objective data-driven approach, whereby the full extent of VA's 
infrastructure and its gaps in services (access, utilization, space, 
condition, energy, security and IT deficiencies) are captured, and a 
long-range Departmental strategy is developed to address and/or correct 
the identified gaps.
    SCIP addresses the Department's highest needs first, including 
those that best meet Veterans infrastructure needs in priority areas 
that include Veteran/patient safety and security, expansion of 
Veterans' access to services, right-sizing VA's inventory, mitigating 
environmental impacts, and ensuring the value of investments. All 
capital projects are considered in a uniform and consistent way, which 
places emphasis on improving the delivery of services and benefits to 
Veterans, streamlining operations, and investing responsibly for the 
future.
    Through the SCIP process, VA has formulated an objective, rational, 
fair, and defensible plan to meet VA's capital investment needs. To 
fund projects that are not consistent with SCIP goes against this 
important principle, and would require VA to fund lower priorities in 
place of the Department's highest priority needs.
    VA is committed to updating this plan each year, in order to 
capture changes in the environment, including evolving Veteran 
demographics, newly-emerging medical technology, advances in modern 
health care delivery, and improvements in construction technology, all 
to better serve Veterans, their families, and their survivors.
    VA does not support S. 928. As written, it may not allow the 
Department to utilize existing funds or bid savings to carry out FY 
2012 high priority major construction projects. Under 38 U.S.C. 
Sec. 8104, VA already must comply with authorization and congressional 
notification requirements for its proposed major construction projects, 
including where VA is proposing to obligate funds toward a major 
construction project in an amount that would exceed by more than 10%, 
the total project cost specified in law. Also under Section 8104, VA 
must, for major construction projects, notify the Committees of 
proposed changes in scope that are not consistent with the 
authorization received.
    VA is concerned that S. 928 as currently written may lead to 
unnecessary delays caused by VA's need to have projects reauthorized 
for changes that should be considered within the projects original 
purpose, such as improvements in building and/or medical technologies, 
and in enhanced delivery of health care to Veterans. VA would be 
inclined to support a revised bill that would allow projects to move 
forward without changing VA's current authorization and congressional 
notification requirements.

    Question 3. S. 490 would expand the eligibility of dependent 
children for CHAMP-V.A. to age 26. As you know, the Health 
Administration Center processes claims for CHAMP-V.A. and has had 
significant backlogs in those claims when elements of the program have 
been expanded in the past. What additional resources would the 
Department need to process the expected increase in claims if this 
legislation were enacted?
    Response. VA estimates that to fulfill the requirements of S. 490, 
it would need to hire approximately 65 additional staff in FY 2012 to 
process applications and benefits for the larger population of 
beneficiaries. These employees would require additional program 
support, particularly in FY 2012 when more resources would be necessary 
for the initial processing of applications and for programmatic 
expansion costs. VA estimates total costs (including medical costs for 
beneficiaries) for FY 2012 to be $64.59 million, for FY 2013 to be 
$70.06 million, with 5 year costs of $390.51 million and 10 year costs 
of $1.022 billion.

    Question 4. The Department's testimony on S. 935 discussed efforts 
underway to implement section 506 of the Public Law 111-163. As you 
know, that section creates pilot programs on outreach in rural areas. 
Please provide the Committee with an update on the Department's 
implementation of the outreach pilot programs required under Section 
506 of Pub. L. 111-163.
    Response. VA has completed staff recruitment for this initiative 
and made initial determinations on several policy issues, which have 
allowed VA subject matter experts to begin drafting and reviewing a set 
of regulations that will be needed to administer this program. A draft 
Notice of Funding Availability is currently in development as well, and 
Grant Applications and Instructions are also in development. In 
addition, VA is finalizing a plan for stakeholder and consumer input 
through focus groups.

    Question 5. S. 1089 would introduce pay-for-performance mechanisms 
into contracts of VA CBOCs.
    a. Please discuss whether the pay-for-performance approach been 
more or less effective in increasing quality of care than other 
approaches.
    Response. The scientific evidence on the impact of pay for 
performance on the quality of care delivered by individual physicians 
is inconclusive. To date, there is no systematic evidence that this 
approach improves performance above-and-beyond other quality 
improvement activities, such as report cards and audits. There are 
concerns that utilizing pay for performance may incentivize physicians 
to avoid caring for patients with more complex medical problems, such 
as individuals with serious mental illness. There are also logistical 
concerns with this approach. VA notes that few contract physicians have 
seen a sufficient number of Veterans from which the Department could 
establish a base for reliable metrics of quality. VA currently includes 
performance requirements directly into contract requirements so that VA 
makes no payment in situations where substandard care is delivered.
    b. DAV testified that pay-for-performance has a mixed record of 
success in both the public and private sectors. Are you aware of these 
concerns, and do you share them?
    Response. VA's response above addresses some of the Department's 
concerns with pay for performance incentives for health care delivery 
in general.

    Question 6. VA identified three Vet Centers to participate in a 6-
month analysis on the potential effects instituting travel 
reimbursements could have on the culture of independence and privacy 
fostered by the Vet Centers.
    a. Does the Department expect, or has it identified, concerns with 
this pilot program?
    Response. As VA noted in testimony before the Committee on June 8, 
2011, VA is attempting to identify Veterans views regarding their 
interest in the benefit including the potential impact this benefit 
would have on the Vet Center culture and Veterans' privacy concerns, as 
well as administrative issues that may develop in delivering the 
benefit. These potential concerns include the provision of financial or 
other information required to determine eligibility that is not 
currently needed to receive Vet Center services, recording of 
appointments in the electronic database of the VA medical center that 
would process travel reimbursement claims, and the requirement of 
eligibility determination, travel claims and subsequent payments to be 
processed by the support VA medical center (VAMC). The 6 month analysis 
will help the Department develop a model that can determine the upper 
and lower bounds for demand for this benefit and inform a behavioral 
model that can estimate potential changes in Veteran utilization of Vet 
Center services. In addition, the analysis will collect Veterans views 
on this subject, considerations that will be reviewed are outlined 
below in greater detail.
Considerations
    1. Requires Veteran enrollment at the VAMC that would process 
travel reimbursement claims.
    2. Requires one of the following eligibility criteria be met:

          a. Rated at 30 percent or more service connection.
          b. Rated at less than 30 percent service connection but 
        receiving care in relation to the service-connected condition.
          c. In receipt of a VA pension.
          d. Income at or below VA pension level.

    3. Requires provision of financial or other information required to 
determine eligibility that is not currently needed to receive Vet 
Center services.
    4. Requires record of appointments in the electronic database of 
the VA medical center that would process travel reimbursement claims. 
This process would be outside of the Readjustment Counseling Service 
separate system of records and would not be afforded the level of 
confidentiality (records released with written informed consent) of Vet 
Center records.
    5. Would require eligibility determination, travel claims and 
subsequent payments to be processed by the support VAMC. These are 
additional administrative and budgetary requirements for both the Vet 
Center and support VAMC not currently present. May create challenges to 
the historic streamlined nature of the Vet Center program.
    6. There has been an historical increase in the number of Veteran 
claimants (approximately 30 percent) and travel claims (approximately 
75 percent) when the mileage rate increased. This could affect the 
service availability at the Vet Centers, which have relatively small 
staffing levels compared to VA medical centers and community-based 
outpatient clinics.

    b. If so, what are you doing to mitigate these concerns?
    Response. The 6-month analysis will address these considerations, 
and a report for the Under Secretary for Health will be generated that 
outlines all options to address these concerns. This report is expected 
to be complete by the end of November 2011.

    Question 7. What is the Department doing to expedite the hiring of 
chiropractors given the high number of musculoskeletal injuries coming 
out of the military?
    Response. Decisions on hiring chiropractors are made at the 
facility level based on local needs and resources. Chiropractic care at 
VA facilities may be provided through appointment of, or contracts 
with, licensed chiropractors, dependent upon the needs of the facility 
(consistent with Public Law 107-135, Section 204(e)(1)). In the past 
two fiscal years, VHA has added 6.5 new full time equivalent employee 
(FTE) chiropractors, and added five new chiropractic clinics across VA.
    Timely recruitment to fill VA health care positions, particularly 
recruitment of independent and dependent providers, continues to be an 
important goal of the Department. To support this goal, VA has 
sponsored a national learning Systems Redesign Collaborative on Human 
Resources Recruitment, over the past two fiscal years, which is 
systematically analyzing the recruitment process and identifying 
barriers to timely actions. This will result in shorter hiring 
timelines for our health care occupations, including chiropractors.

    Question 8. When VA decides to contract for case management 
services for homeless veterans in the HUD-VASH program, what role--if 
any--do community providers have in the discussion? If none, what would 
be an appropriate role for them in the HUD-VASH process?
    Response. VA bases the decision to contract for case management 
services for homeless Veterans in the Department of Housing and Urban 
Development-VA Supported Housing (HUD-VASH) program on several need-
based factors, including: whether there is a need to enhance 
collaboration with community providers in delivering more comprehensive 
and integrated services; and whether there is a need to offer 
specialized services, such as housing location and placement, that are 
already available in the local community and can promote more timely 
access to permanent housing. In order to accurately determine these 
need-based factors, VA Homeless Program staff and HUD-VASH case 
managers are actively involved in the local Continuums of Care, 
Homeless Summits held by each VA medical center and other community 
partners. This collaboration allows VA staff to discuss community and 
homeless Veteran needs and possible solutions, including whether 
contract case management services are needed. Through these 
discussions, community partners play a role in determining whether VA 
should contract for case management services.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
    Question 1. In written testimony for the June 8, 2011, legislative 
hearing, the Department of Veterans Affairs (VA) estimated that 
enactment of S. 423 (which would allow up to a one-year retroactive 
effective date for fully-developed claims) would ``result in benefit 
costs of $54.9 million for FY 2012, $315.7 million over five years, and 
$761.7 million over ten years.'' However, in October 2010, with regard 
to identical legislation, VA stated that ``[w]e cannot estimate costs 
without knowing how many fully-developed claims would be submitted and 
the disability ratings awarded to these Veterans.''

    a. In light of VA's 2010 statements, please explain how it was 
possible to determine specific cost estimates in 2011.
    Response. Each piece of proposed legislation is read and evaluated 
to determine a plausible method of cost estimation. We build 
assumptions that are based on program knowledge and actual experience. 
Public Law 110-389 established the pilot program on expedited treatment 
for fully developed claims (FDC). The pilot program was implemented in 
10 VA regional offices nationwide in May 2010 and ended in 
December 2010. When legislation identical to S. 423 was proposed during 
the 111th Congress, the FDC pilot program was ongoing.
    After reviewing S. 423, VBA determined there was applicable data 
gathered from the FDC pilot program. Along with this data, VBA used 
program judgment to determine caseload that allowed an adequate 
estimate of potential costs associated with this legislation.

    b. In developing the 2011 cost estimate, how many fully-developed 
claims per year did VA assume would be filed and what was the basis for 
that assumption?
    Response. The estimated total number of fully developed claims in 
FY 2011 is 17,756. Based on actual experience and program judgment, 
approximately 2 percent of total workload presents as a fully developed 
claim. Of those FDCs, 59 percent and 24 percent are reopened and 
original claims, respectively. These percentages are based on the 
percent of original and reopened claims that make up the compensation 
program's total workload. Of those worked, it also assumed that 75 
percent would result in a grant of benefits to Veterans. A similar 
methodology was used to calculate the number of FDCs in the outyears 
with the assumption that the number of FDC claims would increase by 
five percent each year as more people became aware of the increased 
benefits associated with filing FDC under this proposed bill.

    c. In developing the 2011 cost estimate, what disability ratings 
did VA assume would be awarded and what was the basis for that 
assumption?
    Response. The average combined degree of disability is 40 percent 
for Veterans compensation, and was used to generate total obligations 
for the original FDCs. We assumed reopened claims would increase by an 
average of 10 percent.

    d. In developing the 2011 cost estimate, how many months of 
retroactive benefits did VA assume would be awarded for fully-developed 
claims and what was the basis for that assumption?
    Response. In developing the cost estimate, the monthly payment was 
annualized to calculate the total obligations assuming Veterans would 
receive a retroactive payment award for a 12-month period.

    Question 2. The Caring for Camp Lejeune Veterans Act of 2011 
(S. 277) would provide health care for veterans and their families who 
may have been affected by the contaminants in the water while living on 
Camp Lejeune. In testimony submitted to this Committee on June 8, 2011, 
VA stated that the cost of implementing S. 277 would be $1.6 billion 
over five years and $3.9 billion over ten years.

    a. In general, please explain the metrics used in developing this 
cost estimate.
    Response. VA estimated that 500,000 Veterans would be eligible for 
benefits under this program and that 500,000 family members would also 
be eligible, based upon data from the Agency for Toxic Substances and 
Disease Registry (ATSDR). Veterans meeting the criteria in the 
legislation would be placed in Enrollment Priority Group 6 in a manner 
similar to other special eligibility populations (recent Combat 
Veterans, etc.). VA would need to establish a separate program to 
provide care to family members eligible for benefits under this 
authority. The family program design would be delivered in a manner 
similar to the Spina Bifida Health Care Program for Children of Certain 
Vietnam and Korean Veterans.
    VA assumed that 25,000 family members would become beneficiaries 
under this program. VA would need to hire an additional 50 full time 
employees (FTE) to support the program based on a ratio of 1 FTE for 
every 500 eligible beneficiaries. VA estimated a one percent annual 
increase in the patient population; this is a conservative estimate 
because the qualifying medical conditions have not been scientifically 
established. VA estimated that medical costs per family member would 
exceed the existing costs of beneficiaries participating in the 
Civilian Health and Medical Program of the Department of Veterans 
Affairs (CHAMPVA), but would be less than the medical costs for 
beneficiaries under the Spina Bifida program described above. The 
average annual cost of medical care per beneficiary is estimated to 
fall somewhere between these programs because we assume beneficiaries 
under S. 277 would require additional medical care as a result of a 
covered condition. VA utilized an inflation rate of 5.3 percent 
annually for medical costs for family members.
    Based on VA population and enrollment data, VA assumed that 
approximately 23 percent of Veterans nationally are users of VA health 
care and that a similar proportion of the Camp Lejeune population would 
be as well. This results in an estimated population of approximately 
110,000 likely current users within the Camp Lejeune population. Based 
on the current population of Priority Group 7 and 8 Veterans, VA 
estimated that 29,700 of these Veterans are currently in Priority 
Groups 7 or 8. If S. 277 became law, these Veterans would be moved into 
at least Priority Group 6, resulting in the loss of copayments and 
third party collections. VA also assumed that approximately five 
percent of Veterans who were not previously eligible to enroll would be 
able to do so under this new authority. VA estimated this population 
would be 5,931 Veterans in FY 2012. VA's cost estimate included both 
the revenue loss of Veterans no longer making copayments for care and 
VA no longer securing third party reimbursement for care, as well as 
from additional costs to provide currently non-qualifying Veterans with 
care. VA conservatively estimated a one percent increase in workload 
each year for this population.

    b. How many veterans and family members did VA assume lived or 
worked at Camp Lejeune during the contamination period?
    Response. As noted in the previous response, VA estimates 500,000 
Veterans would be eligible and 500,000 family members would be eligible 
for this program.

    c. How many veterans and family members did VA assume would receive 
health care under this bill and what is the basis for that assumption?
    Response. As noted in the response to Question 2(A), VA assumed 
25,000 family members and 5,931 Veterans would be beneficiaries under 
this program in FY 2012. VA also assumed 30,297 Veterans would move 
from Priority Groups 7 or 8 into a Priority Group that would not allow 
VA to collect revenue from third party sources.

    Question 3. As requested at the hearing, please explain how much VA 
spends on veteran outreach annually.
    Response. VA created the National Outreach Office within the Office 
of Public and Intergovernmental Affairs (OPIA) in FY 2010 to 
standardize how outreach is being conducted throughout VA. While we are 
not currently able to extract the total spending for outreach across 
the department for FY 2010 and 2011, we are working diligently toward 
that goal for FY 2012. VA has made considerable progress in researching 
and analyzing VA's outreach programs and activities and have developed 
a framework to guide us through creating a more efficient and effective 
approach to conducting outreach department-wide, in support of VA's 
major initiatives. Key to the final plan is building a process that 
helps VA's administrations (Veterans Health Administration, Veterans 
Benefits Administration and National Cemetery Administration) and 
program offices:

    <bullet> Provide Veterans with high-quality products and activities 
that are consistent;
    <bullet> Provide outreach coordinators with training;
    <bullet> Evaluate and measure the effectiveness of outreach 
programs; and
    <bullet> Track costs associated with outreach programs.

    Question 4. Section 103 of S. 1148, the ``Veterans Programs 
Improvement Act of 2011,'' would expand the authority to contract 
treatment and rehabilitation services under section 2031 of title 38, 
United States Code, to include homeless veterans who are not seriously 
mentally ill.

    a. Under the current authority, please provide the number of 
contract beds per Veterans Integrated Service Network (VISN).
    Response. The table below provides the requested information for 
each Veterans Integrated Service Network's contracted beds for the 
Health Care for Homeless Veterans (HCHV) program, emergency housing, 
and Safe Haven program.


----------------------------------------------------------------------------------------------------------------
              VISN                       HCHV          Emergency Housing      Safe Haven             Total
----------------------------------------------------------------------------------------------------------------
1...............................                 29                  26                   0                  55
2...............................                  6                  41                   0                  47
3...............................                 93                  40                  40                 173
4...............................                 54                  19                   0                  73
5...............................                 16                  40                   0                  48
6...............................                 39                  20                   0                  59
7...............................                140                  20                   0                 160
8...............................                101                  74                  20                 195
9...............................                 39                   0                   0                  39
10..............................                  6                  48                   0                  54
11..............................                109                  73                   0                 182
12..............................                 82                   0                   0                  82
15..............................                 97                  47                   0                 144
16..............................                214                  36                   0                 246
17..............................                 95                   0                   0                  95
18..............................                 31                  86                   0                 117
19..............................                 93                  93                   0                 186
20..............................                 17                  20                   0                  37
21..............................                107                  86                   0                 193
22..............................                 27                  17                   0                  44
23..............................                 26                  30                   0                  56
----------------------------------------------------------------------------------------------------------------

    b. Please provide a breakdown of contract beds available to each VA 
medical center within VISN 6.
    Response. The table below provides the requested information for 
VISN 6, using the same conditions as described above.


----------------------------------------------------------------------------------------------------------------
            Facility                     HCHV          Emergency Housing      Safe Haven             Total
----------------------------------------------------------------------------------------------------------------
Asheville.......................                  0                   0                   0                   0
Beckley.........................                  0                   5                   0                   5
Durham..........................                  0                   0                   0                   0
Fayetteville....................                  0                   0                   0                   0
Hampton.........................                  4                   0                   0                   4
Richmond........................                  5                   0                   0                   5
Salem...........................                 15                   0                   0                  15
Salisbury.......................                 15                  15                   0                  30
----------------------------------------------------------------------------------------------------------------


    Question 5. The Government Accountability Office (GAO) has found 
duplication, fragmentation, and overlap in Federal programs government 
wide. GAO has also advised that reducing or eliminating overlap could 
help agencies provide better services and save billions of dollars each 
year.
    Please provide a joint assessment of whether there is any 
duplication among the veterans' programs administered by VA and the 
Department of Labor and, if so, how it could be addressed.
    Response. VA and the Department of Labor (DOL) provide services to 
Veterans to improve employment outcomes for our Nation's Veterans 
through the VA Education and VA Vocational Rehabilitation and 
Employment (VR&E) programs and the DOL Veterans Employment and Training 
(DOLVETS) program. Services provided by each of these programs 
complement one another, maximizing service delivery to Veterans.
    VR&E works with DOLVETS under a Memorandum of Understanding to 
provide individualized, face-to-face services to Veterans with 
disabilities. While VR&E's primary focus is disabled Veterans, DOLVETS 
provides employment assistance services to all Veterans.
    DOLVETS and VR&E adopted a team approach to job development and 
placement activities, in which all Veterans entering a program of 
vocational rehabilitation are informed of the employment assistance 
available through the DOLVETS programs and are encouraged to register 
with their State Workforce Agency. VR&E collaborates with the DOLVETS 
Disabled Veterans Outreach Program (DVOP) Specialists and Local 
Veterans' Employment Representatives (LVER) on the following services: 
apprenticeship and on-the-job training programs, job referrals, work-
specific prosthetic devices, sensory aids, and other special equipment, 
communication with community leaders and resources, and counseling and 
testing services. Although the services that VA's VR&E and DOLVETS 
provide Veterans have some similarities, working together maximizes the 
employment services available to Veterans and increases the 
opportunities for successful employment. VA's 87 employment 
coordinators are VR&E's liaisons to the DOLVETS Specialists in their 
respective jurisdictions, and they ensure seamless service delivery.
    VA's Education programs provide payments for eligible students 
pursuing college, apprenticeship programs, on-the-job training, and 
vocational training programs. VR&E has authority to provide similar 
benefits for disabled Veterans, but VR&E provides individually-tailored 
services that include case management support, specialized assistance, 
equipment, and accommodations.
    In 2007, the Government Accountability Office issued a report 
titled, ``VA Student Financial Aid: Actions Needed to Reduce Overlap in 
Approval Activities.'' The report stated that, ``Many education and 
training programs approved by state approving agencies have also been 
approved by Education and Labor.'' However, Pub. L. 111-377, which 
modifies the Post-9/11 GI Bill and other education benefit programs, 
allows VA to accept registered apprenticeships for VA benefits without 
additional reviews from state approving agencies. Based on that 
legislation, VA believes any potential overlap pertaining to program 
approval of VA education benefits has been addressed. VA will continue 
to coordinate our programs with DOL to ensure effective and efficient 
operation of these important programs.

    Chairman Murray. Thank you very much.
    Mr. McWilliam?

   STATEMENT OF JOHN MCWILLIAM, DEPUTY ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Mr. McWilliam. Chairman Murray, Ranking Member Burr, I am 
pleased to appear today before the Committee to discuss 
legislation pending in this Committee aimed at helping our 
transitioning servicemembers and returning servicemembers 
transition back to civilian life. I would like to comment on 
two bills.
    S. 951, Hiring Heroes Act of 2011. Section 11 would require 
mandatory participation in the Transition Assistance Program. 
We believe that all transitioning servicemembers who plan to 
enter civilian employment would benefit from attending the DOL 
employment workshop, but defer to the Department of Defense on 
whether the program should be mandatory for all transitioning 
servicemembers.
    DOL supports the concept of the TAP follow-up contained in 
Section 7, but believes that the metrics of our redesigned 
employment workshop will make this requirement unnecessary. As 
part of the redesign, a comprehensive follow-up program will be 
implemented to track participants' success in entering the 
civilian workforce. We believe that this program may provide 
the information that the Committee desires, and we would like 
to work with the Committee to provide additional information on 
our initiative.
    DOL believes that Section 8, the Competitive Grant Program 
for Nonprofit Organizations, is unnecessary. We note that this 
section seems to closely follow the parameters of the existing 
Veterans' Workforce Investment Program. It is unclear whether 
the intent of this section differs from the intent of the 
Veterans Workforce Investment Program, or VWIP. Therefore, we 
would like to work with the Committee to discuss the potential 
overlap between these two areas.
    DOL believes that Section 9, concerning identifying the 
equivalencies between military occupational specialties and 
civilian employment, duplicates existing processes that 
currently provide the capability to crosswalk servicemember 
skills to equivalent civilian occupations. We note that there 
are several tools that allow the servicemember to do that, as 
well as the redesign of the TAP employment workshop, which will 
include practical exercises to assist participants in 
translating their skills, as well as creating an Individual 
Transition Plan.
    The Department supports Section 11 but requests that the 
time period be changed from 105 days to 15 weeks to coincide 
with the end of a benefit week for the purposes of unemployment 
compensation.
    DOL supports the concept of Section 13 and believes the 
credentialing and licensure of veterans is very helpful in 
transitioning servicemembers to the civilian sector. We would 
like to work with the Committee to help resolve the issues that 
are existent in credentialing and licensure of veterans.
    Addressing S. 1060, Honoring All Veterans Act of 2011, we 
defer to the VA and the DOD for most sections of this bill, but 
we point out that we believe Section 105 is unnecessary. The 
Department created the America's Heroes at Work Program in 2008 
to fulfill this need. We would propose to work with the 
Committee to determine if our program needs further 
enhancements.
    I again thank the Committee for your commitment to our 
Nation's veterans and for the opportunity to testify before you 
today. We would be happy to work with your staffs to provide 
technical assistance on any of these bills, and I would be 
happy to respond to any questions.
    [The prepared statement of Mr. McWilliam follows:]

   Prepared Statement of John McWilliam, Deputy Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of Labor

    Chairman Murray, Ranking Member Burr, and distinguished Members of 
the Committee, I am pleased to appear before you today to discuss 
legislation pending in this Committee aimed at helping our returning 
Servicemembers transition back to civilian life.
    The Veterans' Employment and Training Service (VETS) proudly serves 
Veterans and transitioning Servicemembers by providing resources and 
expertise to assist and prepare them to obtain meaningful careers, 
maximize their employment opportunities and protect their employment 
rights.
    Secretary Solis has been an incredible source of guidance and 
support, and has made Veterans and VETS one of her top priorities. Our 
programs are an integral part of Secretary Solis's vision of ``Good 
Jobs for Everyone'' and her unwavering commitment to help Veterans and 
their families get into the middle class and maintain stability. We 
strive to achieve this vision through four main programs:

    <bullet> Jobs for Veterans State Grants;
    <bullet> Transition Assistance Program Employment Workshops;
    <bullet> Homeless Veterans' Reintegration Programs; and
    <bullet> Uniformed Services Employment and Reemployment Rights Act.

    Your letter of invitation seeks input on a significant number of 
bills at this hearing, and you ask VETS to specifically provide input 
on S. 951, the ``Hiring Heroes Act of 2011.'' We have done so in 
subsequent portions of this testimony, in addition to providing 
comments on the proposed ``Honoring All Veterans Act of 2011,'' which 
would require the Department of Labor (DOL), through the Assistant 
Secretary of the Office of Disability Employment Policy (ODEP), to 
initiate a program providing technical assistance to employers of 
Veterans who have a Traumatic Brain Injury or Post Traumatic Stress 
Disorder.
    As the remaining pieces of proposed legislation being addressed at 
this hearing fall under the purview of other departments, VETS defers 
to those departments and I will restrict my testimony to the 
appropriate sections of S. 951, and the ``Honoring All Veterans Act of 
2011'' that have a direct impact on DOL and the Veterans' Employment 
and Training Service.
    In addition to the invitation for today's hearing, VETS has 
received a follow-up request to comment on Senator Casey's proposed 
``Veteran Transition Assistance Program Audit Act of 2011.'' Due to 
time constraints, VETS was unable to conduct a thorough review in time 
for today's hearing, but we look forward to providing our comments for 
the record and continuing to work with Senator Casey and this entire 
Committee to ensure that our Servicemembers receive the best assistance 
possible as they transition back to civilian life.

                 S. 951: ``HIRING HEROES ACT OF 2011''

    Section 6: This section would require the mandatory participation 
of members of the Armed Forces in the Transition Assistance Program 
(TAP). We assume that this mandatory participation would include 
participation in all segments of the TAP, to include the Department's 
Employment Workshop.
    We believe that all transitioning Servicemembers who plan to enter 
civilian employment would benefit from attending the Employment 
Workshop, but defer to the Department of Defense (DOD) as to whether 
this program should be mandatory for all transitioning Servicemembers.
    Section 7: This section would require DOL to follow-up on the 
employment status of members of the Armed Forces who recently 
participated in TAP. In particular, it would require that DOL contact 
each participating Veteran no later than six months after their 
completion of the program (TAP), and every three months thereafter for 
the rest of the year in order to ascertain the Veteran's employment 
status.
    DOL supports the concept of the TAP follow-up, but believes that 
the metrics of our redesigned Employment Workshop makes this 
requirement unnecessary. As you may recall, we recently testified on 
our current initiative to redesign and transform the Employment 
Workshop. As part of this initiative, a comprehensive follow-up program 
will be implemented to track participants' success entering the 
civilian workforce. DOL believes that this program may provide the 
information that the Committee desires, and we would like to work with 
the Committee to provide additional information on this initiative.
    Section 8: This section would: 1) establish a competitive grant 
program for nonprofit organizations that provide mentoring and training 
to Veterans; 2) require DOL and nonprofit organizations to collaborate 
in order to facilitate the placement of Veterans in jobs that lead to 
economic self-sufficiency; 3) require DOL to conduct an assessment of 
grant performance no later than 18 months after enactment; and 4) 
authorize appropriations of $4.5 million for Fiscal Years 2012 and 
2013.
    DOL believes that this section is unnecessary. We note that this 
section seems to closely follow the parameters of the existing 
Veterans' Workforce Investment Program (VWIP) established under section 
168 of the Workforce Investment Act of 1998, and it is unclear whether 
the intent of this section differs from the intent of the VWIP. 
Therefore, we would like to work with the Committee to discuss the 
potential overlap between this section and the VWIP.
    Section 9: Among other things, this section would require DOL, DOD, 
and the Department of Veterans Affairs (VA) to conduct a joint study to 
identify any equivalences between the skills developed by members of 
the Armed Forces through various military occupational specialties 
(MOS) and the qualifications required for various positions of civilian 
employment in the private sector.
    Section 9 is unnecessary as it duplicates existing processes that 
provide the capability to crosswalk Servicemember skills to equivalent 
civilian occupations. We note that there are several tools that 
partially meet the need for skill equivalencies for separating 
Servicemembers, such as the Department's Occupational Information 
Network (O*NET) and DOD's Credentialing Opportunities On-Line (COOL). 
In addition, the TAP redesign will include practical exercises to 
assist participants in translating their skills, abilities, experience, 
and training on to a resume, as well as creating an Individual 
Transition Plan. We would like to work with the Committee to explore 
ways to strengthen these resources and improve the transition of 
Veterans into civilian employment.
    Section 11: This section would require the Department to conduct 
outreach to recently-separated Veterans in receipt of unemployment 
compensation for longer than 105 days in order to provide employment 
assistance.
    The Department supports this section, but requests that the time 
period be changed from 105 days to 15 weeks to coincide with the end of 
a benefit week for the purposes of Unemployment Compensation.
    Section 13: This section would reauthorize and modify the 
demonstration program for the credentialing and licensure of Veterans 
contained in 38 U.S.C. 4114.
    DOL supports the concept of this section and believes that the 
credentialing and licensing of Veterans will be helpful in 
transitioning Servicemembers into the civilian sector, but there 
continue to be serious implementation issues with this provision. In 
particular, licensure and credentialing is mostly a function of the 
individual States, and to facilitate credentialing and licensure for 
Veterans, the demonstration project would require DOD to align its 
military training and assessments to more closely match States' 
civilian licensing requirements. We also note that credentialing and 
licensure requirements differ from State to State. We would like to 
work with the Committee to help resolve these issues so that the 
credentialing and licensure of Veterans can be more successfully 
implemented.

           DRAFT BILL: ``HONORING ALL VETERANS ACT OF 2011''

    The stated purpose of this bill is to: ``improve education, 
employment, independent living services, and health care for veterans, 
to improve assistance for homeless veterans, and to improve the 
administration of the Department of Veterans Affairs, and for other 
purposes.'' Accordingly, we defer to VA and DOD for most of the 
sections of the bill.
    Section 105: This section would require the Secretary of Labor, 
through the Assistant Secretary for the Office of Disability Employment 
Policy, to initiate a program to provide technical assistance to 
prospective employers, employers of covered Veterans and entities in 
the workforce system to assist Veterans who have Traumatic Brain Injury 
or Post Traumatic Stress Disorder in the area of employment.
    DOL believes that this section is unnecessary. ODEP, in cooperation 
with VETS, created the America's Heroes at Work (AHAW) program in 2008 
to fulfill this need. We are currently in the process of transitioning 
the leadership and funding for this program to our office, and propose 
to work with the Committee to determine if AHAW needs further 
enhancements.

                               CONCLUSION

    We are reminded everyday of the tremendous sacrifices made by our 
Veterans, Servicemembers and their families. Secretary Solis and the 
Veterans' Employment and Training Service believe that America must 
honor those sacrifices by providing the Nation's bravest with the best 
possible programs and services that we have to offer. We look forward 
to continuing our work with this Committee to do just that.

    I again thank this Committee for your commitment to our Nation's 
Veterans and for the opportunity to testify before you. We would be 
happy to work with your staffs to provide technical assistance on any 
of these or future bills, and I would be happy to respond to any 
questions.

    Chairman Murray. Thank you very much.
    Mr. McWilliam, let me begin the questions with you. I note 
that the Administration opposed several provisions in the 
Hiring Heroes Act, and the goal of this legislation is to make 
sure that our men and women in uniform really capitalize on 
their service. The American people have invested a great deal 
of money in training for these men and women as they go to 
service, and we want to make sure that we get a benefit from 
that and that.
    Today we have an unemployment rate of 27 percent among our 
veterans who are coming home from Iraq and Afghanistan, and I 
think it is most telling to remind all of us that the Army 
alone, just the Army, is paying out nearly $1 billion in 
unemployment benefits every year. That is $1 billion because 
these men and women are not at work. And we continue to hear 
all the time from veterans who do not have the job support they 
need when they leave the service.
    So doing nothing is not the right approach, and I wanted to 
ask you today what you propose.
    Mr. McWilliam. Madam Chair, we believe that the redesigned 
Transition Assistance Program is the real keystone to assisting 
people as they leave the service. Our Assistant Secretary has 
testified before this Committee in the past on the parameters 
of that. We believe that the restructured and reengineered 
program has great strengths in it that will allow transitioning 
servicemembers to identify the skills that they need and how to 
translate their skills, their military skills, into civilian 
skills.
    One of the really key unique aspects of that is the 
Individual Transition Plan where each individual participant 
will write out a plan to get them to their goals in moving to 
that. We believe there are many tools currently available that 
assist people in identifying that translation between skills, 
both into the civilian workforce and into the Federal 
workforce, and our program will strengthen the participants' 
ability to take advantage of those.
    Chairman Murray. I want to come back and ask you more 
explicitly about that, but before I do, I want to turn to Dr. 
Jesse, because recent work by the GAO uncovered some very 
disturbing information about sexual assaults among veterans in 
inpatient mental health and other programs. It is unacceptable 
that our veterans, especially our most vulnerable veterans, 
under the Department's supervision cannot be kept safe, and I 
am very concerned that the VA police failed to inform 
leadership about these many allegations.
    I wanted to ask you today to tell us what is going on out 
there and what VA is doing to address this situation to make 
sure that our veterans are safe.
    Dr. Jesse. Yes, ma'am. VA does take patient and employee 
safety very seriously. Since General Shinseki was sworn in as 
the Secretary, he has constantly reminded us that we have two 
responsibilities: to accomplish the mission and to take care of 
the people. And much of the Secretary's agenda has centered 
around the safety of both veterans and employees.
    One of the first things he did was to stand up the Office 
of Security and Preparedness under Assistant Secretary Riojas, 
which includes operationalizing in 2009 the Integrated 
Operating Center, which gets reports from all of--aggregates 
reports from all of the police departments at the VA and 
provides the Secretary frequent briefings on what indeed is 
going on. And we take any of these allegations very seriously. 
We investigate them very seriously.
    So we are in the process now of reviewing the GAO's 
recommendations, and particularly where they have identified 
critical areas where they point out that we may have issues for 
improvement.
    We also have in 2010, I believe, March 2010, issued VA 
Directive 2010-014, I believe, which assigns a responsibility 
to emergency departments in the VA for the appropriate 
management of veterans who present with alleged sexual assault 
to ensure that they get sensitive and appropriate treatment, 
including treatment that meets all the standards that would 
protect their legal rights. We think that was a very important 
component of bringing this in place.
    We will take steps to expand and improve our reporting of 
allegations. We have two processes, as I mentioned: the IOC and 
also Issue Brief process that comes up through the medical 
centers themselves. I think we need to reconcile and make sure 
that we have got coherence and clarity from both of those 
directions. But the bottom line is that we do have a 
responsibility to protect our veterans and to protect our 
employees. And just as the veterans have protected us, we would 
take that responsibility very seriously. I know we have 
discussions next week to go into this in depth.
    Chairman Murray. Well, this Committee is going to be 
following this very closely because it is very disturbing, and 
it is hard to believe that senior leaders in those facilities 
did not know what was going on. The breakdown in communication 
is a serious issue. You addressed it for a second there. But 
just that these were happening and people did not feel safe 
enough to tell people about it or follow up on it or report it 
is extremely disturbing. So, Dr. Jesse, we want to keep this 
conversation going, and we expect it to be followed by the VA.
    Dr. Jesse. Yes, ma'am.
    Chairman Murray. Mr. McWilliam, I want to return to you. 
You talked about redesign of the TAP program. That actually 
will work very well with our legislation, and I appreciate 
that. But we have been waiting a long time for a redesign. When 
do you expect to revamp TAP?
    Mr. McWilliam. Madam Chair, our deadline, our objective is 
to have this in place by this November, Veterans Day, to have 
it in place worldwide and being taught at that point.
    Chairman Murray. OK. November of this year.
    Mr. McWilliam. Yes, ma'am.
    Chairman Murray. All right. Well, as you know, DOD is 
opposed to mandatory TAP, and you stated that all transitioning 
servicemembers who plan to enter civilian employment would 
benefit from attending the employment workshop. So how do you 
explain the disconnect between the two agencies?
    Mr. McWilliam. Madam Chair, I prefer not to speak on behalf 
of the Department of Defense, but I believe it is the 
definition of all members of the Armed Forces. I believe that 
is their issue. And the mandatory issue perhaps includes people 
such as people who are retiring who are not going into 
employment, who are just strictly retiring. I believe their 
concerns have to do with the demobilizing Guard and the Reserve 
and the ability to bring them back for a full 2\1/2\-day 
employment workshop.
    Chairman Murray. OK. We will be following up with them as 
well.
    Senator Burr?
    Senator Burr. Madam Chairman, we have got so much that 
really does not pertain to the bills that we are here to talk 
about that we could spend a day with just the VA alone.
    Mr. Cardarelli and Dr. Jesse, I want to at least 
acknowledge the fact that both of you apologized for not having 
testimony here on time. I will note I did not hear either one 
of you say this will not happen again. Now, we have rules in 
the Committee, and I might say, Mr. McWilliam, I did not even 
hear you apologize.
    This may be a joke to some of you. I do not know. Maybe it 
is the instructions not to have it here to where Committee 
Members can thoroughly go through and dissect what an agency 
says. Many of the bills we do not have views on. It is 
impossible for me to believe that pieces of legislation that 
have been introduced for some time you have no views on, that 
you have no cost estimates on. It raises big questions when you 
take lightly Committee rules about when testimony needs to be 
here.
    I guess I should not be bewildered that we cannot hit 
deadlines that are statutory for claims processing or for other 
things when there is no sense of a deadline being anything 
other than a goal.
    Now, the Chairman raised an issue I was not going to raise, 
but I will chime in on it, and that is the GAO report. And let 
me assure our VA witnesses, we will spend many hearings on 
this. Let me just read to you the chart out of the GAO report.
    In 2010, 14 rapes, 44 inappropriate touches, 3 forced 
medical examinations, 5 forced inappropriate oral sex.
    In 2009, 23 rapes, 66 inappropriate touches, 3 forceful 
medical examinations, 3 forceful or inappropriate oral sex, 9 
other.
    Now, that is just since we set up a new center, and of the 
67 rape allegations that were listed in 2007, 2008, 2009, and 
2010, only 25 were sent to the Office of the Inspector General. 
Of the 67 rape allegations, only 25 were referred to the Office 
of the Inspector General. There is a breakdown that is 
tremendous. I cannot imagine any company in America not 
referring to their counsel or to outside counsel an allegation 
by an employee or a customer of sexual charges. But it seems 
like this is just another piece of business at the VA.
    Let me assure you that I, and I believe the Chairman, will 
raise this to the highest level. I have absolute confidence 
that we will explore this in great detail.
    Let me turn to our VA witnesses. In your testimony on my 
bill, S. 277, Caring for Camp Lejeune Veterans Act, you 
indicated the number of veterans and their families affected by 
water contamination to be 1 million. In a preliminary cost 
estimate provided to me by CBO, they put the number of affected 
veterans at 650,000. CBO arrived at this number with 
information provided to them by the Department of Defense on 
the number of military personnel family members who lived at 
Camp Lejeune during the affected period.
    Can you describe the matrix that you used to identify 1 
million affected veterans and family members?
    Mr. Hall. Sir, I think our testimony reflects that we do 
not have good numbers. We do not have numbers that we could use 
to estimate the cost.
    Senator Burr. Well, VA has estimated the cost in the past. 
That is what drew the conclusion, I think, that they came to. 
But can you account for the discrepancy in the two numbers? 
That is 350,000 people.
    Mr. Hall. No, sir, I cannot.
    Senator Burr. OK. Mr. McWilliam, the TAP program is 
currently undergoing a redesign, as you mentioned, with the 
goal of rolling the new program out by Veterans Day. In your 
testimony you indicated that the new TAP program will include a 
comprehensive follow-up plan to track the progress of veterans 
who took TAP while in the military.
    Now, let me ask you, could you detail for us the 
comprehensive follow-up plan?
    Mr. McWilliam. Yes, sir. The plan is to collect metrics on 
how well the program assisted the participant in entering 
civilian employment. We plan to do it at three times--three 
moments of truth--the first being when the person completes the 
program while they are still in the military; the second being 
while they are in job search mode looking for employment; and 
then the third one being shortly after they enter employment 
and have become a member of a civilian organization.
    Senator Burr. Do these metrics check anything other than 
the participant satisfaction?
    Mr. McWilliam. Sir, it is supposed to look at satisfaction 
and what portions of the program assisted them or what 
additional parts of the program they would need to have done 
better on their job search or to have done the on-boarding and 
to become a new member of an organization.
    Senator Burr. How long do you think it will take to collect 
enough data to gauge the effectiveness and outcomes of the 
redesigned TAP?
    Mr. McWilliam. Sir, I do not know that I can put a 
timeframe on that now. We plan to start doing this as soon as 
we start teaching the new TAP. So I am assuming that during the 
next fiscal year that we will begin gathering the data.
    Senator Burr. OK. Mr. Cardarelli, as you know, I have a 
bill on the agenda that would allow veterans with fully 
developed claims to receive benefits for up to 1 year before 
those claims are filed. Now, last year, the VA provided these 
views on a very similar piece of legislation, ``The 
availability of a retroactive effective date for an award of 
disability compensation granted on a claim fully developed when 
submitted would create an incentive for veterans to file fully 
developed claims. Submission of more fully developed claims 
would free up resources at VA regional offices to address the 
claims backlog.''
    Now, I will be honest with you. I am going to use the 
testimony as my own words as to why people should vote for this 
bill. I think the VA has made the greatest, simplest claim as 
to why this bill ought to become law. So let me ask you: what 
percentage of claims are now fully developed when submitted to 
the VA?
    Mr. Cardarelli. Right. Yes, sir. I appreciate your comments 
about the backlog. I want to reassure you that the leadership--
my job--we live and breathe the backlog every day. We have many 
initiatives, as you know, that we have put in place--some short 
term, some very long term. We have some technology issues we 
are doing. We are doing business processes.
    One of the things is what we call a fully developed claim, 
a program that we have where basically we incentivize sort of 
along the lines of what you talked about, that if your case 
comes complete to us, we will process it within 90 days, an 
incentive modeled after the idea of a tax--if you complete your 
tax----
    Senator Burr. So how many fully developed claims do you 
get?
    Mr. Cardarelli. We have had less than 1 percent, so we put 
into play----
    Senator Burr. Working?
    Mr. Cardarelli. Working. And what we realized----
    Senator Burr. Is it working?
    Mr. Cardarelli. Yes, sir. So what we realized----
    Senator Burr. Is it working like you thought it would?
    Mr. Cardarelli. Oh, no, sir. And so what happened is, as we 
put it into use, we realized that one of the things that it 
lacked was outreach to the veterans, making sure that they were 
aware of this program, us reaching out to them. So we realized 
we have an initiative, and what we want to do is make sure--
what we do not want to do is get inundated with so many that we 
are working so many that we cannot focus. But we started with 
this initiative, and then we realized as we started to assess 
it, we were not getting the return that we wanted.
    Senator Burr. Not limited to fully developed claims, how 
much does the VA spend on veteran outreach annually?
    Mr. Cardarelli. Sir, I do not know. I know that we in VBA 
have put a priority on that because we realize the more 
information we can get out to the veteran, the more 
communication, it enhances our trust, our confidence. I know 
you know this, but one of our biggest challenges as we process 
claims is development, gathering all that information. And if 
we can partner with the veteran to do that, that will help us 
get better claims coming to us----
    Senator Burr. Mr. Cardarelli, understand my frustration. We 
are standing up a new national outreach office, yet you do not 
know how much we currently spend on outreach. Outreach is the 
reason that we are less than 1 percent on fully-developed 
claims. I would be willing to bet that there is not a VSO--and 
I will ask them at the next hearing how many of them know that 
you have got an incentive program. I know it because I have 
assessed that it is a failure. That is one of the reasons that 
I have tried to create a new program that actually has a real 
incentive which would say to VSOs it is worth us going out and 
working with veterans to fully develop claims; it is worth it 
to the veterans to understand it.
    Currently what is the average time it takes to complete a 
fully developed claim versus the average time it takes to 
complete a not fully developed claim?
    Mr. Cardarelli. Right. In our most recent statistics for 
the month of April, it was taking approximately 160 days to 
process a claim. A fully developed claim we could do in 
approximately 100 days. So we realized--our goal was 90 days. 
We are a little over that, but we realized we can cut the time 
in half. What we are trying to do, going back to your point 
about outreach, is working with the veterans, but also working 
with the VSOs, letting them know that we have this capability 
and encouraging them to, in fact, use it, to say, hey, this is 
a great way--if you can collect your case and then bring it to 
us, that is how much quicker we can actually adjudicate it.
    Senator Burr. Well, I thank you for your optimism. As just 
a personal observation, I have been through two Administrations 
and multiple people who fill your role come in and share with 
the Chairman and me the great plan that they had in effect to 
reduce the backlog, yet annually I have seen the backlog 
increase and increase and increase. Every year we have been 
told about the new technology, and I have sat down with the 
head of technology. I have got tremendous confidence in him. 
But if it does not work, where are we? Isn't it time that we 
focus on how we get claims in which reduce the amount of time 
because it reduces the amount of time that an individual has to 
spend finding the information that they need to make a decision 
on a claim?
    Mr. Cardarelli. Yes, sir.
    Senator Burr. I hate to bring my business background into 
this, but sometimes common sense has to trump trying to look 
for some major breakthrough that is not being used.
    The good news for veterans is we have damn near used every 
excuse as to why the disability claims process is not working. 
We are just about out of new suggestions, and it may be that if 
technology does not work, then we have exhausted everything, 
and we can all get on the same page and focus on what we do to 
drastically change the outcome for our Nation's veterans.
    I thank the Chair. She has been very patient with me.
    Chairman Murray. Thank you very much, Senator Burr.
    Senator Brown?

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown of Ohio. Thank you, Madam Chair, and thank 
you for your leadership, the ambitious agenda of this 
Committee, and the tremendous amount of work that you have all 
done. I particularly appreciate your leadership on S. 894, the 
Veterans' Compensation Cost-of-Living Adjustment Act, and the 
Hiring Heroes Act of 2011. The focus of the Administration and 
a major component of our focus on job creation should be about 
veterans and what we can do in that direction. We can, I think, 
perhaps more in this Committee than in any other, send a 
powerful bipartisan message that veterans issues are more 
important than partisan politics and that job creation among 
veterans especially is important. As we spend so much money in 
this country on defense and so many veterans are out of work, 
something does not quite fit there.
    Finally, Madam Chair, I hope the Committee will consider 
S. 572, a bill to improve collective bargaining over pay 
matters for VA doctors and nurses. In a moment I will ask Dr. 
Jesse a question about that. The bill passed out of Committee 
last year restored bargaining rights for VA clinical care 
employees--bargaining rights that had been eroding over time. 
The bill is not about bargaining over pay scales but about 
giving employees the right to challenge violations of the VA's 
own pay rules. It is about fairness and ensuring that VA 
medical professionals have the same rights as other VA 
employees, and doctors and nurses at other Federal facilities. 
The bill is about holding VA accountable to those employees, 
accounts about complying with its own pay rules. I look forward 
to the testimony later of David Cox, the National Secretary-
Treasurer of the AFGE, the American Federation of Government 
Employees, on this matter.
    Dr. Jesse, a couple of questions about the reason for this 
bill, if you will. Two questions. First, does the VA collect 
data on how many medical professionals quit the VA over VA's 
pay policy or the lack of bargaining rights over unfair pay 
practices? And, second, in your opinion, is there a good chance 
that a physician who was promised incentive pay to come to the 
VA may leave when VA breaks that promise, and because of the 
lack of collective bargaining the employee does not have the 
recourse that she might have or he might have otherwise for 
doctors and nurses? Dr. Jesse, if you would weigh in on both of 
those.
    Dr. Jesse. Sure. In response to the first question, I do 
not know the answer offhand, so I would have to get back to 
you, and we can look at that.

             Response to Request Arising During the Hearing

    Question. Sen. Brown of Ohio asked whether VA has data on the 
number of physicians and nurses who have left VA service because VA 
``reneged'' on a commitment to them to provide incentives or bonuses or 
because their collective bargaining rights were limited.
    Response. The Department of Veterans Affairs (VA) does not collect 
or maintain data on employees who may have left VA employment due to 
the failure of VA to fulfill a commitment to provide incentives or 
bonuses. Moreover, data show that VA's recruitment and retention of 
physicians and nurses has not been negatively impacted by limitations 
on collective bargaining rights.
    The number of physicians and nurses on VA rolls has steadily 
increased over the past six fiscal years and the turnover rates for 
these occupations have remained at very low levels (see data below). 
VA's generous benefits packages and our title 38 pay systems, such as 
the Physician and Dentist Pay System and the Nurse Locality Pay System, 
have made VA more competitive and improved our ability to recruit and 
retain physicians and nurses.

                                                  0602 Physicians
----------------------------------------------------------------------------------------------------------------
                                                                        in fiscal years--
                                               -----------------------------------------------------------------
                                                    06         07         08         09         10         11
----------------------------------------------------------------------------------------------------------------
Total Onboard.................................    15,472     16,440     17,876     19,249     20,173     20,558
Total Losses..................................     1,436      1,385      1,467      1,433      1,556        662
Loss Rate.....................................      9.28%      8.42%      8.21%      7.44%      7.71%      3.22%
----------------------------------------------------------------------------------------------------------------


                                                   0610 Nurses
----------------------------------------------------------------------------------------------------------------
                                                                        in fiscal years--
                                               -----------------------------------------------------------------
                                                    06         07         08         09         10         11
----------------------------------------------------------------------------------------------------------------
Total Onboard.................................    39,713     42,162     46,983     50,309     52,428     53,603
Total Losses..................................     3,325      3,388      3,242      2,786      3,289      1,825
Total Turnover/Loss Rate......................      8.37%      8.04%      6.90%      5.54%      6.27%      3.40%
----------------------------------------------------------------------------------------------------------------


    Dr. Jesse. The answer to the second question is that my 
sense is we have done very well over the past several years in 
both recruiting and maintaining the workforce, thanks to the 
Congress for the physician pay bill that passed in 2006, I 
believe. It was an extraordinary effort that really changed our 
capability to get high-quality physicians both to come to the 
VA and to stay there. And I can speak to that from a personal 
sense, having been a chief of cardiology in Richmond and having 
to recruit what are very competitive positions in both 
interventional cardiology and electrophysiology. We have been 
able to retain those physicians.
    In terms of people leaving because we renege on performance 
pay, my sense is, yes, they may. And it would be our loss that 
they would because, frankly, these positions can get paid two, 
three, or four times higher in the private sector than we pay 
them. What we do offer them is a superb work environment that 
is unencumbered by having to bill, unencumbered by having to 
have their salary predicated on doing procedures that are--
well, I want to be careful about my words here, but that we can 
do appropriate procedures, we can do the right things for 
patients because we have a model of physician reimbursement 
that supports doing the right thing for the patients. And that 
work construct, the pay construct, the pay rates we have now 
have been very beneficial in doing that. We do use retention 
bonuses to keep particularly the more challenging positions, 
which I would include interventional radiology, interventional 
cardiology, electrophysiology, nuclear medicine, and some of 
the surgical specialties. And I do not know that we have 
suffered significant loss because we have reneged on them.
    Senator Brown of Ohio. Are you acknowledging that you have 
reneged on some of them?
    Dr. Jesse. No. I do not know that we have.
    Senator Brown of Ohio. OK.
    Dr. Jesse. I mean, I sign off on moving them forward, but I 
do not have visibility into ones where they may have reneged on 
them. But I can find that out for you. I do not have that in 
front of me. I have not heard it is a problem. I have not heard 
complaints from physicians that they are leaving because they 
had a pay agreement and were reneged upon. I do know that, you 
know, people may move because we do not pay them the salary 
that they want to get. But, frankly, the pay structure we have 
in place now, thanks to the physician pay reform in 2006, makes 
us able to compete for good, high-quality physicians. I am very 
proud of that workforce.
    Senator Brown of Ohio. I did not just make it up, so we 
will talk about the reneging.
    Dr. Jesse. OK, yes.
    Senator Brown of Ohio. But I also do not have--we do not 
have----
    Dr. Jesse. I am sure there are incidents, but I just have 
not seen them yet.
    Senator Brown of Ohio. I accept that, and we do not--you 
know, we just want to explore more. There are some physicians, 
some of your most qualified physicians and nurses leaving 
because of that, but we will pursue that. The point in part is 
that collective bargaining, that legislation, will help work 
that through so that there is some recourse for those doctors 
and nurses, and in an environment that can be not all that 
contentious to make it work in the best ways. We are having a 
major fight in Ohio right now, a political fight on the whole 
idea of collective bargaining for public employees, and people 
that support taking away collective bargaining rights forget 
that when people are talking that there is actually less 
animosity and less anger and more resolution, and a political 
agenda or an ideological fervor sometimes obscures that.
    Thank you.
    Chairman Murray. Thank you very much.
    Dr. Jesse, as you know, there are a lot of reasons that 
veterans become homeless. Sometimes it is the impact of 
invisible wounds of war, breakup of a marriage, the loss of a 
job--a lot of factors. Currently, VA can only contract for 
emergency shelter care for homeless veterans who are seriously 
mentally ill or have substance abuse issues.
    One of the provisions in S. 1148, the Veterans Programs 
Improvement Act, will allow VA to contract for emergency 
shelter care for homeless veterans regardless of current 
eligibility restrictions. I know you do not have cleared views 
on the homeless sections of this bill, but can you talk 
generally about how expanding the population of homeless 
veterans who are eligible for emergency shelter would help the 
VA accomplish its goals of eliminating homelessness?
    Dr. Jesse. Sure. I would like to start off by saying that 
your question is exactly on key. Our goal is not to reduce it. 
The Secretary has been very frank and committed to eliminating 
homelessness in veterans, and we do know that this is not an 
issue of just providing a bed. It is an issue of health care, 
it is an issue of education, it is an issue of working with the 
courts to try to support veterans who might be otherwise in 
trouble and need help. But it requires not just--it requires 
this broad base of social services all woven together if we are 
really going to accomplish this goal. So my sense is that 
anything we can do to move that forward is useful toward 
reaching that goal of eliminating homelessness.
    I think we have made great strides. I think Ranking Member 
Burr said we went from about 111,000 last year down to about 
76,000. These are actually difficult numbers to get because it 
is a population that actually is in flux. But I think the trend 
at least is very promising, and I think we are moving that in 
the right direction. I am extremely proud of the VA's 
homelessness program. It has got some extraordinarily talented 
people who have managed this in just remarkable ways in a 
relatively short period of time.
    Chairman Murray. OK. Mr. Cardarelli, I want to turn to you 
because we heard recently about an employee of a fiduciary who 
was recently charged with embezzlement of over $626,000 from 
the estates of incompetent VA beneficiaries. As you know, I 
have introduced legislation to improve VA's ability to actually 
access the bank accounts of fiduciaries, and I wanted you to 
comment on that today on whether or not the provisions of this 
bill will allow the VA with direct access to fiduciary bank 
accounts to better increase the likelihood of something like 
that not happening.
    Mr. Cardarelli. Yes, ma'am. One of the Secretary's major 
concerns is fiduciary, realizing that these are among our most 
vulnerable veterans, and he has emphasized that to the VBA 
leadership, so we clearly take that very seriously.
    One of the things we realized what we wanted to do was have 
better oversight, better oversight within our organization and 
also external to our organization. As you know, as members of 
your staff know, we have done some reorganization in VBA that 
allows us to do that. We created a senior executive position. 
We are doing some consolidation of our fiduciaries into a few 
less sites so that we could have better fidelity of our people 
who do that. We think the bill that you introduced, what I know 
of it, will give us more access and more oversight so that we 
can look in and if there is potentially something going on that 
does not look right, we could then raise that issue.
    So whatever we can do to have better oversight and better 
insight into a bank account or whatever will assist us in 
providing better oversight of that program.
    Chairman Murray. OK. I appreciate that.
    I have a number of other questions that I am going to 
submit for the record.
    Senator Burr, did you have any more for this panel? Senator 
Brown?
    [No response.]
    Chairman Murray. I note that Senator Begich has just 
arrived, and before I dismiss this panel, do you have any 
questions for this panel?
    Senator Begich. No.
    Chairman Murray. Alright, then we will submit questions for 
the record. We want each of you to respond to those in a timely 
manner. So, at this point I thank you very much for your 
testimony. I would like to excuse this panel and move to the 
second panel.
    In order to be expeditious, I am going to introduce you as 
you are coming up, so if everybody can keep their comments down 
as you move around, that would be great.
    I do understand that there were a lot of bills that some of 
the panelists addressed in their written testimony, so I want 
to thank you, all of you, for your participation. It really 
benefits this Committee to know your comments.
    We are going to be hearing from Jeff Steele, who is the 
assistant legislative director at The American Legion; Joe 
Violante, who is the national legislative director for the 
Disabled American Veterans; Raymond Kelley, who is the national 
legislative director for the Veterans of Foreign Wars; Jerry 
Ensminger, who is a retired Master Sergeant of the U.S. Marine 
Corps; and J. David Cox, who is the national secretary-
treasurer of the American Federation of Government Employees.
    I thank all of you for coming before the Committee today 
with your testimony. Mr. Steele, I am going to begin with you. 
I see you just barely sat down, but are you ready to go? OK. 
Thank you very much.

    STATEMENT OF JEFF STEELE, ASSISTANT DIRECTOR, NATIONAL 
          LEGISLATIVE COMMISSION, THE AMERICAN LEGION

    Mr. Steele. Chairman Murray, Ranking Member Burr, Members 
of the Committee, thank you for this opportunity for The 
American Legion to present its views on legislation pending 
before the Committee. I will limit my remarks to three issues 
we would like to highlight for today's hearing.
    The American Legion supports S. 815, the Sanctity of 
Eternal Rest for Veterans Act.
    This bill would create a zone of protection around military 
funerals by limiting any protests within 300 feet of such a 
funeral for 120 minutes preceding or following a service at any 
cemetery in the country. Additionally, the bill would extend 
the zone to 500 feet for any memorial services at cemeteries 
under control of the National Cemetery Administration and 
Arlington National Cemetery.
    The American Legion supports the freedom of speech 
protected by the First Amendment to the U.S. Constitution which 
all our members swore to protect and uphold. However, the 
Supreme Court has made it clear that, and I quote, ``[e]ven 
protected speech is not equally permissible in all places and 
at all times.'' The choice of where and when to conduct 
picketing is not beyond the Government's regulatory reach. It 
is, again, quoting the Supreme Court, ``subject to reasonable 
time, place, or manner restrictions.''
    We embrace fully a world where groups espousing varied and 
unpopular political messages have the ability to voice those 
concerns in proper venues; however, in so doing it is not 
necessary to harm the grieving families of our heroes. This 
legislation will protect the families of our fallen soldiers 
and help preserve the dignity of military funerals from those 
who wish to disrupt and cause pain and suffering while 
respecting the intent of the First Amendment to our 
Constitution. Finally, it should be noted that there is no cost 
to this bill, but it will be priceless for the families of our 
fallen servicemembers.
    S. 490 would expand eligibility requirements for children 
who receive health care under the Civilian Health and Medical 
Program of the VA, or CHAMPVA. The aim of this bill is to give 
CHAMPVA the same benefits now available to other Americans 
established by the Patient Protection and Affordable Care Act 
signed into law last year. Prior to passage of this 
legislation, concerns were raised that provisions extending 
health insurance coverage to dependent children until age 26 
did not extend either to TRICARE or CHAMPVA beneficiaries. The 
fiscal year 2011 National Defense Authorization Act enacted 
earlier this year gave the Defense Department the authority it 
needed to extend TRICARE coverage to young adults. This leaves 
only CHAMPVA beneficiaries without this extended eligibility. 
It is only fair to afford children who are CHAMPVA 
beneficiaries the same eligibility. Surely coverage for 
veterans' family members in need should meet this new national 
standard. The American Legion supports this bill.
    S. 1104, the Transition Assistance Program Audit Act of 
2011, calls for an independent third-party audit of the 
Department of Labor's Transition Assistance Program, or TAP, 
every 3 years to ensure that it is providing services that are 
up-to-date and useful to servicemembers and their spouses 
making the initial transition from military service to the 
civilian workplace.
    While acknowledging the current efforts underway to reform 
the TAP program, the fact remains that it should not have taken 
the Department of Labor nearly two decades to modernize this 
program, and the Department should welcome the assistance that 
would come from an independent audit with recommendations for 
improving the effectiveness of the program at regular 
intervals. The American Legion supports this bill. It would 
recommend, however, that a sunset provision be added to the 
bill.
    This concludes my statement. I would be pleased to answer 
any questions you or the Committee might have. Thank you.
    [The prepared statement of Mr. Steele follows:]

  Statement of Jeff Steele, Assistant Director, National Legislative 
                    Commission, The American Legion

    Chairman Murray, Ranking Member Burr, Members of the Senate 
Veterans' Affairs Committee, thank you for this opportunity for The 
American Legion to present its views on the following pieces of pending 
legislation.

          S. 277, CARING FOR CAMP LEJEUNE VETERANS ACT OF 2011

    The purpose of this bill is to amend title 38, U.S.C., and to 
furnish hospital care, medical services, and nursing home care to 
veterans currently suffering from adverse health effects who were 
stationed at Camp Lejeune, North Carolina, during the time the water 
was contaminated by known human carcinogens and probable human 
carcinogens.
    The Camp Lejeune water contamination problem occurred at Marine 
Corps Base Camp Lejeune from 1957 to 1987. During that time, United 
States Marine Corps (USMC) servicemembers and their families living at 
the base apparently bathed in and ingested tap water contaminated with 
harmful chemicals. An undetermined number of former base residents 
later developed cancer or other ailments, which many blame on the 
contaminated drinking water. Victims claim that USMC leaders concealed 
knowledge of the problem and did not act properly in trying to resolve 
it or notify former base residents that their health might be at risk.
    The American Legion favorably acknowledges an April 2011 letter 
sent to the Navy wherein five Members of Congress, including Senators 
Bill Nelson of Florida, Kay Hagan and Richard Burr and Representatives 
Brad Miller of North Carolina, and John Dingell of Michigan, criticize 
the service's continued behavior regarding the water contamination 
issue. In the letter, the members accused the Navy of continuing to 
mischaracterize a 2009 report by the National Academy of the Sciences' 
National Research Council, which concluded there was no concrete link 
between the chemicals trichloroethylene and tetrachloroethylene and a 
host of ailments suffered by veterans and family. The Navy states the 
report also assessed benzene exposure, which is false, according to the 
letter. Also, the letter criticized the Navy for not agreeing to a 
communications protocol with the Agency for Toxic Substances and 
Disease Registry (ATSDR) to allow that agency to review all Navy public 
relations material related to the contamination issue. The letter 
pointed out that the Marine Web site with information on the 
contamination did not contain direct links to the ATSDR Web site 
documenting their study of the issue.
    The American Legion supports this bill and the conducting of 
further scientific studies of the residents who were affected by those 
contaminants in order to finally resolve this long-standing issue.

          S. 396, MEETING THE INPATIENT HEALTH CARE NEEDS OF 
                  FAR SOUTH TEXAS VETERANS ACT OF 2011

    This bill directs the Secretary of Veterans Affairs (VA) to: (1) 
ensure that the South Texas Veterans Affairs Health Care Center in 
Harlingen, Texas, includes a full-service VA inpatient health care 
facility; and (2) if needed, modify the existing facility to meet this 
requirement.
    While The American Legion generally takes no position on the 
specific placement of VA healthcare facilities, we are strongly 
committed to seeing that veterans should not be forced to travel long 
distances to access quality health care because of where they choose to 
live. All veterans deserve convenient access to proper medical 
attention. Earlier this year, VA did open a new $40 million Health 
Center in Harlingen to accommodate the needs of South Texans. The 
Health Center, which offers only outpatient care, can be seen as a 
first step toward full-service health care to the region. Previously, 
the closest VA facility was in San Antonio--a laborious trip for many 
patients suffering from chronic conditions. VA has therefore recognized 
the need for an expansion of veterans' health care services in Deep 
South Texas.
    We remained concerned, however, that VA's Major and Minor 
Construction Programs continue to be targeted for reductions. 
Acknowledging this Nation's present fiscal difficulties does not entail 
that we as a nation are unable to meet the obligations to our veterans. 
The American Legion understands VA is facing increasing issues with 
regards to providing care and benefits to our returning servicemembers, 
and the veterans of previous conflicts. But with more veterans coming 
home from Iraq and Afghanistan, the costs of providing care and 
benefits are going to have to continue to increase.
    The American Legion recommends the President's budget request for 
$590 million for Major Construction and $550 million for Minor 
Construction in FY 2012 be increased to $1.2 billion for Major 
Construction projects and $800 million for Minor Construction projects 
to provide for additional facilities.

           S. 411, HELPING OUR HOMELESS VETERANS ACT OF 2011

    This bill would improve outreach to rural and underserved urban 
veterans by authorizing and encouraging VA to partner with eligible 
state and local governments, tribes, and community-based service 
providers to ensure homeless veterans have access to the existing HUD-
Veterans Affairs Supportive Housing (HUD-VASH) program that provides 
chronically homeless veterans with housing vouchers and case management 
services, such as assistance accessing counseling and job training.
    The President and VA Secretary are committed to eliminating 
veteran's homelessness. The HUD-VASH program is a prominent part of the 
five year plan developed to do so. VA has acknowledged in previous 
congressional testimony it can't achieve this goal on its own. It 
``will need the collaboration of Federal and State and community 
partners and, of course, Congress,'' a VA representative said.
    By allowing VA to collaborate with states and nonprofits on case 
management service provision, the bill would help ensure distribution 
of rental assistance and other services to veterans in rural areas and 
underserved urban veterans where case management services are otherwise 
not available. It should be noted the bill does not require additional 
funding.
    The American Legion supports this bill.

   S. 423, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO PROVIDE 
   AUTHORITY FOR RETROACTIVE EFFECTIVE DATE FOR AWARDS OF DISABILITY 
 COMPENSATION IN CONNECTION WITH APPLICATIONS THAT ARE FULLY-DEVELOPED 
                 AT SUBMITTAL, AND FOR OTHER PURPOSES.

    One of many initiatives the Department of Veterans Affairs (VA) has 
launched to help address the claims backlog has been the Fully 
Developed Claims (FDC) Program. VA successfully piloted the program at 
ten VA regional offices through which VA expedited FDC claims. Last 
year, VA expanded the FDC process to all VA regional offices. This 
legislation is designed to encourage the use of this program by 
providing an incentive for veterans to file these fully-developed 
claims by compensating them for a period up to one year prior to the 
date the claim was filed.
    Although VA already allows for the locking in of an earlier 
effective date with an informal claim if a veteran needs time to gather 
evidence for their FDC claim, not all who avail themselves of the FDC 
claims process will know of or use an informal claim, thus losing the 
benefit of an earlier effective date. This legislation would provide a 
safety net for those veterans.
    The American Legion supports this bill.

   S. 486, PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 2011

    This bill encourages compliance with the Servicemembers Civil 
Relief Act (SCRA) by doubling the maximum criminal penalties for 
violations of its foreclosure and eviction protections. It would also 
double civil penalties in cases where the Attorney General has 
commenced a civil action. In addition, the bill will give 
servicemembers the time they need after returning from deployment to 
regain solid financial footing, by extending the period of foreclosure 
protection coverage from 9 to 24 months after military service has 
ended.
    Earlier this year, when reports that one of America's largest banks 
had been overcharging about 4,000 servicemembers on their home loans, 
and had improperly foreclosed on the homes of 14 military families, we 
wholeheartedly joined the chorus of justifiable outrage about this 
shocking situation and called upon all financial institutions that 
handle mortgages for military families to review policies and 
practices, to make sure they are obeying Federal law.
    While the bank involved has issued a mea culpa and made efforts to 
reassure the men and women of our military their commitment to make 
this right, the episode makes it clear that further strengthening of 
the SCRA is called for. It is a national security imperative that 
servicemembers be able to fight the Nation's wars without having to 
worry about their rights being trampled at home. The tragic stories of 
those who have been adversely affected by the failure of our financial 
institutions to play by the rules further highlight the necessity of 
enhancing the effectiveness of the legal and regulatory protections for 
our servicemembers and veterans.
    The American Legion supports this bill.

 S. 490, THIS BILL WOULD EXPAND ELIGIBILITY REQUIREMENTS FOR CHILDREN 
 WHO RECEIVE HEALTH CARE UNDER THE CIVILIAN HEALTH AND MEDICAL PROGRAM 
             OF THE VETERANS AFFAIRS DEPARTMENT (CHAMPVA).

    The aim of this bill is to give CHAMPVA the same benefits now 
available to other Americans established by the Patient Protection and 
Affordable Care Act (P.L. 111-148) signed into law last year. Prior to 
passage of this legislation, concerns were raised that provisions 
extending health insurance coverage to dependent children until age 26 
did not extend either to TRICARE or CHAMPVA beneficiaries. The fiscal 
2011 National Defense Authorization Act enacted earlier this year gave 
the Defense Department the authority it needed to extend TRICARE 
coverage to young adults. This leaves only CHAMPVA beneficiaries 
without this extended eligibility. It is only fair to afford children 
who are CHAMPVA beneficiaries the same eligibility. Surely coverage for 
veterans' family members in need should meet this new national 
standard.
    The American Legion supports this bill.

             S. 666, VETERANS TRAUMATIC BRAIN INJURY CARE 
                        IMPROVEMENT ACT OF 2011

    This bill directs the Secretary of Veterans Affairs to report to 
Congress on the feasibility and advisability of establishing a 
Polytrauma Rehabilitation Center or Polytrauma Network Site for the 
Department of Veterans Affairs (VA) in the northern Rockies or the 
Dakotas. It further requires the Fort Harrison Department of Veterans 
Affairs Hospital in Lewis and Clark County, Montana, to be evaluated as 
a potential location for such a Center or Site.
    Again, The American Legion generally takes no position on the 
specific placement of VA healthcare facilities, but we are strongly 
committed to seeing that veterans should not be forced to travel long 
distances to access quality health care because of where they choose to 
live. Therefore, we support the establishment of additional Polytrauma 
Rehabilitation Centers or Polytrauma Network Sites wherever a need for 
them is apparent and petitions Congress to provide required operations 
and construction funding to ensure proper healthcare is a realistic 
option for veterans.

  S. 696, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO TREAT VET 
 CENTERS AS DEPARTMENT OF VETERANS AFFAIRS FACILITIES FOR PURPOSES OF 
PAYMENTS OR ALLOWANCES FOR BENEFICIARY TRAVEL TO DEPARTMENT FACILITIES, 
                        AND FOR OTHER PURPOSES.

    Readjustment Counseling Centers, also known as Vet Centers, assist 
veterans through such services as individual, group or family 
counseling to help overcome psychological problems. Trips to a Vet 
Center are as important as trips to a VA clinic. But the latter earns 
the patient mileage reimbursement, while a visit to the former does 
not. This legislation corrects that inequity by treating Vet Centers 
the same as other VA facilities for the purpose of reimbursements for 
travel.
    The American Legion supports this bill.

  S. 745, THIS BILL MODIFIES ONE ASPECT OF THE MAJOR REVISION TO THE 
 POST-9/11 GI BILL SIGNED INTO LAW EARLIER THIS YEAR, I.E., THE POST-9/
           11 VETERANS EDUCATION ASSISTANCE IMPROVEMENT ACT.

    In an attempt to simplify the new GI Bill program, the new law 
creates a less complex method for deciding tuition and fee 
reimbursement for private institutions. Instead of setting a 
reimbursement cap for each state, based on the highest in-state rates 
for tuition and fees charged by a four-year public college or 
university, the bill would create a flat-rate cap for the entire U.S. 
of $17,500/yr for tuition and fees. Unfortunately, that cap could 
result in a drop in benefits for people using the GI Bill in six to 10 
states when the relevant provisions of the law go into effect this 
fall. Over the past two years, however, many students chose a 
particular school with the expectation the GI Bill program they began 
with would still be there when they completed their degree. S. 745 
would hold harmless current private school students from potential 
drops in tuition and fee payments.
    However, there are additional issues The American Legion would like 
to see addressed in any legislation to further modify the new GI Bill 
program. Three changes in particular are a priority. One involves 
grandfathering those who attend out-of-state public universities who 
also fall under the same $17,500 cap. A second change is aimed at a 
cost-cutting measure in the law that severely restricts payment of 
living stipends between school terms. Starting this fall, payments 
between terms will be made only if there is a natural disaster or other 
unexpected disruption in the term. Otherwise, living stipends cease at 
the end of the term and don't begin again until the start of the next 
term. However, these interval payments are important to full-time 
students who do not have jobs and who may not have other sources of 
income. Finally, the new law reduces the current role of the state 
approving agencies by deeming certain educational programs and courses 
as constructively approved when such courses are approved by other 
Federal entities for programs under their jurisdiction. State approving 
agencies will now assume a compliance and oversight role. This 
Committee should reconsider the advisability of this change.
     s. 769, veterans equal treatment for service dogs act of 2011
    This bill will permanently close a loophole in VA policy that has 
created hurdles to care for certain disabled veterans. Under current VA 
policy, only seeing-eye and guide dogs are offered unrestricted access 
to VA health care facilities. Veterans who utilize service dogs as VA-
sanctioned prosthetic devices for other physical or mental injuries can 
still be denied access at the discretion of each VA medical center 
director. While VA recently made an effort to close this loophole 
through a directive on service dog access, a legislative solution will 
offer the permanent equality in access that veterans deserve and save 
VA the trouble of having to reissue the directive at future intervals.
    The American Legion supports this bill.

            S. 780, VETERANS PENSIONS PROTECTION ACT OF 2011

    This bill would exclude from annual income, for purposes of 
eligibility for pensions for veterans and their surviving spouses and 
children, reimbursements resulting from: (1) any accident; (2) any 
theft or loss; (3) any casualty loss; (4) medical expenses resulting 
from any such accident, theft, or loss; and (5) pain and suffering 
(including insurance settlement payments and general damages awarded by 
a court) related to such accident, theft, or loss.
    Currently, any money received from an insurance claim, court 
judgment, or injury settlement counts toward a veteran's income when 
the VA determines pension eligibility. This means low-income veterans 
who are compensated even for small settlements risk losing their 
pensions. The bill seeks to change the rules surrounding the income 
eligibility rules. Veterans should not have to worry about losing their 
pensions because they became victims by some other person's actions.
    The American Legion supports this bill.

       S. 815, SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011

    This bill would create a zone of protection around military 
funerals by limiting any protests within 300 feet of such a funeral for 
120 minutes preceding or following a service at any cemetery in the 
country. Additionally, this bill would extend that zone to 500 feet for 
any memorial services at cemeteries under control of the National 
Cemetery Administration and Arlington National Cemetery.
    The American Legion supports the freedom of speech protected by the 
First Amendment to the U.S. Constitution which all of our members swore 
to protect and uphold. However, ``[e]ven protected speech is not 
equally permissible in all places and at all times.'' Frisby v. 
Schultz, 487 U. S. 474, 479. The choice of where and when to conduct 
picketing is not beyond the Government's regulatory reach--it is 
``subject to reasonable time, place, or manner restrictions.'' Clark v. 
Community for Creative Non-Violence, 468 U. S. 288, 293.
    We embrace fully a world where groups espousing varied and 
unpopular political messages have the ability to voice those concerns 
in proper venues; however, in so doing it is not necessary to harm the 
grieving families of our heroes. This legislation will protect the 
families of our fallen soldiers and help preserve the dignity of 
military funerals from those who wish to disrupt and cause pain and 
suffering while respecting the intent of the First Amendment to our 
Constitution.
    The American Legion supports this bill.

   S. 873, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO PROVIDE 
    BENEFITS FOR CHILDREN WITH SPINA BIFIDA OF VETERANS EXPOSED TO 
  HERBICIDES WHILE SERVING IN THE ARMED FORCES DURING THE VIETNAM ERA 
                OUTSIDE VIETNAM, AND FOR OTHER PURPOSES.

    Under title 38, United States Code, Chapter 18, benefits are 
currently payable to children of veterans that served in the Republic 
of Vietnam during the period January 9, 1962, to May 7, 1975, and who 
suffer from the birth defect spina bifida. Recent legislation has 
extended the spina bifida benefits to include the children of veterans 
who served in or near the Korean Demilitarized Zone during the period 
of September 1, 1967, and August 31, 1971, and determined by the 
Secretary of Veterans Affairs to have been exposed to herbicides during 
such service. However, the children of veterans who served in locations 
other than Vietnam and Korea who were possibly exposed to Agent Orange 
would be denied entitlement to compensation for spina bifida under the 
current statute and regulations. This inequity would be corrected by 
this legislation.
    The American Legion supports this bill.

         S. 894, VETERANS COST-OF-LIVING ADJUSTMENT ACT OF 2011

    The purpose of this bill is to increase, effective as of 
December 1, 2011, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for the survivors of certain disabled veterans. The amount 
of increase shall be the same percentage as the percentage by which 
benefit amounts payable under title II of the Social Security Act (42 
U.S.C. 401 et seq.) are increased effective December 1, 2011.
    The American Legion supports this annual cost-of-living adjustment 
in compensation benefits, including dependency and indemnity 
compensation (DIC) recipients. It is imperative that Congress annually 
considers the economic needs of disabled veterans and their survivors 
and provide an appropriate cost-of-living adjustment to their benefits, 
especially should the adjustment need to be higher than that provided 
to other Federal beneficiaries, such as recipients of Social Security.

 S. 935, A BILL TO REQUIRE THE SECRETARY OF VETERANS AFFAIRS TO CARRY 
     OUT A PROGRAM OF OUTREACH TO VETERANS, AND FOR OTHER PURPOSES.

    The American Legion believes that proper and thorough outreach is 
essential to ensuring this Nation's veterans and their dependents are 
fully informed and aware of all of the benefits to which they may be 
entitled to receive based on their honorable military service to our 
Nation.

                   S. 951, HIRING HEROES ACT OF 2011

    This critical legislation will combat rising unemployment among our 
Nation's veterans by requiring transition assistance for all 
servicemembers returning home, modifying Federal hiring practices to 
encourage the hiring of separating servicemembers and create new 
programs aimed at improving the transition from servicemember to 
civilian.
    In 2010, more than one in four veterans aged 20-24 were unemployed. 
Even as the civilian unemployment rate begins to decline, we continue 
to see the new veteran unemployment rate rise month to month in 2011. 
With less than half a percent of Americans fighting in the current wars 
and only 8 percent of Americans having ever served in the military, it 
is critical that we bridge the widening gap between the civilian 
workforce and our Nation's veterans and this legislation has the 
potential to help tackle this unacceptable problem.
    The American Legion supports this bill.

   S. 957, VETERANS' TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES' 
                        IMPROVEMENT ACT OF 2011

    This important piece of legislation will close gaps in both the 
duration and types of services provided to our wounded servicemembers 
who have sustained what are often profoundly debilitating Traumatic 
Brain Injuries. Specifically, the bill would clarify that VA may not 
prematurely cutoff needed rehabilitation services, and that these 
veterans can get the support they need--whether health-services or non-
medical assistance--to achieve maximum independence and quality of 
life.
    Traumatic Brain Injury (TBI) represents one of the most complex and 
potentially severe injuries incurred by servicemembers of the OEF/OIF 
conflicts. Each Traumatic Brain Injury is unique. Those with severe TBI 
may have such profound cognitive and neurological impairment that they 
require long years of caretaking and specialized rehabilitation. While 
many VA facilities have dedicated rehabilitation-medicine staff, the 
scope of services actually provided to veterans with TBI can be 
limited, both in duration and in the range of services VA will provide 
or authorize. We must guarantee that our veterans are supported not 
only in the acute phase of their recovery while they continue to make 
rehabilitative and medical gains, but that they are supported in the 
long term so that those gains are not lost.
    Independent living and community reintegration are of the utmost 
importance to this young generation of warriors. Yet the VA's 
rehabilitation focus relies almost exclusively on a medical model that 
doesn't necessarily provide the range of support a young person needs 
to achieve the fullest possible life in the community. In contrast, 
other models of rehabilitative care meet those needs through such 
services as life-skills coaching, supported employment, and community 
reintegration therapy. But these services are seldom made available to 
veterans. Congress must close the gap to ensure veterans receive the 
full range of services needed to live meaningful and independent lives 
in their communities.
    The American Legion supports this bill.

                                S. 1017

    This bill would extend permanently VA's authority to provide to 
eligible severely service-connected disabled veterans Temporary 
Residence Adaptation (TRA) Grants when those veterans do not intend to 
permanently reside in a residence owned by a family member; increase 
the maximum grant from $14,000 to $28,000 for eligible veterans who 
have a permanent and total service-connected disability as a result of 
loss or loss of use of both lower extremities; increase the maximum 
assistance from $2,000 to $5,000 for eligible veterans who have a 
permanent and total service-connected disability rating due to 
blindness in both eyes with 5/200 visual acuity or less; due to the 
anatomical loss or use of both hands; or due to severe burn injury. In 
addition, the legislation provides an annual adjustment based on the 
residential home cost-of-construction index for the preceding calendar 
year. Further, the proposed legislation would expand eligibility for 
Special Adaptive Housing Assistance for veterans with vision impairment 
to those veterans having a central visual acuity of 20/200 or less in 
the better eye with the use of a standard correcting lens which is 
consistent with other central visual acuity requirements elsewhere in 
title 38, United States Code. Finally, the bill would assure the TRA 
grant would no longer be counted against the Special Adaptive Housing 
Assistance maximum grant.
    Military personnel in Iraq and Afghanistan are surviving wounds in 
numbers far greater than previous wars. Largely due to advances in body 
armor and combat medicine as well as the rapidity of evacuation, 
survival rates are close to ninety percent. However many wounded 
servicemembers are surviving severe injuries which will require 
sophisticated, comprehensive, and often lifelong care. Blasts, 
especially those generated by IEDs are the cause of 65 percent of OEF/
OIF casualties. Explosive devices produce a characteristic pattern of 
injuries: TBI, blindness, spinal cord injuries, burns, and damage to 
the limbs resulting in amputation. Many military personnel are 
sustaining more than one of these wounds.
    Many of these wounded warriors will require constant care from a 
family caregiver for years after they leave service. During this time, 
they frequently reside in a home that is not their own and not a 
permanent residence where they may live on their own after recovery. 
Adaptations, like ramps and elevators, must often be made to their 
permanent home and that of their caregiver while they are recovering 
from their injuries. While the VA does provide grants for adaptive 
housing, the benefit is largely based on the assumption that wounded 
warriors are living in their permanent home. Section 2102A of Title 38 
allows the VA to issue a separate grant to adapt the temporary homes of 
recovering veterans; however, it is set to expire at the end of this 
year. By extending this program permanently, Congress can show their 
strong support for those veterans who have made extreme sacrifices for 
our freedom. The other upgrades in the bill would also constitute a 
necessary recognition by Congress of the evolving needs of these 
wounded warriors.
    The American Legion supports this bill.

               S. 1060, HONORING ALL VETERANS ACT OF 2011

    Senator Blumenthal is certainly to be praised for the priority he 
is placing on this Nation's veterans by having the first piece of 
legislation he is introducing since becoming a member of the Senate be 
a veteran's bill.
    We are particularly pleased that the legislation addresses a number 
of Legion priorities, including helping unemployed veterans find 
successful careers, assisting homeless veterans, meeting the behavioral 
health needs of veterans and military families, and enhancing DOD/VA 
collaboration to better institutionalize a truly seamless transition 
for returning servicemembers.
    The seamless transition from active service to civilian life is a 
pressing concern for The American Legion. Every day in combat zones our 
servicemembers face grueling obstacles and challenges; they should not 
face these challenges as they return home and reintegrate into society 
after defending their country. Because this legislation takes needful 
steps toward making sure military skills and training are translatable 
into the civilian sector, attending to the needs of veterans living 
with Traumatic Brain Injury and/or Post Traumatic Stress Disorder, and 
increasing the number of veterans who may participate in VA's 
Vocational Rehabilitation and Employment Independent Living Program, we 
find there is much we can approve of in it.
    The American Legion supports this bill.

        S. 1104, TRANSITION ASSISTANCE PROGRAM AUDIT ACT OF 2011

    This bill calls for an independent third party audit of the 
Department of Labor's Transition Assistance Program (TAP) every three 
years to ensure that it is providing services that are up-to-date and 
useful to servicemembers and their spouses making the initial 
transition from military service to the civilian workplace.
    While acknowledging the current efforts underway to reform the TAP 
program, the fact remains that it should not have taken the Department 
of Labor nearly two decades to modernize this program and it should 
welcome the assistance which would come from an independent audit with 
recommendations for improving the effectiveness of the program at 
regular intervals.
    The American Legion supports this bill.

                S. XXXX, ALASKA HERO'S CARD ACT OF 2011

    This bill establishes a pilot program under which veterans in the 
State of Alaska may receive health care benefits from VA at non-VA 
medical facilities.
    While The American Legion generally takes no position on state 
specific issues, we are concerned at the precedence this act may have 
upon the overall quality of care for veterans. While Alaskans certainly 
must wrestle with the challenges of rural health delivery as much if 
not more so than the veterans of other states, even within Alaska, 
shared resources with the Department of Defense, telemedicine and other 
unique delivery models are being pioneered. Moreover, this program can 
already be accomplished through the VA fee-basis program.
    Allowing Alaskan veterans to access almost any medical facility 
through use of a ``hero card'' negates the powerful resources of 
electronic medical records, case management, and VA oversight that can 
be offered through careful patient management. Furthermore, 
implementation of this program in Alaska would provide an unparallel 
benefit to one category of veterans not available to others in rural 
areas of the western United States and elsewhere. Finally, it detracts 
from the need of the VA to provide the necessary resources and 
facilities, or access to these, to every veteran no matter where they 
live.
    The American Legion opposes this bill.

    As always, The American Legion thanks this Committee for the 
opportunity to testify and represent the position of the over 2.4 
million veteran members of this organization. I would be happy to 
answer any questions you may have.

    Chairman Murray. Thank you very much.
    Mr. Violante?

STATEMENT OF JOSEPH A. VIOLANTE, NATIONAL LEGISLATIVE DIRECTOR, 
                   DISABLED AMERICAN VETERANS

    Mr. Violante. Chairman Murray, Ranking Member Burr, Members 
of the Committee, on behalf of the Disabled American Veterans, 
I am pleased to be here today to present our views on the bills 
under consideration. These bills impact almost every VA 
business line as well as programs under the jurisdiction of 
other departments. As requested, my oral remarks will focus on 
the bills and issues with which we have the greatest interest 
and concerns.
    Many of the bills under consideration today address 
important gaps in services to disabled veterans or enhance or 
improve current programs. DAV delegates to our most recent 
national convention in August 2010 passed numerous resolutions 
mandating DAV's support for many of the issues under 
consideration by this Committee, and I have identified DAV's 
position in detail in my written statement. However, as 
Congress considers authorizing new programs or enhancing or 
expanding current programs, it is essential that they do so in 
a manner that does not have negative effect on existing 
programs and services.
    In today's economic environment, VA cannot be all things to 
all veterans, their families, and survivors without obtaining 
substantially more resources which are dependable and stable. 
If we are to increase the services VA must provide, we must 
also allow VA the time and resources to properly plan how best 
to deliver the services authorized by Congress to a deserving 
veteran population.
    Madam Chairman, DAV and our members are acutely aware and 
grateful. Veterans programs have been benefited from generous 
increases and have been spared from deep cuts facing other 
Federal programs. However, we also realize that we are a Nation 
at war and that war produces more sick, disabled, and wounded 
veterans every day, thereby increasing the need for VA's 
services for veterans.
    As this Committee knows well, veterans' need do not end 
when the shooting stops. VA is still caring for widows of World 
War I veterans, veterans and families of World War II, and all 
wars since. VA today is also confronted with a new generation 
of war-disabled veterans with many complicated and expensive 
needs that will continue for decades to come. All of this 
demand puts extreme pressure on VA's current resources.
    In the face of this ambitious legislative agenda, we ask 
this Committee not to forget its responsibility to ensure that 
when it mandates a new service in law or admits a new eligible 
population to VA rolls that sufficient resources accompany that 
mandate to assure the promise is kept. The creation or 
expansion of a new benefit should not create the unintended 
consequences of restricting, reducing, or limiting benefits or 
services currently available. Authorizing new or expanded 
current programs without providing new financial, human, and 
capital resources will only force VA to slice their budget pie 
into smaller pieces. And when relatively fewer resources are 
available, VA is forced to ration services--an outcome that 
should not be supported by this Committee.
    Madam Chairman, while we share the goals of expanding 
access to VA health care for all eligible veterans, including 
those who live in rural, remote locations, DAV believes the VA 
must first ensure that doing so will not diminish or threaten 
the quality of care for enrolled veterans. Sustaining a robust 
VA health care system capable of providing a full continuum of 
high-quality, timely health care to all enrolled veterans 
remains one of DAV's highest priorities.
    We have concerns about proposals that seek to increase 
access to VA health care but do not identify or guarantee new 
funding to pay for expanded care. In particular, care provided 
to veterans outside the VA system but paid for from within the 
VA budget must be done in a judicious manner so as not to 
endanger VA's ability to maintain a full range of specialized 
inpatient and outpatient services for enrolled veterans. VA 
must maintain a critical mass of capital, human, and technical 
resources to promote effective, high-quality care for veterans, 
especially those with complex health problems such as 
blindness, amputation, spinal cord injury, Traumatic Brain 
Injury, and mental health problems.
    Madam Chairman, we have noted in our testimony the bills 
that we support. I would like to note that we strongly support 
passage of S. 894, which provides a cost-of-living adjustment 
for disability compensation and other payments. However, we 
oppose the continuing rounding down of that cost-of-living 
adjustment. Veterans are the only Federal recipients who have 
such a rounding-down.
    Madam Chairman and Members of the Committee, this concludes 
my statement, and I would be happy to answer any questions you 
have.
    [The prepared statement of Mr. Violante follows:]

    Prepared Statement of Joseph A. Violante, National Legislative 
                  Director, Disabled American Veterans

    Chairman Murray, Ranking Member Burr and Members of the Committee: 
On behalf of the Disabled American Veterans (DAV) and our 1.2 million 
members, all of whom are wartime disabled veterans, I am pleased to be 
here today to present our views on 34 bills under consideration today.

          S. 277, CARING FOR CAMP LEJEUNE VETERANS ACT OF 2011

    Section 2 of this bill would furnish Department of Veterans Affairs 
(VA) hospital care, medical services, and nursing home care to veterans 
who were stationed at Camp Lejeune, North Carolina during a period, 
determined by the VA Secretary in conjunction with the Agency for Toxic 
Substances and Disease Registry of the Department of Health and Human 
Services, in which the water at Camp Lejeune was contaminated by 
volatile organic compounds, including known human carcinogens, 
notwithstanding that there is insufficient evidence to conclude such 
illness is attributable to such contamination.
    Section 3 of this measure would create a new section 1786 under 
subchapter VIII of title 38, United States Code. Specifically, this 
bill would require a family member of the above described veteran who 
resided at Camp Lejeune during the same period, or who was in utero 
during such period, to be eligible for the same VA hospital care, 
medical services and nursing home care furnished by the Secretary for 
any condition, or any disability that is associated with such 
condition. The Secretary shall prescribe regulations that specify which 
conditions and disabilities are associated with said exposure.
    The delegates to our most recent National Convention in Atlanta, 
Georgia, July 31-August 3, 2010, adopted two resolutions related to 
this bill. Resolution No. 298 urges congressional oversight and Federal 
vigilance to provide for research, health care and improved 
surveillance of disabling conditions in veterans resulting from 
military toxic and environmental hazards exposure. Resolution No. 278 
calls for supporting legislation to provide for service connection of 
veterans for disabling conditions resulting from toxic and 
environmental exposures.
    Accordingly, we support section 2 of this measure; however, we 
recommend any medical care provided to veterans' dependents under 
section 3 of this bill should be provided either under the military 
TRICARE program, or if in VA, in the Civilian Health and Medical 
Program of VA (CHAMPVA). We do not believe providing direct eligibility 
for these dependents in VA health care facilities would be in the best 
interest of either the VA system of care, or of the veterans who must 
rely on that system. Without a significant infusion of new funding--
which this bill would not authorize--introducing a large, new treatment 
population into direct VA health care would cause rationing of care for 
those already enrolled in order for VA to generate the considerable 
additional resources that would be needed for the care of a new, 
unanticipated population. We would prefer that TRICARE be assigned this 
responsibility as a more appropriate source of continuing Federal care 
for this dependent population.

          S. 396, MEETING THE INPATIENT HEALTH CARE NEEDS OF 
                  FAR SOUTH TEXAS VETERANS ACT OF 2011

    If enacted, this measure would require the Secretary of Veterans 
Affairs to ensure that the South Texas Veterans Affairs Health Care 
Center in Harlingen, Texas includes a full-service VA inpatient health 
care facility--and, if necessary, shall modify the existing facility to 
meet this requirement.
    The author of the measure argues that given the veteran population 
in the area, there is a high demand for VA medical services and that VA 
is not meeting the current health care needs of veterans residing in 
far south Texas. Additionally, it was noted that travel times in that 
area can exceed six hours for certain veterans in need of acute 
inpatient health care from VA, and they must seek that care in distant 
cities such as San Antonio, Houston and Dallas.
    DAV does not have a specific resolution from our membership on this 
issue, nor does the national organization get involved in the placement 
of VA medical facilities. However, we acknowledge that access to 
inpatient services is a challenge for many veterans living in more 
rural and remote areas and certain areas of the country where there is 
only a minor community-based outpatient clinic (CBOC) available to deal 
with primary health care needs. We note that in Public Law 108-170, 
sections 223 and 224, Congress directed VA to establish a defined plan 
to provide inpatient hospital care to veterans residing in far south 
Texas and other rural, frontier and remote regions in need of a greater 
VA bed presence. This act also gave VA a variety of new statutory tools 
to accomplish that goal.
    We believe that the Veterans Health Administration (VHA) Office of 
Rural Health (ORH) is deeply engaged today in establishing better 
access to care for rural and remote veterans. Since its inception, the 
ORH has funded well over 500 projects/programs across the VA health 
care system to accomplish its mission of increasing access and 
improving the quality of health care for enrolled rural and highly 
rural veterans. In the 2010-2014 ORH strategic plan, six major goals 
are outlined:

    1) Improve access and quality of care through the establishment of 
new access points, by supporting new and ongoing transportation 
solutions to VA facilities and by supporting initiatives such as the 
home based primary care program
    2) Optimize the use of available and emerging technologies such as 
telemedicine, web-based networking tools, and the use of mobile devices 
to deliver care to and monitor the health of rural and highly rural 
veterans
    3) Maximize utilization of existing and emerging studies and 
analyses to impact care delivered to rural and highly rural veterans
    4) Improve availability of education and training for VA and non-VA 
health care providers to rural and highly rural veterans by supporting 
initiatives such as the Graduate Medical Education Enhancement 
Initiative for residents, nurse practitioners and social workers who 
want specialized training in Rural Health
    5) Enhance existing and implement new strategies to improve 
collaborations and increase service options for rural and highly rural 
veterans such as the recent Indian Health Service-VA Memorandum of 
Understanding, which will improve health care delivery by sharing 
programs, improving coordination of care, and increasing efficiency 
through sharing contracts and purchasing agreements
    6) Develop innovative methods to identify, recruit and retain 
medical professionals and requisite expertise in rural and highly rural 
areas.

    In fiscal year (FY) 2011, ORH is supporting over 275 individual 
projects across the country at a cost of over $500 million (this does 
not include ORH-funded projects overseen by three Veterans Rural Health 
Resource Centers). Many of these are in collaboration with other VA 
program offices such as the Office of Mental Health, Geriatric and 
Extended Care Office, and the Office of Telehealth Services.
    We strongly concur that VA must work to improve access for veterans 
that are challenged by long commutes and other obstacles in gaining 
reasonable access to the full continuum of health care services at VA 
facilities and explore practical solutions when developing policies in 
determining the appropriate location and setting for providing VA 
health care services. At a minimum, VA should include experts and 
veterans service organization representatives from the areas in 
question in decisions made regarding access to inpatient care services 
to help VA consider alternative program and policy decisions that would 
have positive effects on veterans who live in these areas.
    DAV recommends the sponsors of this bill ask VA to provide them 
with a current assessment of the veteran population in far south Texas 
including the need for hospital services to see if adding an inpatient 
capability is feasible and what methods if any VA intends to pursue to 
achieve that goal.

           S. 411, HELPING OUR HOMELESS VETERANS ACT OF 2011

    Veterans living in rural areas, underserved metropolitan areas, or 
Indian lands require an adequate share of targeted housing vouchers. 
This legislation instructs the VA to ensure appropriate Housing and 
Urban Development--Veterans Affairs Supportive Housing (HUD-VASH) 
vouchers are distributed to these populated areas as well. Allowing 
these services to be administered by local community organizations will 
give underserved veterans greater access to this important program. 
Inclusion of other partners into housing as part of case management is 
an important step in moving forward on ending veteran homelessness.
    This legislation supports our mission, which is to build better 
lives for disabled veterans, their families and survivors. We support 
this bill, in accordance with DAV Resolution No. 223, which calls for 
sustained sufficient funding to improve services for homeless veterans. 
It is projected that there will be a need for a significant increase in 
services over current levels to serve veterans of all eras. The 
Secretary of Veterans Affairs' campaign to end homelessness among 
veterans through enhanced collaboration with other Federal and state 
agencies, faith-based organizations, veterans' service organizations 
and other community partners is essential. This legislation addresses 
these issues by expanding case management services delivery through 
nonprofits and state entities.
    Accordingly, DAV supports S. 411.

S. 423, A BILL TO PROVIDE AUTHORITY FOR RETROACTIVE EFFECTIVE DATE FOR 
    THE AVAILABILITY OF COMPENSATION WITH THE SUBMISSION OF A FULLY 
                            DEVELOPED CLAIM.

    This bill would amend title 38, United States Code, section 5110(b) 
to allow for a retroactive effective date up to one year earlier than 
the date of submittal of a fully developed claim, based on the facts 
found.
    Although DAV does not have a resolution on this specific issue, DAV 
Resolution No. 073 supports reform of the VA disability claims process. 
DAV supports passage of this legislation, as it is in the best interest 
of both the VA and veterans, it will improve the current claims process 
and provide for the timely delivery of claims.

   S. 486, PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 2011

    This bill amends the Servicemembers Civil Relief Act, extending the 
period of protection from the current nine months to 24 months after 
leaving military service against mortgage sale or foreclosure, as well 
as the stay of proceedings, in the case of an obligation on real 
property that originated before the period of military service. This 
bill also increases criminal and civil penalties for mortgage abuses, 
including felonies for unlawful eviction or distress or for unlawful 
sale, foreclosure, or seizure.
    While DAV does not have a resolution on this matter, we would not 
be opposed to its favorable consideration.

 S. 490, A BILL TO INCREASE THE MAXIMUM AGE FOR CHILDREN ELIGIBLE FOR 
                MEDICAL CARE UNDER THE CHAMPVA PROGRAM.

    This measure would amend title 38, United States Code, section 
1781(c) to increase the maximum age for children eligible for medical 
care under CHAMPVA.
    CHAMPVA was established in 1973 within the VA to provide health 
care services to dependents and survivors of our Nation's veterans. 
CHAMPVA enrollment has grown steadily over the years and, as of FY 
2009, covers more than 336,000 beneficiaries.
    Under current law, a dependent child's eligibility, which otherwise 
terminates at age 18, continues to age 23 when such child is pursuing 
an approved full-time course of education.
    The landmark health care reform act that was enacted into law last 
year includes a provision that requires private health insurance to 
cover dependent children until age 26.
    This is in line with DAV Resolution No. 201, supporting legislation 
to extend eligibility for CHAMPVA until an eligible child's graduation 
from an approved course of full-time education.
    DAV therefore strongly supports this measure.

       S. 491, HONOR AMERICA'S GUARD-RESERVE RETIREES ACT OF 2011

    This bill would amend Chapter 12 of title 38, United States Code, 
by conferring the designation of ``veteran'' on members of the Reserve 
component of the Armed Forces who retired due to age. While the bill 
does specify that these individuals are entitled to retired pay for 
their nonregular service, they would not be entitled to benefits 
provided to those who served on active duty.
    DAV does not have a resolution on this matter. We are concerned, 
however, that measures such as this, if enacted, may then lead to a 
misunderstanding in the minds of the American public about those 
veterans who earned the designation of veteran by virtue of their 
active duty service, injury or deployment and those who have been 
honored with the title veteran and a misunderstanding of what benefits 
they receive or are entitled to receive.

     S. 536, A BILL TO PROVIDE THAT UTILIZATION OF SURVIVORS' AND 
DEPENDENTS' EDUCATIONAL ASSISTANCE SHALL NOT BE SUBJECT TO THE 48-MONTH 
   LIMITATION ON THE AGGREGATE AMOUNT OF ASSISTANCE UTILIZABLE UNDER 
     MULTIPLE VETERANS AND RELATED EDUCATIONAL ASSISTANCE PROGRAMS.

    This bill amends title 38, United States Code, to remove the 48-
month limitation for survivors and dependents to use the aggregate 
amount of assistance utilizable under multiple veterans and related 
educational assistance programs.
    DAV has no resolution, but is not opposed to its favorable 
consideration.

S. 572, A BILL TO REPEAL THE PROHIBITION ON COLLECTIVE BARGAINING WITH 
RESPECT TO MATTERS AND QUESTIONS REGARDING COMPENSATION OF EMPLOYEES OF 
   THE DEPARTMENT OF VETERANS AFFAIRS OTHER THAN RATES OF BASIC PAY.

    This bill would restore some bargaining rights for clinical care 
employees of the VHA that had been eroded. The bill would amend 
subsections (b) and (d) of section 7422 of title 38, United States 
Code, by striking ``compensation'' both places where the term appears 
and inserting ``basic rates of pay'' in its place. The intent of the 
bill would be to authorize employee representatives of recognized 
bargaining units to bargain with VHA management over matters of 
employee compensation other than rates of basic pay.
    We understand recently VA has given Federal labor organizations 
some indication of additional flexibility in negotiating labor-
management issues such as some features of compensation, and we are 
hopeful that this change of heart signals a new trend in these key 
relationships that directly affect sick and disabled veterans under VA 
care.
    DAV does not have an approved resolution from our membership on the 
specific issues addressed by this bill. However, we would not oppose 
its enactment, while continuing to hope that VA and Federal labor 
organizations can find a sustained basis for compromise and resolution.

  S. 666, VETERANS TRAUMATIC BRAIN INJURY CARE IMPROVEMENT ACT OF 2011

    This bill would require VA to submit a report to Congress on the 
feasibility and advisability of establishing a Polytrauma 
Rehabilitation Center or Polytrauma Network Site for the VA in the 
northern Rockies or the Dakotas.
    DAV does not have a resolution on this particular issue, and we 
therefore have no position.

 S. 696, A BILL TO TREAT VET CENTERS AS DEPARTMENT OF VETERANS AFFAIRS 
   FACILITIES FOR PURPOSES OF PAYMENTS OR ALLOWANCES FOR BENEFICIARY 
                    TRAVEL TO DEPARTMENT FACILITIES.

    The legislation would amend title 38, United States Code, section 
111, to allow for beneficiary travel benefits to eligible veterans who 
receive care at Vet Centers as those who travel to VA health care 
facilities.
    Under current law, readjustment counseling authorized under title 
38, United States Code, section 1712A is not considered part of VA's 
medical benefits package under title 38, Code of Federal Regulations, 
section 1738.
    DAV believes adequate travel expense reimbursement is directly tied 
to access to care for many veterans, and is not a luxury. DAV supports 
this legislation based on DAV Resolution No. 214, and urge its 
favorable consideration.

  S. 698, A BILL TO CODIFY THE PROHIBITION AGAINST THE RESERVATION OF 
               GRAVESITES AT ARLINGTON NATIONAL CEMETERY.

    This bill would amend title 38, United States Code, to codify the 
prohibition against the reservation of gravesites at Arlington National 
Cemetery, and for other purposes. It stipulates that no more than one 
gravesite shall be provided at Arlington to a veteran or member of the 
Armed Forces or family member who is eligible for burial. Additionally, 
it specifies that no gravesite shall be reserved at Arlington before an 
individual's death, except in the case of a request submitted to the 
Secretary of the Army before January 1, 1962.
    DAV does not have a resolution on this matter and, therefore, we 
have no position on this measure.

   S. 745, A BILL TO PROTECT CERTAIN VETERANS WHO WOULD OTHERWISE BE 
       SUBJECT TO A REDUCTION IN EDUCATIONAL ASSISTANCE BENEFITS.

    This bill would amend title 38, United States Code, to protect 
certain veterans who would otherwise be subject to a reduction in 
educational assistance benefits, and for other purposes. This bill 
would allow veterans who are using the Post-9/11 GI Bill and enrolled 
at nonpublic institutions of higher education from August 1, 2011 
through December 31, 2014, the lesser of: (1) the established charges 
for that program; (2) the established charges payable under the VA's 
maximum payments table published on October 27, 2010; or (3) the amount 
for the previous academic year, increased by the authorized annual 
percentage increase.
    While DAV does not have a resolution on this matter, we are not 
opposed to its favorable consideration.

     S. 769, VETERANS EQUAL TREATMENT FOR SERVICE DOGS ACT OF 2011

    This bill would ensure that the VA Secretary not prohibit the use 
of service dogs provided by VA for veterans with a hearing impairment, 
spinal cord injury/dysfunction or any other chronic impairment that 
limits mobility in any facility or on any property of the Department or 
in any facility or on any property that receives funding from the 
Secretary.
    Congress found that the usage of medical service dogs among 
veterans is increasing. Likewise, VA currently allows seeing-eye dogs 
in Department facilities and does not place any limitations on the 
access of seeing-eye dogs to Department facilities. This legislation 
would amend Section 1714 of title 38, United States Code, by adding a 
new subsection--aimed to ensure that veterans with service dogs have 
the same access in VA facilities as guide dogs for the blind.
    The VHA published VHA Directive 2011-013 on March 10, 2011, related 
to its policy on access of guide dogs and service dogs on VHA property. 
The directive acknowledges that trained guide dogs and other trained 
service dogs can play a significant role in maintaining functionality 
and promoting maximal independence of individuals with disabilities. 
Therefore, individuals with disabilities are authorized to enter VHA 
facilities accompanied by their guide dogs or trained service dogs 
consistent with the same terms and conditions, and subject to the same 
regulations, that govern the admission of the general public to the 
property.
    VA does note that therapy animals, companion animals, emotional 
support animals, and pets are not covered by this directive. The 
directive further notes that VHA facility directors do have the 
authority to make determinations regarding the entry of dogs into VHA 
facilities or on VHA property. Furthermore, each facility director is 
required to ensure there is a written published policy that addresses 
the issue of VHA access for guide and service dogs. The policy states 
that dogs are not permitted to roam free in VHA facilities and must be 
on a leash, in a guide harness or under control at all times.
    Although VA's directive on this issue is clear and addresses the 
issue specifically--DAV has received information over the past year 
that this policy directive may not be consistently applied at all VA 
facilities. DAV has no specific resolution from our membership in 
support of this measure; however, it appears the bill would clarify 
current VHA policy on this matter and would be beneficial to a number 
of service-disabled veterans. Therefore, we would not object to its 
passage. We are aware that VA is engaged in a formal research project 
dealing with the use of service dogs for patients with certain mental 
health conditions. We believe the results of this research will better 
inform VA policy on the management of service and guide dogs on VA 
premises.

            S. 780, VETERANS PENSIONS PROTECTION ACT OF 2011

    This bill would amend title 38, United States Code, to exempt 
reimbursements of expenses related to accident, theft, loss, or 
casualty loss from determinations of annual income with respect to 
nonservice-connected pension benefits.
    Because this is outside of our mission, we do not have a resolution 
on this matter; however, we would not oppose passage of this 
legislation.

       S. 815, SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011

    This measure would amend the Federal criminal code prohibition of 
disrupting funerals, including those at national cemeteries, of members 
of the Armed Forces or veterans, changing the time from one hour to two 
hours before and after the burial. Such unlawful conduct would include 
any disturbance or disruption occurring within 500 feet of the 
residence of a surviving member of a deceased's immediate family. The 
bill also provides civil remedies to include actual and statutory 
damages.
    While DAV does not have a resolution on this matter, we are not 
opposed to its favorable consideration.

    S. 873, A BILL TO PROVIDE BENEFITS TO CHILDREN WITH SPINA BIFIDA

    This bill would amend title 38, United States Code, to provide 
benefits for children with spina bifida of veterans exposed to 
herbicides while serving in the Armed Forces during the Vietnam era 
outside Vietnam.
    Although we do not have a resolution on this, DAV would not oppose 
passage of this legislation, since this benefit is currently provided 
to children of veterans exposed to Agent Orange during service in the 
Republic of Vietnam.

  S. 874, A BILL TO MODIFY THE MONTH OF DEATH BENEFITS FOR SURVIVING 
                                SPOUSES.

    This bill would amend title 38, United States Code, to modify the 
month of death benefit for surviving spouses of veterans who die while 
entitled to compensation or pension; expands the eligibility for the 
Presidential Memorial Certificates to include those individuals who die 
while on active duty; and to improve housing loan benefits.
    DAV does not oppose passage of this legislation.

  S. 894, VETERANS' COMPENSATION COST-OF-LIVING ADJUSTMENT ACT OF 2011

    This bill would amend title 38, United States Code, to provide for 
an increase, effective December 1, 2011, in the rates of compensation 
for veterans with service-connected disabilities and the rates of 
dependency and indemnity compensation. DAV supports passage of this 
legislation; however, we oppose the rounding down to the next whole 
dollar amount of the cost-of-living adjustment.

               S. 910, VETERANS HEALTH EQUITY ACT OF 2011

    This measure would require availability of at least one full-
service VA hospital or comparable services through contract, in each of 
the 48 contiguous states.
    Arguments have been made that New Hampshire was the only state that 
did not have access to a VA full-service medical center and that the 
most ill veterans in that state routinely had to drive or be 
transported to Boston for more comprehensive health care services. 
Members of Congress have stated they are particularly concerned that 
the sickest and generally very elderly veterans with complex and 
chronic health problems were subjected to having to first report to the 
VA's Manchester facility--which could be up to a three-hour drive--and 
then continue on for another hour to the Boston VA Medical Center 
(VAMC) or other VA provider sites, in order to receive their care. It 
was also noted by former Congresswoman Shea-Porter of New Hampshire, 
that it may not be fiscally responsible, given the veteran population 
in New Hampshire, to have VA provide a full continuum of hospital 
services and that contracting for such services may be a better option.
    Convenient access to comprehensive VA health care services remains 
a problem for many of our Nation's sick and disabled veterans. While VA 
must contract or use fee basis to provide care to some veterans, it 
maintains high quality care and cost effectiveness by providing health 
services within the system. According to VA, the Manchester VAMC in New 
Hampshire provides urgent care, mental health and primary care 
services, ambulatory surgery, a variety of specialized clinical 
services, hospital based home care and inpatient long-term care. In 
addition, CBOCs are located in Somersworth, Tilton, Portsmouth, 
Littleton and Conway.
    In light of the escalating costs of health care in the private 
sector, to its credit, VA has done a remarkable job of providing high 
quality care and holding down costs by effectively managing in-house 
health programs and services for veterans. However, outside care 
coordination is poorly managed by VA. When it must send veterans 
outside the system for care, those veterans lose the many safeguards 
built into the VA system through its patient safety program, evidence-
based medicine, electronic health records, and bar code medication 
administration program (BCMA). The proposal in S. 910 to use broad-
based contracting for necessary hospital services in the New Hampshire 
area concerns us because these unique internal VA features noted above 
culminate in the highest quality care available, public or private. 
Loss of these safeguards, which are generally not available in private 
sector health systems, equate to diminished oversight and coordination 
of care, and, ultimately, may result in lower quality of care for those 
who deserve it most. However, we agree that VA must ensure that the 
distance veterans travel, as well as other hardships they face in 
gaining access, be considered in VA's policies in determining the 
appropriate locations and settings for providing VA health care 
services.
    In general, current law places limits on VA's ability to contract 
for private health care services in instances in which VA facilities 
are incapable of providing necessary care to a veteran; when VA 
facilities are geographically inaccessible to a veteran for necessary 
care; when medical emergency prevents a veteran from receiving care in 
a VA facility; to complete an episode of VA care; and for certain 
specialty examinations to assist VA in adjudicating disability claims. 
VA also has authority to contract to obtain the services of scarce 
medical specialists in VA facilities. Beyond these limits and outside 
certain ongoing rural health initiatives by VHA, there is no general 
authority in the law to support broad-based contracting for the care of 
populations of veterans, whether rural or urban.
    DAV believes that VA contract care for eligible veterans should be 
used judiciously and only in these authorized circumstances so as not 
to endanger VA facilities' ability to maintain a full range of 
specialized inpatient and outpatient services for all enrolled 
veterans. VA must maintain a ``critical mass'' of capital, human, and 
technical resources to promote effective, high-quality care for 
veterans, especially those with complex health problems such as 
blindness, amputations, spinal cord injury, Traumatic Brain Injury or 
chronic mental health problems. Putting additional budget pressures on 
this specialized system of services without making specific 
appropriations available for new VA health care programs would only 
exacerbate the problems currently encountered.
    Nevertheless, after considerable deliberation, and in good faith to 
be responsive to those who have come forward with legislative proposals 
such as S. 910, to offer alternatives to VA health care, we have asked 
VA to develop a series of tailored demonstration projects and pilot 
programs to provide VA-coordinated care (or VA-coordinated care through 
local, state, or other Federal agencies) in a selected group of 
communities that are experiencing access challenges, and to provide to 
the Committees on Veterans' Affairs reports of the results of those 
programs, including relative costs, quality, satisfaction, degree of 
access improvements, and other appropriate variables, compared to 
similar measurements of a like group of veterans in VA health care. To 
the greatest extent practicable, VA should coordinate these 
demonstration pilots with interested health professions' academic 
affiliates. We suggest the principles of our recommendations from the 
``Contract Care Coordination'' section of the FY 2012 Independent 
Budget be used to guide VA's approaches in this effort. Also, any such 
demonstration pilot projects should be funded outside the Veterans 
Equitable Resource Allocation (VERA) system, and their expenditures 
should be monitored in comparison with VA's historic costs for care.
    Veterans service organization representatives from the local areas 
involved, and other experts need a seat at the table to help VA 
consider important program and policy decisions, such as those 
described here, that would have positive effects on veterans who live 
in these areas. VA must work to improve access for veterans that are 
challenged by long commutes and other obstacles in getting reasonable 
access to a full continuum of health care services at VA facilities and 
explore practical solutions when developing policies in determining the 
appropriate location and setting for providing VA health care services.
    As a final note, we believe VA must fully support the right of all 
enrolled veterans to have reasonable access to health care and we 
insist that funding for alternative care approaches and outreach be 
specifically appropriated for this purpose, and not be the cause of 
reductions in highly specialized VA medical programs within the health 
care system.

S. 914, A BILL TO AUTHORIZE THE WAIVER OF THE COLLECTION OF COPAYMENTS 
                                  FOR 
            TELEHEALTH AND TELEMEDICINE VISITS OF VETERANS.

    This measure would amend title 38, United States Code, section 
1722A to provide VA the discretionary authority to waive collection of 
copayments for VA telehealth and telemedicine.
    The VA is recognized as a national leader in developing and using 
telehealth and we applaud VA for publicly stating its intent to expand 
use of cutting edge telehealth technology to broaden access to care 
while improving the quality of health care services. Since its 
implementation in 2003, VA's home telehealth includes monitoring of 
patients with diabetes, heart conditions, hypertension, and depression. 
Plans for this program include a doubling of unique veterans served in 
FY 2010 from about 46,000 to 92,000 by FY 2012. Telehealth is also a 
key initiative in collaboration with the Office of Rural Health to meet 
the needs veterans residing in rural and remote areas.
    Aided by the required expansion of telehealth services in VA's 
CBOCs and readjustment counseling centers as authorized under Public 
Law 109-461, the Department also uses clinical videoconferencing to 
counsel patients suffering from mental health issues and polytrauma 
injuries, and patients in need of rehabilitation. VA also has the 
capability of store-and-forward telehealth for diabetic retinal imaging 
and dermatology to provide a connection between patients and doctors to 
distant specialists. However, we note the limited use of VA's store-
and-forward telehealth for diabetic retinal imaging and dermatology is 
primarily used for the latter in cases such as wound care and lesion 
diagnosis.
    General outcomes of VA's telehealth programs indicate a reduction 
in hospital admissions and increased patient satisfaction. Last fiscal 
year alone, VA invested $121 million in telehealth and treated over 
300,000 veterans.
    However, while VA faces many issues to improve and further expand 
telehealth, the success of these programs is contingent upon the 
adoption of this type of care by the veteran patient population. 
Eliminating copayments is one important tool that could facilitate VA's 
success.
    Accordingly, and with DAV Resolution No. 208 calling for the repeal 
of medical copayments, DAV supports this legislation and looks forward 
to its favorable consideration.

  S. 928, A BILL TO LIMIT THE AUTHORITY OF THE SECRETARY OF VETERANS 
 AFFAIRS TO USE BID SAVINGS ON MAJOR MEDICAL FACILITY PROJECTS OF THE 
DEPARTMENT OF VETERANS AFFAIRS TO EXPAND OR CHANGE THE SCOPE OF A MAJOR 
              MEDICAL FACILITY PROJECT OF THE DEPARTMENT.

    This bill, if enacted, would provide for more efficient but 
controlled use of bid savings from major medical facility construction 
project contract awards by the Secretary of Veterans Affairs.
    While we have no resolution from our membership dealing with this 
specific issue, we would not object to enactment of this bill.

           S. 935, VETERANS OUTREACH ENHANCEMENT ACT OF 2011

    This bill would require the Secretary of Veterans Affairs to carry 
out a program of outreach for veterans to increase the access and use 
by veterans of Federal, State, and local programs providing 
compensation for service in the Armed Forces and the awareness of such 
programs by veterans and their eligibility for such programs.
    Although we do not have resolution on this particular matter, DAV 
currently provides such outreach to veterans and, therefore, we would 
not oppose passage of this legislation.

                   S. 951, HIRING HEROES ACT OF 2011

    This bill provides enhancements to several programs impacting 
veterans. Section 10 modifies Federal hiring practices to encourage the 
hiring of separating servicemembers and would allow them to begin the 
Federal employment application process prior to separation. This is in 
line with DAV Resolution 305, which supports veterans' preference in 
public employment. The current Federal hiring process is slow and 
cumbersome and the total number of Federal employees hired under 
veterans' preference categories has shown only incremental increases 
over the years. This legislative change could result in the substantive 
improvement of recruitment and hiring of veterans generally and 
service-disabled veterans specifically.
    Section 2 provides a two-year extension, from December 31, 2012 to 
December 31, 2014, of a program that provides rehabilitation and 
vocational benefits to severely wounded members of the Armed Forces 
under the Wounded Warrior Act.
    This is line with DAV Resolution No. 307, which supports 
strengthening of the Vocational Rehabilitation and Employment (VR&E) 
program to meet the demands of disabled veterans.
    Section 4 would provide up to an additional 24 months of vocational 
rehabilitation and employment services to veterans who have exhausted 
both these benefits and state-provided unemployment benefits.
    Section 5 of the measure requires VA to engage, on a periodic 
basis, with each veteran who has participated in its VR&E Program, to 
determine whether the veteran is employed. This provision is in line 
with DAV Resolution No. 307, which calls for VR&E to provide for 
placement follow-up with employers for at least six months.
    Section 6 of this measure would make participation in the 
Transition Assistance Program (TAP) mandatory.
    This provision is in line with DAV Resolution No. 230, which 
recognizes the importance of TAP and the Disabled Transition Assistance 
Program for those servicemembers transitioning to civilian status.
    Section 8 creates a competitive grant program for nonprofit 
organizations that provide mentorship and job training programs that 
are designed to lead to job placements. Although DAV does not have a 
resolution on this matter, we are not opposed to its favorable 
consideration.
    Section 9 requires that each servicemember receive an 
individualized assessment of jobs they may qualify for when they 
participate in TAP.
    Although DAV does not have a resolution on this matter the 
provision would greatly benefit transitioning servicemembers. 
Therefore, we are not opposed to its favorable consideration.
    Section 9 also requires the Department of Defense (DOD), the 
Department of Labor (DOL) and VA to jointly contract for a study to 
identify the equivalencies between certain military occupational 
specialty (MOS)-related skills and civilian employment, and to 
eliminate barriers between military training and civilian licensure or 
credentialing for several military occupational specialties. This 
provision is in line with DAV Resolution No. 100, which supports 
efforts to eliminate employment barriers that impede the transfer of 
military job skills to the civilian labor market.
    Section 11 requires DOL to engage with each veteran on a periodic 
basis to determine whether the veteran is employed or whether the 
veteran might be interested in further assistance.
    Although we have no applicable resolution regarding section 11, we 
have no objection to the efforts proposed.
    DAV strongly supports the passage of S. 951.

   S. 957, VETERANS' TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES' 
                        IMPROVEMENTS ACT OF 2011

    This bipartisan and bicameral legislation would make improvements 
to the so-called ``Wounded Warrior'' provisions of the National Defense 
Authorization Act of 2008, Public Law 110-181, in that it would add 
specificity and emphasis to preexisting requirements of VA's polytrauma 
centers and other VA facilities that are treating and rehabilitating 
brain-injured veterans from Iraq and Afghanistan. The language of this 
bill is fully consistent with DAV's Resolution No. 215, which deals 
with VA's treatment of Traumatic Brain Injuries (TBI).
    Section 1710C(a), title 38, United States Code, as amended by the 
Wounded Warrior provisions, requires VA to develop a rehabilitation 
plan for each veteran being treated for TBI. If this bill is enacted, 
that existing plan would need amendment to address expanded and 
redefined rehabilitation, improved quality of life, and expressed 
methods for the sustainment of improvements from rehabilitative 
services provided by VA for TBI.
    A new subsection (h) in section 1710C would redefine 
``rehabilitative services'' for the purpose of sustaining these 
improvements, promoting independence and advancing quality of life in 
this severely injured population. While these concepts could be the 
assumed or inherent goals of any physical rehabilitation plan, the bill 
would make them explicit in the law, and would address cognitive and 
mental health rehabilitation as well.
    DAV strongly supports this bill, commends the sponsors in both 
Congressional Chambers, and urges the immediate enactment of this 
important legislation.

   S. 1017, DISABLED VETERAN CAREGIVER HOUSING ASSISTANCE ACT OF 2011

    This measure provides increased assistance for the Temporary 
Residence Allowance (TRA) Grant program for disabled veterans living in 
housing owned by a family member, and expands eligibility for Specially 
Adapted Housing (SAH) grants for veterans with vision impairment from 
blindness in both eyes, having only light perception, to those having 
central visual acuity of 20/200 or less in the better eye with the use 
of a standard correcting lens.
    While the TRA Grant program has the potential to be an important 
tool, a continued problem is that, should an eligible veteran choose to 
participate in this program, the amount used is deducted from the 
overall amount of the SAH Grant. The aggregate amount of assistance 
available for SAH grants made pursuant to title 38, United States Code, 
section 2101(a) is $63,780 throughout FY 2011. The aggregate amount of 
assistance available for SAH grants made pursuant to section 2101(b) is 
$12,756 during FY 2011. The TRA grant amounts are not indexed and 
remain unchanged at $14,000 for grants administered under section 
2101(a) and $2,000 for grants administered under section 2101(b).
    The deduction of the TRA Grant from the overall SAH Grant alone may 
cause many veterans to bypass this program and instead wait until they 
have recuperated and use the SAH Grant to adapt their permanent 
residence. While DAV does not have a resolution on this matter, we 
believe Congress should decouple the TRA Grant from the SAH Grant so 
the grant amount would not count against the overall grant for 
permanent housing. The TRA grant amounts should also be indexed in the 
same manner as the SAH Grant.
    DAV supports the favorable consideration of this bill, since it 
benefits severely disabled veterans living with their family members.

               S. 1060, HONORING ALL VETERANS ACT OF 2011

    This bill would improve education, employment, independent living 
services, and health care for veterans, improve assistance for homeless 
veterans, and improve the administration of the VA.
    TITLE I, Education, Employment, and Independent Living Services for 
Veterans, addresses a number of topics within our area of interest. 
Section 101 increases the cap on the VA's Independent Living program 
and Section 102 authorizes veterans to attend DOD TAP within their 
first year of military separation. Section 103 requires the VA to 
conduct a study on the recognition of military training and 
qualifications of veterans by civilian employers and educational 
institutions.
    Section 103 requires the VA to conduct a study on the recognition 
of military training and qualifications of veterans by civilian 
employers and educational institutions. This is a critical area that 
has been addressed on many occasions and numerous forums.
    The provision is in line with DAV Resolution No. 100, which 
supports efforts to eliminate employment barriers that impede the 
transfer of military job skills to the civilian labor market. Based on 
a review of both bills, DAV would encourage passage of S. 951, the 
Hiring Heroes Act of 2011.
    TITLE II, Assistance for Homeless Veterans, addresses repeal of 
sunset on extension of enhanced protections for servicemembers relating 
to mortgages and mortgage foreclosure under Servicemembers Civil Relief 
Act in Section 201, and the modification for payment of services to 
those providing services to homeless veterans in Section 202.
    DAV has no resolution on these matters. We are not opposed to their 
favorable consideration.
    TITLE III, Health Care and Mental Health Services for Veterans, 
addresses three areas of interest for the DAV.
    Section 301 of this bill would require VA and DOD to establish a 
mechanism for monitoring and reviewing the referral process of veterans 
and servicemembers who are identified as having a potential mental 
health condition based on DOD's post-deployment health assessment. The 
review is to include identification and comparison of the number of 
individuals who were referred to those who complete a course of mental 
health treatment based on such referral.
    Because VA and DOD share a unique obligation to meet the health 
care needs, including mental health care and rehabilitation needs, of 
veterans who are suffering from readjustment difficulties as a result 
of wartime service, DAV supports this section based on DAV Resolution 
No. 217, which supports program improvement and enhanced resources for 
VA mental health programs, including its Vet Centers, to achieve 
readjustment of new war veterans and continued effective mental health 
care for all enrolled veterans needing such services.
    Section 302 would amend title 38, United States Code, section 1710C 
to require the individualized rehabilitation and reintegration plan 
developed with the veteran or servicemember suffering from Traumatic 
Brain Injury to include consideration for participation in the 
Department's Independent Living Program and use of VA's employment 
services provided through its Compensated Work Therapy Supported 
Employment Services (CWT-SE) program. We also note that Section 101 of 
this bill calls for an increase in the cap of the Independent Living 
program.
    The Independent Living program is aimed at veterans whose service-
connected disabilities are so severe they are currently unable to 
pursue an employment goal under Chapter 31. The CWT-SE program has been 
demonstrated to substantially increase competitive employment outcomes 
for people who have severe disabilities and a demonstrated inability to 
gain and/or maintain competitive employment.
    Because the primary focus of the CWT-SE implementation is to 
provide services to veterans diagnosed with Serious Mental Illness 
(SMI), who, because of the severity of their disabilities, would not be 
able to function independently in employment without intensive ongoing 
support services, SMI veterans with psychosis constitute the majority 
of participants in these programs. If this section is to be favorably 
considered, we urge strong oversight by this Committee to ensure 
programs services are adjusted to veterans suffering from the cognitive 
and other adverse effects of Traumatic Brain Injury.
    While DAV does not have a resolution on this matter, we are 
concerned about the adequacy of the authorized participation rate for 
the Independent Living program given the potential for expansion of 
service to those suffering from Traumatic Brain Injury as well. The 
solution is for Congress to eliminate the statutory cap. Otherwise, the 
effect of the cap, with this anticipated increase in veteran demand for 
services, is a delay in access to the Independent Living program by 
severely disabled veterans.
    Section 303 would authorize VA to provide the immediate family 
members of a deployed servicemember consultation, professional 
counseling, marriage and family counseling, training, and mental health 
services necessary in connection with that deployment.
    We are cognizant of and sensitive to the stresses on dependents of 
servicemembers who are deployed; however, we question why such 
authority should be afforded to the VA when such dependents have access 
to mental health services under TRICARE.
    TITLE IV, Administration of the Department of Veterans Affairs, 
addresses two issues within our area of interest in Section 401 and 
403.
    Section 401 calls for monitoring of the DOD/VA Integrated 
Disability Evaluation System (IDES). Specifically, it requires the 
Secretaries of Defense and Veterans Affairs to jointly develop an IDES-
wide monitoring mechanism to identify and address issues following 
collection and analysis of data on staffing levels at DOD and VA, 
sufficiency of exam summaries and diagnostic disagreements. In 
addition, they are to monitor data on caseloads and case processing 
time by individual rating offices of the VA and the Physical Evaluation 
Boards of the DOD as well as create a formal mechanism for agency 
officials at local facilities to communicate challenges and best 
practices to DOD and VA headquarters.
    The President's Commission on Care for America's Returning Wounded 
Warriors recommended that DOD and VA create a single, comprehensive, 
standardized medical examination that the DOD administers. It would 
serve DOD's purpose of determining fitness and VA's of determining 
initial disability level. The Disability Evaluation System (DES) pilot 
project premised on the commission's recommendation was launched by the 
DOD and the VA in 2007. Using lessons learned from that pilot, the 
legacy DES is transitioning to IDES in 2011 in a total of 140 
locations, with the goal of expediting the delivery of VA benefits to 
all out-processing servicemembers. Issues such as the sufficiency of 
staffing levels and their training, adequacy of medical and mental 
health exam summaries, the resolution of diagnostic disagreements, 
caseloads and case processing time have been reported as having a 
negative impact on the rollout of this program.
    Initially, DOD and VA had indicated in their planning documents 
that they had a target of delivering VA benefits to 80 percent of 
servicemembers within the 295-day (active component) and 305-day 
(reserve component) targets. The various rollout problems noted above, 
however, have resulted in a reduction from the 80 percent to a 50 
percent target.
    DAV does not have a specific resolution on this matter, although 
DAV Resolution No. 073 does address improvements in the VA claims 
process. The steps laid out in Section 401 of the legislation are 
essential to improving the IDES so benefits can be delivered closer to 
the time veterans leave military service. Therefore, we support the 
favorable consideration of this section of the bill.
    Section 403 of this bill addresses treating certain misfiled 
documents as ``motions for reconsideration'' of decisions by the Board 
of Veterans' Appeals (Board). If an individual disagrees with a Board 
decision, and has not filed a notice of appeal with the United States 
Court of Appeals for Veterans Claims (Court) within the 120-day period 
allowed, but files a document with the Board or the agency of original 
jurisdiction not later than 120 days after the date of such decision, 
which expresses disagreement with the Board's decision, such document 
shall be treated as a ``motion for reconsideration.'' However, if the 
Board or agency of original jurisdiction receives a document from an 
appellant, which expresses the intent to appeal the Board's decision to 
the Court, and the Board or agency of original jurisdiction must 
forward such document to the Court within the 120-day appeal period 
allowed, and it will be treated as a proper notice of appeal to the 
Court
    Section 403 of this bill is in line with the intent of DAV 
Resolution 287, which supports legislation to ensure all veterans are 
not prevented from filing timely appeals with the Court as a result of 
sending the request for appeal to the wrong office or other good cause 
reasons.

S. 1089, A BILL TO PROVIDE FOR THE INTRODUCTION OF PAY-FOR-PERFORMANCE 
 COMPENSATION MECHANISMS INTO CONTRACTS OF THE DEPARTMENT OF VETERANS 
 AFFAIRS WITH COMMUNITY-BASED OUTPATIENT CLINICS FOR THE PROVISION OF 
              HEALTH CARE SERVICES, AND FOR OTHER PURPOSES

    Madam Chairman, we have not been afforded an opportunity to date to 
examine the language specific to this bill; thus, we offer no 
evaluative or definitive testimony on it during this hearing. 
Nevertheless, we caution the Committee that ``pay for performance'' has 
a mixed record of success in both the private and public sectors 
(including in primary and secondary education), so we would be keenly 
interested in closely examining this bill if its intent is to instill 
similar incentives into VA's nearly 150 contract CBOCs. We understand 
that historically, many of these mostly-rural and remote clinics 
(including clinics in the Commonwealth of Kentucky) have expressed 
concerns that they are significantly underpaid for the work they are 
required to do under their variable contracts with VA Veterans 
Integrated Service Networks (VISN) or individual VA medical centers. 
While improving their contract pay rates would not necessarily be 
objectionable to DAV on its face, any unintended effects of such a 
policy (on supervising VA medical centers, other CBOCs within the 
region or VISN, on labor relations, on cost control, and on veteran 
patients themselves) need further scrutiny. Also, it should be noted 
that VA's contractual methods for obtaining CBOCs are not uniform 
throughout the VA system. As a partner organization of the Independent 
Budget for Fiscal Year 2012, we have commented on this contract 
variability and recommended the VISNs use a more uniform approach in 
addressing their contract CBOC relationships. On this basis, and since 
we have not examined the bill itself prior to today's hearing, we ask 
that the Committee defer further consideration at this time on this 
particular proposal.

    S. 1104, VETERAN TRANSITION ASSISTANCE PROGRAM AUDIT ACT OF 2011

    This bill requires the Secretary of Labor to conduct regular audits 
of TAP, not less often than once every three years. These audits would 
be done via a contractual relationship with a private organization not 
affiliated with the program and the contractor would measure the 
effectiveness of TAP, and identify any measures needed to improve the 
effectiveness of the program.
    The contractor will be required to submit its report to the 
Secretary of Labor in conjunction with the Secretary of Defense, the 
Secretary of Homeland Security, and the Secretary of Veterans Affairs, 
as well as the Committees on Armed Services and the Committees on 
Veterans' Affairs of the House and Senate. The Secretary of Labor, in 
conjunction with the other Secretaries, will review the report and 
implement any measures needed to improve the effectiveness of TAP.
    This legislation is in keeping with the intent of DAV Resolution 
230, by ensuring the TAP and Disabled Transition Assistance Program are 
viable, up to date programs, helpful in the difficult task of 
transitioning from military service to civilian life as well as 
overcoming the many obstacles to successful employment.
    DAV supports this bill.

   S. 1123, ASSISTANCE TO VETERANS AFFECTED BY NATURAL DISASTERS ACT

    This bill would amend title 38, United States Code, to improve the 
provision of benefits and assistance under laws administered by the 
Secretary of Veterans Affairs to veterans affected by natural or other 
disasters, and for other purposes.
    Section 1, Assistance to Veterans Affected by Natural Disasters, 
would amend chapter 21 of title 38, United States Code, to allow the 
Secretary of Veterans Affairs to award a grant to a veteran whose home 
was previously adapted with assistance of a grant under this chapter in 
the event the adapted home that the veteran occupied was destroyed or 
substantially damaged in a natural or other disaster, as determined by 
the Secretary. The amount of the grant that could be awarded may not 
exceed the lesser of either the reasonable cost, as determined by the 
Secretary, of repairing or replacing the damaged or destroyed home in 
excess of the available insurance coverage on such home; or the maximum 
grant amount the veteran would have been entitled under the applicable 
section 2102 of this title had the veteran not obtained the prior 
grant.
    Grants should be available for special adaptations to homes 
veterans purchase or build to replace an initial specially adapted 
home. Further, an initial home may become too small when the family 
structure changes or the nature of the veteran's disability changes, 
necessitating a home configured differently and/or changes to the 
special adaptations. In addition, technological changes occur rapidly 
and additional modifications, after the initial housing grant, may 
maximize the veteran's independence as well as improve the ability for 
caregivers to provide medically necessary care. These evolving 
requirements merit a second grant to cover the costs of adaptations to 
a new home.
    While DAV does not have a resolution on this matter, we are not 
opposed to favorable consideration of this legislation.
    This bill also provides for a two-month extension of subsistence 
allowance for veterans completing vocational rehabilitation program. 
Specifically, when the Secretary determines that a veteran 
participating in VA's Vocational Rehabilitation program is displaced as 
the result of a natural or other disaster, two months of additional 
payments of subsistence allowance may be granted.
    This measure would waive the cap on the Independent Living program 
by amending Section 3120(e) of such title 38, United States Code, so 
that such a cap shall not apply when the Secretary determines that a 
veteran participating in the Independent Living program has been 
displaced or otherwise been adversely affected by a natural or other 
disaster.
    This legislation also seeks to modify covenants and liens created 
by public entities in response to disaster-relief assistance. 
Specifically, the Secretary, in determining whether a loan is so 
secured, may either disregard or allow for subordination to a superior 
lien created by a duly-recorded covenant running with the realty in 
favor of either a public entity that has provided or will provide 
assistance in response to a major disaster as determined by the 
President under the Robert T. Stafford Disaster Relief and Emergency 
Assistance; or a private entity to secure an obligation to such entity 
for the homeowner's share of the costs of the management, operation, or 
maintenance of property, services, or programs within and for the 
benefit of the development or community in which the veteran's realty 
is located, if the Secretary determines that the interests of the 
veteran-borrower and of the government will not be prejudiced by the 
operation of such covenant.
    Last, this bill proposes modification to section 3903 of title 38, 
United States Code, covering automobiles and other conveyances for 
certain disabled veterans and members of the Armed Forces. If enacted, 
the Secretary would have the option of providing or assisting eligible 
veterans with a second automobile or other conveyance. The Secretary 
would require satisfactory evidence that the automobile or other 
conveyance previously purchased with assistance under this chapter was 
destroyed as a result of a natural or other disaster, as determined by 
the Secretary. The loss of the vehicle would be no fault of the 
eligible person; and the eligible person would not otherwise receive 
compensation from a property insurer for the loss.
    DAV has no resolution on these matters. However, we would not 
oppose the favorable consideration of this legislation.

               S. 1124, VETERANS TELEMEDICINE ACT OF 2011

    This measure would require VA to provide teleconsultation for 
mental health and Traumatic Brain Injury assessments and require VA 
ensure each VISN has a teleretinal imaging program. VA would also be 
required to increase the number of enrolled veterans in both programs 
by five percent annually from FY 2010 to 2015.
    DAV has no resolution to support this measure; however, we would 
like to highlight those provisions we believe would be beneficial to 
service-connected disabled veterans. This measure would require each VA 
medical facility with an affiliate agreement to develop an elective 
rotation to train in telemedicine. The bill would also require VA to 
address its resource allocation system to act as an incentive for using 
telehealth. DAV believes this is a critical component of this measure. 
How health services are funded, whether through allocation or 
reimbursement systems, plays a major role in determining how the 
service delivery is organized. The VHA is no different in this respect. 
VHA resources are allocated by a system known as VERA. This funding 
mechanism has features that encourage the development of certain 
services such as for non-institutional care and serious mental illness. 
To ensure funding arrangements such as these are targeted to the 
intended patient populations, there are eligibility criteria for 
patients and requirements that must be met.
    The evolution of VERA over the years did not reflect the growing 
access and utilization of telehealth services. Since at least 2008, 
telehealth workload is reported for program evaluation and meeting 
performance standards but there is no VERA credit to allow for proper 
allocation of resources. DAV is concerned that little has been done to 
address this glaring flaw.
    While it is not clear whether correcting VERA to give credit to 
telehealth would increase telehealth workload, increasing resources to 
those facilities providing telehealth, and thus providing the means to 
provide greater access, DAV believes it would at minimum address the 
resistance to telehealth by VA providers.

         S. 1127, VETERANS RURAL HEALTH IMPROVEMENT ACT OF 2011

    This bill would establish authority for the Secretary to form and 
operate from one to five new ``Centers of Excellence for Rural Health 
Research, Education, and Clinical Activities,'' modeled on legislation 
that authorizes VA Mental Illness Research, Education and Clinical 
Centers (MIRECC) and Geriatric Research, Education and Clinical Centers 
(GRECC). Based on DAV Resolution No. 221, calling for improvements in 
rural health, we support this bill and urge its enactment. We believe 
both the MIRECC and GRECC model programs are effective in organizing 
resources and concentrating energy to solve myriad issues in mental 
illness, geriatrics and gerontology, and we would anticipate similar 
results from implementation of this new authority to address deficits 
in rural health. We appreciate the sponsor's intentions and strongly 
endorse the bill.

         DRAFT BILL, VETERANS PROGRAMS IMPROVEMENTS ACT OF 2011

    Draft legislation entitled the ``Veterans Programs Improvement Act 
of 2011'' would amend title 38, United States Code, to improve the 
provision of assistance to homeless veterans and the regulation of 
fiduciaries who represent individuals for purposes of receiving 
benefits under laws administered by the Secretary of Veterans Affairs, 
as well as other administrative and benefit matters.
    TITLE I, Homeless Veterans Matters, addresses a number of issues, 
including an update on the campaign to end homelessness among veterans 
through enhanced collaboration with other Federal, state, faith-based, 
veterans service organization and community partners that was launched 
by the Secretary of Veterans Affairs in 2009.
    This provision is in line with DAV Resolution 223, which supports 
strengthening the capacity of the VA Homeless Veterans program.
    TITLE II, Fiduciary Matters, focuses on appointment of caregivers 
and persons named under durable power of attorney as fiduciaries for 
purposes of benefits and access to financial records of individuals 
represented by fiduciaries and receiving benefits under laws 
administered by VA and other issues.
    DAV has no resolution on these matters, and therefore, we take no 
position.
    TITLE III, Other Administrative and Benefits Matters, touches on 
several areas. Of interest to DAV is Section 302, which would provide a 
waiver of loan fees for individuals with disability ratings issued 
during pre-discharge programs. This section would partially fulfill DAV 
Resolution 074, which supports repeal of funding fees for VA home loans 
for all veterans.
    DAV also supports Section 306, automatic waiver of agency of 
original jurisdiction review of new evidence. This is in line with DAV 
Resolution No. 073, which calls for reform of the Veterans Benefits 
Administration disability claims process to significantly reduce the 
claims backlog.

               DRAFT BILL, ALASKA HERO'S CARD ACT OF 2011

    This bill would establish a new pilot program under which, in the 
most remote locales in Alaska, service-disabled veterans (at any level 
of disability) would be issued an ``Alaska Hero Card'' by the 
Department of Veterans Affairs. Issuance of the card would entitle the 
possessor to obtain unlimited health care (hospital care and medical 
services) at no out-of-pocket cost for any condition from a private 
provider, if the private provider were eligible to receive payments 
under Medicare or the military TRICARE program. The Secretary would be 
required under the bill to take measures to ensure care received under 
the pilot program was of equal quality to that which would be obtained 
directly from VA; and that providers were qualified, accredited and 
credentialed to provide the care needed by these veterans.
    We have long been concerned about the use of non-VA purchased 
health care. While our members are major users of both the fee-basis 
and contract hospitalization programs under current statutory 
authority, we have criticized those programs as expensive, 
uncoordinated, and even of questionable quality, safety and value to 
these disabled veterans. Despite those problems we continue to believe 
that current legal authorities are sufficient to meet most needs of 
service-disabled veterans if certain improvements were made by VA in 
how these programs are administered. We have discussed these concerns 
and needs for improvement on multiple occasions in testimony and in the 
Independent Budget for Fiscal Year 2012.
    In good conscience we could not support this proposal for Alaska 
veterans without also advocating a similar program for veterans in all 
rural and remote regions. We have noted in prior testimony our concern 
that there must be a balance in using non-VA services to avoid the 
slippery slope of replacing VA as a direct provider and substitutes an 
insurance function in its place. Absent exclusive funding outside the 
Medical Services appropriation, this shift has the potential to erode 
VA's congressionally mandated specialized medical programs, and may 
diminish care for all veterans. Thus, we cannot offer our support for 
this pilot program.
    We note that the Office of Rural Health is conducting multiple 
pilot programs (funded separately by Congress) to extend access to care 
for veterans who live in frontier areas, including in Alaska. We urge 
the sponsor of this measure to work closely with that office to address 
the problem identified by the purposes of this bill.

    Madame Chairman and Members of the Committee, this concludes my 
statement and I would be happy to answer any questions you may have.

    Chairman Murray. Thank you very much.
    Mr. Kelley?

STATEMENT OF RAYMOND C. KELLEY, DIRECTOR, NATIONAL LEGISLATIVE 
     SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED STATES

    Mr. Kelley. Madam Chairman, Ranking Member Burr, Members of 
the Committee, thank you for the opportunity to allow me to 
testify today and on behalf of the 2.1 million members of the 
Veterans of Foreign Wars and our auxiliaries. I am going to 
limit my remarks to just a handful of the bills that are on the 
table today.
    The VFW supports the concept of the Caring for Camp Lejeune 
Veterans Act of 2011. While we believe the Government has a 
moral obligation to provide care for those affected by 
contaminated water at Camp Lejeune, we would emphasize that the 
burden of care provided for those family members affected 
should be on the Department of Defense.
    The VFW supports S. 411. Homelessness can best be reduced 
with local solutions. The bill will allow VA and local 
communities to partner together to help reach a goal of 
eradicating veterans' homelessness.
    The VFW admires the concept of S. 423 but has reservations 
and will withhold support for this legislation. A veteran could 
provide all the medical evidence available, making the claim 
appear to be fully developed, but further medical tests could 
be needed to determine the severity of the disability. The VFW 
also believes that this could lead to new types of appeal. If 
the veteran feels they submitted a fully developed claim and VA 
decides to do additional but unnecessary development, should 
the veteran be allowed to protest or appeal the additional 
development or appeal the effective date?
    Also, the fully developed incentive is not limited to 
initial claims. Simple claims that are being reopened for an 
increase that take little to no development would qualify for 
the retroactive payment, as would claims for certain 
hospitalized veterans who would rate temporary 100 percent 
rating. All these veterans would need is a report of 
hospitalization with an entry and discharge date, a diagnosis, 
and they would qualify for 1 year of retroactive pay at 100 
percent rating. The VFW does not believe that this is the 
intent of the legislation but identifies them as patient 
unintended consequences.
    The VFW also sees an impact on veterans service officers 
who help veterans file claims. If a service officer pronounces 
a claim fully developed and VA then develops the claim further, 
liability on the service officers and the VSOs could increase 
when the veteran sues them for the loss of the retroactive 
payment because the VSO stated it was fully developed.
    The VFW supports S. 745. This legislation would protect 
students who are currently enrolled in a degree-seeking program 
for any possible negative effect of changes that were made in 
the post-9/11 GI bill last year. These students chose their 
degree program with the expectation that the Yellow Ribbon 
Program they began with would still be there until they 
completed their degree. We must keep up our end of the bargain.
    The VFW supports S. 815, the SERVE Act. We fully support 
any legislative effort that emphasizes that the right of free 
speech does not trump a family's right to mourn in private. 
Those who use the First Amendment as both a shield and a sword 
to harm their fellow citizens need to have limits on such 
abuse, and S. 815 provides those limits.
    The VFW supports S. 951, the Hiring Heroes Act of 2011. I 
would like to highlight a few of the provisions in the bill.
    TAP must be mandatory for all servicemembers leaving the 
military. The VFW also believes that consultation with the VA 
should be included in all TAP programs.
    Direct hiring authority for Federal agencies and offering 
citizen work experience for potential civil service employees 
while on terminal leave will cut down on red tape for veterans 
seeking careers within the Federal workforce.
    The intent of voc rehab is to ensure that veterans who are 
disabled in the line of duty would be trained and employable in 
a new career field. If a veteran has used their voc rehab 
benefits yet remains unemployed, then their initial voc rehab 
program clearly has failed. Adding an additional 2 years of 
VR&E benefits to those veterans will greatly assist them in 
finding employment.
    Madam Chairwoman, this concludes my oral remarks, and I 
look forward to any questions the Committee may have.
    [The prepared statement of Mr. Kelley follows:]

Prepared Statement of Raymond C. Kelley, Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States

    Madam Chairwoman and Members of this Committee: On behalf of the 
2.1 million members of the Veterans of Foreign Wars of the United 
States and our Auxiliaries, the VFW would like to thank this Committee 
for the opportunity to present its views on these important veterans' 
bills.

          S. 277, CARING FOR CAMP LEJEUNE VETERANS ACT OF 2011

    The VFW supports the concept of the Caring for Camp Lejeune 
Veterans Act of 2011, which would require the Department of Veterans 
Affairs (VA) to provide health care to servicemembers, veterans, and 
their family members who have experienced adverse health effects as a 
result of exposure to well water contaminated by human carcinogens at 
Camp Lejeune.
    Thousands of Navy and Marine veterans and their families who lived 
on Camp Lejeune have fallen ill with a variety of cancers and diseases 
believed to be attributable to their service at the base before the 
Environmental Protection Agency (EPA) designated it a Superfund site in 
1988. Additionally, the National Research Council recently reported 
numerous adverse health effects associated with human exposure to the 
chemicals known to have been in water at the installation.
    This legislation would allow a veteran or military family member 
who was stationed at Camp Lejeune during the time the water was 
contaminated to receive needed health care at a VA facility. While we 
believe the government has a moral obligation to provide care for those 
affected by contaminated water at Camp Lejeune, we would emphasize that 
the burden for care provided to those family members affected should be 
on the Department of Defense (DOD). DOD should allow TRICARE to cover 
the cost and services of any health care given family members who were 
stationed on base at the time of the exposure.
    If DOD is unwilling to provide care then they should at the very 
least reimburse VA for any care provided through CHAMPVA services. We 
applaud the Committee's work on this legislation but note that many 
years have gone by with no solution for those suffering. Providing 
health care benefits to those who were exposed at Camp Lejeune is the 
right thing to do and we hope that there is a positive conclusion this 
year.

          S. 396, MEETING THE INPATIENT HEALTH CARE NEEDS OF 
                  FAR SOUTH TEXAS VETERANS ACT OF 2011

    VFW does not hold an opinion regarding this legislation. The bill 
calls for the expansion of the Harlingen VA Outpatient Clinic to a 
full-service, inpatient care facility. VFW would suggest that VA asses 
South Texas' access and utilization gaps to ensure that veterans in 
that region are receiving a full continuum of care without the burden 
of excessive travel, and if there are gaps, prioritize the need and 
have it added to SCIP.

         S. 411, THE HELPING OUR HOMELESS VETERANS ACT OF 2011

    The VFW supports this legislation to give VA more tools to 
eliminate homelessness among our veterans. Not only does a veteran 
living on the streets indicate a break of trust and a deeply flawed 
system of care, it also represents missed opportunities and big 
challenges to help these men and a growing number of women get their 
lives back on track. We firmly believe that veterans should have every 
opportunity to lead productive and fulfilling lives in the manner and 
location of their choosing, and this legislation is an important step 
in that direction.
    Provisions in the bill would allow VA to expand partnerships with 
community and local government entities, which we believe will improve 
options to rural and underserved urban veterans. Critical measures to 
ensure quality are embedded in the legislation along with essential 
case management services including employment, financial and family 
counseling among others. Community groups receiving grants from VA will 
be given an opportunity to provide formal recommendations to improve 
the process; a positive development VFW believes will enhance the 
partnerships between VA and the local community.

   S. 423, RETROACTIVE PAY FOR ``FULLY-DEVELOPED'' DISABILITY CLAIMS 
                         SUBMITTED BY VETERANS

    VFW admires the concept, but has reservations and will withhold 
support for this legislation. S. 423 would provide authority to 
retroactively award veterans with an additional year of disability 
compensation for submitting a ``fully developed'' claim; however, VFW 
believes there are potential problems that could arise from enacting 
the bill in its current form.
    Defining fully developed will be critical. A veteran could provide 
all the medical evidence available, making the claim appear to be fully 
developed, but further medical tests could be needed to determine the 
severity of the disability. This could be defined as not fully 
developed leaving the veterans feeling that the process of doing VA's 
job was disingenuous. VFW also believes that this could lead to a new 
type of appeal. If the veteran feels they submitted a fully-developed 
claim and VA decides to do additional but unnecessary development 
should the veterans be allowed to protest, appeal the additional 
development, or appeal the effective date?
    Also, the fully developed incentive is not limited to initial 
claims. Simple claims that are being reopened for an increase that take 
little to no development would qualify for retroactive payment, as 
would claims from veterans who are hospitalized in a VA facility for 
treatment of a service-connected disability for more than 21 days who 
are entitled to a temporary 100-percent disability rating. All these 
veterans would need is a report of hospitalization with an entry and 
discharge date, and a diagnosis and they would qualify for one year of 
retroactive pay at a 100-percent rating. VFW does not believe this is 
the intent of the legislation, but identifies them as potential 
unintended consequences.
    VFW also sees an impact on veterans' service officers who help 
veterans file claims. If a service officer pronounces a claim fully 
developed and VA then develops the claim further, liability on the 
service officer and the VSOs could increase when a veteran sues them 
for the loss of the retroactive payment because the VSO stated it was 
fully developed.

   S. 486, PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 2011

    The VFW supports S. 486 which would extend SCRA mortgage 
protections from the current nine months to 24 months after military 
service is completed. At a time when the housing market is in crisis 
and many homeowners are in foreclosure, it is critical that we help 
protect those who have served. Long deployments, injuries and illness 
often contribute to financial difficulties of many deployed 
servicemembers. We believe that they should not have to worry about a 
possible mortgage foreclosure, eviction and/or seizure of their home. 
This legislation would offer some time for servicemembers and their 
families to get their finances in order and explore viable options so 
that they can keep their homes. We hope the Committee will consider 
this legislation and enact it soon.

  S. 490, A BILL AMEND TITLE 38, UNITED STATES CODE, TO INCREASE THE 
 MAXIMUM AGE FOR CHILDREN ELIGIBLE FOR MEDICAL CARE UNDER THE CHAMPVA 
                    PROGRAM, AND FOR OTHER PURPOSES.

    The VFW strongly supports this legislation to extend the age limit 
for coverage of veterans' dependents through the Civilian Health and 
Medical Program of the Department of Veterans Affairs (CHAMPVA) to the 
level set by the Patient Protection and Affordable Care Act.
    The health care reform legislation, passed in early 2010, allowed 
families with private health insurance coverage to keep their children 
on their plans until age 26. Left out of that change was TRICARE and 
CHAMPVA recipients. Thanks to responsible leaders in Congress, TRICARE 
coverage has been guaranteed to this age group. Unfortunately, CHAMPVA 
beneficiaries have not been afforded the same privileges. This program, 
which was established in 1973 and has more than 330,000 unique 
beneficiaries, comprised of dependents and survivors of certain 
veterans, should in no instance ever receive less than the national 
standard. This legislation would provide equity to CHAMPVA 
beneficiaries and rectify this outstanding issue.

         S. 491, THE HONOR AMERICA'S GUARD-RESERVE RETIREES ACT

    The VFW strongly supports this legislation, which would give the 
men and women who choose to serve our Nation in the Reserve component 
the recognition that their service demands. Many who serve in the Guard 
and Reserve are in positions that support the deployments of their 
active duty comrades to make sure the unit is fully prepared when 
called upon. Unfortunately, some of these men and women serve 20 years 
and are entitled to retirement pay, TRICARE, and other benefits, but 
are not considered a veteran according to the letter of the law.
    Such men and women have answered the call just like their active 
duty comrades have- with distinction and honor- but have fallen subject 
to certain types of orders and other administrative stumbling blocks. 
In recent years, Congress has enhanced material benefits to the members 
of the Guard and Reserve and this bill does not seek to buildupon those 
provisions; it simply seeks to bestow honor upon the men and women of 
the Guard and Reserve to whom it is due. After much work on this 
legislation in recent years, we can say with confidence that there will 
be no unintended material benefits garnered by anyone through the 
language of this bill, and we are proud to support its passage.

 S. 536, A BILL TO AMEND TITLE 38, U.S.C., TO PROVIDE THAT UTILIZATION 
  OF CHAPTER 35 EDUCATIONAL ASSISTANCE SHALL NOT BE SUBJECT TO THE 48-
   MONTH LIMITATION WHEN UTILIZING MULTIPLE VA EDUCATIONAL PROGRAMS.

    VFW supports S. 536 which would amend Section 3695 of title 38 to 
remove the 48-month limitation on the use of Chapter 35 and any other 
qualifying educational benefits. There are approximately 100 
servicemembers per year who, because of their military service, quality 
for other educational benefits.

  S. 572, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO REPEAL THE 
   PROHIBITION ON COLLECTIVE BARGAINING WITH RESPECT TO MATTERS AND 
  QUESTIONS REGARDING COMPENSATION OF EMPLOYEES OF THE VA OTHER THAN 
                 RATES OF BASIC PAY AND OTHER PURPOSES.
    THE VFW HAS NO POSITION ON THIS BILL.

  S. 666, THE VETERANS TRAUMATIC BRAIN INJURY CARE IMPROVEMENT ACT OF 
                                  2011

    The VFW supports the legislation to require a report on 
establishing a Polytrauma Rehabilitation Center or Network site in the 
northern Rockies or Dakotas. Polytrauma care is provided to veterans 
and returning servicemembers with injuries to more than one physical 
region or organ system that could be life threatening and/or result in 
a physical, cognitive, psychological, or psychosocial impairment. The 
vast majority of polytrauma patients have been on active duty and 
sustained a traumatic injury while in combat. Most of these patients 
are then discharged and receive very specialized follow-up care at a 
Polytrauma Network Site or other VA facility.
    VA's Polytrauma System of Care (PSC) includes four Polytrauma 
Rehabilitation Centers and 21 Polytrauma Network Sites. The area that 
this bill would require VA to study--North Dakota, South Dakota, Idaho, 
Montana, eastern Washington and Wyoming--have no PSC coverage, and yet 
have among the highest per capita rates of veterans with injuries from 
military service in Iraq and Afghanistan. The importance of providing 
every treatment option to polytrauma patients cannot be overstated, and 
we will look closely at any and all research related to the provision 
of such treatment for these veterans.

  S. 696, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO TREAT VET 
  CENTERS AS VA FACILITIES FOR PURPOSES OF PAYMENT OR ALLOWANCES FOR 
  BENEFICIARY TRAVEL TO DEPARTMENT FACILITIES AND FOR OTHER PURPOSES.

    This legislation would provide veterans with a travel reimbursement 
for trips to Vet Centers that is equal to what they currently receive 
for travel to VA health centers. Veterans seeking help at Vet Centers 
will be able to receive mileage reimbursement without having to reveal 
their identity beyond current VA policies, a point of particular 
concern for privacy purposes. VFW supports this bill and believes that 
not only will it ease some of the costs incurred by the veteran; it may 
encourage more veterans to seek out the unique counseling offered at 
the centers.

  S. 698, A BILL TO CODIFY THE PROHIBITION OF GRAVESITES AT ARLINGTON 
               NATIONAL CEMETERY, AND FOR OTHER PURPOSES.

    This legislation is long overdue. It will finally prohibit, in law, 
the insider practice of allowing certain high-ranking military members 
and other YIPs to pre-select their gravesites. This practice was banned 
by Army policy in 1962--nearly 50 years ago--yet cemetery 
administrators continued to arbitrarily allow some to skirt the rules. 
Burial at Arlington National Cemetery is a tremendous honor that 
depends on honorable service, not rank. It is obvious that greater 
accountability and transparency is needed, so we appreciate language in 
this bill that requires a full audit and a report back to Congress.

   S. 745, A BILL TO PROTECT CERTAIN VETERANS WHO WOULD OTHERWISE BE 
  SUBJECT TO A REDUCTION IN EDUCATIONAL ASSISTANCE BENEFITS, AND FOR 
                            OTHER PURPOSES.

    The VFW supports this legislation. It would protect students who 
are currently enrolled in a degree seeking program from any possible 
negative effects of changes that were made to the Post-9/11 GI Bill 
last year. Those changes established a nationwide cap on tuition at 
private institutions and for students seeking a degree from a public 
institution at a state other than the one in which they reside. Many of 
these students could potentially be saddled with debt or out-of-pocket 
expenses as a result of these changes in tuition payment rates set to 
take effect this August because the changes did not exempt students who 
were already enrolled into a degree program.
    These students chose their degree program with the expectation that 
the Yellow Ribbon Program they began with would still be there until 
they completed their degree, and we must keep up our end of the 
bargain. S. 745 would only apply to students who were already enrolled 
before last year's changes, and would sunset in December 2014. This is 
sound policy and the VFW supports it.

         S. 769, VETERANS EQUAL TREATMENT FOR SERVICE DOGS ACT

    The use of medical service dogs among veterans is increasing, and 
many of our newest veterans who are returning home from war with mental 
and physical disabilities have a particular need for their services. We 
believe that trained dogs play a significant role in helping provide 
independence to individuals with disabilities, and research shows they 
can lessen symptoms associated with depression, PTSD and other mental 
illnesses.
    Currently VA allows seeing-eye dogs to enter medical facilities 
without limitations. Senator Harkin's legislation would allow all 
service dogs into facilities that receive VA funding. VFW is happy to 
lend our support to a benefit that is often overlooked and can go a 
long way toward helping an individual with a disability that may not be 
able to perform a task independently.

            S. 780, VETERANS PENSIONS PROTECTION ACT OF 2011

    The VFW appreciates the intent of this legislation, but believes it 
will impose an undue burden on VA. It would require VA to make further 
determinations regarding replacement values in cases of insurance 
settlements thus reducing resources available to the timely processing 
of other pension claims. These additional decisions will further delay 
and complicate a relatively simple benefit. We urge the Committee to 
craft a less burdensome method for accomplishing this laudable goal.

       S. 815, SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011

    The VFW is proud to support the SERVE Act to strengthen and extend 
protections already provided by Section 1388 of title 18, United States 
Code by including civilian cemeteries in the law. It would also double 
the ``No Protesting'' window to two hours before and after funerals, 
increase protest distances for those grieving and toughen penalties to 
two years in jail and/or a $250,000 dollar fine, and permit family 
members and the U.S. Attorney General to sue violators for monetary 
damages.
    We fully support any legislative effort that emphasizes that the 
right of free speech does not trump a family's right to mourn in 
private. Those who use the First Amendment as both a shield and a sword 
to harm their fellow citizens need to have limits on such abuse and 
S. 815 provides those limits.

S. 873, TO AMEND TITLE 38, UNITED STATES CODE, TO PROVIDE BENEFITS FOR 
  CHILDREN WITH SPINA BIFIDA OF VETERANS EXPOSED TO HERBICIDES WHILE 
          SERVING IN THE ARMED FORCES DURING THE VIETNAM ERA.

    VFW strongly supports S. 873, legislation that would allow all 
children of veterans exposed to herbicides with spina bifida to receive 
medical service and benefits at VA. As stipulated in Chapter 18, Sec 
1821 of title 38, U.S.C., a child of a veteran who was exposed to 
herbicides used in Korea is currently covered for all health care, 
vocational rehabilitation and other benefits, as if the veteran had 
served in qualifying areas in and around Vietnam. That authority, 
however, does not extend to those claimants that may have been outside 
of Korea but were also exposed to herbicides during the Vietnam era and 
whose children were then born with birth defects or abnormalities like 
spins bifida. This legislation expands coverage and includes those 
children. The VFW has long supported entitlements for conditions caused 
by herbicide exposure, and we believe this bill will correct an 
inequity in the current law.

S. 874, TO AMEND TITLE 38, UNITED STATES CODE, TO MODIFY THE PROVISION 
  OF COMPENSATION AND PENSION TO SURVIVING SPOUSES OF VETERANS IN THE 
  MONTHS OF THE DEATHS OF THE VETERANS, TO IMPROVE LOAN BENEFITS FOR 
                   VETERANS, AND FOR OTHER PURPOSES.

    The VFW supports all the provisions in this bill. Although we find 
merit in Section 1 which liberalizes current law, we do have concerns 
that it does not address those veterans who may be receiving 
compensation but who are seeking an increased evaluation because of 
increased disability. Under this legislation, it appears that VA would 
only pay the amount of current compensation and not that which would 
have been payable but for the untimely death of the veteran. We urge 
the Committee to amend this bill to include those veterans who die 
while a claim for increased compensation is pending.

  S. 894, THE VETERANS' COMPENSATION COST-OF-LIVING ADJUSTMENT ACT OF 
                                  2011

    The VFW supports this legislation. Veterans have not received a 
COLA increase in two years, but are still paying more at the grocery 
store, pharmacy, gas pump, and elsewhere. We are encouraged that recent 
data shows a 2.9-percent increase in the CPI-W over the 2008 COLA base, 
the last base to result in a COLA increase. We are hopeful that 
veterans and survivors will see a corresponding increase in their 
pensions and other compensation, such as DIC, in the coming year. This 
legislation is the vehicle to ensure that takes place.

             S. 910, THE VETERANS HEALTH EQUITY ACT OF 2011

    The VFW supports an access evaluation for regions with an ever-
growing veterans' population, as we do find it noteworthy that a state 
in the contiguous United States would not have a full-service VA 
Medical Center. We view the VA's Strategic Capital Investment Plan 
(SCIP) to prioritize capital investments favorably, but remain 
concerned that funding levels do not suggest such matters are high 
priority for VA. Unless the out-years are funded much more aggressively 
than the current years, VA will not be able to meet demands, facilities 
will require more maintenance funding, and the priority list will 
continue to grow. At this time, VFW cannot support the legislation to 
mandate facilities in each of the contiguous 48 states, but we would 
support an evaluation to determine the need of underserved locales like 
Manchester, N.H.

S. 914, A BILL TO AMEND TITLE 38, UNITED STATES CODE, TO AUTHORIZE THE 
WAIVER OF THE COLLECTION OF COPAYMENTS FOR TELEHEALTH AND TELEMEDICINE 
              VISITS OF VETERANS, AND FOR OTHER PURPOSES.

    The VFW strongly supports this legislation, which would exempt 
disabled veterans from paying copayments for telehealth and 
telemedicine visits. By waving copayments we encourage the use of a 
range of convenient and cost-effective services that connect care 
providers to the veteran using modem telecommunications applications.
    The VFW applauds VA for their pioneering efforts in this new area 
of health care. Telehealth leverages new technologies to make 
diagnoses, manage care, perform check-ups, and actually provide care to 
veterans. The use of video technologies makes it possible for veterans, 
many of whom live in rural or remote areas, to come to VA's community-
based outpatient clinics and connect to a specialist or other 
practitioner who may be in a hospital hundreds or even thousands of 
miles away. Offering these services is a wise stewardship of limited 
resources. They provides a great return on investment and can expedite 
care to veterans while reducing some of the hassles and headaches 
associated with travel for routine or intensive services. Therefore, we 
are pleased to offer our support for this legislation.

S. 928, A BILL TO LIMIT THE VA SECRETARY'S AUTHORITY TO USE BID SAVINGS 
                 TO EXPAND OR CHANGE CAPITAL PROJECTS.

    The VFW supports this legislation to limit the Secretary of VA's 
authority to use bid savings from major construction projects as long 
as the savings will be reinvested in other construction projects. 
Congress must authorize construction spending; therefore it is logical 
that Congress be made aware of how the savings will be utilized. 
However, VFW must insist that any bid savings that occur must be 
reinvested in construction to help reduce the every growing backlog of 
construction projects.

           S. 935, VETERANS OUTREACH ENHANCEMENT ACT OF 2011

    The VFW supports this legislation that would require VA to carry 
out a program of outreach to veterans by reaching out to Federal and 
state agencies as well as veterans service organizations (VSO) to 
provide information about VA benefits and services available.
    Section 3 is critical in filling a gap in our most rural and 
economically challenged areas. VA will be required to enter into 
agreements with the Appalachia Regional Commission, the Delta Regional 
Authority, the Denali Commission, the Northern Great Plains Regional 
Authority and other areas of historically high poverty, unemployment, 
substandard housing, low educational levels, and poor health care 
services. Many within the military/veteran population living in these 
areas are unaware of the benefits provided by VA or other local, county 
and state veterans' services. Combine that with scant access to care, 
varying support services and problems finding transportation to VA 
appointments and we can all agree more outreach is needed in these 
isolated areas. We look forward to working with the communities 
mentioned in this bill and encourage Congress to appropriate adequate 
funding to be able to continue offering comprehensive education and 
outreach to rural veterans.
    However, the VFW does have concerns over the language in Section 2 
regarding potential grants and contracts for VSOs and small businesses. 
VFW understands that the section may be designed to encourage outreach 
to veterans eager to start small businesses in underserved communities, 
but in its current form, VFW believes the language creates the 
potential for businesses to take advantage of Federal grants.

                   S. 951, HIRING HEROES ACT OF 2011

    The VFW supports S. 951, the Hiring Heroes Act of 2011, and 
considers this bill a critical and overdue piece of legislation that 
will help our Nation's heroes reenter and remain competitive in the 
workforce. During recent difficult economic times, young veterans of 
the wars in Iraq and Afghanistan have been disproportionately affected 
by a stagnant job market, which is why VFW believes Congress should 
take every step necessary to ensure that our Nation's heroes have 
viable careers available to them when they leave the military. VFW 
generally supports the provisions of S. 951, but we would like to focus 
on several of the bill's sections in our testimony.
    First, VFW agrees that TAP must be mandatory for all servicemembers 
leaving the military. This is a missed opportunity to ensure that all 
servicemembers have a viable baseline from which to work once they 
reenter the civilian workforce. The VFW also believes that consultation 
with VA should be included in all TAP programs, ensuring that veterans 
transitioning out of the military are at least aware of the benefits 
and services to which they are entitled.
    VFW also agrees that direct hiring authority for Federal agencies 
and offering civilian work experience for potential civil service 
employees while on terminal leave will cut down on red tape for 
veterans seeking careers in the Federal workforce. Allowing qualified 
veterans a direct path to a civil service career also helps Federal 
agencies fulfill their obligations to employ veterans.
    Finally, VFW supports offering two additional years of VocRehab 
benefits for unemployed veterans who have exhausted all of their state 
and Federal benefits. The intent of VocRehab is to ensure that veterans 
who were disabled in the line of duty would be trained and employable 
in a new career field. If a veteran has used their VocRehab benefits, 
yet remains unemployed, then their initial VocRehab program clearly 
failed. To VFW, VA is obligated to ensure that veterans who participate 
in the program truly receive the job skills they need to remain 
competitive in the civilian workforce.
    VFW also has a suggestion for improving S. 951. Section 9 of the 
bill has the right objective; making the transition from military to 
civilian life easier by allowing servicemembers to apply the skills 
learned from military to their MOS to the civilian workforce. The 
problem with Section 9 is the approach; calling for a study and report 
requiring coordination between the secretaries of Defense, Veterans 
Affairs, and Labor. This approach wastes time on bureaucracy, rather 
than helping to place the servicemember in a civilian occupation. 
Replacing Section 9 with an ongoing private sector initiative, one of 
which is already being tested at Fort Bragg, would streamline this 
transition by cutting out bureaucracy. Some of these initiatives 
already utilize mathematical algorithms through which servicemembers 
can simply enter their MOS to populate a list of viable civilian 
careers, and industry experts continue to develop ways to translate 
this data into usable information to guide veterans on their 
educational and professional training needs. VFW is eager to discuss 
this idea further with Members of the Committee following this hearing. 
VFW believes that the private sector already has the capacity bring the 
departments of Defense, Labor and Veterans Affairs into the 21st 
century through these ongoing initiatives without wasting additional 
resources on a duplicative study.

 S. 957, THE VETERANS' TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES' 
                        IMPROVEMENTS ACT OF 2011

    The VFW supports this legislation to significantly improve and 
expand the plan for rehabilitation and reintegration of TBI patients. 
This legislation would ensure that, when providing care to help 
veterans recuperate after a brain injury, VA must take into account and 
provide treatment that improves a veteran's independence and quality of 
life. It expands objectives for the rehabilitation of veterans 
suffering from a TBI to include behavioral and mental health concerns. 
As a result of this bill, the phrase ``rehabilitative services'' takes 
precedence over mere treatment in pertinent areas of the United States 
Code, thereby conforming it to the prevailing wisdom that TBI patients 
deserve more than mere treatment of their injuries, because we all know 
they deserve ongoing evaluation and additional intervention where 
necessary to ensure a full recovery. We believe the changes in this 
bill would make it easier for veterans struggling with the aftermath of 
a TBI to receive such coverage. Finally, this bill would also support 
TBI patients by associating sections of the law related to TBI 
rehabilitation and community reintegration to a broader definition of 
the term ``rehabilitative services'' in title 38 that comprises a range 
of services such as professional counseling and guidance services. This 
bill would help to ensure our response to Traumatic Brain Injuries 
consists of more than just healing the physical wounds of war. Our 
veterans deserve every chance to lead productive lives, which is why 
the VFW believes that VA and DOD should look into any and all potential 
rehabilitation and treatment models for veterans who suffer from TBI.

   S. 1017, DISABLED VETERAN CAREGIVER HOUSING ASSISTANCE ACT OF 2011

    The VFW is happy to support S. 1017. In 2006, The Veterans' Housing 
Opportunity and Benefits Improvement Act authorized VA to allow 
adaptive housing assistance grants to disabled veterans temporarily 
living in a home owned by a family member, known as Temporary Residence 
Adaptation (TRA), but the benefit often leaves needs unmet in the 
veteran community.
    To date the number of veterans using the benefit has been low. 
According to a recent report by the Government Accountability Office 
(GAO-l0-786, July 15, 2010), VA has only processed 18 TRA grants 
through April 2010. This legislation increases the benefit without 
allowing it to go against future adaptive grants which would encourage 
more use of the program. We would also add that VA should be encouraged 
to strengthen its outreach by providing more information about who is 
eligible for the grants which we believe would boost the number of 
grants awarded in the future.

             DRAFT BILL, HONORING ALL VETERANS ACT OF 2011

    The VFW supports this legislation which provides a number of 
important improvements to services that are currently not meeting the 
needs of our veterans. To improve the livelihood of those who have 
experienced a Traumatic Brain Injury, this legislation directs the 
Secretary of Labor to assist veterans as they transition to the 
civilian workplace. It also improves their health by directing VA to 
use all applicable programs in a more comprehensive manner to assist 
their long-term care and rehabilitation. It raises the statutory cap 
for Vocational Rehabilitation and Employment Independent Living program 
participants, and increases pension for married couples who are both 
disabled veterans receiving aid and attendance payments.
    To help veterans who have misfiled documents with the Veterans 
Appeals Board by spurring new and needed reforms, the bill provides 
assistance to homeless veterans by modifying the Servicemembers Civil 
Relief Act and applying changes to VA homeless programs that would 
allow payments to better reflect housing costs where a particular 
veteran resides. It also builds on the growing consensus that military 
skills should have broad recognition in the civilian world by 
authorizing a study to help employers understand how military skills 
apply in the open market.

         DRAFT BILL, VETERANS PROGRAMS IMPROVEMENTS ACT OF 2011

    VFW supports draft legislation that would enhance many benefit 
programs within the Department of Veterans Affairs (VA). We especially 
applaud Title I of the bill which would improve upon existing homeless 
veterans programs. This bill greatly expands the availability of 
resources needed by homeless veterans, while including provisions that 
encourage treatment facilities providing care to homeless veterans to 
use the available funding effectively. It also allows male homeless 
veterans with children to be eligible for grant and per diem services; 
and requires VA to provide a comprehensive plan on how it plans to 
prevent and end homelessness in coordination with other Federal 
programs with cost estimates and benchmarks that have proven effective.
    Title II closes several loopholes with regard to fiduciaries. Most 
importantly it protects our most vulnerable veterans by allowing a 
caregiver or primary custodian of an impaired veteran to file a claim 
in the name of the veteran. It also would allow VA to monitor fiduciary 
activities or unresponsive fiduciary accounts by having direct access 
to those veterans' financial institutions. VA would also have the 
authority to direct the fiduciary, in the event of the death of the 
veteran, to make final payments to the veteran's dependents in order of 
precedence. This offers family members who may have incurred medical or 
burial expenses on behalf of the veteran some reimbursement for costs. 
We would also like to add that we believe the VA should require 
increased audits if there is any irregularities in the fiduciaries 
accounting.
    Title III reauthorizes and extends several programs beneficial to 
veterans.
    The VFW applauds the Committee for making changes like those found 
in Section 301 which would allow a guardian that may be taking care of 
children while a servicemember is gone for many months on active duty 
to remain in their family home without the threat of losing the home; 
and Section 306 which would help streamline and shorten the time it 
takes for an appeal to be resolved by the Board of Veterans Appeals by 
eliminating duplication of efforts. We look forward to the passage of 
all the provisions in this extensive bill.

 DRAFT BILL TO IMPROVE THE PROVISION OF BENEFITS AND ASSISTANCE UNDER 
  LAWS ADMINISTERED BY THE SECRETARY OF VETERANS AFFAIRS TO VETERANS 
    AFFECTED BY NATURAL OR OTHER DISASTERS, AND FOR OTHER PURPOSES.

    The VFW supports this legislation, which would help veterans who 
have suffered loss at the hands of a natural disaster such as an 
earthquake, flood, tornado, or other types of disasters receive 
critical VA assistance more quickly. Currently, when a veteran's home 
or automobile needs to be replaced as a result of such an event, 
Congress must step in and authorize the Secretary of Veterans Affairs 
to come to the aid of disaster-stricken veterans. This legislation 
would give the Secretary discretion to designate events as natural or 
other disasters, and would convey the authority to provide for the 
remediation of previously granted benefits. Among other things, it 
would also allow the Secretary to extend subsistence allowances for 
veterans undertaking a vocational rehabilitation program when disaster 
strikes. Allowing the Secretary to act in these situations 
independently of explicit Congressional approval will undoubtedly 
expedite the process and help veterans who are victims of natural 
disasters to get back on their feet.
    Madam Chairwoman and Members of the Committee again, thank you for 
allowing us to present our views on this legislation, I would be happy 
to answer any questions you may have.

  DRAFT BILL TO ESTABLISH A PILOT PROGRAM UNDER WHICH VETERANS IN THE 
STATE OF ALASKA MAY RECEIVE HEALTH CARE BENEFITS FROM THE DEPARTMENT OF 
 VETERANS AFFAIRS AT NON-DEPARTMENT MEDICAL FACILITIES, AND FOR OTHER 
                               PURPOSES.

    While we understand the good intent behind this effort, the VFW 
cannot lend its support to this legislation. The bill would establish a 
new pilot program with the goal of providing certain Alaskan veterans 
in the most remote locations with what would be known as the ``Alaska 
Hero Card.'' This card would essentially serve as an insurance card, 
enabling veteran cardholders to acquire unlimited health care at no 
out-of-pocket cost from any doctor who participates in the TRICARE 
network, the Indian Health Service, or Medicare.
    One concern VFW has with this well-meaning proposal is that VA 
could provide the same benefit to these veterans under existing law and 
practice. We also recognize that Alaska, though perhaps the most 
poignant example, is not the only state in the union that grapples with 
the issue of extremely rural and remote populations. Finally, because 
the VA is already conducting pilot programs to study the improving 
access to care for all rural veterans regardless of state, on its face 
we see this effort as duplicative. VFW would strongly prefer VA focus 
on existing pilots to find solutions for all rural veterans, and work 
quickly to ensure that Alaska's highly rural and underserved 
populations have access to quality health care by leveraging existing 
VA policies.

    Chairman Murray. Thank you very much.
    Mr. Ensminger?

STATEMENT OF JERRY ENSMINGER, MSGT USMC (RET.), ELIZABETHTOWN, 
                         NORTH CAROLINA

    Mr. Ensminger. Good morning. My name is Jerry Ensminger. I 
served our Nation faithfully for nearly a quarter of a century 
in the U.S. Marine Corps. I want to personally thank you, Madam 
Chairman and Senator Burr, the Ranking Member and senior 
Senator from my homestate of North Carolina, for providing me 
this opportunity to testify in support of S. 277, the Caring 
for Camp Lejeune Veterans Act of 2011.
    I became deeply involved researching the history of the 
water contamination at Camp Lejeune nearly 13 years ago after I 
learned that my daughter, Janey, was exposed to the base's 
contaminated drinking water. My daughter, Janey, was the only 
one of my four daughters to have been conceived, carried, or 
born while living aboard Camp Lejeune. When Janey was 6 years 
old, our entire world was turned upside down after she was 
diagnosed with acute lymphoblastic leukemia, or ALL.
    Janey fought a valiant battle against her malignancy for 
nearly 2\1/2\ years, but she ultimately lost that war. We 
watched Janey go through hell during her illness, and all who 
loved her went through hell with her. She succumbed to her 
disease on 24 September 1985. She was only 9-years old.
    Unlike the tragic stories of combat troops who have died in 
the past decade overseas or come home with broken bodies and 
painful memories, the human tragedies caused by this massive 
contamination incident have been going on for many, many 
decades in private homes and hospital rooms in every State and 
territory of our Nation. Many of the sick have been virtually 
bankrupted by the expense of the medical care and therapies 
required to combat the catastrophic illnesses which are 
inherent to the exposures to the chemicals that have been found 
in the water at Camp Lejeune. Two known carcinogens--benzene 
and vinyl chloride, TCE, which will soon be classified as a 
human carcinogen by our EPA, and PCE, a probable human 
carcinogen--were present in our tap water. Those of us who 
lived and worked at Camp Lejeune never gave a moment's thought 
that we and our families were being poisoned by the very water 
we drank and bathed in. I along with many other Marines and 
their family members have devoted years of our lives and our 
money to comb through the historical record of Navy and Marine 
Corps documents to find the truth about how this contamination 
was allowed to continue despite the repeated warnings given to 
them by analytical laboratories.
    My 13-year journey has taken me and my allies down many 
paths, and it has led us to numerous revealing and very, very 
troubling discoveries related to this issue. I must say that 
some of the most troubling discoveries have been the Department 
of the Navy and the U.S. Marine Corps' own documents which 
clearly reveal their leadership's knowledge that our tap water 
was contaminated for nearly 5 years before they took any action 
to locate the sources or to stop it from flowing.
    Another disturbing revelation has been the discovery of 
Navy and Marine Corps regulations, some dating as far back as 
1963, that required a protective standard of care for the 
base's drinking water systems. Had these regulations and orders 
been followed, most of this tragedy more than likely would have 
been averted.
    Last, as a career Marine, the most audacious realization 
has been a lack of honesty and transparency demonstrated by the 
Department of the Navy and Marine Corps relating to this issue, 
a problem that continues to this very day and reaches the 
highest levels of leadership.
    The documents we have uncovered indicate there have been 
many obfuscations, half-truths, and outright lies disseminated 
by these two organizations and their leaders through statements 
to the press, in correspondence to the affected community 
members, in brochures issued to Congress, and, yes, even in 
Congressional testimony. The examples of these 
mischaracterizations are too numerous for me to list here today 
in this testimony, but I would be more than willing to provide 
examples today if the Committee is interested, and I will 
gladly sit down with any Senator or their staff members to 
point these things out. I would encourage everyone to visit our 
Web site and view the timeline of events linked to our home 
page. Our timeline of events is interactive; the reader can 
click on the ``blue'' document numbers embedded in each entry 
to access the Department of the Navy and the U.S. Marine Corps' 
own documents. This was done to assure the reader that we do 
not speculate and that our timeline is factual.
    Senator Burr's bill, S. 277, is a step in the right 
direction in rectifying this tragic situation. Some of you may 
not know this, but Camp Lejeune is the largest documented DOD 
environmental contamination incident on record. I know that 
some Members of Congress and a couple of national veterans 
service organizations have expressed a lack of support for 
S. 277 when it was introduced as S. 1518 in 2009, but much has 
come to light since then. In the past year and a half, 
significant discoveries of previously undisclosed documents 
show that the Navy estimated that the contamination on the base 
was far greater than imagined in 2009. One Navy document states 
that the total fuel loss from underground storage tanks on the 
base could have reached beyond 1 million gallons and caused 
massive amounts of benzene, a known human carcinogen, to have 
infiltrated the ground water used by the base's drinking water 
systems. I would think that anyone here today who found out 
that the water they had been drinking contained gasoline would 
find that a little alarming.
    There are currently over 170,000 members of the Camp 
Lejeune community who have registered with the Marine Corps 
since 2008. They come from every State in the Nation. I have 
heard their stories over the years as I have criss-crossed the 
country looking for information and meeting veterans and their 
families who lived on the base. In the past 2 years alone, we 
have discovered over 70 men who lived at Camp Lejeune who now 
have male breast cancer, a rare disease which afflicts only 
about 2,000 men a year in the entire United States.
    This issue is the subject of an award-winning documentary 
titled ``Semper Fi: Always Faithful,'' which will be shown the 
evening of 23 June 2011 in the Capitol Visitor Center. I hope 
the Senators on this Committee will take a closer look at this 
issue and seriously consider the scope and severity of the 
contamination and the duty we owe those veterans, their loved 
ones, and the thousands of civilian employees who were exposed 
at Camp Lejeune. I ask each of you to see the film or send a 
member of your staff to do so. This very real story is finally 
being told after years in the shadows, and the people whose 
lives are directly affected by it need help. S. 277 is the 
first step toward doing the right thing.
    Thank you. I look forward to your questions, and thank you 
for bearing with me in my overage on time.
    [The prepared statement of Mr. Ensminger follows:]

  Prepared Statement of Jerome Ensminger, USMC (Ret.), North Carolina

    Good morning! My name is Jerry Ensminger. I served our Nation 
faithfully for nearly a quarter century in the United States Marine 
Corps. I want to personally thank you Madam Chairman and Senator Burr, 
the Ranking Member and senior Senator from my home state of North 
Carolina, for providing me this opportunity to testify in support of 
S. 277, the Caring for Camp Lejeune Veterans Act of 2011.
    I became deeply involved researching the history of the water 
contamination at Camp Lejeune nearly 13 years ago after I first learned 
that my daughter, Janey was exposed to the base's contaminated drinking 
water. My daughter, Janey, was the only one of my 4 daughters to have 
been conceived, carried, or born while living aboard Camp Lejeune. When 
Janey was 6 years old, our entire world was turned upside down after 
she was diagnosed with acute lymphoblastic Leukemia (ALL).
    Janey fought a valiant battle against her malignancy for nearly 
2\1/2\ years, but she ultimately lost the war. We watched Janey go 
through hell during her illness and all who loved her went through hell 
with her, but she succumbed to her disease on 24 September 1985, she 
was only nine years old. Unlike the tragic stories of combat troops who 
have died in the past decade overseas or come home with broken bodies 
and painful memories, the human tragedies caused by this massive 
contamination incident have been going on for many decades in private 
homes and hospital rooms in every state and territory of our Nation. 
Many of the sick have been virtually bankrupted by the expense of the 
medical care and therapies required to combat the catastrophic 
illnesses which are inherent to the exposures to the chemicals found in 
the water at Camp Lejeune. Two known carcinogens-benzene and vinyl 
chloride, TCE, which is soon to be classified as a human carcinogen by 
the EPA, and PCE a probable human carcinogen were present in our tap 
water. Those of us who lived and worked at Camp Lejeune never gave a 
moment's thought that we and our families were being poisoned by the 
very water we drank and bathed in. I, along with many other Marines and 
their family members have devoted years of our lives and our money to 
comb through the historical record of Navy and Marine Corps documents 
to find the truth about how this contamination was allowed to continue 
despite the repeated warnings given by analytical laboratories.
    My 13-year journey has taken me and my allies down many paths and 
led us to numerous revealing and very troublesome discoveries related 
to this issue. I must say that some of the most troubling discoveries 
have been the Department of the Navy (DoN) and the United States Marine 
Corps' (USMC) own documents which clearly reveal their leadership's 
knowledge that our tap-water was contaminated for nearly five years 
before they took any action to locate the source(s) and stop it from 
flowing. Another disturbing revelation has been the discovery of Navy 
and Marine regulations, some dating as far back as 1963, that required 
a protective standard of care for the base's drinking water systems. 
Had these regulations and orders been followed, most of this tragedy 
more than likely would have been averted. As a career Marine, the most 
audacious realization has been a lack of honesty and transparency 
demonstrated by the Department of the Navy and Marine Corps relating to 
this issue, a problem that continues to this day and reaches the 
highest levels of leadership.
    The documents we have uncovered indicate there have been many 
obfuscations, half-truths, and outright lies disseminated by these two 
organizations and their leaders through statements to the press, in 
correspondence to the affected community, in brochures for Members of 
Congress, and even in congressional testimony. The examples of these 
mischaracterizations are too numerous for me to list in this testimony, 
but I would be more than willing to provide examples today if the 
Committee is interested and I will gladly sit down with any Senator or 
staff member and point them out. I would also encourage everyone to 
visit our Web site www.tftptf.com and view the time-line of events 
linked to our home page. Our time-line of events is interactive; the 
reader can click on the ``blue'' document numbers embedded in each 
entry to access the DON/USMC's own documents. This was done to assure 
the reader that we don't speculate and that our time-line is factual.
    Senator Burr's bill, S. 277 is a step in the right direction in 
rectifying this tragic situation. Some of you may not know this, but 
Camp Lejeune is the largest documented domestic DOD environmental 
contamination incident on record. I know that some Members of Congress 
and a couple of national Veterans Service Organization (VSO's) groups 
have expressed a lack of support for S. 277 when it was introduced as 
S. 1518 in 2009, but much has come to light since then. In the past 
year and a half, significant discoveries of previously undisclosed 
documents show the Navy estimated that the contamination on the base 
was far greater than imagined in 2009. One Navy document states the 
total fuel loss from underground tanks on the base could have reached 
beyond one million gallons and caused massive amounts of benzene, a 
known human carcinogen, to have infiltrated the ground water used by 
the base. I would think that anyone here today who found out the water 
they had been drinking contained gasoline would find that alarming!
    There are currently over 170,000 members of the Camp Lejeune 
community who have registered with the Marine Corps since 2008, they 
come from every state in the Nation and I have heard their stories over 
the years as I have criss crossed the country looking for information 
and meeting veterans and their families who lived on the base. In the 
past two years alone, we have discovered over 70 men who lived at 
Lejeune who now have male breast cancer, a rare disease which afflicts 
only about 2,000 men a year in the entire US.
    This issue is the subject of an award winning documentary titled 
``Semper Fi: Always Faithful'' which will be shown the evening of 
23 June 2011 in the Capitol Visitor's Center. I hope the Senators on 
the Committee will take a closer look at this issue and seriously 
consider the scope and severity of the contamination and the duty we 
owe to those veterans, their loved ones and the thousands of civilian 
employees who were exposed at Camp Lejeune. I ask each of you to see 
the film or send a member of your staff to do so. This very real story 
is finally being told after years in the shadows and the people whose 
lives are directly affected by it need help. S. 277 is the first step 
toward doing the right thing.

    Thank you and I look forward to your questions.

    Chairman Murray. Thank you very much, Mr. Ensminger. I 
really appreciate your continued diligence and work on this 
very, very important issue.
    Mr. Cox?

   STATEMENT OF J. DAVID COX, R.N., AFGE NATIONAL SECRETARY-
 TREASURER, ON BEHALF OF THE AMERICAN FEDERATION OF GOVERNMENT 
        EMPLOYEES--AFL-CIO AND AFGE NATIONAL VA COUNCIL

    Mr. Cox. Chairman Murray, Ranking Member Burr, and Members 
of the Committee, thank you very much for the opportunity to be 
here today TO testify on S. 572 on behalf of the American 
Federation of Government Employees, the largest employee 
representative of Federal employees, including over 80,000 VA 
title 38 medical professionals.
    Chairman Murray, this is my first opportunity to testify 
before you as a Chairman, and I join with Senator Snowe in 
commending you in your field and being Chairman of this 
Committee. As a man who spent 40 years being a registered 
nurse, I applaud you as Chair of this Committee today and look 
forward to your leadership.
    S. 572 provides a small, commonsense fix to Section 7422 of 
Title 38, the law that gives VA medical professionals the right 
to grieve and negotiate over routine pay matters. The VA must 
be accountable for its own pay policies. Amending the law is 
the only way to get that accountability. How can anyone oppose 
making the VA abide by its own pay rules?
    Last year, Secretary Shinseki acknowledged the widespread 
abuse of VA's pay rules at VA medical facilities, and he pulled 
back the Under Secretary's authority to make 7422 
determinations. Now all 7422 cases go before the Secretary.
    You may hear from opponents that S. 572 creates new rights 
and gives VA clinicians more rights than other Federal 
employees. This is simply not true. Medical professionals who 
work for the Department of Defense and Bureau of Prisons can 
grieve and negotiate agency violations of pay rules. All this 
bill does is restore the same rights as their counterparts in 
the VA.
    Under VA's current policies on compensation bargaining, 
registered nurses working weekends have no recourse when 
management refuses to provide weekend premium pay even though 
premium pay is required by the VA's own pay regulations. VA's 
own management officials have acknowledged that they could not 
run their hospitals if they did not apply the same pay rules as 
every other health care provider. However, the VA found an 
unexpected loophole in the law to ignore its own pay rules: the 
compensation exclusion in Section 7422.
    VA's broad interpretation of this exclusion prevents the 
enforcement of nurse pay provisions in the 2010 Caregiver Act 
as well as other nurse and physician pay laws passed in recent 
years to keep VA pay competitive.
    It is clear that Congress intended to provide VA medical 
professionals with full bargaining rights, the same rights as 
other employees in the VA and the rest of the Federal 
Government. Congress enacted Section 7422 in a direct response 
to a Federal Court decision that the VA had the right to refuse 
to bargain with a group of Colorado nurses. The plain language 
in Section 7422 confirms that the only compensation matters 
that are off the bargaining table are establishment, 
determination, and adjustment of employee compensation. That is 
because Congress sets Federal pay scales, and the VA has never 
been able to come up with an example of a union trying to 
bargain over pay scales.
    Even in the face of this clear intent and VA's past 
agreement to apply a narrow interpretation of the law, the VA 
continues to refuse to bargain over many types of pay disputes 
that have nothing to do with setting pay scales. This is why 
the law needs to be tweaked, to clarify what Congress intended 
and what is common sense in the health care workplace.
    The VA's interpretation of Section 7422 may be permissible 
under the laws of statutory interpretation, but it is 
definitely not preferable. VA's current policies divert time 
and money away from direct veteran services through protracted 
labor-management disputes and the cost of losing nurses and 
doctors and other clinicians to other employers. We all vote 
with our feet when it comes time to getting paid properly for 
the work we do. In short, S. 572 restores what Congress 
intended, saves VA health care dollars that should be spent on 
veterans, boosts workplace morale, and helps the VA remain an 
employer of choice in the health care marketplace.
    Thank you very much, and I would be glad to take any 
questions.
    [The prepared statement of Mr. Cox follows:]

   Prepared Statement of J. David Cox, R.N., AFGE National Secretary-
  Treasurer on Behalf of American Federation of Government Employees, 
                AFL-CIO and the AFGE National VA Council

    Chairman Murray, Ranking Member Burr and Members of the Committee: 
The American Federation of Government Employees (AFGE) and the AFGE 
National VA Council (NVAC) (hereinafter ``AFGE'') appreciate the 
opportunity to testify today on S. 572.
    AFGE represents over 200,000 employees in the Department of 
Veterans Affairs (VA), more than two-thirds of whom are Veterans Health 
Administration (VHA) employees who are on the front lines at VA 
hospitals, clinics and nursing homes caring for our Nation's veterans.
    S. 572 does not create new bargaining rights. Rather, this bill 
restores equal bargaining rights over routine compensation matters that 
were previously afforded to the following medical professionals covered 
by the VA's Title 38 personnel system: registered nurses (RN), 
physicians, dentists, physician assistants, optometrists, podiatrists, 
chiropractors and expanded-duty dental auxiliaries.
    Until 2003, VA's Title 38 medical professionals had the same 
compensation bargaining rights as VHA employees covered by Title 5 
bargaining rights and medical professionals at military hospitals and 
other Federal facilities. Over the past eight years, the VA has 
interpreted the Title 38 bargaining rights law--Section 7422--to single 
out Title 38 medical professionals and deprive them of basic rights to 
grieve and negotiate over routine pay matters such as nurse overtime 
pay and physician incentive pay. The VA has also used Section 7422 to 
block complaints arising out of violations of rights under other 
Federal laws.
    How can anyone oppose making the VA abide by its own pay rules? 
Last year, Secretary Shinseki acknowledged the widespread abuse of VA's 
pay rules at many VA medical facilities. In fact, he determined that 
this problem was significant enough to pull back the Undersecretary of 
Health's authority to determine when Section 7422 prohibits bargaining. 
Now, all 7422 disputes must be decided by the Secretary.
    Contrary to the VA's past assertions, S. 572 will not interfere 
with the role of Congress and the Secretary in setting rates of pay. 
The bill specifically excludes from bargaining the ``establishment, 
determination, or adjustment of rates of basic pay.'' In contrast, VA 
medical professionals--like other Federal employees--must have the 
right to bargain over whether a pay rule is applied fairly and 
accurately.
    The VA has argued that this bill will give VA medical professionals 
more rights than other Federal employees. This assertion is also 
completely untrue. The plain language of S. 572 is unambiguous: it 
would only restore the same rights to bargain over routine pay matters 
as those afforded to Federal employees covered by Title 5. We also note 
that the VA has never offered this Committee a single example of a VA's 
employee's attempt to bargain over a pay scale.
    VA's 7422 policy seems especially arbitrary because it singles out 
one group of VHA employees while affording full compensation bargaining 
rights to others working in the same hospitals and clinics. For 
example, a VA registered nurse cannot grieve over overtime pay while a 
VA licensed practical nurse can. Similarly, a VA psychiatrist cannot 
grieve over the loss of incentive pay while a VA psychologist can. It 
seems equally arbitrary for a DOD physician treating active duty 
personnel to have greater bargaining rights than a VA physician 
treating veterans. This disparate treatment also harms the VA's ability 
to attract and retain medical professionals.
    S. 572 is consistent with the clear intent of Congress to provide 
VA medical professionals with equal bargaining rights. Congress enacted 
Section 7422 shortly after a Federal appeals court held that the VA did 
not have to bargain with a group of Colorado nurses. In addition, the 
plain language of the 1991 law makes clear that bargaining is only 
prohibited in matters involving the ``establishment, determination, or 
adjustment of employee compensation.'' Surely, Congress did not 
contemplate that the VA would invoke Section 7422 to block complaints 
about the application of nurse premium pay rules, access to wage survey 
data, pay discrimination or denial of workers compensation--but that is 
exactly what the VA did in past 7422 Undersecretary determinations.
    VA's current interpretation of the law also directly contradicts 
its own position in the VHA labor management agreement in place from 
1995 to 2002 that stated: ``Left within the scope of bargaining and 
arbitration are such matters as: procedures for analyzing data used in 
determining scales, alleged failure to pay in accordance with the 
applicable scale, rules for earning overtime and for earning and using 
compensatory * * * ''
    S. 572 provides a commonsense solution for reducing costly, 
demoralizing disputes between VHA managers and employees. The number of 
``7422'' compensation cases increased significantly after the 1995 
labor management agreement was nullified.
    VA's wasteful and counterproductive policies on compensation 
bargaining are best illustrated by the case involving operating room 
nurses at the Asheville, North Carolina VA Medical Center. AFGE waged 
an unsuccessful seven year fight to secure premium pay for nurses 
working night and weekend shifts. The dispute arose out of a basic pay 
rule in place at virtually every public and private sector hospital: 
nurses earn a higher hourly rate when they work evenings and weekends. 
When the arbitrator ruled in favor of the nurses, and ordered back pay, 
the VA invoked the 7422 compensation exclusion to refuse to pay. The VA 
continued to assert the 7422 loophole to for the next six years to 
refuse to provide back pay, and get the case dismissed for lack of 
jurisdiction. The D.C. Circuit court stated that while the VA's ability 
to invoke Section 7422 to get a case dismissed ``may be inconsiderate 
or even unfair,'' the VA's interpretation of the law was permissible as 
currently written.
    Therefore, to ensure basic fairness and equal treatment for VA's 
medical professionals, and restore Congressional intent, the law must 
be changed. We urge the Committee to support the small fix in S. 572 to 
clarify the scope of the law and hold the VA accountable for its own 
pay rules.

    Thank you.

    Chairman Murray. Thank you very much to all of you for your 
testimony.
    Mr. Steele, let me start with you. In supporting our Hiring 
Heroes Act of 2011, you stated that it is critical that we 
bridge the gap between military service and the civilian 
workforce. So I wanted to ask you today if you could share with 
this Committee what you think the biggest challenges are facing 
our young veterans when they try to get a job when they come 
home.
    Mr. Steele. Thank you for your question, Senator. The 
biggest challenge is the job market itself. We have suffered in 
2007 and 2008 a massive financial crisis that has led to a 
large overhang. This is an overhang that will take years to 
work off. Therefore, acknowledgment of that fact will--and this 
is in deference to Senator Burr--limit what we can expect to 
do. There is only so much you can do. It makes it important 
that we acknowledge that, that we maybe target certain programs 
only for the time that it takes to recover instead of making 
open-ended programs forever. This is trying to balance both 
Senators' concerns.
    The one other thing I would note is, in my opinion, young 
veterans will always appear initially to be lagging behind 
those of the same age who never served for several reasons. I 
believe that in time, though, they will hold their own in the 
job market, and given that time, they will prove their worth. 
Thank you.
    Chairman Murray. Mr. Violante or Mr. Kelley, what are the 
biggest challenges facing our veterans coming home today trying 
to seek employment?
    Mr. Violante. Well, I think one of the things that you have 
pointed out in your bill is the fact that the Government spends 
millions of dollars training these individuals, and it is 
difficult when they come out to get the licenses that they need 
to continue to practice the work they have been trained for. 
That is one of the biggest obstacles. If we could eliminate 
that, I think we would see more military flowing into civilian 
jobs a lot easier.
    Chairman Murray. Mr. Kelley?
    Mr. Kelley. I think it is cultural. The military has a 
culture, civilian life has a culture, and they do not mesh. 
Military personnel, especially if they are enlisted, have 
probably never done a job interview. They have never had to go 
out and fill out a resume. They had a recruiter come find them 
when they were in high school and say, ``Please join the 
military.'' They take a little test. Then they get to choose 
what job they want. They go into the military, and they get all 
the training that they need. When they leave, they are not 
prepared because of the way the military has worked. Everything 
has been presented to them. Now they do not understand how to 
work in that civilian environment. Providing them with 
reculturation, having them understand the process of getting a 
civilian job, what is important to say, how to present 
yourself, how to have a quality resume that does not look like 
it is a military transcript, I think those are the key issues.
    Chairman Murray. Part of that TAP requirement.
    Mr. Kelley. Yes.
    Chairman Murray. Yes, OK. I have heard a lot from veterans 
about their frustration with having to wait years for the Board 
of Veterans Appeals to issue a decision on their appeal. On the 
agenda today is my legislation that seeks to reduce the delay 
by changing the way that new evidence is considered. For the 
VSOs at the table, do you agree we need to streamline and 
expedite the appeals process?
    Mr. Violante. That is one of DAV's goals. We certainly 
support that. We believe that your legislation would help us do 
that.
    Mr. Steele. The American Legion agrees.
    Mr. Kelley. The VFW also agrees.
    Chairman Murray. Very good. Thank you.
    Mr. Cox, VA's testimony refers to a joint work group with 
unions and the VA. Is it your view that the work of that group, 
which is ongoing now, reduces the need for Senator Brown's 
collective bargaining bill?
    Mr. Cox. No, ma'am, I do not agree with that whatsoever. 
The work group has concluded. There were unions that came to an 
agreement with the VA. AFGE, which is the largest union, and VA 
did not come to an agreement with the final product that the 
Secretary offered. There was consensus in the work group from 
the VA officials who came to the work group, and everyone 
agreed. Then it went back to the Secretary, and he pared down 
what the work group had consensus on, and AFGE could not agree 
to those things.
    So I believe the legislation is very important. It is 
nothing more than the VA gets to decide the pay, all the rules, 
all the regulations. If they write them, they should be willing 
to live by them. All AFGE is asking is for them to live by 
their own rules and for a way to enforce that.
    Chairman Murray. OK. Thank you very much. I appreciate it. 
I do have more questions I will submit to all of you for 
answers in writing.
    I will turn to Senator Burr for any questions he may have.
    Senator Burr. Thank you, Madam Chairman.
    Let me give all of you an easy one. I mentioned earlier 
that I am committed to providing veterans and their families 
with the benefits they need and they deserve, but I want to 
make sure we pay for those benefits and the services by looking 
at other programs and looking at cuts so that we can continue 
to provide the benefit without saddling future generations of 
Americans with enormous debt.
    I want to ask any that would like to, to submit to me 
current programs that you think could be eliminated because of 
the lack of usefulness of them--maybe their time has run out; 
programs that have overlap or duplicative functions where you 
believe consolidation into a program would actually be cheaper 
but, more importantly, more effective. Any suggestions that any 
of the VSOs can provide, I would be interested in and I am sure 
the Committee would be interested in too.
    David, let me ask you, in March 1995, Dr. Kenneth Kizer, 
then the Under Secretary for Health at the time at VA, wrote 
``Vision for Change.'' That introduced the concept of 
restructuring the Veterans Health Administration into VISNs 
around the country. In his paper, Dr. Kizer anticipated that 
each VISN headquarters would range between 7 and 10 full-time 
employees. Have you noticed a significant growth in the number 
of employees in the VISN?
    Mr. Cox. Well, it has been 5 years since I worked for the 
VA. I would suspect that number is higher than 10, Senator. I 
am sure the VA could give you exact numbers on how many are 
working and employed by the VISNs now.
    Senator Burr. Well, so far they have ignored the e-mail 
request to talk to them about the numbers, but do you have any 
idea what the total number of employees is at the VISN 
headquarters?
    Mr. Cox. No, sir, I do not. I know that it is significantly 
higher than 10. I am very certain that it is higher than 10.
    Senator Burr. Does AFGE have a position on what would be a 
suitable amount of staff for a VISN?
    Mr. Cox. That is a very broad statement, Senator, to ask 
because part of it, the way they have consolidated services to 
VISNs, that as such, many things that were done in individual 
medical centers are now done in a collective whole for the 
whole VISN. So the employees and how they operate, those vary 
from VISN to VISN. So I do not think we have come at a number.
    We would certainly be interested in the number of 
administrative employees that work in VISN offices and the VISN 
management level, but actually, you know, the worker bees that 
are getting all the veterans care out there in the medical 
centers is a whole different story.
    Senator Burr. When I get those numbers and the breakdown of 
how much of it is administrative, I will share it with you.
    Mr. Cox. Thank you very much, sir. Maybe you can get them 
to pay us properly, too.
    Senator Burr. One of the consolidations, by the way--and I 
do not think you will find this shocking--is that the medical 
facilities report to the VISNs sexual abuse claims, and it 
might enlighten us to some degree about the layers of 
bureaucracy we have now put in between the medical center and 
the IG.
    Jerry, listen, you and I have talked many times, and for 
some Members they are just now hearing the story of Camp 
Lejeune marines and their families. You have had an opportunity 
to really cover the country, and I have stated in the past that 
I perceive that it is problematic for the Committee to have the 
Department of Defense, specifically TRICARE, be the provider to 
this population. I am not going to go back through my case. I 
will make it at the appropriate time. But you have been out 
with Marines. You have been out with their families. What do 
they think? Do they want to be under DOD and TRICARE, or do 
they want to be under the VA?
    Mr. Ensminger. Thanks for asking me that, Senator Burr, 
because the general consensus is that everybody I speak to--
and, you know, I would ask anybody--anybody who recommends that 
we be turned back over to the Department of Defense--the very 
people that were responsible for poisoning us--for our health 
care, those who say we should trust them when today they are 
still denying that they did anything wrong, I have to ask them 
how would that work out? I mean, I am sorry. DOD still has not 
stepped up to the plate on this issue. They are still in 
denial, and they are fighting and scratching at every inch to 
deny and obfuscate this situation, like I said in my testimony. 
So why would anybody even ask us to trust the Department of 
Defense with our health care? And that is the way, Senator 
Burr, most of the victims feels.
    Senator Burr. Jerry, in the last panel, somebody referred 
to ATSTR. Some members know that that is the agency within CDC 
that is charged statutorily with the investigation of the level 
of contamination. We had to do some rather threatening things 
in the last 18 months to get the Department of the Navy to 
actually pay for what the law required them to pay for from the 
standpoint of studies that ATSTR were doing.
    Share with everybody what the level of cooperation is today 
between the Department of the Navy and the Corps with the ATSTR 
investigation.
    Mr. Ensminger. Well, Senator, thank you. Like I said in my 
testimony: there have been many obfuscations, half-truths, and 
total lies distributed by the Department of the Navy and the 
Marine Corps relating to this issue, and one of them was a 
letter that they sent out to every member that was registered 
on their Web site. In that letter it stated that the National 
Research Council report had done an evaluation of exposures to 
certain chemicals in the water at Camp Lejeune and their 
expected negative health outcomes, and that one of the 
chemicals they said that the NRC assessed was benzene, which is 
a known human carcinogen. The NRC never assessed benzene. If 
they would have, the effects of it would have been in the top 
category in their report. Yet the Department of the Navy and 
the Marine Corps persist in saying that they did assess 
benzene. That misinformation was distributed to everybody that 
was registered on their Web site.
    Senators Burr, Hagan, Senator Nelson from Florida, 
Congressman Brad Miller, and Congressman John Dingell all sent 
a letter in April to the Secretary of the Navy asking him to 
rectify this mischaracterization of that NRC report. Their 
response was the Secretary of the Navy went to the NRC and had 
the director of the NRC answer a letter that was written last 
October by the director of ATSTR. I am sorry, I mean, this is 
just a vicious circle.
    Senator Burr. Jerry, thank you for that. The Chairman has 
been very kind and lenient with me on the time, and I have gone 
over again, but I thank the Chair.
    Chairman Murray. Important questions. Thank you very much.
    Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Madam Chair.
    I just want to address Mr. Steele, Mr. Kelley, and Mr. 
Violante. I want to talk about the Alaska Heroes Card. I want 
to describe it because sometimes there is--I have read your 
testimony in detail, and your concerns are: equal treatment, 
fairness, and reimbursements. Let me describe Alaska for a 
second.
    First off, I was just there on Memorial Day in Kwig, AK, 
which, to get to it, you have to fly from Anchorage to Bethel; 
then you have to fly from Bethel to Kwig in a four-seater 
plane, if they have one available and the weather is good. 
There is no road. That total trip took 2\1/2\ hours of travel 
time, air time.
    In our State we have the premier Indian Health Services in 
the country. Why? To be frank with you, Indian Health Services 
does not run it. We run it. It is the tribal consortium. Our 
tribal communities in Alaska took control of the Indian Health 
Services because they wanted to deliver health care the right 
way.
    So we have veterans in Kwig. In order to get to Anchorage 
to the VA center, it costs $2,000 in air transportation. Who 
pays for that? The Veterans Administration. Yet there is a 
clinic right across the street--or road, because there are no 
streets, a trail--which is run by the Indian Health Services, 
by our tribal consortium, providing incredible health care.
    In Nome, AK, we are building a $170 million state-of-the-
art Indian Health Services care facility. But, again, if a 
veteran is there, they will not be able to use that facility. 
They will have to get on a plane, because they cannot drive 
because there are no roads within 80 percent of our 
communities. There is no State like this.
    As I read your testimony, I know you want to try to keep 
everything--there is no State like this. There is no State 
where you can drive to another clinic, yet there is a high-
quality-run facility right there. And what we are trying to do 
here--if you read this, I understand your commentary and how 
you have written some of your testimony. The key part is 
roadless communities in Alaska. That is pretty narrow.
    We have more and more veterans living in rural communities 
in this country, but I can tell you right now, in Alaska, with 
77,000 veterans, the highest per capita of any State, we have a 
high percentage in rural Alaska. We want to provide them the 
best care, and we believe this piece of legislation will 
actually lower the cost to the VA. When an individual has to 
fly to Anchorage and then sometimes to Seattle--because we have 
no VA hospital. Let me make sure we are clear on that, too. We 
do not have a hospital. We have a clinic and some CBOCs. That 
is it. So when they have to get the service, they have got to 
fly, thousands and thousands of dollars, and away from their 
families, which, as you know, for a veteran in need of care it 
is critical to be closer to families, to be able to have 
access.
    So I want to work with you folks. Your concerns are easy to 
be met by, I think, clarification. But I want your response 
to--it is hard to understand Alaska until you have been to one 
of these small villages and met with a veteran who told me and 
the Secretary of the VA, in order for him to get his care, the 
flight alone was $2,000. Well, that means someone down here in 
the Lower 48 is not going to have $2,000 worth of care because 
that is going for an airline ticket. It does not seem right.
    So can you give me some comments? I have given you--it is a 
statement, but I want your comments so you understand where we 
are coming from. It is not Montana, it is not Utah, it is not 
North Carolina, it is not Washington. It is very different. Any 
one of you three want to comment?
    Mr. Violante. Senator, I am not an expert on VA health 
care. I have staff that focuses on that. But I do think your 
question should be directed to VA. They have the authority to 
provide fee-based care----
    Senator Begich. I am going to interrupt you for a second. 
We did that for years. It did not work. That is the problem. 
And the reality is we have a fully federally funded Indian 
Health Services sitting right there run by a tribal consortium 
delivering equal or in some cases, to be very frank with you, 
higher quality than what can be achieved in the VA system at 
times in Alaska. So I understand that question, but you have 
opposed--or you have questions on mine, so I am asking you, how 
do we----
    Mr. Violante. I mean, our concern is that VA has the 
authority. They can provide community care or contract care 
when necessary, and I do not understand--and maybe they have 
explained to you why they would want to spend $2,000 to fly a 
veteran somewhere when they could go to a clinic, you know, 
nearby. I mean, to me that does not make sense, and I would 
like to know VA's answer to that, because with the authority 
they have, they should be able to take care of those veterans. 
And if they are not, then maybe what should be happening is 
some oversight by this Committee, getting VA in here to find 
out why they are not doing that.
    My deputy just went to our department convention in West 
Virginia, and a veteran came up to her and said that he has 
been on fee basis for years. He has a service-connected 
disability rated higher than 50 percent. VA told him they did 
not have funds to continue to do that.
    Now, this is the same VA that this year said they have a 
$1.1 billion carryover and would like to split it up between 
2012 and 2013. Things are not making sense, and our concern is 
VA needs to be doing what they should be doing, and I agree 
with Senator Burr that we need to be looking at ways for them 
to do it better. I just am not comfortable with your bill and 
what it means to other veterans also around the country who may 
not be in such severe situations but still in need of health 
care when VA has the authority to take care of most of this.
    Mr. Kelley. I believe Joe stated it very articulately. I do 
not believe I have a whole lot to add. It is my understanding, 
though, that VA and Indian Affairs is working to try to figure 
out a single-pay method. I would like to understand that a 
little bit better, where that is going, and if that would be an 
effective alternative to a veterans card that would allow them 
to use Indian Affairs.
    Senator Begich. Madam Chair, I know we are over time, but 
if I can just make one quick comment. They have an MOU, and it 
is basically driven by our efforts here, because this kind of 
crystallized it. The one thing we do not want to do with 
veterans is have them constantly worry about how to get 
service. We had testimony here 3 weeks ago or 4 weeks ago with 
individuals talking to us about how they pass facilities to go 
to those fee-based places because of some arrangement they had. 
In Alaska, you do not get to drive by those facilities. There 
are no fee-based. There is no doctor, no other doctor. It is 
Indian Health Services, and every single village in Alaska has 
a clinic. There is no place like it, which is because we have 
to deliver health care in a very different way. So, why they 
are doing the MOU is because they know something like this is 
necessary or at least they are aware that we have to figure 
this problem out because the current fee-based system does not 
work in Alaska because of the way the system is. It is a 
Federal Government facility and another Federal Government 
facility. It is not a private doctor sitting out there 
providing the service. It is a different situation. And that is 
why it is a draft.
    I am going to work with you folks because every time I go 
to a veterans organization in Alaska, when I mention this--and 
we go do a lot of speeches as Senators and we get applause at 
the end. This issue, when I bring it up the way I just 
described to you, we get not just applause, but standing 
ovation because Alaskan veterans understand this is the care 
and how they can access it, because they have tried the other 
ways, which do not work.
    So I just want you to have an open mind. Hopefully I have 
described Alaska a little. I would love to take you to Kwig and 
drive on that road that is really a boardwalk and fly into that 
airport that is a dirt road and a pad. That is what we are 
trying to accomplish here, so I will work with you folks. I 
understand your global picture, but I really think this has--
for Alaska it is so critical that these veterans get the care 
that is, you know, sitting 50 feet away from them but they 
cannot touch it. I will leave it at that.
    Chairman Murray. Thank you very much, Senator Begich.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair.
    Very quickly, I just want to apologize for having to leave. 
We had a markup on a telecommunications bills with our first 
responders, and I just got done with that. I want to thank 
Senator Begich for his help with the bill that we have 
introduced. And we appreciate you, Madam Chair, for allowing us 
to bring that forward.
    I also appreciate you guys as always for all that you do in 
pushing these things forward and your support of that bill. So, 
again, we appreciate you and appreciate all that you represent, 
and I will put my statement in the record, if it is OK with 
you.
    Chairman Murray. All right.
    Senator Boozman. I yield back. Thank you.
    Chairman Murray. Thank you very much.
    I want to thank all of our panelists for being here today. 
We will have more questions that we will submit for the record, 
and I want all the Committee Members to know I look forward to 
working with you as we develop legislation based on today's 
hearing for our markup, which is currently scheduled to take 
place on Wednesday, June 29.
    I want all of you to know that as Chair of this Committee I 
am going to continue to make sure that this Committee does all 
it can to ensure that our veterans receive the benefits and 
services they have earned through their service to this Nation.
    Thank you very much, and with that, this hearing is 
adjourned.
    [Whereupon, at 11:43 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


          Prepared Statement of the U.S. Department of Defense

    Chairman Murray, Ranking Member Burr, and Members of this 
distinguished Committee thank you for extending the invitation to the 
Department of Defense to address pending legislation that would 
significantly affect our Servicemembers: S. 277, the proposed ``Caring 
for Camp Lejeune Veterans Act of 2011;'' S. 486, the proposed 
``Protecting Servicemembers from Mortgage Abuses Act of 2011;'' S. 491, 
the proposed ``Honor America's Guard-Reserve Retirees Act of 2011;'' 
S. 698, the proposed bill to amend title 38, United States Code, to 
codify the prohibition against the reservation of gravesites at 
Arlington National Cemetery, and for other purposes; S. 951, the 
proposed ``Hiring Heroes Act of 2011.''
    The Department has no comment on S. Con. Res. 4, the concurrent 
resolution expressing the sense of Congress that an appropriate site on 
Chaplain's Hill in Arlington National Cemetery should be provided for a 
memorial in memory of the Jewish chaplains who died while on active 
duty in the Armed Forces of the United States since this resolution 
recently passed the Senate and has now been referred to the House 
Committee on Veterans Affairs and the House Armed Services Committee.
    The Department does not support S. 277 and shares some comments.
    The Department supports the proposed bill S. 486 as drafted, with 
one caveat: the mortgage protections of section 533 should only be 
extended to 12 months rather than to the proposed 24 months.
    The Department is working with VA to develop an Administration 
position on S. 491, the ``Honor America's Guard-Reserve Retirees Act of 
2011.'' S. 491 would amend title 38, United States Code, by creating a 
new section that would honor as Veterans certain persons who performed 
service in the reserve component, while providing no additional 
benefits.
    The Department recommends modifying S. 698 according to details 
provided in this testimony.
    The Department recommends modifying S. 951 and the Department's 
comments are limited to sections directly impacting the Department.
    The Department defers positional comment to the Department of Labor 
(DOL) on S. 1104. The Department looks forward to our continued strong 
collaborative partnership with DoL's Veterans Employment and Training 
Service (VETS) and will work together for the best interest of those 
who have served.
    The Department defers to the VA on S. 1060. DOD does not have any 
specific concerns.

        SUMMARY OF THE DEPARTMENT'S VIEWS ON PENDING LEGISLATION
                                 S. 277

    The Department does not support S. 277. S. 277 would furnish 
hospital care, medical services, and nursing home care implemented and 
funded by VA to veterans who were stationed at Camp Lejeune ``while the 
water was contaminated,'' as well as family members who accompanied 
them. As explained in testimony by the Department of Veterans Affairs 
(VA), there is insufficient medical evidence to support this approach.
    In addition, the Marine Corps notes that this bill creates 
inequities between veterans, family members, civilian employees, and 
government contractors. Section 2(a) of S. 277 provides that veterans 
who were stationed at Camp Lejeune during the applicable period (to be 
determined by the VA Secretary in consultation with Agency for Toxic 
Substances and Disease Registry) would be eligible for hospital care, 
medical services, and nursing home care from the VA ``for any illness, 
notwithstanding that there is insufficient medical evidence to conclude 
that such illness is attributable'' to water that was contaminated by 
volatile organic compounds (VOCs). Section 2(b) of S. 277 states that 
family members of veterans who resided at Camp Lejeune during the 
applicable time would be ``eligible for hospital care, medical 
services, and nursing home care'' from the VA for any condition or 
disability associated with exposure to contaminants in the water. The 
legislation makes no provision for civilian employees and government 
contractors.

                                 S. 486

    The Department of Defense (DOD) supports the proposed bill S. 486 
as drafted, with one caveat: the mortgage protections of section 533 
should only be extended to 12 months rather than to the proposed 24 
months.
    Although DOD hesitates to recommend against any protection extended 
to Servicemembers, we believe that a three-month extension more fairly 
balances the equities of all parties, including the lending industry, 
and would help ensure that no backlash against the Servicemember--
perhaps in the form of decreased credit opportunities--is ever 
considered.
    An extension to 12 months would align the foreclosure protections 
of section 533 with the current 12-month interest rate cap of section 
527 (for pre-service mortgage obligations). This would help reduce 
confusion over the current, unevenly-extended protections.

                                 S. 491

    S. 491 would amend title 38, United States Code, by creating a new 
section that would honor as Veterans certain persons who performed 
service in the reserve component. With enactment of this legislation, 
members of the National Guard and Reserve who qualify for retirement 
after 20 years of service, but did not serve on a period of active duty 
of sufficient duration to satisfy statutory requirements for Veteran 
status, will be acknowledged as a Veteran for honorary purposes. The 
bill would not convey any additional benefits to these members not 
already provided in statute. The Department is coordinating with VA to 
develop an Administration position on this bill.

                                 S. 698

    S. 698 would amend title 38, United States Code, to codify the 
prohibition against the reservation of gravesites at Arlington National 
Cemetery. As drafted, S. 698 would prohibit more than one gravesite per 
eligible veteran and would also prohibit gravesite reservations prior 
to the time of need with an exception for written ``requests'' for a 
reserved gravesite made prior to January 1, 1962 regardless of current 
eligibility requirements. Current Army regulations establish a ``one-
gravesite-per-family'' policy. This rule has been in effect since 1961. 
One important element of Army policy is that the Army may allow 
exceptions to the ``one-gravesite-per-family'' policy when strict 
adherence to the policy is not feasible. This policy is set forth at 32 
CFR Sec. 553.18(a) and Army Regulation 290-5 Sec. 2-5(a). S. 698, as 
drafted, does not, but in the Department's view should, provide the 
Secretary of the Army with the requisite authority to make an 
appropriately justified exception to the ``one-gravesite-per-family'' 
policy. The Department recommends modifying S. 698 accordingly.
    Similarly, the Army currently prohibits reserving gravesites prior 
to time of need and does not honor gravesite reservations unless (1) 
the reservation was made in writing before the ``one-gravesite-per-
family'' policy was established, (2) an eligible person was interred 
before the one-gravesite-per-family policy was established, and (3) the 
person holding the reservation for the adjacent gravesite is eligible 
for interment at Arlington National Cemetery under current Army 
eligibility rules. This policy is set forth at 32 CFR Sec. 553.18 and 
Army Regulation 290-5 Sec. 2-5. This exception to the prohibition on 
reservations is necessary because prior to the ``one-gravesite-per-
family'' policy, individuals were not interred at depths that would 
accommodate two or three subsequent burials in the same gravesite like 
they are today.
    As drafted, proposed section 2410A(b) in S. 698 reflects the Army's 
current policy prohibiting reservations. Section 1(c)(2) of S. 698, 
however, creates an exception to the prohibition on reservations for 
those who have a ``written request for a reserved gravesite [that] was 
submitted to the Secretary of the Army before January 1, 1962.'' This 
exception would alter current Army policy by allowing reservations for 
those with only a reservation request rather than an approved 
reservation before 1962. The requirement for a valid reservation, not 
just a request, is necessary to implement S. 698. The Department has no 
objection to the reporting requirement contained in section 1(d) of 
S. 698.

                                 S. 951

    The Department's comments on S. 951 are limited to sections 
directly impacting the Department.
    Section 2: The Department is not opposed to the provisions of 
section 2 that would extend Section 1631(b)(1) of the National Defense 
Authorization Act (NDAA) for 2008 (Public Law 110-181) through 
December 31, 2014. Section 1631(b)(1) allows Servicemembers, with a 
severe injury or illness to receive vocational, rehabilitation and 
employment benefits (but not compensation) from the Secretary of 
Veterans Affairs to facilitate their recovery and rehabilitation while 
still a member of the Armed Forces. Extending this benefit provides 
Servicemembers with disabilities assistance in identifying the training 
requirements and resources needed to achieve their rehabilitation and 
employment goals.
    Section 6: The Department does not support section 6 as written. In 
FY 2010 there were approximately 155,000 active component retirements/
separations with an 82.5 participation rate in the Department of Labor 
(DOL) employment workshops. Section 6 will require mandatory 
participation in the DOL Employment Workshop for all transitioning 
Servicemembers and does not allow any exceptions. As written, this 
section would require the following personnel to be retained on active 
duty until they have completed this TAP component: Unanticipated losses 
(i.e., administrative discharges), approximately 57,000; Demobilizing/
deactivating Guard/Reserve Component Servicemembers to complete the 
same program as their active duty counterparts, approximately 100,000; 
and several thousand Individual Mobilization Augmentees (IMA).
    This provision also assumes increased TAP participation will 
correlate with an increase in transitioning Servicemembers obtaining 
employment. DOL is currently revamping its 2\1/2\-day employment 
workshop and will have the new workshop in place in November 2011. The 
Department recommends an analysis of the impact of the new workshop on 
employment before mandating this component of TAP for all transitioning 
personnel.
    There is also an unknown, but potentially huge resource requirement 
that is currently not addressed in the President's budget, which would 
result from extending the previously noted categories of Servicemembers 
on active duty in order to be in compliance with mandatory TAP 
requirements. This would require an in-depth cost analysis, showing the 
impact of extending personnel on active duty to provide TAP counseling/
briefings as well as to determine the impact on existing facilities 
(i.e., adequate classrooms, additional counselors/coaches, 
administrative support staff, IT support, equipment/computers, and IT 
infrastructure). A mandatory TAP requirement would also be a huge 
increase on costs for demobilizing National Guard and Reserves, to 
include post-deployment follow-up for up intervention for employment 
assistance. Such costs would also need to be part of an in-depth cost 
analysis.
    In lieu of mandatory employment workshop participation for all 
separating Servicemembers, the Department recommends considering 
mandatory participation for Servicemembers with 10 or fewer years of 
active duty service (if the goal is to impact the group with the 
highest unemployment rate) with an ``opt out'' provision for all 
others. The Department also recommends having TAP components provided 
no later than 6-9 months before discharge and allow Servicemembers 
access to partnership programs with private employers or methods to 
develop/refine job skills prior to discharge
    Section 9: The Department believes that section 9 is unnecessary as 
it duplicates existing processes that provide the capability to 
crosswalk Servicemember skills to equivalent civilian occupations, and 
therefore opposes section 9 of S. 951.
    During mandatory (required by statute) preseparation counseling, 
Servicemembers are informed about the Occupational Information Network. 
The revised DD Form 2648, Preseparation Counseling Checklist for Active 
Component (AC), Active Guard Reserve (AGR), and Reserve Program 
Administrator (RPA) Servicemembers, states, ``counselors will provide 
information on civilian occupations corresponding to Military 
occupations (see Occupational Information Network (O*Net Web site) at 
www.online.onetcenter.org/crosswalk and related programs * * *.''
    The Occupational Information Network (O*NET) is under the 
sponsorship of the US Department of Labor/Employment and Training 
Administration. The O*NET program is the Nation's primary source of 
occupational information. Central to the project is the O*NET database, 
containing information on hundreds of standardized and occupation-
specific descriptors. The database is continually updated by surveying 
a broad range of workers from each occupation. O*NET OnLine contains 
crosswalks between the O*NET-Standard Occupational Classification (SOC) 
and the Classification of Instructional Programs (CIP), Dictionary of 
Occupational Titles (DOT), Military Occupational Classification (MOC), 
Registered Apprenticeship Partners Information Data System (RAPIDS), 
and Standard Occupational Classification (SOC).
    Additionally, the Department of Labor's Employment and Training 
Administration has a long-standing record of assisting transitioning 
Servicemembers with O*NET.
    Another program is the United States Military Apprenticeship 
Program (USMAP), a partnership between Secretary of Labor, Secretary of 
Navy and Secretary of Transportation. Out of 300 enlisted Military 
Occupational Specialties (MOS's), 257 are covered under USMAP trades/
occupations employing apprenticeship. Occupations offered through USMAP 
cross over into several civilian industries, including servicing, 
manufacturing and construction, and transportation/utilities.
    Section 10: The Department opposes section 10. The authority under 
this section is too broad in its application and scope. It would appear 
the language would simply allow veterans to be non-competitively 
appointed to the GS system within 180 days of discharge. There appears 
to be no provision on how we would establish qualifications. Given we 
have a myriad of hiring authorities for veterans, we do not see what 
problem this language is trying to solve. Further, it runs the risk of 
making it extremely difficult for someone who is not a veteran to gain 
entry level employment in light on this authority. We run the risk of 
inadvertently giving veterans preference that is far overreaching and 
will likely be challenged by the Merit Systems Protection Board.
    Section 12: The Department is not opposed to the provisions of 
section 12 which would allow the Department to establish a pilot 
program to provide separating Servicemembers, who are on terminal 
leave, work experience with civilian employees and contractors of the 
Department of Defense to facilitate the transition of those members 
from service in the Armed Forces to employment in the civilian labor 
market. The Department realizes the value of programs that improve the 
employment outcomes for our transitioning servicemembers, such as those 
that provide exposure to the civilian work environment while working 
for the Department. The Department of Labor, Veterans Affairs, and 
Homeland Security all jointly develop and contribute to the Transition 
Assistance Program, and we look forward to working with them to improve 
transition outcomes by using new and creative ideas, such as the one 
provided in this section.
                                 ______
                                 
    Prepared Statement of Mercedes Marquez, Assistant Secretary for 
  Community Planning and Development, U.S. Department of Housing and 
                           Urban Development

           S. 411, HELPING OUR HOMELESS VETERANS ACT OF 2011

    Chairman Murray, Ranking Member Burr, Distinguished Members of the 
Senate Committee on Veterans' Affairs, I am pleased to be able to 
submit this testimony on behalf of the U.S. Department of Housing and 
Urban Development (HUD) regarding S. 411, Helping our Homeless Veterans 
Act of 2011.

                               BACKGROUND

    This bill proposes two amendments to U.S. Code Title 38: Inserting 
section 2045, allowing the VA to ``enter into agreements with eligible 
entities to collaborate in the provision of case management services'' 
as part of the HUD-VA Supportive Housing (HUD-VASH) program; and 
section 2046, which calls for ``the distribution of rental vouchers to 
veterans in rural areas and underserved veterans in metropolitan areas 
or on Indian lands in each region of the United States.''
    HUD and the Administration share the goal of this legislation to 
better meet the needs of homeless veterans. One year ago this month, 
the President released Opening Doors: The Federal Strategic Plan to 
Prevent and End Homelessness, which calls for ending veteran 
homelessness by 2015, and includes strategies to help achieve the goal. 
HUD is working closely with the Department of Veterans Affairs to 
ensure our programs are coordinated to effectively and efficiently meet 
the needs of homeless veterans. One of the key successes, to date, is 
the HUD-VASH program. This program combines rental assistance provided 
by HUD with services and health care provided by VA. By jointly working 
to improve the program, the ability to more swiftly identify and house 
homeless veterans has been greatly enhanced.

                        GEOGRAPHIC DISTRIBUTION

    S. 411 seeks to ensure that resources are provided to homeless 
veterans who reside in rural communities--some of whom may be in areas 
that are long distances from VA medical centers. The current allocation 
methodology uses relative need and performance to distribute vouchers, 
and provides vouchers to many rural areas that demonstrate relative 
need via data provided to HUD and VA. While HUD agrees that there 
should be geographic diversity in the distribution of vouchers, it 
should be noted HUD and VA data show that the most significant need 
remains in urban centers. On the other hand, the Administration is 
committed to addressing veterans' homelessness wherever it exists, and 
a more efficient way to meet rural veterans' needs may be through HUD's 
Continuum of Care programs. As part of the Administration's funding 
request for the new Homeless Emergency and Rapid Transition to Housing 
(HEARTH) Act, HUD included in its FY 2012 budget funding to implement 
the Rural Housing Stability Assistance Program (RHSP). This would 
provide assistance in rural areas to individuals and families 
(including veterans) who are homeless, in imminent danger of losing 
housing, or in worst case housing situations. The HEARTH Act also 
authorizes the new Emergency Solutions Grant (ESG) program, which 
provides funding for homelessness prevention, shelter, and rapid re-
housing services. HUD looks forward to working with the Committee and 
our Administration partners to determine the most effective ways of 
addressing homelessness among veterans in urban and rural areas.

                              CONTRACTING

    One component of the bill that we believe could have a significant 
positive impact on assisting homeless veterans involves the provision 
of services through VA contracts with local non-profits and other 
agencies to provide case management and to connect to HUD housing 
resources. As demonstrated by the success of the HUD-VA--U.S. 
Interagency Council on Homelessness (USICH) Washington, DC. Pilot 
Initiative, contracting and collaborating with local providers can 
greatly enhance the provision of needed services in some communities. 
Through a joint effort between Washington, DC's Department of Human 
Services and the D.C. Housing Authority, the eligibility process was 
streamlined and as a result, vouchers were allocated at a substantially 
faster pace and clients with vouchers were quickly housed. These very 
positive, initial results from the first pilot suggest that this model 
should be looked at further in other communities that the Departments 
deem appropriate.

                               TARGETING

    We have learned through our HUD-VASH efforts in recent years that a 
key to success in ending veteran homelessness is effective targeting. 
Therefore we have concerns about the potential impact of this bill on 
those targeting efforts. While the title of the bill indicates that the 
targeted population will be homeless veterans, the text of the bill in 
a number of cases uses the term ``underserved veterans,'' suggesting 
that the program could be modified to serve more than veterans who are 
homeless. The current HUD-VASH assistance is designed to house the 
neediest veterans, many of whom are chronically homeless. We would 
argue in favor of keeping that targeting to this population as a 
priority at this time.

                            CASE MANAGEMENT

    The bill includes a broad definition of case management services, 
which could complicate the efforts of HUD, the VA, and organizations 
that would be contracted to provide needed services to homeless 
veterans. For example, the bill includes activities such as rental 
assistance, legal assistance, and mental health or substance abuse 
counseling as part of case management. HUD looks forward to working 
with the Committee and VA to clarify the definition of case management 
in the legislation in order to help improve coordination and 
efficiency, as well as oversight.

                              TRIBAL LANDS

    HUD recognizes the need for improved housing and services for 
veterans on Tribal Lands, and we are eager to explore options for 
helping to achieve this goal. While persons living in tribal areas are 
individually eligible for HUD-VASH, under current law the tribal areas 
themselves are not eligible for any Housing Choice Voucher (HCV) 
program (including HUD-VASH), or for McKinney-Vento Act/homeless 
programs. However, it should be noted that the Native American Housing 
Assistance and Self-Determination Act (NAHASDA) authorizes assistance 
to Indian Tribes or their Tribally Designated Housing Entities (TDHE) 
through the Indian Housing Block Grant (IHBG). IHBG can be used to 
develop rental assistance programs similar to HCV. We believe it is 
important to take into account these mechanisms for providing services 
to veterans on Tribal Lands as part of the effort to consider what 
changes to the existing system make sense. And, again, we look forward 
to discussing these matters with Members of the Committee.

                               CONCLUSION

    The HUD-VASH model has served as a vital tool for ending veteran 
homelessness, and HUD is encouraged that Senator Klobuchar and the 
Committee continue to seek ways to improve the program. HUD looks 
forward to working with the Committee to further discuss how the intent 
of the S. 411's provisions can best be realized.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
          Prepared Statement of Paralyzed Veterans of America

    Chairman Murray, Ranking Member Burr, and Members of the Committee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to present our views on the broad array of legislation 
impacting the Department of Veterans Affairs (VA) pending before the 
Committee. These important bills will go a long way toward improving 
the lives of veterans and their families.

      S. 277, THE ``CARING FOR CAMP LEJEUNE VETERANS ACT OF 2009''

    While PVA believes the intent of this legislation is good, we 
cannot support S. 277, the ``Caring for Camp Lejeune Veterans Act of 
2011,'' as introduced. The intent of this legislation is to provide 
hospital care, medical services, and nursing home care to veterans and 
family members who were stationed at Camp Lejeune, NC, while the water 
was contaminated by volatile organic compounds, including known human 
carcinogens and probable human carcinogens, for any illness, to include 
a child who was in utero at the time. These servicemembers and their 
families have been suffering for decades and should be entitled to care 
and compensation.
    However, the legislation places the burden for providing this care 
upon the Department of Veterans Affairs (VA) health care system. Caring 
for dependents in particular, is not the principal mission of the VA; 
whereas, the Department of Defense (DOD) healthcare system is 
specifically designed to care for servicemembers and their families. 
Moreover, since these families exposure is directly related to service 
at Camp Lejeune, we believe that the burden to take care of the 
servicemember's dependents falls to the DOD.

       S. 396, THE ``MEETING THE INPATIENT HEALTH CARE NEEDS OF 
                 FAR SOUTH TEXAS VETERANS ACT OF 2011''

    Paralyzed Veterans of America supports S. 396, the ``Meeting the 
Inpatient Health Care Needs of Far South Texas Veterans Act of 2011.'' 
This bill would ensure that the Department of Veterans Affairs (VA) has 
the resources and capacity to meet the health care needs of veterans 
living in the Far South Texas area. Specifically, this bill will 
require the VA medical center in Harlingen, Texas, to provide ``full-
service'' inpatient health care for veterans in Far South Texas. This 
legislation improves access to VA health care for approximately 117,000 
veterans.

       S. 411, THE ``HELPING OUR HOMELESS VETERANS ACT OF 2011''

    PVA supports S. 411, the ``Helping Our Homeless Veterans Act of 
2011.'' This legislation will improve outreach to rural veterans, 
underserved urban veterans, and Native American Veterans, by creating 
partnerships to help extend essential services to homeless veterans. By 
strengthening the successful HUD-Veterans Affairs Supportive Housing 
(HUD-VASH) program this legislation will provide housing vouchers along 
with case management to this underserved population. The VA will 
provide counseling for these veterans that will also include employment 
training for some veterans. This employment training along with 
continued support from the VA will insure the participating veterans 
can become productive members of the community.

                                 S. 423

    This legislation would amend Title 38, United States Code, Section 
5110(b) to allow for a retroactive effective date of a claim up to one 
year prior to the date of submittal of a fully developed claim. Current 
law fixes the effective date of claim at the date that the claim was 
submitted. PVA fully supports this legislation as proposed. We believe 
that this legislation could incentivize veterans and their service 
representatives to prepare well-developed, ready-to-rate claims prior 
to submittal, offering the opportunity for expedited claims processing.

  S. 486, THE ``PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 
                                 2011''

    This legislation will increase the existing protection for 
servicemembers that is provided by the Servicemembers Civil Relief Act 
(SCRA) against mortgage lenders. It extends the period of protection 
against mortgage sale or foreclosure from the current nine months to 
twenty- four months after an individual separates from the service. 
Some of the Nation's largest mortgage lenders have recently 
demonstrated unscrupulous acts of denying the established Federal 
Governments 6 percent interest rate cap on preexisting loans for 
servicemembers and illegally foreclosing on homes owned by 
servicemembers.
    This legislation will ease concerns over financial situations at 
home for the men and women that serve this country. PVA supports this 
necessary legislation.

                                 S. 490

    Paralyzed Veterans of America fully supports S. 490, a bill to 
increase the maximum age for children eligible for medical care under 
the CHAMPVA program. S. 490 increases the child beneficiary age for 
CHAMPVA health care benefits from 22 to 26 years of age.
    Public Law 111-148, the ``Patient Protection and Affordable Care 
Act,'' extended the eligibility age for dependent children being 
carried on their parents' health insurance policies to 26 years old. 
Unfortunately, this benefit was not initially provided to TRICARE and 
CHAMPVA beneficiaries. The extension was subsequently provided to 
dependent children of military personnel (those on TRICARE) by P.L. 
111-383, the ``National Defense Authorization Act (NDAA) for FY 2011.''
    Currently, the children of 100 percent service-connected disabled 
veterans who are 23 years of age or older do not qualify for CHAMPVA 
benefits. By increasing the maximum age for CHAMPVA beneficiaries, 
these children will be afforded the same health care protections as 
other children of military personnel.

   S. 491, THE ``HONOR AMERICA'S GUARD-RESERVE RETIREES ACT OF 2011''

    PVA supports S. 1780, the ``Honor America's Guard-Reserve Retirees 
Act.'' This bill incorporates ``veteran'' into the Guard and Reserve 
community. PVA supports recognizing and honoring all servicemembers, 
including the National Guard and Reserve components, for their faithful 
and honorable service in defending the United States of America. 
Serving in a volunteer force should be credited to the servicemember 
and not discounted, through no fault of their own, because they were 
not activated.

                                 S. 536

    PVA supports S. 536, legislation to insure that utilization of 
survivors and dependents education assistance shall not be subject to 
the 48-month limitation on the aggregate amount of assistance under 
multiple veterans' educational assistance programs.

                                 S. 572

    Paralyzed Veterans of America (PVA) supports S. 572, a bill to 
repeal the prohibition on collective bargaining with respect to 
compensation of Department of Veterans Affairs (VA) employees other 
than rates of basic pay. Eliminating the prohibition on collective 
bargaining would be a positive step in addressing the recruitment and 
retention challenges the VA faces when hiring quality professionals, 
particularly in the area of health care.

 S. 666, THE ``VETERANS TRAUMATIC BRAIN INJURY CARE IMPROVEMENT ACT OF 
                                 2011''

    Paralyzed Veterans of America supports S. 666, the ``Veterans 
Traumatic Brain Injury Care Improvement Act of 2011.'' As a result of 
the growing use of Improvised Explosive Devices (IED), Traumatic Brain 
Injury (TBI) has become a signature wound of the current wars in 
Afghanistan and Iraq. Today, we still do not fully understand the 
impact or gravity of TBI. In April 2008, the RAND Corporation Center 
for Military Health Policy Research completed a comprehensive study 
titled Invisible Wounds of War: Psychological and Cognitive Injuries, 
Their Consequences, and Services to Assist Recovery. RAND found 57 
percent of those reporting a probable TBI had not been evaluated by a 
physician for brain injury.
    S. 666 will require the Department of Veterans Affairs (VA) to 
produce a report on the establishment of a VA Polytrauma Rehabilitation 
Center or Polytrauma Network Site in the Northern Rockies or Dakotas, 
thus increasing veterans' access to care and evaluation for TBI. PVA 
believes that this legislation will serve as a starting point for 
ensuring that health care and support programs are available to 
veterans and their families in the Northern Rockies and Dakotas to help 
them manage the challenges associated with a brain injury.

                                 S. 696

    Paralyzed Veterans of America supports S. 696, a bill to treat Vet 
Centers as Department of Veterans Affairs (VA) facilities for purposes 
of payments or allowances for beneficiary travel to Department 
facilities. During the past year, VA Vet Centers provided readjustment 
counseling services in more than 260 community-based centers and 
approximately 50 mobile centers, and veteran enrollment for such 
services continues to increase. Vet Centers often serve as the only 
outlet for veterans to receive ``veteran-specific'' qualified 
professional counselors, peer support, and confidential services that 
are unreportable to military line commanders or VA medical authorities. 
As such, the expenses associated with traveling to Vet Centers should 
not discourage veterans from seeking the aforementioned support and 
services. If enacted, S. 696 will improve the availability of 
readjustment counseling services for veterans seeking assistance.

                                 S. 698

    PVA does not oppose S. 698, legislation that would codify the 
prohibition against the reservation of gravesites prior to death at the 
Arlington National Cemetery. This bill would also prohibit multiple 
gravesites from being reserved for a servicemember or veteran who is 
eligible for interment.

                                 S. 745

    PVA supports S. 745, a bill to protect certain veterans who would 
otherwise be subject to a reduction in educational assistance benefits. 
This legislation will restore fairness for some veterans that are 
enrolled in a program of higher learning at a nonpublic institution for 
the period of August 1, 2011 through December 31, 2014. Recent changes 
in the Post-9/11 GI Bill have resulted in this particular group of 
veterans owing more for their tuition and fees than they originally 
anticipated. This legislation corrects this oversight for these 
enrolled veterans and allows veterans enrolled in such programs to pay 
the lesser of; the charges for that program, the charges payable under 
the VA's maximum payments table, or, the amount for the previous year 
including an annual percentage increase.

                                 S. 769

    PVA supports S. 769, the ``Veterans Equal Treatment for Service 
Dogs Act of 2011.'' While we believe this legislation should be 
unnecessary based on the provisions of Section 504 of the Rehab Act, 
the actions of the VA clearly demonstrate the need for this 
legislation. If the VA is unwilling to make the regulatory change to 
accomplish the intent of S. 769, then we hope Congress will move 
quickly to enact this important legislation.

                                 S. 780

    PVA supports S. 780, legislation that would exempt reimbursements 
of expenses related to accident, theft, loss, or casualty loss from 
determinations of annual income with respect to pensions for veterans 
and surviving spouses and children of veterans. Our Nation's veterans 
should not have to claim incidental insurance compensation as income 
that would inadvertently reduce their pension payment. This is a common 
sense amendment to current law.

     S. 815, ``SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011''

    PVA supports S. 815, the ``Sanctity of Eternal Rest for Veterans 
Act of 2011.'' This legislation would amend the Federal criminal code 
concerning the prohibition on disruptions of funerals of members or 
former members of the Armed Forces to increase the period covered under 
such prohibition from one to two hours before and after a military 
funeral. This includes within such unlawful conduct any disturbance or 
disruption occurring within 500 feet of the residence of a surviving 
member of a deceased immediate family. This legislation also provides 
remedies, including actual and statutory damages and makes identical 
changes under Federal veterans' provisions concerning the prohibition 
on certain demonstrations and disruptions at national cemeteries, 
including Arlington National Cemetery.
    PVA believes all veterans' and military servicemembers' funerals 
should be afforded the highest honor and conducted with the dignity and 
respect that they deserve.

                                 S. 873

    This legislation would amend Title 38 U.S.C., to provide benefits 
for children with spina bifida of veterans exposed to herbicides while 
serving in the Armed Forces during the Vietnam era outside Vietnam. PVA 
supports this legislation as it would align with benefits currently 
provided to children with spina bifida of veterans exposed to Agent 
Orange during service in Vietnam.

                                 S. 874

    PVA supports S. 874, legislation that would modify the provision of 
compensation and pension to surviving spouses of veterans in the months 
of the deaths of the veterans to include prohibiting requests for 
return of certain checks and payments, and to improve housing loan 
benefits for veterans. This bill also enhances eligibility for 
Presidential memorial certificates of individuals who die while serving 
in the active military, naval, or air service while serving under 
honorable conditions and protects liens created by public entities in 
response to disaster-relief assistance on home loans.

     S. 894, THE ``VETERANS COST-OF-LIVING ADJUSTMENT ACT OF 2011''

    PVA supports S. 894, the ``Veterans' Compensation Cost-of-Living 
(COLA) Adjustment Act of 2011,'' that would increase, effective as of 
December 1, 2011, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled veterans. This 
would include increases in wartime disability compensation, additional 
compensation for dependents, clothing allowance, and dependency and 
indemnity compensation for children. PVA continues to oppose the 
provision of this legislation that would round down any benefit to the 
next lower whole dollar amount.
    For the past two years, there has been no increase in compensation 
or DIC rates due to the Social Security index not increasing. While our 
economy continues to falter, veterans' personal finances have been 
affected by rising costs of essential necessities to live from day to 
day maintaining a certain standard of living.

           S. 910, THE ``VETERANS HEALTH EQUITY ACT OF 2011''

    PVA is unable to support S. 910, the ``Veterans Health Equity Act 
of 2011.'' S. 910 proposes to require that veterans have access to at 
least one full-service Department of Veterans Affairs (VA) medical 
center in each of the 48 contiguous states, or receive comparable 
services provided by contract in their state. Under this legislation, 
if a VA medical center is not a full-service facility, ``does not 
provide hospital care, emergency medical services, and surgical care 
that is rated by the Secretary as having a surgical complexity level of 
`standard,' '' veterans may utilize contracted services from private 
health care providers in their state. While this legislation is an 
attempt to address issues involving access to health care, PVA believes 
that if enacted, S. 910 will lead to diminution of VA health care 
services, and increased health care costs in the Federal budget. This 
legislation would turn VA's current fee-basis policy, which allows VA 
to purchase care from a private provider when VA medical care is not 
``feasibly available to veterans,'' into a permanent treatment plan.
    While access is indeed a critical concern for PVA, we believe VA is 
the best health care provider for veterans. Providing primary care and 
specialized health services is an integral component of VA's core 
mission and responsibility to veterans. Unfortunately, funding for VA 
health care in the past has had difficulty keeping pace with the 
growing demand. Even with the passage of Advance Appropriations and 
record budgets in recent years, funding is not guaranteed to be 
sustained at those levels and PVA is concerned that contracting health 
care services to private facilities is not an appropriate enforcement 
mechanism for ensuring access to care. In fact, it may actually serve 
as a disincentive to achieve timely access for veterans seeking care.
    PVA is also concerned about the continuity of care. The VA's unique 
system of care is one of the Nation's only health care systems that 
provide developed expertise in a broad continuum of care. Currently, 
VHA serves more than 8 million veterans, and provides specialized 
health care services that include program specific centers for care in 
the areas of spinal cord injury/disease, blind rehabilitation, 
Traumatic Brain Injury, prosthetic services, mental health, and war-
related polytraumatic injuries. Contracting out to private providers 
will leave the VA with the difficult task of ensuring that veterans 
seeking treatment at non-VA facilities are receiving quality health 
care. The quality of VA's health care and ``veteran-specific'' 
expertise cannot be adequately duplicated in the private sector.
    For these reasons, PVA does not support S. 910, and strongly 
believes that VA remains the best option available for veterans seeking 
health care services.

                                 S. 914

    Paralyzed Veterans of America (PVA) supports S. 914, a bill that 
would authorize the waiver of the collection of copayments for 
telehealth and telemedicine visits of veterans. Telemedicine has proven 
to be a cost effective service that connects the specialist via 
telecommunications to the veteran. It has been particularly useful in 
the rural setting. This is a new era of health care delivery and PVA 
believes that this bill will help VA do its part in keeping up with 
technological advances to provide innovative solutions to the health 
care needs of veterans.

                                 S. 928

    S. 928 would limit the authority of the Secretary of Veterans 
Affairs to use bid savings on major medical facility projects of the 
Department of Veterans Affairs to expand or change the scope of a major 
medical facility project of the Department. PVA is concerned that this 
bill, as proposed, would lead to conflicting priorities for 
construction projects, those identified by Congress and those 
identified by VA.
    The VA manages a wide portfolio of capital assets across the Nation 
and prioritizes projects to be authorized for funding by Congress. This 
list is compiled based on VA's data-driven assessment of the current 
and future construction needs for the Department. Under S. 928, VA 
would be required to report a major medical facility project that is 
the source of bid savings, and provide notice, and a description of 
those major medical facility project(s) that will be expanded or 
changed in scope. PVA understands that the general intent of S. 928 is 
to efficiently utilize bid savings for priority construction projects 
that are in need of funding by ensuring that limited construction funds 
are only allocated for and within the scope of authorized projects. 
Nonetheless, we believe that the aforementioned requirements have the 
potential to jeopardize timely completion of construction projects and 
result in bid savings going to various projects that are not in the 
order of priority as identified by VA. These requirements are of 
particular concern to PVA since the proposed legislation does not 
outline proceedings that will take place after VA reports and proposes 
usage of bid savings to Congress.
    To address these concerns, PVA recommends including text that would 
require VA to use bid savings on major medical facility projects that 
have been previously authorized by Congress for funding, and such 
funding should also be allocated based on the VA's priority list of 
projects. Additionally, PVA strongly encourages the author(s) of this 
bill to include text that requires any designated savings resulting 
from construction of spinal cord injury (SCI) centers to be redirected 
toward other SCI construction projects.

       S. 935, THE ``VETERANS OUTREACH ENHANCEMENT ACT OF 2011''

    Witnesses testifying at recent hearings before the Senate and House 
Committees on Veterans' Affairs have indicated that many servicemembers 
returning to the civilian world often have limited, or no knowledge of 
the programs, benefits, and assistance available for them based on 
their active military service. This legislation, S. 935, the ``Veterans 
Outreach Enhancement Act of 2011'' will help communicate the 
information to all veterans, including veterans in rural areas. This 
will authorize the Secretary to develop and carry out a program of 
outreach which may include collaborating with state and local 
governments to help perform this outreach.
    PVA has a concern that the VA may designate portions of this 
outreach responsibility to the states through each states' Local 
Veterans' Employment Representatives (LVER) and Disabled Veterans' 
Outreach Program (DVOP) specialists. Although some states may excel at 
helping veterans through these federally funded programs, traditionally 
these programs do not fulfill the responsibilities of placing veterans 
in employment, or informing veterans of benefits. Therefore, PVA 
believes allocating more funds to individual states through these 
programs will not increase the VA's outreach efforts. Most states have 
a department of veterans' affairs. Like the state employment programs, 
these vary widely in their responsibilities and performance. For the VA 
to designate and rely on these offices to fulfill the VA's outreach 
responsibilities would require oversight of these offices.
    In some locations local nonprofit and veterans service 
organizations may currently be active with assisting and advising 
veterans. Since they would have the regular contact with local 
veterans, this may be another source for the VA to conduct the outreach 
responsibility.

               S. 951, THE ``HIRING HEROES ACT OF 2011''

    PVA supports S. 951, the ``Hiring Heroes Act of 2011.'' With 
veterans' national unemployment rate higher that civilian unemployment 
for all age categories and recently estimated over 27 percent among 
young veterans coming home from Iraq and Afghanistan, the Federal 
Government must assist these men and women as they try to assimilate 
back into the civilian world. The ``Hiring Heroes Act of 2011'' is a 
proactive effort by the various agencies, VA, DOL, and DOD, to actively 
assist the newly discharged servicemember to identify a career path, 
prepare for that career, and assist the veteran in obtaining employment 
they desire. The ``Hiring Heroes Act of 2011'' is the first legislation 
of its kind to require broad job skills training for all servicemembers 
returning home.
    Military service to the Nation could also be a program for 
preparing individuals for the civilian work opportunities. Today most 
military occupations do not offer that benefit since many are 
nontransferable skills. If all provisions included in ``Hiring Heroes 
Act of 2011'' are fully developed, properly executed, and available to 
all servicemembers, this effort instead of an additional burden for the 
military, will provide a strong recruitment tool for all branches of 
service.

S. 957, THE ``VETERANS TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES' 
                       IMPROVEMENTS ACT OF 2011''

    PVA fully supports S. 957, the ``Veterans Traumatic Brain Injury 
Rehabilitative Services' Improvement Act of 2011.'' If enacted, S. 957 
would ensure that long-term rehabilitative care becomes a primary 
component of health care services provided to veterans who have 
sustained a TBI. Specifically, this legislation would change the 
current definition of ``rehabilitative services'' to include 
maintaining veterans' physical and mental progress and improvement, as 
well as maximizing their ``quality of life and independence.'' As 
previously mentioned, Traumatic Brain Injury (TBI) is one of the most 
common and complex injuries facing veterans returning from the current 
wars in Afghanistan and Iraq. This bill will address the intricacies 
associated with TBI and help veterans and their families sustain 
rehabilitative progress.

  S. 1017, THE ``DISABLED VETERAN CAREGIVER HOUSING ASSISTANCE ACT OF 
                                 2011''

    PVA members and other veterans with service-connected disabilities 
that impede mobility will benefit from S. 1017, as they use this 
temporary grant for the purpose of modifying an existing home of a 
family member to meet their adaptive needs. It is not unusual for newly 
injured veterans who qualify for the VA Specially Adaptive Housing 
(SAH) grant to also require assistance with daily living activities 
from a family member upon discharge from the hospital. These post-
hospital individuals may live with a family member temporarily while 
continuing their rehabilitation and adjusting to the civilian world. 
This bill will increase the amount of funds available through the 
Temporary Residence Adaptation (TRA) grant to veterans to make the 
necessary modifications in a temporary residence.
    The Independent Budget for FY 2012 recommends an increase for the 
TRA grant from the current $14,000 to $28,000 and for the companion 
grant for other qualified veterans from $2,000 to $5,000. S. 1017 meets 
the IB's recommendations.
    This bill also qualifies veterans with severe vision impairments 
and, severe burns, for the TRA grant. Both conditions restrict 
mobility, and the last decade of military conflict has produced a large 
increase in veterans that suffer from these conditions.
    S. 1017 will make the temporary grant a regular benefit without a 
cap on total grants available. The legislation also eliminates the 
deduction from total funds available when applying for the standard SAH 
grant. This legislation will increase the use of TRA grants which, as 
intended, will provide more accessibility for newly injured veterans.

             S. 1060, ``HONORING ALL VETERANS ACT OF 2011''

    PVA supports S. 1060, the ``Honoring All Veterans Act of 2011'' 
that would significantly improve aid and services to veterans in the 
areas of employment, housing, education and health care.
    The unemployment rate of veterans who served in Iraq and 
Afghanistan doubled from 2007 to 2010 and the Department of Labor 
estimates that approximately one in four veterans in their early 
twenties were unemployed at the beginning of the year, twice the rate 
of their non-veteran peers.
    Title 1 of the legislation would increase the number of 
participants in independent living programs that allow veterans to 
participate in family and community life, and increase their potential 
to return to work. The bill also provides funding for outreach on 
campuses to help veterans maximize their ability to study and gain 
employment. It also authorizes a Department of Defense study of how 
best to ensure that civilian employers and educational institutions 
recognize veterans' military training and qualifications. The military 
recruits the most talented men and women in America to serve and 
invests heavily in their professional development. Enabling the 
transfer of certificates and licensed skills from the military to 
civilian jobs would ensure that training accrued during service is not 
lost. The legislation also directs the Department of Labor to assist 
employers hire veterans suffering from Traumatic Brain Injury (TBI) or 
Post Traumatic Stress Disorder (PTSD).
    Title 2 would assist homeless veterans by reforming the per diem 
program to take account of service costs and geographic disparities. It 
also assists military families who are on the verge of losing their 
home, by permanently extending their foreclosure protection.
    Title 3 of this legislation assists veterans with health care and 
mental health services by directing the Department of Defense (DOD) and 
the Department of Veterans Affairs (VA) to monitor referrals for mental 
health care to ensure that individuals receive care. The bill also 
directs the VA to ensure that all TBI and PTSD patients leave VA 
medical treatment with a plan for their long-term care needs that 
utilizes a ``one-VA'' approach to capture and employment and vocational 
services that can assist in long-term care and rehabilitation. Under 
this section, there is authorization for VA medical facilities to 
provide counseling to family members of deployed servicemembers and 
authorizes the VA to access state prescription monitoring programs to 
address substance abuse.
    Title 4 of S. 1060 directs DOD and VA to establish a monitoring 
mechanism to identify and address challenges as they arise in all DOD 
and VA facilities and offices involved in the single separation 
physical process. This section of the bill also increases the pension 
for disabled veterans married to one another who require aid and 
attendance and reforms the Board of Veterans Appeals process to help 
veterans with misfiled documents.

              S. 1104, TRANSITION ASSISTANCE PROGRAM (TAP)

    PVA supports S. 1104, which would require regular audits of the 
Transition Assistance Program. The TAP program is one of the most 
important one-day or at some military facilities two-day, informational 
programs the transitioning servicemember will receive. The current TAP 
program presented to servicemembers has been in place for nineteen 
years. This year the TAP program is being completely updated and 
reformatted with state-of-the-art illustrations and support material 
for the participating servicemembers. The Department of Labor, Veterans 
Employment and Training Service (VETS) program will release the new TAP 
by November 11, 2011. As this rollout occurs, PVA believes this program 
should be mandatory for all services. Currently the Marine Corp is the 
only service that requires TAP.
    PVA supports regular audits of TAP in various locations including 
the TAP programs provided by contracted sources outside of the United 
States. With the development of a new TAP program the audits required 
by this legislation will be essential to insuring the servicemembers 
are receiving the instructions they need.

  S. 1123, THE ``ASSISTANCE TO VETERANS AFFECTED BY NATURAL DISASTERS 
                                 ACT''

    PVA supports the provisions of S. 1123, the ``Assistance to 
Veterans Affected by Natural Disasters Act.'' This legislation is 
particularly timely in light of the horrific circumstances that have 
befallen the many veterans and their families that reside in the 
Midwest, as well as the South and Southeast, that have been affected by 
the historic flooding and devastating storms this spring.
    Section 1(a) of this legislation would Chapter 21 of Title 38, to 
allow the Secretary of Veterans Affairs to award an additional 
Specially Adapted Housing (SAH) grant to a veteran whose home was 
previously adapted through use of the SAH and whose adapted home that 
the veteran occupied was destroyed or substantially damaged in a 
natural or other disaster, as determined by the Secretary. The amount 
of the grant that could be awarded may not exceed the lesser of either 
the reasonable cost, as determined by the Secretary, of repairing or 
replacing the damaged or destroyed home in excess of the available 
insurance coverage on such home; or the maximum SAH grant amount the 
veteran would have otherwise been entitled.
    This is an issue that is particularly close to PVA and its members. 
Our members are the highest users of this invaluable benefit. 
Authorizing the VA to provide a second SAH grant to veterans and their 
families devastated by natural disasters would be a welcome relief for 
these veterans struggling with their circumstances. This section 
closely reflects a recommendation included in The Independent Budget 
for FY 2012 which calls for the establishment of a second SAH grant to 
be made available for eligible veterans.
    The proposed legislation also provides for a two-month extension of 
subsistence allowance for veterans completing vocational rehabilitation 
program. Specifically, when the Secretary determines that a veteran 
participating in VA's Vocational Rehabilitation program is displaced as 
the result of a natural or other disaster, two months of additional 
payments of subsistence allowance may be granted. Moreover, the 
legislation would waive the current cap on the Independent Living 
program so that veterans participating in the program who are adversely 
affected by a natural or other disaster shall not be forced out of 
these critical services.
    PVA also fully supports the last provision of S. 1123 which would 
allow the Secretary of the VA to provide a second adaptive automobile 
grant to eligible veterans whose previously adapted automobile we 
significantly damaged or destroyed as a result of a natural or other 
disaster. Much like the SAH grant, PVA members are high end users of 
this particular benefit. When these severely disabled veterans are 
faced with overwhelming challenges as a result of catastrophic events 
it will provide a measure of relief for them to know that the VA will 
be there to support them in obtaining a new, adapted vehicle that will 
afford them some measure of independence once again.

           S. 1124, THE ``VETERANS TELEMEDICINE ACT OF 2011''

    Paralyzed Veterans of America supports S. 1124, the ``Veterans 
Telemedicine Act of 2011,'' which proposes to improve the utilization 
of teleconsultation, teleretinal imaging, telemedicine, and telehealth 
coordination services. This legislation will make teleconsultation 
available for medical facilities within the Department of Veterans 
Affairs that are not able to provide remote mental health and Traumatic 
Brain Injury (TBI) assessments. These consultations will give veterans 
the opportunity to utilize the VA's expertise in the area of mental 
health and the veteran-specific experience. Ultimately, S. 1124 will 
establish clinical care standards for telemedicine within VA which will 
increase facility utilization and enrollment of veterans.

     S. 1127, THE ``VETERANS RURAL HEALTH IMPROVEMENT ACT OF 2011''

    Paralyzed Veterans of America supports S. 1127, the ``Veterans 
Rural Health Improvement Act of 2011. This legislation would establish 
centers of excellence for rural health research, education, and 
clinical activities, and to recognize the rural health resource centers 
in the Office of Rural Health.
    PVA recognizes that there is no easy solution to meeting the needs 
of veterans who live in rural areas. The need to determine methods to 
provide for these more dispersed rural veterans is a challenge. 
Establishing Centers of Excellence for rural health research, education 
and clinical activities may be a way to develop better ideas for rural 
veteran care and help shed light on how best to provide services in 
rural areas.
    However, while these paths may show promise, they should still all 
fit within policies that promote the use of VA facilities and should 
not be used as a method or course to eliminate VA facilities. PVA 
believes that the greatest need is still for qualified health care 
providers to be located in rural settings. Only significant incentives 
and opportunities for these professionals will bring them to these 
often remote areas. PVA fully supports S. 1127 and believes that 
continued outreach is needed to improve the quality of life for rural 
veterans.

                 THE ``ALASKA HERO'S CARD ACT OF 2011''

    PVA is strongly opposed to this proposal. While we realize that 
there are significant challenges in delivering health care services to 
veterans in extremely remote regions of Alaska, we believe that the 
unintended consequences of this legislation could be very harmful to 
the VA health care system. This legislation would certainly be the most 
dangerous of slippery slopes. A program such as the one proposed by 
this legislation could become the template for broad based contract 
care. Undoubtedly, advocates for veterans in other states, as well as 
other Members of Congress, would argue that what is good for Alaska 
veterans should be good for their veterans as well. Meanwhile, the 
critical mass of patients that the VA is dependent on to maintain the 
highest quality and broadest range of health care services would erode 
resulting in the degradation of the overall quality of care.
    Furthermore, what this legislation proposes to do is exactly what 
the fee basis program of the VA is intended for. In fact the 
regulations specifically authorize fee basis in cases of ``geographic 
inaccessibility.'' It seems unnecessary to create a new program to 
allow for the delivery of care to veterans in remote areas when we 
fully believe that fee basis can and should meet their needs. We do 
believe that the VA's fee basis program can be improved and delivering 
care to rural Alaska veterans could provide the template for broader 
fee basis reform in the case of veterans who live in ``geographically 
inaccessible'' areas.
    We note that the Office of Rural Health is conducting multiple 
pilot programs (funded separately by Congress) to extend access to care 
for veterans who live in frontier areas, including in Alaska. We urge 
the sponsor of this measure to work closely with that office to address 
the problem identified by the purposes of this bill.

           THE ``VETERANS PROGRAMS IMPROVEMENTS ACT OF 2011''

    PVA supports the ``Veterans Programs Improvement Act of 2011.'' 
This legislation addresses many existing issues that impede veterans 
from receiving the help from the VA that they earned.
    Title I makes enhancements in current legislation that addresses 
the issue of homeless veterans. It allows the existing grants to be 
used for new construction, along with the current designation of 
renovating existing facilities. It specifies that the grant recipient 
shall be a nonprofit organization with the sole purpose of assisting 
homeless veterans. The legislation also allows the recipient (sponsor) 
to receive additional funding from public and nonprofit sources. This 
is beneficial for a housing development since many existing government 
programs for housing prohibit additional outside sources.
    The legislation reauthorizes appropriations for financial 
assistance for supportive services for very low-income veterans' 
families in permanent housing at the amount of $100 million for FY 
2012. This authorized funding will help provide the needed services for 
the 1.5 million veteran families that live at or below the Federal 
poverty level including the estimated 634,000 veteran families that 
live at, or below 50 percent of the Federal poverty level. PVA supports 
this effort to enhance Secretary Shinseki's goal of eradicating 
homelessness among America's veterans.

    This concludes PVA's statement for the record. We would be happy to 
answer any questions for the record that the Committee may have.
                                 ______
                                 
  Prepared Statement of Tom Tarantino, Senior Legislative Associate, 
                Iraq and Afghanistan Veterans of America

    Madam Chairwoman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's two hundred 
thousand members and supporters, thank you for allowing me to submit 
testimony sharing our members' views of on these important issues.
    My name is Tom Tarantino and I am the Senior Legislative Associate 
with IAVA. I proudly served 10 years in the Army beginning my career as 
an enlisted Reservist, and leaving service as an Active Duty Cavalry 
Officer. Throughout these ten years, my single most important duty was 
to take care of other soldiers. In the military they teach us to have 
each other's backs. And although my uniform is now a suit and tie, I am 
proud to work with this Congress to continue to have the backs of 
America's servicemembers and veterans.
    IAVA would like to thank this Committee for its work on several 
critical issues facing new veterans this year, and would like to offer 
our comments on several of the bills that the Committee is currently 
considering.


------------------------------------------------------------------------
Bill #            Title/Description                Sponsor      Position
------------------------------------------------------------------------
 S.277 Caring for Camp Lejeune Veteran Act   Burr             Support
        of 2011
 S.411 Helping Our Homeless Veterans Act of  Klobuchar        Support
        2011
 S.423 Protections for Fully Developed       Burr             Support
        Claims
 S.486 Protecting Servicemembers from        Whitehouse       Support
        Mortgage Abuses Act of 2011
 S.490 Increased Dependant Eligibility for   Akaka            Support
        CHAMPVA
 S.491 Honor America's Guard-Reserve         Pryor            Support
        Retirees act of 2011
 S.536 Enhanced Eligibility for Survivor     Webb             Support
        Education Benefits
 S.696 Improved Health Care Payments to      Tester           Support
        Veterans
 S.745 Post-9/11 GI Bill Grandfather Clause  Schumer          Support
 S.769 Total Access for Service Dogs on VA   Harkin           Support
        Property
 S.780 Veterans Pension Protection Act of    Tester           Support
        2011
 S.815 Sanctity of Eternal Rest for          Snowe            Support
        Veterans Act of 2011
 S.874 Benefits and Protections for          Akaka            Support
        Surviving Spouses
 S.894 Veterans Cost-of-Living Adjustment    Murray           Support
        Act of 2011
 S.910 Veterans Health Equity Act of 2011    Shaheen          Support
 S.914 Waiver for Co-pays on Telehealth and  Begich           Support
        Telemedicine
 S.935 Veteran's Outreach Enhancement Act    Brown            Support
        of 2011
 S.951 Hiring Heroes Act of 2011             Murray           Support
 S.957 Veterans TBI Rehabilitative Services  Boozman          Support
        Improvement Act of 2011
S.1017 Disabled Veteran Caregiver Housing    Sanders          Support
        Assistance Act of 2011
S.1060 Honoring All Veterans Act of 2011     Blumenthal       Support
S.1104 Veteran Transition Assistance         Casey            Support
        Program Audit Act of 2011
S.1123 Assistance to Veterans Affected by    Brown            Support
        Natural Disasters Act
------------------------------------------------------------------------

          S. 277--CARING FOR CAMP LEJEUNE VETERANS ACT OF 2011

    IAVA supports S. 277. This bill provides hospital care and medical 
treatment for all veterans, spouses or dependents that were stationed 
at Camp Lejeune and exposed to volatile organic compounds, and then 
developed related illnesses. All veterans and military families deserve 
safe living conditions--especially if stationed at a military 
installation. We believe this bill is a significant step in regaining 
the trust of the men and women of the USMC and USN whose family, or who 
they themselves, now face ravaging illnesses, and subsequent medical 
fees.

               S. 411--HELPING OUR HOMELESS VETERANS ACT

    IAVA supports S. 411, which authorizes the Secretary of Veterans 
Affairs to partner with state and local governments, tribal 
organizations, and non-profit organizations to in an effort to address 
the housing crisis affecting veterans. S. 411 will broaden the net of 
organizations that can provide case management, supported housing 
services, and outreach to veterans. This is particularly important in 
rural areas and tribal lands where the VA does not have facilities or 
staff in close proximity to veterans who need housing assistance. It is 
equally important in urban areas where veterans may already be homeless 
and outreach by local governments and nonprofits already in touch with 
those veterans may be more prompt.

             S. 423--PROTECTIONS FOR FULLY DEVELOPED CLAIMS

    IAVA supports S. 423, which would protect the filing date for 
disability claims if the veteran chooses to file a fully developed 
claim. IAVA applauds the VA for implementing its Fully Developed Claims 
program, but we are concerned that a veteran who (rather than leaving 
it to the VA) chooses to develop their own claim may loose out on 
benefits during the development process. This bill helps address this 
problem by allowing veterans to protect their effective date while 
gathering the evidence they need to develop their claim.

   S. 486--PROTECTING SERVICEMEMBERS FROM MORTGAGE ABUSES ACT OF 2011

    IAVA supports S. 486. Veterans have been particularly vulnerable in 
our current housing crisis, often because they are deployed and unable 
to assert their rights. Less than one month ago, a $22 million 
settlement was reached between 180 veterans a Bank of America 
subsidiary and Saxon Mortgage Services for violating the Servicemembers 
Civil Relief Act by foreclosing on the servicemembers' homes. IAVA 
believes that our servicemen and women, especially those who are 
deployed, need the strongest possible protection.

          S. 490--INCREASED DEPENDENT ELIGIBILITY FOR CHAMPVA

    IAVA supports S. 423. This bill ensures veterans can help provide 
for the medical needs of their loved ones by extending the eligible age 
of coverage for dependent children from 23 to 26 under CHAMPVA, 
regardless of the child's marital status. This bill brings CHAMPVA in 
line with recent changes to TRICARE and civilian health reform.

       S. 491--HONOR AMERICA'S GUARD-RESERVE RETIREES ACT OF 2011

    IAVA supports S. 491, which grants full veteran status to members 
of the reserve components who have 20 or more years of service and do 
not otherwise qualify under current laws. This legislation expands the 
definition of the word veteran to recognize servicemembers who served 
their country honorably for over two decades in the Guard and Reserve 
but were never called to active duty. IAVA believes when someone takes 
the oath to defend this country, wears the uniform and serves that oath 
faithfully they have earned the right to be considered a full veteran 
and the recognition that goes with it.

      S. 536--ENHANCED ELIGIBILITY FOR SURVIVOR EDUCATION BENEFITS

    IAVA supports S. 536 that would remove the 48-month limit on 
educational benefits for survivors. Our country owes a debt to the 
fallen that can never be repaid. We should provide their survivors with 
the best opportunity for a first class future. Enhancing educational 
benefits for survivors is the least we can do to appreciate the supreme 
sacrifices that military families have made.

            S. 696--IMPROVED HEALTHCARE PAYMENTS TO VETERANS

    IAVA supports S. 696. America's veterans deserve the best possible 
healthcare and the easiest possible access to that healthcare. We 
should strive to make this goal a reality and S. 696 does this by 
expanding the number of treatment facilities for which veterans may be 
qualified to receive reimbursement for treatment and travel. IAVA 
strongly supports any efforts to ensure benefits are fair and 
accessible.

             S. 745--POST-9/11 G.I. BILL GRANDFATHER CLAUSE

    Although improvements to the Post-9/11 G.I. Bill expanded benefits 
for over 400,000 veterans, it also stands to affect thousands of 
veterans in 7 specific states that are currently using their New G.I. 
Bill benefits at private schools. IAVA strongly supports the S. 745 
Post-9/11 G.I. Bill ``Grandfather Clause'' because it would ensure that 
these specific beneficiaries, who enrolled in school on or before 
January 4, 2011, would be ``grandfathered'' into the original rates 
established for the Post-9/11 G.I. Bill. However, IAVA also believes 
that the deadline for inclusion should be changed from January 4, 2011 
to April 1, 2011 in order to include all beneficiaries who already 
registered for school up to the date of enactment of this act.

          S. 769--TOTAL ACCESS FOR SERVICE DOGS ON VA PROPERTY

    IAVA supports S. 769, ensuring that service dogs have access to all 
VA treatment facilities. Service dogs are increasingly recognized as an 
invaluable part of treatment and rehabilitation for veterans. Service 
dogs are used for rehabilitation and treatment of a broad spectrum of 
conditions ranging from mental health to physical issues. These include 
Traumatic Brain Injury (TBI) and Post Traumatic Stress Disorder (PTSD). 
IAVA is committed to fighting to provide access to health care for all 
veterans and strongly endorses the passage of S. 769.

            S. 780--VETERANS PENSION PROTECTION ACT OF 2011

    IAVA supports S. 780 which would expand the amount of 
reimbursements that veterans and their dependents are forced to claim 
as income relating to eligibility for pension claims. The VA should not 
punish law-abiding veterans that have had the misfortune of suffering a 
severe physical trauma or emotional loss, but have had the good fortune 
of being financially compensated, by having their earned benefits 
denied.

       S. 815--SANCTITY OF ETERNAL REST FOR VETERANS ACT OF 2011

    IAVA strongly supports passage of S. 815. IAVA is committed to 
advocating for the rights of veterans and there is no more important 
right than to be laid to rest in peace. After making the ultimate 
sacrifice in defense of the rights of others, veterans and their 
families should be allowed the right to peacefully say goodbye.

         S. 874--BENEFITS AND PROTECTIONS FOR SURVIVING SPOUSES

    IAVA supports S. 874. This bill ensures that the VA does not recoup 
any pension or benefit checks issued in the month of the veteran's 
death. Additionally, this bill allows surviving spouses to be awarded 
any moneys from a pending claim that was submitted by the veteran 
before their death, but not approved until after their death. If the 
money was due to the veteran, IAVA believes that a surviving spouse is 
rightly entitled to receive it in the wake of the death of their 
veteran.
    IAVA approves of S. 874's modification of home occupancy 
requirements for veterans who secure home loans through the VA. In a 
time where Armed Forces members have to prepare for the possibility of 
several and frequent deployments, it is not feasible to insist that a 
veteran constantly occupies a home in order to secure the low-rate loan 
they are entitled to. This new provision will allow occupancy 
requirements to be met by a veteran's spouse, dependents, or the legal 
guardian of the veteran's dependent child.
    Last, IAVA recognizes the importance of S. 874 addressing veteran 
mortgage security. By ``authorizing the VA to guarantee a veteran's 
housing loan regardless of whether such loan is subordinate to a lien 
created in favor of a public entity that provides assistance in 
response to a major disaster,'' legislators are ensuring that the 
veteran foreclosure rates do not continue to rise.

         S. 894--VETERANS COST OF LIVING ADJUSTMENT ACT OF 2011

    Veterans receiving benefits from the VA have not seen a Cost of 
Living (COLA) Increase in benefits since 2008. Each year, Congress must 
reauthorize these increases, something it has failed to do for the last 
2 years. This bill will mandate increases to Veterans Benefits that are 
tied to the COLA index.

               S. 910--VETERANS HEALTH EQUITY ACT OF 2011

    IAVA supports S. 910 ensuring that each of the 48 contiguous states 
has a VA facility, or, more importantly, that every eligible veteran 
who does not have access to a VA facility be given comparable care to 
that received at a VA facility. By passing the Veterans Health Equity 
Act of 2011, we can help veterans in rural or underserved areas get the 
medical care they need and deserve.

              S. 914--WAIVERS OF CO-PAYS FOR TELEMEDICINE

    IAVA supports this bill, which would prohibit the VA from 
collecting copayments for telehealth and telemedicine visits. Since it 
is impossible for the VA to place brick and mortar buildings near every 
veteran in the United States, veterans who live in rural areas should 
not be charged if a medical professional could not see them in person.

           S. 935--VETERANS OUTREACH ENHANCEMENT ACT OF 2011

    IAVA strongly supports S. 935 as it works to develop a five-year 
program to improve knowledge of benefits and services available to 
veterans and their families, especially in rural areas. Over half of 
all Iraq and Afghanistan veterans have not reached out tot the VA. Many 
veterans either do not understand or know of the benefits and services 
that they are entitled to. By reaching out to different Federal and 
state agencies, the VA can also get help developing additional programs 
that might ease this dissemination of information.

                   S. 951--HIRING HEROES ACT OF 2011

    This critical legislation will combat rising unemployment among our 
Nation's veterans by requiring transition assistance for all 
servicemembers returning home, modifying Federal hiring practices to 
encourage the hiring of separating servicemembers, studying the gaps 
and overlaps between military and civilian jobs, and create new 
programs aimed at improving the transition from servicemember to 
civilian.

    S. 957--VETERANS TRAUMATIC BRAIN INJURY REHABILITATIVE SERVICES 
                        IMPROVEMENT ACT OF 2011

    IAVA strongly supports S. 957, creating a better and more 
individualized program of care for veterans with TBI. This bill seeks 
to change care for TBI from simple medical treatment to long-term, 
sustainable rehabilitative services. IAVA feels this is a tremendous 
step in improving help to those veterans who have suffered invisible 
injuries in their service to this country.

   S. 1017--DISABLED VETERAN CAREGIVER HOUSING ASSISTANCE ACT OF 2011

    IAVA supports S. 1017. For the thousands of veterans returning home 
from Iraq and Afghanistan with severe injuries, the recovery process is 
often long and arduous. Many of them require constant care from a 
family caregiver for years after they leave service. During this time, 
they frequently reside in a home that is not their own and not a 
permanent residence where they may live on their own after recovery. 
Adaptations, like ramps and elevators, must often be made to their 
permanent home and that of their caregiver while they are recovering 
from their injuries. By modestly increasing allowances for disabled 
vets living with or in housing provided by a family member, S. 1017 
works to ease the burden on disabled veterans and their families.

               S. 1060--HONORING ALL VETERANS ACT OF 2011

    IAVA supports S. 1060. This bill recognizes and seeks to remedy 
problems veterans face in regards to employment, housing, and mental 
health to include mandating TAP, increasing SCRA protections for 
homeowners, improved mental health screening.

    S. 1104--VETERAN TRANSITION ASSISTANCE PROGRAM AUDIT ACT OF 2011

    IAVA strongly supports S. 1104 as a means of improving the 
effectiveness of the Transition Assistance Program (TAP). Often, an 
outside perspective is required when addressing flaws in current 
systems and processes. By requiring the Secretary of Labor to contract 
an independent private organization to regularly audit TAP, we gain an 
unbiased opinion of the methods currently used to teach military 
personnel the best methods for making themselves viable in today's 
workforce. Recommendations for improvement can make the transition from 
military to civilian life smoother and faster for our veterans, and the 
family members who depend on them.

   S. 1123--ASSISTANCE TO VETERANS AFFECTED BY NATURAL DISASTERS ACT

    IAVA supports S. 1123 ensuring that disabled veterans affected by 
natural disasters are not excessively financially burdened. This bill 
allows disabled veterans to be made whole in the event of a disaster by 
meeting the cost of replacement not meet by private insurance and 
allows disabled veterans to continue to lead productive lives.


                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
